<html>
<title> - OVERSIGHT OF RECENT EPA DECISIONS</title>
<body><pre>[Senate Hearing 110-985]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-985
 
                   OVERSIGHT OF RECENT EPA DECISIONS 

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 6, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         LARRY E. CRAIG, Idaho
BERNARD SANDERS, Vermont             LAMAR ALEXANDER, Tennessee
AMY KLOBUCHAR, Minnesota             CRAIG THOMAS, Wyoming
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 6, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5
Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey     8
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     9
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland    12
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..    13
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    13
Craig, Hon. Larry E., U.S. Senator from the State of Idaho.......    14
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....    15
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    16
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................    18
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont, 
  prepared statement.............................................   261

                               WITNESSES

Johnson, Stephen L., Administrator, U.S. Environmental Protection 
  Agency.........................................................    19
    Prepared statement...........................................    21
    Charts:
        EPA Web site Statistics, December 2006, Number of Hits...    28
        EPA Web site Statistics, December 2006, Page Requests....    29
        EPA Library Services for EPA Employees and the Public....    30
        TRI Total Disposal or Other Releases, 1988-2004..........    31
        NAAQS Deadlines..........................................    32
        NAAQS Documentation......................................    33
    Responses to additional questions from:
        Senator Boxer............................................34, 36
        Senator Lautenberg.......................................    36
        Senator Whitehouse.......................................    45
        Senator Inhofe...........................................    49
Stephenson, John B., Director, Natural Resources and Environment, 
  U.S. Government Accountability.................................    72
    Prepared statement...........................................    74
    Responses to additional questions from Senator Inhofe........    94
Sullivan, Thomas M., Chief Counsel for Advocacy, U.S. Small 
  Business Administration........................................    97
    Prepared statement...........................................    98
    Article, The Washington Times, February 1, 2007..............   103
    Responses to additional questions from Senator Inhofe........   105
    Report, Small Business Administration, Office of Advocacy; 
      Review and Analysis of the Effect of EPA's Toxic Release 
      Inventory (TRI) Phase II Burden Reduction Proposal on TRI 
      Data Uses, by E.H. Pechan & Associates, Durham, NC, June 
      2007......................................................114-142
Balmes, John R., M.D., on Behalf of the American Lung Association 
  and the American Thoracic Society..............................   145
    Prepared statement...........................................   147
    Response to an additional question from:
        Senator Boxer............................................   154
        Senator Inhofe...........................................   154
Solomon, Gina M., M.D., M.P.H., senior scientist, Natural 
  Resources Defense Council......................................   154
    Prepared statement...........................................   156
    Memorandum, Bandrowski, Michael S., Chief, Air Toxics, 
      Radiation and Indoor Air Office, Region IX, December 13, 
      2005 and March 10, 2006...................................170-190
    Responses to additional questions from Senator Inhofe........   191
Burger, Leslie, president, American Library Association; 
  director, Princeton Public Library.............................   194
    Prepared statement...........................................   196
    Responses to additional questions from:
        Senator Boxer............................................   200
        Senator Inhofe...........................................   201
    Letters from:
        Office of Enforcement and Compliance Assurance (OECA), 
          August 23, 2006........................................   207
        PEER, Presidents of Local Unions, June 29, 2006..........   212
        ASEH, Resolution.........................................   216
        Society of Environmental Journalists (SEJ), August 8, 
          2006...................................................   222
Connery, Robert T., Holland and Hart, Denver, CO.................   224
    Prepared statement...........................................   225
Klinefelter, Nancy, president, Baltimore Glassware Decorators....   256
    Prepared statement...........................................   258


                   OVERSIGHT OF RECENT EPA DECISIONS

                              ----------                              


                       TUESDAY, FEBRUARY 6, 2007


                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m. 
in room 406, Dirksen Senate Office Building, the Hon. Barbara 
Boxer (chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Isakson, 
Cardin, Craig, Klobuchar, Vitter, Carper, Bond, Whitehouse, 
Alexander.

OPENING STATEMENT OF HON. BARBARA BOXER, U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order.
    I want to welcome everybody today. We have three panels. 
The first is Stephen Johnson, Administrator of the EPA. The 
second is the Government Accountability Office and the U.S. 
Small Business Administration. The third panel is the American 
Lung Association and American Thoracic Society, the Natural 
Resources Defense Council, the American Library Association, 
Holland and Hart, and Baltimore Glassware Decorators.
    So we have a lot to get through. We are going to try to 
move through this hearing in 2 hours, 2\1/2\ hours.
    We are going to have opening statements, 5 minutes each and 
then proceed to hear from the Administrator. At that point we 
will ask him some questions. Then we will move on.
    So I would like my clock to start now, if I could.
    Late in 2006, EPA rolled back several health protections 
and reduced public information about pollution. This was a 
series of unwelcome holiday gifts to the American people. These 
EPA rollbacks have common themes: they benefit polluters, 
bottom line, and they hurt our communities by allowing more 
pollution and reducing the information about pollution 
available to the public.
    Today is the first in a series of hearings. EPA has gone 
too long without meaningful oversight, in my opinion. I want to 
send a clear signal to EPA and to this Administration that we 
are watching, and the American public is watching and no longer 
will EPA rollbacks quietly escape scrutiny. The first of these 
rollbacks was the weakening of the community's right to know.
    Toxic Release Inventory. I am extremely concerned about the 
Agency's decision in December to weaken the community right to 
know rules for toxic chemicals used and released in communities 
across the Country. EPA's weakening of these rules will 
quadruple, quadruple, the amount of toxic pollutants that 
companies can release before they have to tell the public, and 
will reduce the amount of public information on long-lasting 
toxins that can buildup in the body.
    The chart I wanted to show you here, EPA went forward with 
these changes despite objections from 23 State agencies that 
are listed here, and attorneys general, and despite concerns 
raised by the Agency's own science advisory board. Oklahoma's 
Department of Environmental Quality is just one of the agencies 
that objected. You can see it is just a host of States.
    EPA's libraries, closing them. Last year, EPA closed down 
or cut access to libraries across the Nation, including in my 
own State of California. EPA closed or reduced library 
operations in at least 7 EPA regions covering 31 States. Since 
1970, EPA has gathered a vast treasure trove of public health 
and environmental information. Closure of the libraries hurts 
America's right to know about important information regarding 
the health and environmental hazards of pollution in their 
communities. The American Library Association and EPA 
scientists and staff opposed these actions. But despite letters 
from 18 members of the Senate and a public outcry, the fate of 
EPA's libraries remains uncertain.
    Next, eliminating perchlorate testing. In December, EPA 
issued a rule which will result in no further testing of tap 
water for the toxin perchlorate. This toxin has been found in 
millions of Americans' drinking water systems. GAO says it 
pollutes 35 States. Perchlorate interferes with the thyroid. It 
is especially risky to pregnant women and newborns. Yet, EPA 
has still not issued a health standard for perchlorate in tap 
water.
    EPA's original 1999 rule ordered testing for perchlorate 
and in 2005, EPA proposed to extend that requirement. But 
industry objected, and industry was heard. The new rule 
eliminated the perchlorate testing requirement. I am deeply 
distressed that not only has EPA failed to set a standard for 
perchlorate, but Americans will lack up to date information on 
whether their tap water is contaminated with this toxin.
    Next, cutting scientists out of the process of setting air 
quality standards. In December, EPA also backtracked on its 
decades-long policy of having key scientists work closely with 
EPA experts to help develop a range of recommended safe levels 
for clean air. Now, consistent with the recommendations of the 
American Petroleum Institute, EPA has taken a dangerous turn. 
Instead of basing health standards on the best science, they 
will now inject politics into the entire decision. Under EPA's 
plan, key scientists will no longer work directly with top 
Government officials to help set health standards. EPA's new 
approach is bad for America's families, because it would likely 
lead to more politics rather than science-based standards, 
making weaker air standards and more early deaths and illnesses 
more likely.
    Then there is the lead air quality standard. In December, 
EPA also announced it is considering whether to revoke the 
National Ambient Air Quality Standard for lead. The lead-acid 
battery industry had urged this step. If the standard is 
revoked, there is no assurance that lead will be monitored in 
air across the Country. Polluters could emit dangerous level of 
lead without being detected.
    Yet if EPA were to use the new data showing that it is more 
toxic than previously known, the current lead standard would 
likely be substantially more stringent. That could force some 
poorly regulated lead polluters to use better controls.
    Lead is a potent brain and nerve toxin that hurts children 
and the elderly the most. What does it say about our values if 
we endanger the most vulnerable Americans?
    Increasing toxic air pollution. In December, EPA proposed 
to weaken its rules for controls on toxic air pollution. These 
rules apply to thousands of sources, including refineries, 
chemical plants and steel mills. EPA admits in its proposed 
rule that the rule could lead to an increase in toxic air 
emissions. The Agency's own regional offices sent a memo to 
headquarters saying the rule change could be ``detrimental to 
the environment and undermine the intent of the Clean Air 
Act.'' Toxic air pollutants include some of the most dangerous 
cancer-causing and neurotoxic chemicals that pose a serious 
threat to America's families.
    This is the conclusion I reach: the pattern of these year-
end actions is striking. The public interest is sacrificed, and 
environmental protection compromised. Who gains from these 
rollbacks? Just look at who asked for them, like big oil and 
the battery industry. EPA's actions and proposed actions make 
it clear who EPA is protecting, and sadly, it is not the 
American people. The purpose of this oversight hearing is to 
remind EPA, please understand, you are only accountable to the 
American people, not the special interests.
    Thank you.
    [The prepared statement of Senator Boxer follows:]
        Statement of Hon. Barbara Boxer, U.S. Senator from the 
                          State of California
    Late in 2006, EPA rolled back several health protections and 
reduced public information about pollution. This was a series of 
unwelcome holiday gifts to the American people.
    These EPA rollbacks have common themes: they benefit polluters' 
bottom line, and they hurt our communities by allowing more pollution 
and reducing the information about pollution available to the public.
    Today is the first in a series of hearings. EPA has gone too long 
without meaningful oversight. I want to send a clear signal to EPA and 
to this Administration. We are watching. The American public is 
watching. No longer will EPA rollbacks quietly escape scrutiny.
   weakening the community's right to know (toxic release inventory)
    I am extremely concerned about the Agency's decision in December to 
weaken the Community Right to Know rules for toxic chemicals used and 
released in communities across the country. EPA's weakening of these 
rules will quadruple the amount of toxic pollutants that companies can 
release before they have to tell the public, and will reduce the amount 
of public information on long-lasting toxins that can build up in the 
body, like lead.
    EPA went forward with these changes despite objections from 23 
State agencies and attorneys general, and despite concerns raised by 
the Agency's own science advisory board. Oklahoma's Department of 
Environmental Quality is just one of the agencies that objected.
                         closing epa libraries
    Last year EPA closed down or cut access to libraries across the 
Nation, including in my State of California. EPA closed or reduced 
library operations in at least 7 EPA regions covering 31 States.
    Since 1970, EPA has gathered a vast treasure trove of public health 
and environmental information. Closure of the libraries hurts 
Americans' right to know about important information regarding the 
health and environmental hazards of pollution in their communities. The 
American Library Association and EPA scientists and staff oppose these 
actions. Despite letters from 18 members of the Senate and a public 
outcry, the fate of EPA's libraries remains uncertain.
                    eliminating perchlorate testing
    In December, EPA issued a rule which will result in no further 
testing of tap water for the toxin perchlorate. This toxin has been 
found in millions of Americans' drinking water. GAO says it pollutes 35 
States. Perchlorate interferes with the thyroid and is especially risky 
to pregnant women and newborns. Yet EPA has still not issued a health 
standard for perchlorate in tap water.
    EPA's original 1999 rule ordered testing for perchlorate, and in 
2005 EPA proposed to extend that requirement. But industry objected, 
and the new rule eliminated the perchlorate testing requirement.
    I am deeply distressed that not only has EPA failed to set a 
standard for perchlorate, but Americans will lack up-to-date 
information on whether their tap water is contaminated with this toxin.
 cutting scientists out of the process of setting air quality standards
    In December EPA also backtracked on its decades-long policy of 
having key scientists work closely with EPA experts to help develop a 
range of recommended safe levels for clean air standards. Now, 
consistent with the recommendations of the American Petroleum 
Institute, EPA has taken a dangerous turn. Instead of basing health 
standards on the best science, they will now inject politics into the 
entire decision. Under EPA's plan, key scientists will no longer work 
directly with top government officials to help set health standards. 
EPA's new approach is bad for American families, because it will likely 
lead to more politics rather than science-based standards, making 
weaker air standards and more early deaths and illnesses more likely.
                     the lead air quality standard
    In December, EPA also announced that it is considering whether to 
revoke the National Ambient Air Quality Standard (NAAQS) for lead. The 
lead acid battery industry had urged this step.
    If the standard is revoked, there is no assurance that lead will be 
monitored in air across the country. Polluters could emit dangerous 
levels of lead without being detected. Yet, if EPA were to use the new 
data showing lead is more toxic than previously known, the current lead 
standard would likely be substantially more stringent. That could force 
some poorly regulated lead polluters to use better controls.
    Lead is a potent brain and nerve toxin that hurts children and the 
elderly the most. What does it say about our values if we endanger the 
most vulnerable Americans?
                     increasing toxic air pollution
    In December, EPA proposed to weaken its rules for controls on toxic 
air pollution. These rules apply to thousands of sources, including 
refineries, chemical plants and steel mills.
    EPA admits in its proposed rule that the rule could lead to an 
increase in toxic air emissions. The Agency's own regional offices sent 
a memo to headquarters saying the rule change could be ``detrimental to 
the environment and undermine the intent'' of the Clean Air Act.
    Toxic air pollutants include some of the most dangerous cancer-
causing and neurotoxic chemicals that pose a serious health threat to 
American families, especially pregnant women, infants and children. 
Increased levels of toxic air pollutants will only increase these 
risks.
                               conclusion
    The pattern of these year-end actions is striking--the public 
interest is sacrificed and environmental protection compromised. Who 
gains from these rollbacks? Just look at who asked for them, like Big 
Oil and the battery industry. EPA's actions and proposed actions make 
it clear who EPA is protecting. The purpose of these oversight hearings 
is to remind EPA who they are truly accountable to--the American 
people.

    Senator Boxer. Senator Inhofe.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    Before I start, let me just apologize, I will have to be 
going out and coming back during the course of this. We have a 
serious problem with other committee hearings taking place at 
the same time. I know that you have tried to work with us and 
some of the other committees are not quite as cooperative. So I 
will be in and out during this period of time.
    In the early days of the Clean Water Act, the NAAQS process 
as a whole probably worked because it required the collection 
of all health science related to the relevant pollution issues. 
But increasingly, the sheer volume of scientific data, often 
irrelevant data, involved has slowed the gears of the EPA 
regulatory process. As a result, the NAAQS review process is no 
longer managed by the Agency but by the courts.
    To meet statutorily required deadlines, the EPA needed a 
new approach, and I think the reforms that have been announced 
by the EPA are going to bring us in that direction.
    Lead. The NAAQS staff paper on lead is an example of a 
document written by mid-level EPA staff, without input from 
high-ranking officials. It is only one step--and a sometimes 
unnecessary one--of the many steps in the NAAQS review process. 
I don't yet have a full enough understanding of this issue to 
have an informed opinion as to what direction EPA should take 
with its NAAQS standard for lead. The fact that we are 
discussing this today, however, is yet another example of why 
it is important that EPA reform the NAAQS process. I think it 
is important to point out that what we are talking about now 
this first step. This first step is a report, a preliminary 
report. It is my understanding it has not been reviewed by the 
Administration.
    The Once-In, Always-In. Perhaps no rule better exemplifies 
the inflexible command-and-control mechanism than the ``Once-
In, Always-in'' rule. The simple fact is, we have much 
anecdotal evidence that suggests many plants would reduce their 
emissions of air pollution to avoid the expensive paperwork and 
other compliance costs of being treated as a major source. I 
commend Administrator Johnson for publishing a proposal that 
will collect vital information to examine whether indeed a 
little flexibility here in Washington can lead to large 
pollution reductions in the rest of the Country.
    Perchlorate and UCMR. Another subject we are going to 
discuss today is EPA's decision to not list perchlorate on its 
second Unregulated Contaminant Monitoring Report, or UCMR2 and, 
more broadly, EPA's process for determining whether perchlorate 
should be regulated under the Safe Drinking Water Act through 
the UCMR1. EPA now has data related to perchlorate occurrence 
in drinking water. Now the Agency must gather better 
information on the relative source contribution from other 
sources, primarily food. Perchlorate is not only an industrial 
product vital to our Nation's defense, industry and space 
exploration, but also a naturally occurring substance. It is 
critical that EPA fully understand how much exposure comes from 
drinking water and how much comes from natural and other 
sources, before we set out creating an unfunded mandate on our 
local drinking water systems.
    TRI. I would like to applaud the Agency's recent efforts to 
reduce the compliance burden associated with the Toxic Release 
Inventory, while at the same time giving reporters, and here we 
are talking about people who are reporting these releases, 
incentives to decrease their releases of toxins. EPA's revised 
TRI rule allows for certain reporters to use the shorter TRI 
Form A instead of the longer Form R. I appreciate the careful 
balance EPA has struck between the burden reduction efforts and 
the Agency's commitment to providing information to the public.
    I am very pleased that the Small Business Administration is 
here today, as well as a bona fide small business 
representative from Baltimore, MD, Ms. Klinefelter. I look 
forward to hearing from both of them about the burdens placed 
on small business by the TRI program and how EPA's Form changes 
will ease those burdens.
    Libraries. Nearly 4 years ago, the EPA began planning to 
modernize its library system, which has resulted in EPA 
consolidating its resources, making its information more 
accessible than ever before online, and saving $2 million in 
the process. EPA has maintained 26 libraries located in 
Washington and at its regional offices, but the number of 
people walking into any of these libraries has steadily 
decreased. Let me provide some examples. EPA reports that at 
the Region 6 library in Dallas, three people walked in per 
month over the past 3 years. At the Region 7 library in Denver, 
20 people walked in during a 7-month period just last year. At 
the Region 5 library in Chicago, most people who walked in were 
simply looking for directions. At the library here in 
Washington, EPA's own employee use has dropped 71 percent over 
the past 2 years. It's no wonder some of the libraries are 
closing.
    However, all information held at these closed libraries and 
the other remaining libraries remains available to EPA 
employees and the public online. Through EPA's Online Library 
System, anyone can access information in EPA's library 
collections and either view documents online or request 
documents through a library loan with EPA from nearly 42,000 
libraries in the United States and around the world. In other 
words, you can go to the Sacramento library and get the same 
thing as if you were going to one of the libraries that 
allegedly is being closed.
    Not surprisingly, these changes have been met with some 
hysterical criticism. One of our witnesses today has written 
that EPA is now withholding ``life-saving information.'' The 
director of a public employees group has even gone so far to 
say that EPA's actions ``threaten to subtract from the sum 
total of human knowledge.'' I have discovered that these 
criticisms appear to be unfounded, and I am glad the 
Administrator is here to shed further light on that.
    I think there is, this is the information age. People are 
getting things, my grandkids are getting things online that I 
never dreamed possible in the whole library system. It has 
nothing to do with just this subject for today.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Thank you, Madam Chairman. I am glad to have the opportunity to 
speak about each of the six subjects we are addressing in today's 
hearing.
                              naaqs reform
    In the early days of the Clean Air Act, the NAAQS process as a 
whole probably worked because it required the collection of all health 
science related to the relevant pollution issues. But as the sheer 
volume of scientific information increased dramatically, what once 
worked became an unmanageable monstrosity of data--often irrelevant 
data--that slowed the gears of the EPA regulatory process.
    So now, as a result, the NAAQS review process is no longer managed 
by the Agency, but by the courts. To meet statutorily required 
deadlines, the EPA needed a new approach. I think the reforms EPA has 
announced are a major step in the right direction. Perhaps the single 
most important reform that EPA has come forward with is the focus of 
its scientific research efforts toward answering the most relevant 
questions that need to be answered to effectively review the NAAQS 
standards.
                               naaqs-lead
    The NAAQS staff paper on lead is an example of a document written 
by mid-level EPA staff, without input from high-ranking officials, that 
is only one step--and a sometimes unnecessary one--of the many steps in 
the NAAQS review process.
    In the past 35 years, we have taken 97 percent of the lead 
emissions out of the air in the United States one of the major 
environmental success stories in our Nation's history. While it is 
important to remember our successes, I believe we should focus our 
attention most directly on the major pollution problems still facing 
us. As I have not yet looked at the underlying science pertaining to 
this subject, I do not yet have a full enough understanding of the 
issue to have an informed opinion of what direction the EPA should take 
with its lead NAAQS program. However, the fact that we're discussing 
this today is yet another example of why it's important that EPA reform 
the NAAQS process.
                           once in, always in
    Perhaps no rule better exemplifies the inflexible command-and-
control mechanism than the ``Once-in, always-in'' rule. The simple fact 
is, we have much anecdotal evidence that suggests many plants would 
reduce their emissions of air pollution to avoid the expensive 
paperwork compliance costs of being treated as a major source. To my 
knowledge, anecdotal evidence does NOT exist that plants would increase 
their air pollution if they were instead treated as an area source. I 
commend Administrator Johnson for publishing a proposal that will 
collect vital information to examine whether indeed a little 
flexibility here in Washington can lead to large pollution reductions 
in the rest of the country.
                            perchlorate/ucmr
    Another subject we are going to discuss today is EPA's decision to 
not list perchlorate on its second Unregulated Contaminant Monitoring 
Report (UCMR2) and, more broadly, EPA's process for determining whether 
perchlorate should be regulated under the Safe Drinking Water Act. It 
should be noted that EPA did list perchlorate on its UCMR1. When this 
Committee created this process, it was designed to be a one-time 
occurrence to collect a discrete data set from which to judge the need 
for a drinking water standard. As stated in the Senate report to 
accompany the 1996 Safe Drinking Water Act amendments, ``The 
Administrator is to revise the list every 5 years removing the 
contaminants for which sufficient information has been collected to 
satisfy future regulatory needs.'' As EPA noted in the final UCMR2 
rule, ``The data collected [from UCMR1] represents a statistically 
valid set of high quality data that will inform EPA on the occurrence 
and potential exposure to perchlorate from public drinking water 
supplies.''
    Now that EPA has data related to perchlorate's occurrence in 
drinking water, the Agency must gather better information on the 
relative source contribution from other sources, primarily food. 
Research into this very important subject, how much perchlorate comes 
from what source, continues aggressively.
    Perchlorate is not only an industrial product vital to our national 
defense industry and space exploration, but also a naturally occurring 
substance. It has been found in places where there is absolutely no 
possible connection nexus to the Department of Defense or NASA. It has 
also been found in our Nation's food supply. So it is critical that EPA 
fully understand how much exposure comes from drinking water and how 
much comes from natural and other sources before we set out creating an 
unfunded mandate on our local drinking water systems requiring them to 
spend scarce water resources chasing after a chemical over which mother 
nature has significant control.
                                  tri
    I would like to applaud the Agency's recent efforts to reduce the 
compliance burden associated with the Toxic Release Inventory, while at 
the same time giving reporters incentives to decrease their releases of 
toxics. EPA's revised TRI rule allows for certain reporters to use the 
shorter TRI Form A instead of the longer Form R. I appreciate the 
careful balance EPA has struck between burden reduction efforts and the 
Agency's commitment to providing information to the public. I am very 
pleased that the Small Business Administration is here today, as well 
as a bona fide small business representative from Baltimore, Maryland--
Ms. Nancy Klinefelter. I look forward to hearing from both of them 
about the burdens placed on small business by the TRI program and how 
EPA's Form changes will ease those burdens.
                             epa libraries
    Nearly 4 years ago, the EPA began planning to modernize its library 
system, which has resulted in EPA consolidating its resources, making 
its information more accessible than ever before online, and saving $2 
million in the process. EPA has maintained 26 libraries located in 
Washington and at its regional offices, but the number of people 
walking into any of these libraries has steadily decreased. Let me 
provide some examples. EPA reports that at the Region 6 library in 
Dallas, three people walked in per month over the past 3 years. At the 
Region 7 library in Denver, 20 people walked in during a 7-month period 
just last year. At the Region 5 library in Chicago, most people who 
walked in were simply looking for directions. At the library here in 
Washington, EPA's own employee use has dropped 71 percent over the past 
2 years. It's no wonder these libraries were closed.
    However, all information held at these closed libraries and the 
other remaining libraries remains available to EPA employees and the 
public online. Through EPA's Online Library System, anyone can access 
information in EPA's library collections and either view documents 
online or request documents through a library loan with EPA from nearly 
42,000 libraries in the United States and around the world.
    Not surprisingly, these changes have been met with some hysterical 
criticism. One of our witnesses today has written that EPA is now 
withholding ``life-saving information.'' The director of a public 
employees group has even gone so far to say that EPA's actions 
``threaten to subtract from the sum total of human knowledge.'' I have 
discovered that these criticisms appear to be unfounded, and I am glad 
the Administrator is here to shed further light on EPA's library plans.
    Thank you, Madam Chairman, and I look forward to hearing from our 
witnesses this morning.

    Senator Inhofe. Madam Chairman, I may not be here to 
question the second panel, so I would like to submit several 
documents for the record. I have two letters DOD sent to GAO 
regarding its December 2005 report and study done by professors 
at Texas Tech. So I will be doing that.
    Could I ask one question, to see how many people have 
opening statements, so I can know whether to go down to Armed 
Services?
    Senator Boxer. Will colleagues raise your hand if you have 
an opening statement? One, two, three, four, five.
    Senator Inhofe. OK, I will go down and come back. Thank 
you.
    Senator Boxer. I am going to ask colleagues to try to keep 
it to 4 minutes. If you go over that, I will give you a little 
extra time, but we are trying to move forward.
    Senator Lautenberg, welcome.

 OPENING STATEMENT OF HON. FRANK LAUTENBERG, U.S. SENATOR FROM 
                    THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you very much, Madam Chairman. 
Thank you for putting the energy and the leadership in fighting 
for the health and well-being of Americans. It is a cause that 
looks like it is losing its present rules and we don't want 
that to happen. So I commend you for holding today's hearing on 
the environmental protections that the Bush administration has 
proposed to cut or already has cut and the effects of those 
decisions on public health.
    Over the last 6 years, this Administration has made 
decisions that harmed the public it swore to protect. By way of 
example, proposed to allow some facilities to increase the air 
toxins they can release, such as benzene and arsenic. It shuts 
EPA libraries, keeping scientific research from staff and 
citizens. It stopped monitoring drinking water for perchlorate, 
a toxin that has been found in the water of 35 States, 
including New Jersey.
    From air pollution to global warming, the Bush 
administration has shown too little concern for Americans' 
health, especially the health of children and too much care 
about the oil, chemical, coal and auto industries. Just this 
weekend, Chairman Boxer and I were at a Superfund site in New 
Jersey, working to get the program back on track. Today we can 
begin the task of putting the word protection back in the 
Environmental Protection Agency.
    In 1986, with knowledge of what took place in Bhopal, that 
disaster led me to work to create the EPA's public right to 
know program, which gives Americans information on toxic 
chemicals released or stored in their communities. Yet last 
December, EPA gutted this program. Examining the data over the 
last 6 years, the EPA's weakened rules would have the following 
impacts on my home State of New Jersey: information on the 
release and disposal of 700,000 pounds of cancer-causing 
chemicals will not be available to the public.
    Nearly a third of chemical facilities in the State will now 
be exempted from any reporting requirements. Now, 42 
communities in New Jersey would no longer have access to 
information on the release of chemicals into their 
neighborhoods. The GAO report presented here today says that, 
in reference to a poster that it has, Delaware, Georgia, 
Oklahoma, Tennessee, Vermont, West Virginia, could no longer 
have quantitative information for at least 20 percent of all of 
the reported chemicals in their States. The EPA has justified 
this gutting of the law as burden reduction, mind you, burden 
reduction for industries.
    But what about the burden of families and children? We 
cannot allow these changes to stand. That's why I plan to be 
introducing legislation that fully restores this important 
program. With my bill, I will return the public's right to know 
about toxics where they live. They deserve that information. 
Under Chairman Boxer's leadership, we will continue to conduct 
the type of oversight that EPA needs to help create those 
conditions and to prevent more rollbacks of laws that protect 
the American public.
    Once again, I thank you, Madam Chairman, for your 
leadership.
    Senator Boxer. Thank you so much, Senator, for staying 
within the time and for being very clear in your remarks.
    Senator Isakson.

OPENING STATEMENT OF HON. JOHNNY ISAKSON, U.S. SENATOR FROM THE 
                        STATE OF GEORGIA

    Senator Isakson. Thank you, Madam Chairman.
    I welcome the Administrator to the hearing today and thank 
him for the many cooperative things he has done with my office 
since I have been in Washington. I appreciate it very much.
    I want to for a minute address the ambient air quality 
standards, which as we know the Agency is required to set, and 
then on a 5-year basis, review and revise. For the last 15 
years, quite frankly, EPA has had some real problems with this, 
which has resulted, more often than not, in judges setting 
standards and setting deadlines, not scientists or the Agency.
    These delays are as a result of a combination of a number 
of things: the process of information gathering into a criteria 
document; the types and amounts of information that are 
available and examined has increased exponentially. The process 
has become so burdened that in practice, EPA staff and not the 
Clean Air Science Advisory Committee, a statutorily set part of 
the process, have prepared these reviews. CASAC's role has been 
to review and approve these EPA documents before they went to 
the Agency's appointee and the Administrator for final 
decisions. The result is that members of CASAC did not read all 
the materials that were presented to them, and instead, make 
individual judgments of what is and is not important.
    Recognizing how cumbersome the National Ambient Air Quality 
Standards review process has become, EPA has rightfully begin 
an internal review in December 2005 on how to streamline the 
process. After a year, in December 2006, it revised the process 
to make it more manageable and to ensure it meets its 5-year 
statutory deadlines. The four key changes in that process are 
as follows: planning, integrated science assessment, risk 
exposure assessment and ANPR, replaced the staff paper with an 
advanced notice of proposed rulemaking, containing more 
narrowly focused assessment. ANPR will reflect the Agency's 
views and present a range of policy options and accompanying 
rationales for the discussion.
    Even with these reforms, the CASAC will retain its advisory 
role in the National Ambient Air Quality Standard process on 
all four key elements. I believe EPA when they say that these 
improvements will help the Agency meet its goal of reviewing 
each ambient air quality standard on a 5-year scale, as 
required by the Clean Air Act, without compromising the 
scientific integrity of the process.
    I might add here, part of our problems in Northwest Georgia 
have been precisely because of the deals in establishing these 
standards on a timely basis. I would like to take a minute to 
address the concern of those who say the influence of CASAC is 
diminished under the new system. It is my understanding that 
CASAC has the opportunity to, but chose not to issue a formal 
response to the December 7 memo in which the new process was 
outlined. In fact, in response to a draft of the changes, the 
CASAC made a number of suggestions which were incorporated in 
the final memorandum.
    One of CASAC's suggestions, the convening of a science 
workshop at the outset of the process to better focus the 
review, addressed a major concern that the old process spent 
too much time compiling an encyclopedic review of literature 
which had little relevance to the policy questions that needed 
to be addressed. With respect to the concerns some have voiced 
with regard to the EPA taking comments from CASAC at the same 
time that it considers comments from the public, I would direct 
them to the comments of Dr. Rogene Henderson of the CASAC chair 
and the press on December 14, 2006, where Dr. Henderson said 
the following: ``Some of the members were concerned, but most 
are not, because it doesn't change CASAC's ability to comment 
on the system.''
    I commend EPA for streamlining this unwieldy process and 
look forward to hearing from our witnesses today. I yield back 
the balance of my time, Madam Chairman.
    [The prepared statement of Senator Isakson follows:]

   Statement of Hon. Johnny Isakson, U.S. Senator from the State of 
                                Georgia
    Thank you Madam Chairman, and Senator Inhofe. I'd like to begin by 
welcoming all our witnesses to the Committee today, but especially 
Steve Johnson. I have been impressed by his performance to date and, 
while we may not have always agreed, I have always found him responsive 
to the needs of my constituents when called upon by them.
    As we conduct this hearing today to provide congressional oversight 
recent EPA decisions, I would like to focus my opening remarks on 
reforms to the process for setting National Ambient Air Quality 
Standards (NAAQS). As we all know, the Clean Air Act requires EPA to 
set NAAQS for pollutants considered harmful to public health and the 
environment.
    The NAAQS are reviewed every 5 years and revised, if appropriate. 
By law, the NAAQS review results in rules that tighten, retain, or 
loosen the standards.
    The NAAQS process, however, has become unwieldy. The EPA for the 
past 15 years has had a poor track record of meeting its 5-year 
statutory deadline. This has resulted in most NAAQS deadlines being set 
by the courts. This process has repeated itself without regard to which 
party is in power at the time of the deadline.
    These delays are the result of a combination of a number of things. 
The process of information gathering into a Criteria Document--where 
all information is considered regardless of its relevancy in the 
decisionmaking process for evaluating and potentially changing the 
standard--is onerous. The types and amount of information that is 
available and examined has increased exponentially. The process became 
so burdensome that, in practice, EPA staff and not the Clean Air 
Science Advisory Committee (CASAC), a statutorily set part of the 
process, have prepared these reviews. CASAC's role has been to review 
and approve these EPA documents before they went to the Agency's 
appointees and the Administrator for final decisions.
    The result is that the members of the CASAC do not read all the 
materials presented to them and instead make individual judgments of 
what is and is not important. Recognizing how cumbersome the NAAQS 
review process has become, EPA rightfully began an Agency internal 
review in December 2005 on how to streamline the process. After a year, 
in December 2006, it revised the process to make it more manageable, 
and to ensure it meets its 5-year statutory deadlines.
    The four key changes to the process consist of the following:
    1. Planning: Create one integrated plan early in the process so 
that all participants may focus on policy-relevant issues.
    2. Integrated Science Assessment: Replace the voluminous Criteria 
Document with a more concise synthesis of the most policy-relevant 
science. This includes creating a state-of-the-art electronic databases 
to catalog new studies.
    3. Risk/Exposure Assessment: Create a more concise document to 
focus on key results and uncertainties.
    4. ANPR: Replace the Staff Paper with an Advance Notice of Proposed 
Rulemaking containing more narrowly focused assessment. ANPR will 
reflect Agency views and present a range of policy options and 
accompanying rationales for discussion.
    Even with these reforms, the CASAC will retain its advisory role in 
the NAAQS process on all four key elements. I believe EPA when they say 
that these improvements, will help the Agency meet the goal of 
reviewing each NAAQS on a 5-year cycle as required by the Clean Air 
Act, without compromising the scientific integrity of the process.
    I would like to take a minute to address the concerns of those who 
say the influence of the CASAC is diminished under the new system. It 
is my understanding that the CASAC had the opportunity to, but chose 
not to, issue a formal response to the December 7 memo in which the new 
process was outlined. In fact, in response to a draft of the changes 
the CASAC made a number of suggestions which were incorporated in the 
final memorandum.
    One of CASAC's suggestions, the convening of a science workshop at 
the outset of the process to better focus the review, addressed a major 
concern that the old process spent too much time compiling an 
encyclopedic review of the literature which had little relevance to the 
policy questions that needed to be addressed.
    With respect to the concerns some have voiced with regards to EPA 
taking comments from CASAC at the same time that it considers comments 
from the public, I would direct them to the comments of Dr. Rogene 
Henderson, the CASAC Chair, in the press on December 14, 2006. Dr. 
Henderson said the following: ``[S]ome of the members were concerned 
but most are not, because it doesn't change CASAC's ability to 
comment.''
    I commend EPA for streamlining this unwieldy process and look 
forward to hearing from our witnesses today. I yield back my time.

    Senator Boxer. Thank you very much, Senator, for your 
views. Senator Cardin.

 OPENING STATEMENT OF HON. BENJAMIN CARDIN, U.S. SENATOR FROM 
                     THE STATE OF MARYLAND

    Senator Cardin. Senator Boxer, thank you very much for 
convening this hearing. I welcome Administrator Johnson to our 
committee.
    I also want to acknowledge one of my constituents who is 
here, Nancy Klinefelter, the president of the Baltimore 
Glassware Decorators. I look forward to hearing from all of our 
witnesses.
    Madam Chair, generally speaking, people who run businesses 
don't like regulation. But if, according to Oliver Wendell 
Holmes, Jr., taxes are the price we pay for a civilization, 
then I would submit regulations are the cost of doing business 
in a civilization. We all struggle to try to protect human 
health and the environment in a way that is least burdensome to 
our industries.
    This hearing will concentrate on six changes that EPA has 
put into effect. I want to just comment on two that are 
particularly troublesome to me. Scientists and public health 
experts at the Centers for Disease Control and Prevention have 
determined that no level of lead in a child's blood can be 
considered safe. Yet EPA is considering revoking the ambient 
air quality standard for lead. In my own State of Maryland, 
this has been of particular concern. We are doing what we can 
on the Chesapeake Bay. We have hot spots in which lead levels 
are contributing to the concerns within the Bay.
    In our health issues with children, we have been very 
aggressive in our State, trying to deal with it from a legal 
and health point of view at the University of Maryland. Kennedy 
Kreiger Institute treats children that have high levels of 
lead. We have looked at the problems from lead paint, we have 
looked at the problems from lead in the air and drinking water. 
All that is important, but we need the Environmental Protection 
Agency working with us. The ambient levels are an important 
part of that effort. I am very concerned about revoking the 
ambient air quality standard for lead.
    On the community right to know, according to the testimony 
we will hear today from John Stephenson of GAO, the new EPA 
rules regarding toxic release inventory could allow nearly 
3,600 facilities to avoid reporting any quantitative 
information on the toxic chemicals they release into the air, 
water and land. In my own State of Maryland, we receive 
currently about 800 reports. This could reduce it by about 25 
percent, the number of reports we will receive in our State. 
That could have a very dramatic impact on our own efforts 
within the State of Maryland and our communities' right to 
know. I am concerned about those standards.
    So Madam Chair, I thank you for convening this hearing, 
because I think it will give us a chance to review all of the 
changes that have been implemented or suggested. We have a very 
important role on oversight. The standard that we must use is 
what is in the public health interest, which should always 
guide us in our judgment in oversight of the Agency.
    I will yield back the balance of my time.
    Senator Boxer. Thank you, Senator.
    Senator Alexander.

 OPENING STATEMENT OF HON. LAMAR ALEXANDER, U.S. SENATOR FROM 
                     THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Madam Chairman. I would only 
say two things. One is welcome, Administrator Johnson. I am 
here to hear your testimony and that of the witnesses.
    Second, to use this opportunity to thank you for paying 
attention to the importance of high standards for sulfur 
pollutants, especially as they affect the Great Smoky Mountain 
region of east Tennessee and North Carolina, which has a 
particular problem with that. We have talked about that before. 
Just as one Senator, I want to urge you to continue to insist 
that those standards be high. Because there is no way that 
communities in our part of the Country can meet the Federal 
clean air standards unless there is a strong national law that 
limits the pollution, especially of sulfur. Nitrogen and 
mercury are also important and carbon is important as well. But 
sulfur is the focus and I wanted to keep that at the front of 
your thinking.
    Thank you for being here.
    Senator Boxer. Thank you so much, Senator.
    Senator Klobuchar.

OPENING STATEMENT OF HON. AMY KLOBUCHAR, U.S. SENATOR FROM THE 
                       STATE OF MINNESOTA

    Senator Klobuchar. Thank you, Senator Boxer, and thank you, 
Administrator Johnson, for being here. I am from Minnesota, 
where our license plates say Land of 10,000 Lakes when there is 
actually 15,000. So we of course are very focused on having 
clean air and clean water.
    The things that I am most concerned about today are the 
perchlorate in the drinking water standard, the lead air 
standard, some of the things my colleagues have talked about 
with the toxics, and a general concern about the use of science 
in setting air quality standards. But the thing that I would 
like to focus on today is the weakening of the right to know 
rules that our Country has lived by for 20 years. I come from 
this from the standard of being in law enforcement, where over 
the years we have moved to a much more open approach, and we 
have found it is good when communities know things, when they 
know about sex offenders, when they have open court proceedings 
for child protection. We have found that we get better law 
enforcement when information is out there.
    Unfortunately, the new EPA right to know standard announced 
in December of last year is a significant weakening of the 
Toxics Release Inventory, the TRI. This inventory, as you know, 
is a handy tool. It is user friendly. You just type in your zip 
code and you are able to get a list of toxic chemicals that are 
released in your neighborhood.
    Increasing the amount of chemical releases and management 
that are exempt from the form are, I believe, undermines the 
purpose and effect of this whole reporting regime. I know 
Senator Cardin talked about this. But I just believe that this 
TRI gives communities the information they need to plan. It 
also helps first responders dealing with disasters. After 
Katrina, it was reported that TRI was a key source for 
determining what kind of industrial chemicals were stored by 
flooded companies. TRI helps investors, because it lets them 
know the difference between well and poorly managed companies. 
Some States also use TRI to impose fees on companies based on 
the types and amounts of hazardous chemicals that they report 
to the Federal inventory. Minnesota is one of those States.
    Some States like Minnesota have actually built their whole 
reporting regimes around TRI. So weakening TRI weakens the 
whole regime. Those are my concerns, and I will look forward to 
hearing your testimony in this matter. Thank you.
    Senator Boxer. Thank you very much, Senator.
    Senator Craig.

OPENING STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR FROM THE 
                         STATE OF IDAHO

    Senator Craig. Madam Chairman, thank you very much. Thank 
you for bringing Administrator Johnson before us. Welcome. We 
are glad you are before the committee.
    A couple of thank yous first. I do appreciate the way you 
are handling science. As it relates to drinking water 
standards, you know out west where arsenic is naturally 
occurring and the standards have been set, we are now still 
wrestling on how to bring about compliance in very difficult 
areas where the average human has consumed arsenic literally 
for hundreds of years with apparently no health problems. 
Perchlorate, let's deal with it in the appropriate scientific 
way, and I think you are doing that. Naturally occurring 
elements within our atmosphere or within normal conditions 
sometimes are very, very costly to clean up. I am not quite 
sure we yet know how to get all that done. It does not mean it 
is important, if it is realistic to be able to that.
    Your work with my staff, myself and our State on obviously 
National Ambient Air Quality Standards, the Coarse Particulate 
Standard, or the PM<INF>10</INF>, for rural counties, rural 
environments, we are pretty sensitive to that, as you know, 
Administrator Johnson, we appreciate it.
    Now let me talk about something that up until a week ago I 
didn't know you had, and that is a large library system across 
our Country. I am not so surprised and somewhat frustrated by 
it, but I am a little curious about some of the testimony we 
are going to hear today that speaks of a concern about alarmist 
testimony that we are denying the public the right to know. A 
couple of Fridays ago, on visiting with my fourth grade 
granddaughter, and she said, Granddad, for a school project, I 
need this particular items. I said, ``oh, well, tomorrow I will 
go down to the library with you and we will get it''. She said, 
``why would you want to do that? Let's go into Grammy's laptop 
and Google it.'' We did. Ten minutes later, it was printed out 
and in her hands.
    The citizens of my State live 500 miles from your nearest 
library, and none of them make the great trek to Seattle to 
enter the library to get the information. They go to your Web 
site.
    Today is a very different world, that that granddaughter of 
mine is living in. I don't think anyone in Idaho concerned 
about their environment is going to make the trek to Seattle. 
That doesn't mean they won't gain access to your information. 
They'll gain it in a more ready fashion than they have in the 
past.
    You heard the Ranking Member talk, Madam Chairman, about 
those who come to the libraries nowadays. Few come. That 
doesn't mean many don't access the available information. Or 
they go and they use the library system in our Country to do 
so. It isn't that we are not developing effective and 
responsible repositories of information. It means that you are 
saving money by modernizing your system and by maybe putting it 
in a different form than it was historically.
    So I compliment you for doing that, and I am very 
interested in whether the public is being denied their right to 
know or they are simply accessing it in a different form, like 
that granddaughter of mine who said, ``Granddad, let's Google 
it.''
    Thank you for being here today.
    Senator Boxer. Senator, I think the physicians in the 
Country and the librarians and many businesses are a little 
more concerned than your granddaughter.
    Senator Craig. Madam Chairman, I appreciate that. I 
understand that librarians are members of national associations 
and none of them like to create environments that under or un-
employ them.
    Senator Boxer. I would also say, librarians as a group 
don't tend to be hysterical or--what was the other word? 
Alarmist. Alarmist or hysterical.
    I think that the quote that was given by my dear, dear 
friend Jim Inhofe was that they were hysterical when they said, 
this closure of the libraries will subtract from the sum total 
of human knowledge. I don't think that's exactly hysterical. I 
think it's a pretty sobering, thoughtful statement. But we are 
going to see what happens.
    Senator Craig. We will find out.
    Senator Boxer. I agree.
    Senator Vitter, you will close then the members' comments.

 OPENING STATEMENT OF HON. DAVID VITTER, U.S. SENATOR FROM THE 
                       STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair, for convening this 
hearing. Thank you, Mr. Administrator, for being here and for 
your work. I have a number of interests that will probably be 
covered today.
    But one of them stems from the fact that I am the new 
Ranking Member of the subcommittee that has jurisdiction over 
water quality, and the Safe Drinking Water Act. One issue in 
that category in particular is how we handle and regulate 
perchlorate as a component of rocket fuel and explosives, it is 
widely used as an oxidizer by the military and NASA in solid 
rocket propellants.
    In 2002, EPA first issued a draft drinking water equivalent 
of one part per billion as the safe human exposure level of 
perchlorate. More recently, in January 2005, the National 
Academy of Sciences published a report recommending a safe 
level of 24.5 parts per billion as the drinking water standard 
equivalent.
    As I understand it, you are looking at this very carefully. 
Right now, you have a guidance on the subject pegged at that 
24.5 parts per billion. But you are particularly focused on 
other sources of perchlorate in the environment, because there 
seem to be other significant sources, perhaps other dominant 
sources, besides drinking water. I know it has been found 
significantly in food sources, lettuce, milk, other things. As 
I understand it, the focus is on understanding those other 
sources so that you get any drinking water standard right, 
considering the universe we live in.
    I consider all of this the right approach and I support 
that approach. I think all of us would have a greater comfort 
level with it, however, if you can perhaps discuss it in a 
little bit more detail and also discuss a reasonable time line 
that you think are on with regard to examining perchlorate from 
all of its sources and therefore coming up with the right 
standards, including drinking water, so that there isn't any 
fear that this is just slow walking the issue into oblivion, 
that we are on some reasonable time line to address it.
    But certainly we do need to get the right science together 
and address it in the right way. Obviously, a drinking water 
standard has to account for other sources and has to understand 
what those other sources are or are not, and how dominant they 
are, et cetera. So I appreciate your work in that regard. As I 
understand it, you are actively engaged with FDA and CDC in 
particular with regard to those other sources.
    So I would be very, very interested in that ongoing work 
and what reasonable time line that is on, so we can decide if 
there needs to be a standard versus an advisory and what that 
statutory legal standard should eventually be.
    Thank you very much, Mr. Administrator.
    Senator Boxer. Thank you, Senator Vitter.
    By the way, I really want to associate myself with your 
remarks about getting to a standard. Today we are really 
looking at the other question of why they are going to stop 
testing the water. But I think you are right, we need to 
finally solve this perchlorate problem, which you have 
described very well, I think. Thank you.
    Senator Carper, I think you will be the last Senator. You 
have 4 minutes.

 OPENING STATEMENT OF HON. THOMAS R. CARPER, U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Carper. Thank you, Madam Chair.
    Mr. Johnson, welcome. It is good to see you again.
    On December 22d, I believe EPA finalized a ruling that was 
supposedly intended to reduce the paperwork burden of Toxic 
Release Inventory, something that I worked with when I was 
Governor and frankly found of great value, every year. In fact, 
we keyed on it every year in terms of the progress that we were 
making in my State of Delaware.
    Unfortunately many others, and it includes me, believe that 
this new rule will only result in denying some very important 
information to a number of States and communities, including my 
own State. So I approach it with real caution and trepidation.
    Specifically, this new rule will allow facilities that 
release or dispose of, I believe, 5,000 pounds or less of toxic 
chemicals to use a short certification to satisfy their Toxic 
Release Inventory reporting requirements. The short 
certification does not require facilities to disclose the 
actual amount of toxins they release or dispose of. Prior to 
this change, the cutoff for full disclosure was, I believe, 500 
pounds or one-tenth of what it is now.
    At first, this may not sound like this rule change is 
merely a paperwork exercise. At first blush, it is difficult to 
perceive how filling out a long form or a short form could have 
any impact on the environment.
    However, all one must do is to look at how the information 
in these reports is used. State officials in my State, and most 
if not all other States, have utilized these TRI reports to not 
only track pollution but to also determine where to focus our 
efforts on pollution reduction. I know that from personal 
experience.
    According to Delaware's Department of Natural Resources and 
Environmental Control, this is what they say, my old team, the 
Toxic Release Inventory or TRI provides information that is not 
only crucial for making decisions concerning health and 
environment, but also has proven a valuable tool for more 
efficient environmental management. In Delaware, officials have 
found the TRI program extremely helpful in setting 
environmental and public health policy. Pollution has been 
reduced as a direct result of facility participation in the TRI 
program. Now is not the time to turn back the clock. Those are 
their words, and I would just say they're my words as well. 
Unfortunately, according to Delaware and many other States who 
weighed in on these proposed changes, that is exactly what EPA 
is doing.
    In their formal comments to EPA on these rule changes, 
State agencies expressed their concerns that valuable and 
substantial information concerning the release and disposal of 
the most toxic chemicals reported under TRI would be lost. With 
these changes, our citizens will be told that a certain toxic 
chemical is in use or being produced in their community, but 
they will no longer be privy to how these toxic chemicals are 
being released in their environment, if at all.
    Additionally, our State agencies will no longer be able to 
track hot spots. They do not have the data on amounts and 
locations of toxins being used in their States. For example, in 
my State, 50 percent of one highly toxic chemical and 85 
percent of another will no longer be required to be reported in 
new detail. These numbers represent important information to 
citizens in the communities where these facilities operate.
    In closing, in my opinion, we should be encouraging 
facilities to be reducing or discontinuing the use of TRI 
chemicals, not hiding how much they are using. The most 
troubling aspect of these rule changes is EPA's unwillingness 
to listen. According to OMB Watch, EPA received literally 
hundreds of thousands of comments opposed to these changes. Of 
those comments were 23 States like my own who expressed their 
opposition and outlined in detail the problem this rule change 
would cause. But these comment were ignored, and now 
communities will suffer. That is not environmental protection.
    Thank you very much, Madam Chair.
    Senator Boxer. Thank you so much, Senator Carper.
    Senator Bond, would you care to make an opening statement? 
You have 4 minutes, if you wish.

  OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, U.S. SENATOR 
                   FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Madam Chair. I 
appreciate your holding this hearing over the regulatory 
actions.
    I think too often we get bogged down in details, policy 
minutiae, arcane regulatory angles and obscure legal arguments. 
I am afraid this hearing today could be a casualty of that 
affliction. I hope we will not lose sight of the forest as we 
examine the trees. The forest, the Bush administration, this 
EPA, has a strong environmental record. They are just a couple 
of examples. The Bush diesel rule will cleanup diesel truck 
exhaust, avoiding 37,000 premature deaths and provide over $250 
billion in health and welfare related benefits annually. How 
can we seriously hold a hearing on whether library resources 
should be online or hard copy in the face of 37,000 lives 
extended and $250 billion annually in health and welfare 
related benefits?
    Another example is the Bush Clean Air Interstate Rule. The 
politics of polarization and gridlock blocked the President's 
Clear Skies proposal, which I thought made a great deal of 
sense. It would have reduced smog, soot and mercury pollution 
from powerplants by 70 percent. So he went ahead with it 
administratively. The result, by 2015, the President's Clean 
Air Interstate Rule will provide $85 billion to $100 billion 
annually in health benefits, prevent 17,000 premature deaths 
and prevent 12,300 hospital admissions.
    But this doesn't inspire commendation from the majority on 
the committee. They want to debate whether the EPA should 
require that respondents file Form A in lieu of Form R to the 
TRI program. I mean, are you kidding? We are focusing on the 
wrong things.
    Let's talk about another tree sought for promotion instead 
of the forest. It really isn't a tree, it is more like a little 
sapling. Most of you may find it obscure, I do. But EPA has 
guidance referred to as the Once-In, Always-In policy. Intended 
to be temporary in nature, it was issued as a memorandum in 
1995. Of course, I might add, this was also a good way to avoid 
open and public process that would allow for public comment, 
require Agency response, and subject the Agency to judicial 
review.
    It is a lucky situation, because the legality of the 
situation is tenuous at best. The guidance says the 
requirements to the Clean Air Act no longer apply to you, will 
still be enforced against you by the EPA. That doesn't sound 
fair to me. According to EPA guidance, facilities that in the 
past emitted above a certain level established by section 112, 
major sources, which then reduce their emissions below that 
statutory level in an enforceable way, becoming a non-major, 
what EPA calls an area source, will still meet the requirements 
of a major source.
    That is like the IRS saying that a salesman making $150,000 
and paying the top tax bracket one year and then having a bad 
year and making only $35,000 in the second year would still 
have to pay the top tax bracket in the second year. Or like the 
gas company, which sends me a huge bill for natural gas during 
the winter, too high, of course, it's artificially high because 
so many utilities are burning natural gas. That's another 
debate.
    But when I turn down my thermostat and when warming may 
occur some time in March or April, if I use less gas, would 
they still send me a bill for my January gas usage? It doesn't 
sound fair to me, it isn't right. But that is not an incentive 
to improve the environment. So EPA stumbling into some common 
sense and fairness proposed to change the situation, they 
haven't decided to make it, but instead they are gathering 
information.
    Today's hearing, are we going to attack that? I prefer to 
focus on what the Administration has accomplished. I commend 
you, Mr. Administrator, for those accomplishments.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much, Senator.
    I just want to point out that I totally respect your view 
that this, I guess I would say using your words, we are 
focusing on minutiae. But I would also say that 23 States, 
agencies and attorneys general agree with this, that we should 
focus on this. They oppose the weakening of the public's right 
to know. The investigative arm of Congress, the GAO, as you 
will hear, has many problems, the American Lung Association and 
others.
    So I think, but I do respect the fact that you consider 
this small compared to the bigger picture.
    Senator Bond. I appreciate your view.
    Senator Boxer. Yes. That is why we have two parties, I 
think. Anyway, thank you.
    Administrator, welcome. We have your testimony in full and 
I understand you are going to summarize it in how many minutes?
    Mr. Johnson. Shortly. Briefly.
    Senator Boxer. Well, just give me an idea of time.
    Mr. Johnson. Three minutes.
    Senator Boxer. Oh, you can have 5 minutes or 6 minutes, 
what would you prefer.
    Mr. Johnson. Really, 3 to 4 minutes.
    Senator Boxer. We will give you 5 minutes. So let's go.

     STATEMENT OF STEPHEN L. JOHNSON, ADMINISTRATOR, U.S. 
                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Johnson. Good morning, Chairman Boxer, and thank you, 
and Senator Inhofe and members of the committee. This is my 
first appearance before the 110th Congress, and it is an honor 
to have this opportunity to discuss EPA's progress in 
accelerating the pace of environmental protection and how to 
build on that record of success.
    Our environmental record is clear. America's water, air, 
land, are cleaner today than they were a generation ago. Under 
the Bush administration, this progress continues. Two of the 
five most health protective clean air rules in EPA's history--
the Clean Air Non-Diesel rule and the Clean Air Interstate 
Rule--were adopted during the tenure of President Bush. We were 
the first Country in the world to adopt controls on mercury 
emissions from powerplants. As part of our new Clean Diesel 
rules, America's gas stations are primed to pump ultra-low 
sulfur diesel fuel, the single greatest achievement in clean 
fuel since the removal of lead from gasoline.
    In addition to strengthening our standards, EPA is 
vigorously enforcing our Nation's environmental laws. In fiscal 
year 2006, we obtained commitments to reduce pollution by 
nearly 900 million pounds. Our enforcement work has resulted in 
a sustained 3-year record of pollution cuts, totaling almost 3 
billion pounds and requirements that companies invest almost 
$20 billion in pollution control equipment.
    Through innovation and partnerships, EPA is moving beyond 
traditional regulatory and enforcement approaches to achieve 
even greater environmental gains. Over 2 million children 
across the Nation are now riding in cleaner buses as a result 
of our Clean School Bus USA program, a public-private 
partnership. Through the brownfields program, EPA and our State 
partners have leveraged nearly $9 million in private investment 
and helped create more than 41,000 jobs.
    Also, EPA's leadership in the mercury switch recovery 
program will remove 75 tons of mercury from the environment 
over the next 15 years. At EPA, we are meeting the President's 
goal of accelerating the pace of environmental protection while 
maintaining our Nation's economic competitiveness. As we 
celebrate our environmental gains, we also look to the future, 
and I look forward to working with you and others in Congress 
to build on that record of success.
    As the Administrator of the premier environmental Agency in 
the world, I believe the first step in preparing for the future 
is investing in our employees. Our people are our greatest 
strength. In order to build an even stronger EPA, we need to 
continue to develop a highly trained, motivated work force and 
ensure that we have provided them with the right tools to meet 
the environmental challenges of tomorrow. I am ready to respond 
to your questions on the six specific issues you wished to 
discuss today. I have with me senior managers who can speak in 
greater detail.
    Each of these topics have been the subject of 
misinformation, and I welcome this opportunity to set the 
record straight. We are eager to continue a constructive dialog 
on these and other issues facing EPA. By working together, we 
can meet today's challenges, while ensuring we hand down a 
healthier, cleaner environment to future generations.
    Thank you, and I would be happy to address any questions 
you may have.
    [The prepared statement of Mr. Johnson follows:]
  Statement of Stephen L. Johnson, Administrator, U.S. Environmental 
                           Protection Agency
    Good morning Madam Chairman and Members of the Senate Committee on 
Environment and Public Works. I appreciate the opportunity to appear 
before you today to discuss EPA's significant progress in our efforts 
to accelerate the pace of environmental protection.
                              introduction
    Regardless of rhetoric, our environmental record is clear. 
America's air, water and land are cleaner today than it was a 
generation ago; and under the Bush administration this progress 
continues.
    Two of the five most health protective clean air rules in EPA's 
history--the Clean Air Nonroad Diesel Rule and the Clean Air Interstate 
Rule (CAIR)--were implemented during the tenure of President Bush. And, 
as part of our new clean diesel rules, last October, America's gas 
stations were primed to pump ultra-low sulfur diesel fuel--the single 
greatest achievement in clean fuel since lead was removed from 
gasoline. When fully implemented, these efforts are estimated to 
prevent approximately 37,000 premature deaths and result in well over 
$250 billion in health and welfare-related benefits annually.
    The Bush administration's recent record of success also includes 
the introduction of the Clean School Bus USA program to help protect 
our Nation's children from diesel exhaust, the establishment of the 
renewable fuel standards to spur the Nation's progress on energy 
security and cleaner-burning fuels, and the removal of the reformulated 
gasoline oxygenate requirement that resulted in MTBE threatening the 
quality of our drinking water.
    At EPA, we are meeting the President's goal of accelerating the 
pace of environmental protection while maintaining our Nation's 
economic competitiveness by putting both people and property back to 
work. By encouraging the cleanup and redevelopment of America's 
abandoned and contaminated waste sites, EPA's Brownfields program has 
leveraged more than $8.8 billion in private investment, helped create 
more than 41,000 jobs, and resulted in more than 9,100 site 
assessments.
    In addition to strengthening standards and promoting stewardship, 
EPA is committed to vigorously enforcing our Nation's environmental 
laws. In fiscal year 2006, we obtained commitments from industry, 
governments, and other regulated entities to reduce pollution by nearly 
900 million pounds. Our enforcement work has resulted in a sustained 3-
year record of pollution reduction, totaling almost 3 billion pounds, 
and requiring companies to invest almost $20 billion in pollution 
control equipment.
    The American people deserve environmental results, and that is 
exactly what EPA and the Bush administration are delivering. I look 
forward to continuing a constructive dialogue on how to build on this 
record of success. Environmental responsibility is everyone's 
responsibility, and by all of us working together, we can meet today's 
challenges, while ensuring we hand down a healthier, cleaner 
environment to future generations.
    Now let me turn my attention to the actions or decisions you asked 
me to address at this hearing. Unfortunately, each of these topics has 
been the subject of misinformation, and I welcome the opportunity to 
set the record straight. Regardless of the rhetoric, EPA's strong 
environmental record is clear. These decisions and actions all 
accelerate the pace of environmental protection. They all deliver 
environmental results. They all encourage innovation and collaboration 
by using the best available science to inform decisionmaking.
                     modernization of epa libraries
    One way EPA is accelerating environmental progress is by making an 
unprecedented amount of environmental information more accessible to 
the public than ever before by posting materials on the Internet and 
converting paper documents to digital format. Demand for this type of 
information is high. In December 2006 alone, we received more than 230 
million hits and more than 92 million page requests from EPA's Web 
site, an increase of about 40 percent over this same time in 2005 [see 
attachments]. This does not happen by accident--much work has been done 
to make information available to the widest possible audience. For 
several years we have been looking at ways to provide the public with 
better access to EPA materials through the use of the Internet and 
modernization of our library systems. EPA is in good company with this 
effort as more and more libraries across the country are proceeding 
with modernization efforts.
    EPA is committed to providing the broadest possible access to 
environmental information, including the technical documents and 
reports currently contained in our libraries. To act on this 
commitment, we are making our full collection of environmental 
information accessible to scientists and the public through a variety 
of mechanisms [see attachment]. Our vision is to be the premier model 
for the next generation of Federal libraries by enhancing the 
electronic tools and resources that people use to look for information, 
while continuing to provide traditional library services. Let me also 
assure you that unique EPA material has been retained, catalogued, and 
is available to EPA and the public.
    EPA began this modernization effort to provide more people with 
better access. Over the last several years, EPA saw a decline in the 
walk-in traffic at many of our libraries. Coupled with the explosive 
growth in on-line and other electronic media, we examined ways to 
modernize our library system to seek a balance between physical library 
space and automated resources. We discontinued walk-in services at five 
of our 26 libraries and reduced the hours of operations at some other 
libraries. However, the services provided remain unchanged.
    Through this modernization effort, we are providing more 
information to a greater audience than ever before. Our research 
libraries remain open for use by our scientists, and EPA employees 
continue to have electronic access to additional information from more 
than 120,000 resources from their desktops. We also plan on continuing 
a strong network of physical libraries. Some will serve as repositories 
to hold hard copies of our collection and some will continue to provide 
walk-in services.
    To ensure that our efforts move forward, I have asked the Agency's 
new Assistant Administrator for Environmental Information and Chief 
Information Officer, Molly O'Neill, to conduct an assessment of where 
we are and to evaluate our overall library modernization effort. As we 
have throughout this effort, we will continue to share our information 
with our employees, stakeholders, and library users.
    In the meantime, our collection of approximately 500,000 items 
(including books, journals, microfiches and other items) is accessible 
today, and digitized versions of EPA documents will allow even greater 
access to more people, in a more timely and efficient manner. We will 
complete digitization of the unique EPA documents\1\ that were held by 
EPA libraries that no longer provide walk-in services in the near 
future.
---------------------------------------------------------------------------
    \1\ Unique EPA documents are documents created for or by EPA. Due 
to copyright law, EPA cannot digitize copyrighted materials.
---------------------------------------------------------------------------
    In summary, our library modernization effort has and will continue 
to provide more people with more access to EPA information, both online 
and through traditional library services. The public and EPA scientists 
continue to have access to EPA's robust Online Library System (http://
www.epa.gov/natlibra/ols.htm), as well as EPA documents digitized to 
date (more than 25,000) from the National Environmental Publications 
Internet site (http://nepis.epa.gov/), and over 7,000 titles in hard 
copy free of charge from the National Service Center for Environmental 
Publications. To facilitate access to materials, EPA libraries post 
information on its web site about how to request hard copy documents 
and obtain answers to questions. Members of the public who do not have 
Internet access can request EPA documents from their public library via 
the On-Line Computer Library Center's (OCLC's) Interlibrary Loan 
Services. OCLC includes 41,555 libraries across the world.
          toxics release inventory (tri) program improvements
    Our programs in air, water, land and toxics are all designed to 
ensure the health and safety of the American people and our 
environment. The Toxics Release Inventory (TRI) program is one of those 
programs. TRI has contributed to the reduction of chemical releases and 
better waste management practices. We want to see this trend continue.
    As you know, EPA's TRI program provides information on the releases 
and waste management activities for nearly 650 chemicals reported from 
industry. Environmental information has many uses, and one of the most 
effective is to encourage facilities to reduce their emissions. As 
successful as the program has been, we have been challenged by the fact 
that, at a national level, reductions in TRI releases have plateaued 
[see attachment]. So we have asked ourselves: How do we achieve further 
reductions? How do we encourage zero releases and better waste 
management practices? How do we accelerate this program?
    We began looking at these questions in response to requests that 
the Agency consider whether the reporting burdens associated with TRI 
could be reduced. We agreed, but only if the burden reduction 
opportunities identified allowed us to continue to provide useful 
information to communities. Our changes to the TRI program have 
accomplished this goal.
    In short, providing incentives to encourage better waste management 
practices is good for the environment, good for facilities, and good 
for the people who live around them. The final rule provides such 
incentives.
    As a result of our review, on December 18, 2006, EPA announced a 
final rule that expands eligibility for TRI reporters who meet certain 
narrow criteria to use the shorter ``Form A'' in lieu of the ``Form 
R.'' In the new final rule, certain facilities will be able to provide 
more efficient reporting if they can meet one of two requirements: (1) 
completely eliminate environmental releases of Persistent, 
Bioaccumulative, and Toxic chemicals (known as ``PBTs''); or (2) reduce 
the non-PBT chemical releases to no more than 2,000 pounds over the 
course of a year as part of an overall limit of 5,000 pounds of total 
waste management. The reduction in reporting is about 15 hours for each 
PBT report submitted on a short form and about 9 hours for a non-PBT 
chemical. Under this rule, facilities must continue to report for 
dioxin and dioxin-like compounds on the more detailed Form R regardless 
of the amount used or released.
    For the first time, facilities may use the shorter, less onerous 
reporting form for PBTs when there have been no releases into the 
environment and the total amount of the PBT chemical managed by 
treatment, energy recovery, and/or recycling is not more than 500 
pounds. The final rule enables us to reduce the reporting burden for 
those reporters that are successfully managing their facilities to 
ensure there are zero releases to the environment.
    The final rule encourages businesses to reduce their chemical 
emissions and increase proper recycling and treatment, which are both 
good for the environment and good for the economy. By structuring 
expanded ``short form'' eligibility for TRI chemicals in this way we 
are encouraging practices such as recycling and treatment over disposal 
and other releases. The result is a cleaner environment for us all.
    Members of the Committee, I want to provide clarification on two 
important points regarding this rule: (1) The final rule does not 
exempt any facility from reporting its releases, nor does it remove any 
chemicals from the TRI; and, (2) It has no impact on the primary source 
of information for emergency responders--first responders receive 
chemical inventory data under Section 312 of the Emergency Planning and 
Community Right to Know Act, not from TRI.
    In all, the Agency has spent many years evaluating various ways to 
strengthen the TRI program. As part of this effort, EPA announced in 
the fall of 2005 that it was exploring possible revisions to the 
frequency of reporting. No changes were proposed, but EPA notified 
Congress and the public that it was considering such changes. After 
careful consideration of the issues involved and the public comment 
received, EPA announced on December 18, 2006 that it will maintain 
annual TRI reporting. EPA concluded that consistent annual reporting 
adds significant value to the information collected, and furthers the 
statutory purposes of the program.
    Additionally, beyond just utilizing the Agency's regulatory 
authorities, EPA is improving TRI by expanding the use of available 
technology to expedite the submission and availability of TRI data. 
Technological improvements to the TRI Program include: the Electronic-
Facility Data Release (E-FDR); and, a new web-based version of the 
Toxics Release Inventory--Made Easy (TRI-ME) software. Through these 
improvements to the TRI, we are expediting the submission and 
availability of TRI data. We expect this trend to continue in the 
future.
    I am committed to providing the public timely and reliable 
information. By retaining annual reporting and encouraging businesses 
to reduce their chemical emissions and increase recycling and 
treatment, EPA is ensuring the TRI will continue to serve as an 
important source of information on chemical releases from facilities 
nationwide.
     national ambient air quality standards (naaqs) review process
    Central to ensuring clean air across the Nation are the national 
ambient air quality standards (NAAQS) that EPA sets under the Clean Air 
Act (CAA). As part of this charge, we are required to review the 
science upon which the NAAQS are based and the standards themselves 
every 5 years. But the fact is the process is broken. In the past, EPA 
has often failed to complete reviews in the statutory timeframe [see 
attachment]. We have also found it impossible to use the most up-to-
date scientific information when following the inefficient past process 
for NAAQS review.
    In an effort to address these issues, Deputy Administrator Marcus 
Peacock requested a thorough review of the process. In particular, he 
asked that the review focus on four key areas: (1) timeliness (i.e. how 
to complete NAAQS reviews on a 5-year cycle as required by the CAA); 
(2) consideration of the most up-to-date scientific information; (3) 
clarifying the differences between scientific and policy judgments; 
and, (4) defining and expressing uncertainties in scientific and 
technical information. To help accomplish this task, EPA formed an 
internal workgroup that consulted with environmental and public health 
groups, industry, States, and the Clean Air Scientific Advisory 
Committee (CASAC)--the group of independent scientific experts 
established under the CAA to provide the Agency with advice and 
recommendations on the scientific basis and adequacy of NAAQS. CASAC 
indicated that ``[N]ow is the time to think `outside the box' and 
develop a significantly-enhanced and streamlined NAAQS review 
process.'' I agree.
    As a result of our internal deliberations and input from 
stakeholders and CASAC, EPA is changing the way we review NAAQS to 
enhance the efficiency, transparency, and accountability of the process 
while protecting its scientific integrity.
    To ensure a more effective, streamlined process, EPA will develop 
and implement a single integrated plan to guide the entire review of 
each NAAQS, rather than the two-phased planning approach that has been 
used in the past. We will focus on providing the complete record of the 
available scientific information in a science assessment support 
document and producing a concise Integrated Science Assessment--rather 
than a voluminous Criteria Document--to inform decisionmaking. We are 
also moving towards a continuous review of the latest scientific 
evidence, supported by a state-of-the-art scientific database. In 
addition, we will issue a concise Risk and Exposure Assessment focused 
on identifying the major risks and uncertainties.
    Finally, we will issue our policy assessment as an Advance Notice 
of Proposed Rulemaking (ANPR) that will reflect Agency views on the 
appropriate range of policy options. The addition of an ANPR will 
result in a more open and transparent process by seeking the public's 
input on Agency management's views earlier and more frequently than 
what previously occurred. In this way, the NAAQS process will be 
consistent with EPA's approach to rulemaking in virtually every other 
arena.
    CASAC will continue to have multiple opportunities to provide 
advice and recommendations throughout the NAAQS review process, both 
with regard to the underlying scientific and risk information and the 
policy options being considered by the Agency [see attachment]. EPA 
appreciates the important contribution CASAC makes to the NAAQS process 
and the revised process respects and preserves CASAC's role.
    EPA is committed to meeting the 5-year deadline for review of the 
NAAQS through this improved process. The changes we are instituting 
will enhance the Agency's ability to issue timely, well-informed policy 
decisions based on the best available science while continuing to 
promote broad participation by experts in the scientific community.
                           lead naaqs review
    Exposure to lead poses significant dangers, particularly to 
children, and we are committed to protecting public health and welfare 
from the dangers of lead. EPA is currently reviewing the NAAQS for 
lead, which was listed as a criteria pollutant in 1976, and EPA issued 
the first lead NAAQS in 1978. As with all of our reviews and 
regulations, we undertake this effort to help ensure that we continue 
to protect public health and our environment.
    We are proud of the progress EPA has made since the 1970s in 
reducing lead emissions and levels of lead in ambient air. As a result 
of the ban on lead additives in motor vehicle gasoline, implementation 
of the NAAQS, and other EPA regulations and programs, including efforts 
to reduce lead in housing, average lead concentrations in the air have 
dropped by more than 95 percent since 1980. There has been a 
significant shift not only in the magnitude of emissions, but also in 
the types of sources with the greatest lead emissions. In addition, the 
1990 CAA Amendments required EPA to regulate lead compounds as 
hazardous air pollutants under section 112. As required by section 112, 
EPA has established technology-based emission standards (called Maximum 
Achievable Control Technology, or ``MACT,'' standards) for many 
facilities emitting lead compounds, and will establish additional risk-
based standards for those industries where additional protection from 
residual risks is necessary. Moreover, EPA has worked hard to reduce 
the risk of lead exposure through a variety of other programs, 
including Superfund and drinking water programs and lead paint 
initiatives. EPA remains strongly committed to protecting public health 
and the environment from the dangers of lead pollution, and will 
carefully consider potential impacts--including impacts on children--of 
any regulatory decision regarding lead.
    We are still very early in the process of reviewing the NAAQS. As 
part of our review, we have issued a completely revised lead Criteria 
Document that presents a comprehensive, up-to-date summary of our 
knowledge about lead and its effects on human health and the 
environment. We have a great deal of scientific evidence that 
associates lead with significant adverse effects on human health, 
especially for children, at much lower levels in the body than we 
previously knew. We will consider all of this information in reviewing 
the lead NAAQS and making decisions about whether revisions to the 
standards are appropriate. As we move forward in this lead NAAQS 
review, we will review the most up-to-date science, assess risks and 
exposures, and develop appropriate policy options in light of all the 
available information.
     epa's recent proposal to replace the once-in-always-in policy
    Another vital component of our clean air program is the 
comprehensive regime established by section 112 of the CAA for reducing 
toxic air pollutants. CAA section 112 lists over 180 chemicals as 
hazardous air pollutants and includes several provisions requiring 
control of emissions of these pollutants into the air. Under section 
112, EPA establishes Maximum Achievable Control Technology (MACT) 
standards, and these standards generally apply only to ``major 
sources.'' Major sources are facilities that emit or have the potential 
to emit, ``considering controls,'' 10 tons per year or more of a single 
toxic air pollutant or 25 tons per year or more of any combination of 
toxic air pollutants. Facilities that emit less than these amounts are 
called ``area sources.'' The CAA requires EPA to establish standards 
for area sources, and these standards can be less stringent than the 
MACT standards. While the law plainly defines what constitutes a 
``major'' and ``area'' source, the CAA is silent as to when controls 
must be in place for the purpose of assessing a source's emissions and 
determining whether that source is a major or area source.
    In May 1995, EPA issued the ``once in, always in'' policy to 
address the issue of when controls must be in place. The policy 
generally provides that only the controls in place by the deadline for 
complying with the MACT standard count in determining whether the 
facility is a major or area source. Under the policy, if a facility 
emits at or above the major source threshold levels on the compliance 
date of the MACT standard, the facility will always be subject to that 
MACT standard, even if the facility later adds controls that reduce its 
emissions below major source levels.
    The current policy is environmentally counterproductive. For 
example, we heard from several States and industry representatives that 
the current policy discourages facilities from instituting new 
pollution prevention measures after a MACT standard applies because, 
even if a facility later reduces toxic emissions through pollution 
prevention measures, it must continue to comply with the MACT standard 
and other related requirements. The policy also creates an uneven 
playing field by allowing facilities to avoid major source status if 
they put on controls before the MACT standard applied, but not if they 
added controls after that date.
    The ``once in, always in'' policy was issued in the form of a 
memorandum and was intended to be only temporary. In light of its 
importance in determining the applicability of MACT standards, the 
Agency stated in the memorandum announcing the policy that it intended 
to arrive at a final approach through rulemaking. In December of last 
year, EPA began that rulemaking process by announcing a proposal that 
would replace the once-in-always-in policy. Under the December 
proposal, a major source could become an area source at any time if it 
limits its potential to emit toxic air pollutants to below the major 
source threshold levels. The source would be required, however, to 
obtain a permit that limits it emission to below the major source 
levels, and would be subject to any area source standard applicable to 
its industry sector.
    A major source that made the capital investment necessary to reduce 
its potential to emit to below the major source threshold levels could 
become an area source at any time, provided it has a permit that 
appropriately limits its potential to emit. As part of the rulemaking, 
we are seeking more information on sources' likely responses to the 
proposed approach so that the Agency can better assess the potential 
emissions implications before making a final decision. We look forward 
to receiving and evaluating public comments on the proposal.
               perchlorate and the importance of science
    One of my key principles is to use the best available science for 
decisionmaking to accelerate the pace of environmental protection in 
our country, and this principle extends to perchlorate. To inform our 
decisionmaking, we are working with other Federal Agencies, such as the 
Food and Drug Administration (FDA), the U.S. Department of Agriculture 
(USDA), and the Centers for Disease Control (CDC), to gather and 
understand information on the sources of perchlorate exposure.
    When looking at specific contaminants, one of the key factors we 
must consider is the reference dose (RfD). The reference dose is an 
estimate of a daily oral exposure to the human population (including 
sensitive subgroups) that is likely to be without an appreciable risk 
of adverse effects during a lifetime. To develop the RfD for 
perchlorate, EPA consulted the National Academy of Sciences (NAS) to 
ensure a thorough, unbiased application of science. The NAS reviewed 
available data on the effects of perchlorate, selected the most 
appropriate study, and applied EPA's science policy guidance in 
developing an RfD of 0.0007 mg/kg/day, which was subsequently adopted 
by the Agency.
    In carrying out their analysis, the NAS used an approach that 
protects the most sensitive population, the fetuses of pregnant women 
who might have hypothyroidism or iodide deficiency. To protect this 
subpopulation, the NAS recommended that the RfD be derived by taking 
the dose at which no observable effect (whether adverse or not), is 
anticipated in healthy adults, and reducing it by a further 10-fold 
factor to account for sensitive sub-populations. Deriving the RfD to 
prevent a nonadverse precursor effect is a more conservative and 
health-protective approach to perchlorate hazard assessment compared to 
our traditional approach of basing RfDs on prevention of adverse 
effects.
    We know that questions have been raised about the current RfD, 
particularly given recently published scientific articles. EPA is 
reviewing and analyzing these findings to assess the relevance of the 
study results for predicting adverse health effects that may result 
from perchlorate exposure. The Agency has a great deal of interest in 
the findings regarding perchlorate exposure and thyroid function that 
were recently reported by CDC researchers. The CDC researchers 
acknowledged that there is a need for additional research to confirm 
their results and improve upon some of the limitations of the study, 
and we look forward to reviewing these additional studies.
    Regarding the need for Federal regulation to address perchlorate, 
the Safe Drinking Water Act (SDWA) has an established process for 
determining if unregulated contaminants pose a sufficient risk to 
public health to warrant regulation. Perchlorate is on our second 
Contaminant Candidate List (or CCL), which was published in February 
2005. The CCL is a list of unregulated contaminants that may (or may 
not) require regulation. In the near future, we will propose regulatory 
determinations on a number of contaminants from that list. This notice 
will include an extensive update on the Agency's review of perchlorate, 
including a summary of recent research.
    Before the Agency can make a determination as to whether it is 
appropriate to regulate perchlorate in drinking water (i.e. whether 
setting a drinking water standard would provide a meaningful 
opportunity to reduce risk for people served by public water systems), 
we need to better understand total perchlorate exposure and the 
relative exposure to perchlorate from water as opposed to food sources, 
which we refer to as the ``relative source contribution.'' An 
increasing number of studies have reported the presence of perchlorate 
in samples of various foods (e.g. milk, lettuce, melons) and with this 
and other food information becoming available, use of a default 
assumption for the relative source contribution may not be the best 
means to determine whether it is appropriate to regulate perchlorate in 
drinking water. We need to determine whether setting a drinking water 
standard would provide a meaningful opportunity to reduce risk for 
people served by public water systems, and we need to understand how 
public exposure compares to the RfD and what portion of the exposure 
comes from food versus water.
    The Food and Drug Administration (FDA) has been conducting surveys 
to determine perchlorate levels in food since FY 2004. The Agency is 
particularly interested in reviewing the results and associated planned 
exposure assessment from FDA's 2006 Total Diet Study when it has been 
peer reviewed and finalized. This will be the most comprehensive 
assessment of food exposure to date and is designed to provide 
estimates of total food exposure by region based on a representative 
market basket approach. Additionally, the CDC has included perchlorate 
in its National Biomonitoring Program which develops methods to measure 
environmental chemicals in humans, for example, by analyzing blood and 
urine samples. With this information, the CDC can obtain data on levels 
and trends of exposure to environmental chemicals in the U.S. 
population. EPA may be able to use the results of CDC's studies to 
estimate perchlorate exposure and inform a determination as to whether 
regulation of perchlorate in drinking water is necessary to protect 
public health.
    Finally, I would like to clarify an issue related to monitoring for 
perchlorate in public water systems. To support our regulatory 
development process, the Agency requires short-term monitoring for 
specific contaminants under the Unregulated Contaminant Monitoring 
program (UCMR). During the first round of this program, 3,858 water 
systems were monitored for perchlorate during a 1-year period between 
2001 and 2003. This monitoring was designed to provide an assessment of 
perchlorate occurrence in public water supplies that was broadly 
representative of community water systems throughout the country. 
Perchlorate was detected at levels above the minimum reporting level of 
4 parts per billion (ppb) in approximately 2 percent of the more than 
34,000 samples analyzed. The average concentration of the detected 
values was 9.8 ppb and the median concentration was 6.4 ppb. (For 
context, the reference dose is equivalent to about 25 ppb in water.) 
The samples in which perchlorate was detected were collected from 160 
of 3,858 public water systems (4 percent of systems) located in 26 
States and 2 territories. We have determined that the existing data is 
sufficient to support our regulatory decisionmaking and, as such, it is 
not necessary to conduct additional perchlorate monitoring under the 
second UCMR, which in any case would not be completed until 2010. Of 
course, if EPA determines that regulation of perchlorate in drinking 
water is necessary, on-going compliance monitoring of perchlorate would 
be part of any new standard.
    Considering this new information in conjunction with the wider body 
of research in this area will improve our understanding of perchlorate 
toxicity and exposure. If necessary, EPA can require additional 
monitoring at a later time if new information indicates that additional 
sampling is warranted. EPA will continue to review and analyze new 
science and information on perchlorate as it becomes available and will 
rely on the best available science as we move toward a decision on 
whether or not to regulate perchlorate. EPA is committed to protecting 
public health, including sensitive populations.
                               conclusion
    Madam Chairman, as I mentioned before, regardless of rhetoric, our 
environmental record is clear. America's environment has steadily 
improved over the past 30 years, and under the Bush administration this 
progress continues. I am proud of EPA's environmental record. Each of 
the six actions or decisions that I have described will provide the 
American people with beneficial environmental results through 
efficiency, transparency, innovation, collaboration, and the use of the 
best available science. Thank you for providing me with an opportunity 
to explain the goals of and reasoning for our decisions. I look forward 
to working with you in the future and to providing additional 
information about the activities of this Agency.
    I would be happy to address any questions that you may have at this 
time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Responses by Stephen L. Johnson to Additional Questions from 
                             Senator Boxer
                              perchlorate
    Question 1a. Does EPA's Drinking Water Equivalent Level (DWEL) and 
Preliminary Remediation Goal (PRG) for perchlorate:
    Address the amount of perchlorate exposure an individual could 
receive from consuming food as well as drinking water? If so, what 
percent does EPA assign to each route of exposure? Provide all EPA 
records, including any memoranda, email, meeting notes, telephone logs 
or other EPA records that describe EPA's process for selecting these 
exposure figures.
    Response. The Drinking Water Equivalent Level (DWEL) is a lifetime 
exposure concentration protective of non-cancer health effects that 
assumes all of the exposure to a contaminant is from drinking water. 
The DWEL does not address or account for contaminant exposure from 
sources other than drinking water.
    EPA's Assessment Guidance for Perchlorate (January 26, 2006) 
provides guidance on the development of preliminary remediation goals 
(PRG) for perchlorate. Typically, PRGs are specific statements of 
desired endpoint concentrations or risk levels (55 Fed. Reg. 8713 
(March 8, 1990)) that are conservative, default endpoint concentrations 
used in screening and initial development of remedial alternatives 
before consideration of information from the site-specific risk 
assessment.
    However, PRGs are not final cleanup levels, but merely the starting 
point for identifying site-specific goals. As a matter of standard 
practice (and in accordance with the National Contingency Plan), 
preliminary remediation goals are further evaluated and modified, if 
necessary, before final clean-up goals are established based on 
information that becomes available during the remedial investigation/ 
feasibility study. This may include assessing factors, such as actual 
and potential exposure pathways through environmental media and actual 
and potential exposure routes. While there is information available 
that indicates that perchlorate has been found in food, EPA believes 
that the currently available data are too limited to calculate, on a 
national level, the relative exposure to perchlorate from water as 
opposed to food (the RSC). Therefore, EPA's Assessment Guidance for 
Perchlorate recommends that contribution from non-water sources of 
perchlorate should be considered based onsite-specific data where 
assessors believe that there may be significant exposures to 
perchlorate from such sources. In such instances, it is appropriate to 
consider such information in determining the final cleanup goal, and 
thus, the remedy for the site.
    We are continuing to search for the specific records that you have 
requested and will update our response as our search progresses.

    Question 1b. Account for children's unique exposure and 
vulnerabilities, including making adjustments for infants and 
children's weight and the lack of a biological reserve of thyroid 
hormone to off-set potential exposures to perchlorate?
    Response. The Drinking Water Equivalent Level (DWEL) is a lifetime 
exposure concentration protective of non-cancer health effects that 
assumes all of the exposure to a contaminant is from drinking water. 
The DWEL is based on the Reference Dose (RfD), body weight (BW) and 
Drinking Water Intake (DWI).
    DWEL = (RfD) x (BW)/(DWI)
    The RfD is an estimate of a daily oral exposure to the human 
population (including sensitive subgroups, including infants and 
children) that is likely to be without an appreciable risk of adverse 
effects during a lifetime. To develop the RfD for perchlorate, EPA 
consulted the National Academy of Sciences (NAS) to ensure a thorough, 
unbiased application of science. The NAS reviewed available data on the 
effects of perchlorate, selected the most appropriate study as the 
basis, and applied EPA's science policy guidance in developing an RfD 
of 0.0007 mg/kg/day, which was subsequently adopted by the Agency. In 
carrying out their analysis, the NAS used an approach to protect the 
most sensitive population, the fetuses of pregnant women who might have 
hypothyroidism or iodide deficiency. To protect this subpopulation, the 
NAS recommended that the RfD be derived by taking the dose at which no 
observable effect, non-adverse or adverse, is anticipated in healthy 
adults, and reducing it further by an order of magnitude. Using a non-
adverse effect that is upstream of the adverse effect is a conservative 
and health protective approach to perchlorate hazard assessment. 
Because the NAS determined that the most sensitive subpopulation is the 
fetuses of iodide deficient or hypothyroid pregnant women, EPA used a 
body weight (70 kg) and drinking water intake (2 liters/day) relevant 
to the pregnant woman to derive the DWEL.

    Question 2. Did leading scientists from the National Academies of 
Sciences' National Research Council panel on perchlorate recommend that 
their suggested safe level of exposure to perchlorate be adjusted when 
used to create any type of standard, such as a drinking water standard, 
for the different levels of exposure from water and food, as well as 
the need to account for the weight of children relative to adults?
    Response. No recommendations were made regarding adjustments for 
varying sources of exposure or body weight differences in standard 
setting for perchlorate exposure. The NAS panel evaluated the 
scientific evidence on perchlorate and recommended a single safety 
level (i.e., referred to as a chronic reference dose or RfD) that would 
be protective of the most sensitive subgroup in the population, the 
fetuses of iodide deficient or hypothyroid women.

    Question 3. EPA issued an Unregulated Contaminant Monitoring Rule 
in December 20, 2006 that excluded perchlorate from tap water testing 
requirements. Provide all EPA records, including any memoranda, email, 
meeting notes, telephone logs or other EPA records that describe any 
interaction between EPA and the Office of Management and Budget, 
Department of Defense, National Aeronautics and Space Administration, 
other Federal Agencies contractors for the Department of Defense, 
National Aeronautics and Space Administration other Federal Agencies, 
or any non-Federal individuals or institutions concerning this rule.
    Response. We are continuing to search for the specific records that 
you have requested and will update our response as our search 
progresses.

    Question 4. In 2005, the Government Accountability Office (GAO) 
issued a report on the status of perchlorate monitoring in the United 
States. In this report, the GAO recommended that ``EPA use existing 
authorities or seek additional authority, if necessary, to establish a 
formal structure to centrally track and monitor perchlorate detections 
and the status of cleanup efforts across the Federal Government and 
State agencies.'' Describe whether EPA has implemented GAO's 
recommendations. Provide all EPA records, including any memoranda, 
email, meeting notes, telephone logs or other EPA records that describe 
the status of the Agency's efforts to implement these recommendations.
    Response. EPA does not agree with the proposed GAO recommendation 
that ``EPA establish a formal structure to centrally track and monitor 
perchlorate detections and the status of cleanup efforts across the 
Federal Government and State agencies.'' EPA already has significant 
information and data on perchlorate concentrations in various 
environmental media; which is available on our Web site. Much of the 
information is obtained from our partners in other Federal Agencies and 
States and by private parties, among others. The currently available 
information indicates the extent of contamination nationally. While it 
is true that EPA does not have all the data that a tracking system 
could provide, the benefits of such a tracking system as GAO 
recommended are unclear. In order to justify a tracking system, EPA 
would have to analyze its associated costs and benefits and weight them 
against projects in other environmental programs. At this time, EPA 
does not see sufficient benefit for establishing such a system.
    We are continuing to search for the specific records that you have 
requested and will update our response as our search progresses.

    Question 5. Describe the status of EPA's efforts to establish a 
drinking water standard for perchlorate. Include a timeline for the 
Agency's activities, the anticipated date that EPA will issue a 
proposed and final drinking water standard, and describe whether EPA 
will rely on the studies that the Centers for Disease Control published 
in 2006. Provide all EPA records, including any memoranda, email, 
meeting notes, telephone logs or other EPA records that describe any 
interaction between EPA and the Office of Management and Budget, 
Department of Defense, National Aeronautics and Space Administration, 
other Federal Agencies, contractors for the Department of Defense, the 
National Aeronautics and Space Administration, other Federal Agencies, 
or any non-Federal individuals or institutions concerning EPA's 
activities to establish a drinking water standard for perchlorate.
    Response. EPA is currently working to gather the data to make a 
determination as to whether or not to establish a drinking water 
standard for perchlorate in accordance with the Safe Drinking Water Act 
(SDWA) section 1412.b.1. On May 1, 2007, EPA published a Federal 
Register notice providing regulatory determinations for 11 CCL 2 
contaminants, and discussing the status of the Agency's evaluation of 
perchlorate. EPA has not made a preliminary regulatory determination 
for perchlorate because the Agency believes additional information is 
needed to fully characterize perchlorate exposure and determine whether 
a national drinking water regulation for perchlorate presents a 
meaningful opportunity for public health risk reduction. This is one of 
the three criteria under the SDWA that EPA must determine before it can 
make a preliminary regulatory determination.
    The May 1, FR Notice describes several potential options for 
characterizing perchlorate exposure and proceeding with a regulatory 
determination for perchlorate. These options include using the 
forthcoming Food and Drug Administration's (FDA) Total Diet Study and/
or further analysis of the Center for Disease Control and Prevention's 
(CDC) biomonitoring data. Currently, FDA anticipates the Total Diet 
Study for perchlorate will be published in the fall of 2007 and EPA is 
working with the CDC to conduct additional analyses of biomonitoring 
data. EPA intends to move expeditiously to publish a preliminary 
determination for perchlorate once the Agency has analyzed these data 
and determined the best approach to evaluating the opportunity for 
public health risk reduction. EPA anticipates this could be done within 
2 months of the release of the FDA Total Diet Study for perchlorate. 
EPA may be able to publish a final regulatory determination for 
perchlorate as part of the final CCL 2 regulatory determinations due by 
July 2008. If not, the Agency will publish its final determination for 
perchlorate as soon as possible thereafter.
    If EPA makes a determination to regulate perchlorate, the SDWA 
provides EPA with 24 months to propose a standard and another 18 months 
after the proposal to issue a final regulation. Final promulgation can 
be extended for up to 9 additional months. A considerable amount of 
work needs to be done to propose and finalize a national primary 
drinking water regulation. As part of the rulemaking process, the 
Agency must complete a Health Risk Reduction and Cost Analysis (HRCCA), 
identify feasible technologies, and identify small system compliance 
technologies.
    We are continuing to search for the specific records that you have 
requested and will update our response as our search progresses.
                                 ______
                                 
     Responses by Stephen L. Johnson to Additional Questions from 
                     Senators Boxer and Lautenberg
    Question 1a. EPA Libraries.--The Environmental Protection Agency 
(EPA) claims that it is closing libraries in an effort to modernize its 
library collections by emphasizing the electronic access and retrieval 
of EPA documents, especially including unique Agency documents. Please 
describe:
    Whether EPA personnel have ever ordered the removal of on-line 
material--including archival material--from the Office of Prevention, 
Pesticides and Toxic Substances' (OPPTS) library. Please do not include 
routine maintenance activities (i.e. updating WebPages) as a removal of 
material. If this occurred, please provide copies of the material that 
EPA personnel ordered to be removed (provide these documents in paper 
and electronic format).
    Provide all EPA records, including any memoranda, email, meeting 
notes, telephone logs or other EPA records that describe the date that 
the order to remove the material was given, the reason for the removal, 
whether any EPA staff or contractors raised concerns or asked for 
confirmation of the removal order, the reason for replacing any of the 
material on EPA's Web site, and the date such material was replaced.
    Response. On December 1, the Agency updated the OPPTS library web 
site to note that the Library had closed and to provide information to 
the public on how to access publications and other documents. 
Unfortunately, several links were inadvertently dropped during this 
update process. Once the Agency discovered the links were dropped, they 
were promptly restored. Here is the chronology and the specific links.
    On Friday, December 1, 2006, OPPTS updated its chemical library 
site. These pages were taken down:
    http://www.epa.gov/opptintr/library/pubs/archive/
    http://www.epa.gov/opptintr/library/pubs/collectn.htm
    http://www.epa.gov/opptintr/library/pubs/currents.htm
    http://www.epa.gov/opptintr/library/pubs/journals.htm
    On Monday, December 4, 2006, OPPTS re-established these pages:
    http://www.epa.gov/opptintr/library/pubs/archive/
    http://www.epa.gov/opptintr/library/pubs/collectn.htm
    On Thursday, December 7, 2006 OPPTS re-established these pages:
    http://www.epa.gov/opptintr/library/pubs/currentjs.htm
    http://www.epa.gov/opptintr/library/pubs/journals.htm
    We are continuing to search for the specific records that you have 
requested and will update our response as our search progresses.

    Question 1b. Whether EPA personnel have ever ordered the removal of 
on-line material from other EPA libraries. Please do not include 
routine maintenance activities (i.e. updating WebPages) as a removal of 
material. If this occurred, please provide copies of the material that 
EPA personnel ordered to be removed (provide these documents in paper 
and electronic format).
    Provide all EPA records, including any memoranda, email, meeting 
notes, telephone logs or other EPA records that describe the date that 
the order to remove the material was given, the reason for the removal, 
whether any EPA staff or contractors raised concerns or asked for 
confirmation of the removal order, the reason for replacing any of the 
material on EPA's Web site, and the date such material was replaced.
    Response. The Agency is not aware of any such order being given to 
remove online materials. As is routine practice with any Web site, the 
information for individual libraries is reviewed for accuracy by the 
central program managers. Where information was outdated (such as 
stating that a physical library was still open when in fact it had 
closed to walk in traffic), libraries were asked to correct their Web 
sites. In some cases public access to that Web site may have been 
briefly interrupted while the site was updated. In all cases the 
material being changed focused on ensuring that service delivery 
information was accurate rather than any attempt to limit either 
internal or external access to any documents.

    Question 1c. The handling of any inquires to EPA librarians from 
EPA staff, agencies, individuals or institutions that could not access 
on-line material during any time period that on-line material was 
removed from EPA's Web site, as described in the paragraphs above.
    Response. The Agency is not aware of any such order being given to 
remove online materials. However; OPPTS received one request for 
information that was inadvertently removed through broken links as 
described in the response to 1(A) above. This request alerted OPPTS to 
the inadvertent removal of materials which were subsequently restored.

    Question 1d. Whether EPA used any formal or informal standards or 
guidelines to determine how to close libraries and digitize their 
holdings. If so, please provide the document or documents, the name of 
the governmental or non governmental entity that authored the material 
and the date that the standard or guideline was published.
    Response. The 2007 Library Plan, issued on August 15, 2006, 
provides Agency-wide guidance for offices to utilize when determining 
the status of their physical library space. For your convenience, a 
copy of the Plan has been attached to this response. Developed by EPA 
professional librarians and individuals with related professional 
credentials, the plan outlines a process whereby libraries that closed 
were required to review their collections and thoughtfully prepare 
unique EPA titles for digitization (see further discussion in F). At 
the same time, such materials were required to be available to meet the 
needs of in-house staff or for inter-library loan. This Plan drew upon 
both the extensive experience of these individuals as well as best 
library practices as identified by the Library of Congress, 
professional library associations and other professional organizations. 
Ultimately, the criteria used to review collections are set by each 
library to be certain that they are appropriate to that collection and 
its users.

    Question 1e. Whether EPA considered leaving all of its libraries 
open while the Agency digitized documents, rather than closing its 
libraries and then digitizing documents. Please also provide all EPA 
records, including any memoranda, email, meeting notes, telephone logs 
or other EPA records that describe the Agency's consideration and 
rejection of this option, as well as the reason for any such rejection.
    Response. Utilizing the 2007 Library Plan, each library in the 
Network considered many factors in determining the status of their 
physical library spaces. Such decisions were made at the local level 
based upon various factors including the annual costs associated with 
having facility agreements and contracts for library services in place 
for fiscal year 2007 and walk-in traffic in the physical library space 
to name a few. In all cases however, EPA made every effort to ensure 
that the holdings of each of the libraries which decided to close their 
physical space were available to the staff and to the public.

    Question 1f(1). The number of documents that the Agency does not 
intend to digitize that are held or that were formerly held at EPA 
libraries that are now closed. Describe the types of documents by 
category, the total number of documents in each category, the total 
number of documents that EPA will not be able to digitize, and the 
percentage of the documents in each category and in the aggregate that 
the Agency will not be able to digitize.
    Response. Overall, EPA's collection includes approximately 500,000 
library items; however, EPA estimates that only 51,000 are unique EPA 
titles (across the entire Network, not just the closed libraries). EPA 
has digitized over 14,000 items from those libraries which have closed 
their physical space. The remaining items are published by 
organizations outside EPA including grantees which the Agency is 
prohibited from digitizing due to copyright laws. These items also 
include monographs, microfiches, journals, maps, audiovisual materials, 
CDs and documents published by non-EPA entities. All of these items are 
still available to EPA staff from their servicing library and the 
public via interlibrary loans.

    Question 1f(2). Also describe the total amount of money that EPA 
needs to digitize all of the documents that the Agency intends to 
digitize and the timeline for digitizing all of the documents.
    Response. EPA spent approximately $78,950 for digitizing materials 
for closed libraries in fiscal year 2007. EPA has an additional 
$170,000 remaining for digitization in fiscal year 2007.

    Question 1f(3). Provide any formal or informal estimate that the 
Agency has on the cost of digitizing the documents that EPA does not 
intend to digitize.
    Response. EPA plans to digitize all documents in our collection 
which we have the right to digitize. The digitization of the remaining 
unique EPA documents awaits the completion of the independent expert 
review of our digitization specifications and procedures. Once the 
review is both completed and peer-reviewed, we will develop a revised 
digitization plan, including budget requirements.

    Question 1g. Whether EPA analyzed the number of people who do not 
have or use the Internet and the impact that the library closures would 
have on these individuals' ability to access library material. Please 
also provide all EPA records, including any memoranda, email, meeting 
notes, telephone logs or other EPA records that describe the Agency's 
analysis and plan to address the needs of these types of library users.

    Response. EPA did not conduct such an analysis as it would have 
been cost prohibitive to try to ascertain who in the general public did 
not have access to the Internet. However, all 18,000+ EPA employees 
continue to have access to library materials, both in electronic and 
hard copy format. Additionally, the public will continue to have access 
to EPA library materials through interlibrary loans via any of the 
57,000 libraries in the U.S. and abroad which participate in the Online 
Computer Library Center (OCLC).

    Question 1h. Whether EPA intends to maintain paper copies of 
digitized documents. Please describe the number of such documents that 
EPA intends to maintain and the Agency's reasons for maintaining this 
number of documents.
    Response. After additional discussions with our stakeholders, EPA 
has modified our plans to maintain a minimum of two paper copies of 
digitized documents within our library network. Originally the Agency 
had discussed keeping one copy in the repository, but as part of our 
continuing dialog with stakeholders it was recommended that two copies 
be kept. This will be incorporated in the Repository Procedures 
document which should be finalized by the 1st quarter of fiscal year 
2008.

    Question 1i. Whether EPA librarians have had difficulty finding and 
providing documents from EPA libraries that the Agency has closed or at 
which the Agency has reduced staff and hours of operation. If this has 
occurred, please provide all EPA records, including memoranda, email, 
meeting notes, telephone logs or other EPA records that describe the 
title and subject matter of the material at issue, the reason for the 
difficulty in finding or providing the document and whether EPA ever 
satisfied the request, including the amount of time it took the Agency 
to satisfy the request.
    Response. The Agency is not aware of any reports of EPA librarians 
having difficulty finding and providing documents from EPA libraries 
which have closed or at which the Agency has reduced hours of 
operation.
    As an illustrative example of the efforts EPA has made to ensure 
documents are still available for use by staff and the public, EPA 
received a request on the afternoon of Thursday, June 7, from the 
congressional Research Service at the Library of Congress, for a print 
copy of a document identified in EPA's Online Library System (OLS) as 
being held in the EPA Headquarters Repository. This document is 
available online and is also held in several of the libraries in the 
EPA National Library Network. Because the person for whom he was 
requesting the item specifically wanted to use a print copy of the 
document, the requestor wanted to come to EPA Headquarters to get the 
physical document (picking up the document in person would not only 
allow faster access to the item, but would avoid the risk of damage to 
our document due to Library of Congress mailroom procedures for x-
raying items arriving via mail or courier).
    The requested item was among the materials that had been 
transferred from the Region 5 Library. The contract librarian at the 
EPA Headquarters Repository was able to locate the document within the 
hour. EPA made arrangements with the requestor for the librarian to 
meet him and the document was delivered to him on Friday morning, June 
8. Follow-up contact with the requestor confirmed that he received what 
he needed and was very pleased with the quick response from EPA 
Libraries.

    Question 1j. Whether, when EPA has switched a journal subscription 
from paper to electronic format in fiscal years 2005, 2006, and 2007, 
the Agency has ensured that it has the right to access--at any time--
material published during the subscription period, including the right 
to use software needed to read the material.
    For example, when EPA goes from subscriptions for paper copies of 
material to subscriptions for electronic copies of material, does EPA's 
contract guarantee the Agency free access to on-line content that was 
published when the Agency had a valid subscription?
    Response. As long as EPA maintains its online subscription, Agency 
employees have full access to back issues of the publication. Should 
the Agency terminate its subscription for any reason, the Agency has 
access to the material published during the time when a subscription 
was in place. The exact method varies by the contractual requirements 
of the subscription publisher. In some cases a small fee must be paid 
for such access.

    Question 2. Provide the names of the current librarians and library 
managers at EPA regional, headquarters, and specialized libraries, 
including contract libraries and EPA personnel. Please also include the 
librarians and library managers who worked at EPA regional, 
headquarters and specialized libraries during the 2006 and 2007 fiscal 
years. Please include the names of individuals who still work for EPA 
and individuals who no longer work for the Agency. The total number of 
years of experience at EPA libraries that EPA no longer has with the 
loss of librarians that occurred in fiscal year 2006 and 2007? Staffing 
levels at each of EPA's libraries for fiscal years 2005, 2006, 2007, 
and projected staffing levels for 2008.
    Response. The attachment ``EPA Library Staffing'' provides this 
information. [The attachment is retained in the committee's file.] This 
attachment includes the names of individual librarians and library 
managers at EPA regional, headquarters, and specialized libraries, 
including contract libraries and EPA personnel per your request. EPA 
respectfully asks that you not further disseminate this information 
beyond the Committee members and their staffs in order to minimize the 
potential for public scrutiny or harassment of these individuals or 
disruption of Agency services. Based on long-standing executive branch 
practices, EPA also respectfully requests that you and your staff 
continue to coordinate all of your requests for information or 
interviews through the Office of congressional and Intergovernmental 
Relations.

    Question 3a(1).  Numerous library organizations representing a wide 
range of librarians and library users have voiced concerns that EPA's 
closure and management of its libraries is degrading the Agency's 
library system. Please confirm the following: In 2004, did an EPA 
document analyze the costs and benefit of the Agency's library system 
and did this analysis: Show that every $1 spent on the libraries 
returned $2 to $5.7 in services to EPA staff and non-EPA individuals 
who used the Agency's libraries?
    Response. The report ``Business Case for Information Services: 
EPA's Regional Libraries and Centers'' (attached) did show that our 
library services are a tremendous resource to our staff and the public 
and that is why the Agency continues to provide (and expand) these core 
library services. EPA strongly believes that cost savings associated 
with closure of physical library space does not equate to reduced 
library services.

    Question 3a(2). Conclude that EPA librarians saved EPA personnel 
and non-EPA personnel between 1 and 8 hours for every reference 
question answered, and approximately 1 hour for every document 
delivered.
    Response. The report did show that our library services are a 
tremendous resource to our staff and the public and that is why the 
Agency continues to provide (and expand) these core library services. 
EPA strongly believes that cost savings associated with closure of 
physical library space does not equate to reduced library services.

    Question 3a(3). Find that in 2003, librarians successfully answered 
56,175 reference questions from EPA staff and others and conducted 
90,116 database searches and that the librarians that conducted these 
activities (answering reference questions and searching databases) 
saved more than 323,000 hours of work and more than $10 million for EPA 
and non-EPA users?
    Response. The report did show that our library services are a 
tremendous resource to our staff and the public and that is why the 
Agency continues to provide (and expand) these core library services. 
EPA strongly believes that cost savings associated with closure of 
physical library space does not equate to reduced library services.

    Question 3a(4). Recommend that EPA take five steps prior to 
changing its library system, including that the Agency survey 
information users at each library location and characterize the needs 
of end users, inventory EPA information resources, characterize and 
assess factors that enable or constrain the sharing of resources and 
services between libraries, develop models of cooperative services, and 
review and revise as appropriate EPA's existing policy framework for 
information services? Please describe whether EPA conducted these 
activities, including the date that EPA completed these activities, and 
provide all EPA records, including any memoranda, email, meeting notes, 
telephone logs or other EPA records demonstrating the Agency's 
completion of these activities.
    Response. Each of the 26 libraries within the EPA National Library 
Network was given the opportunity to solicit library user input from 
October 15, 2004 through March 15, 2005. The surveys were conducted 
online and the results provided individually to each location that 
initiated a survey. The overall response rate to the survey was 
approximately 14 percent. The Agency developed the 2007 Library 
Modernization Plan with this feedback and from our discussions with 
stakeholders. Each of the libraries used this information, along with 
many other factors to make the ultimate determination as to the status 
of their individual physical libraries.
    As Administrator Johnson committed to in his testimony before the 
Committee in February 2007, EPA is undertaking a broad assessment of 
our overall library modernization efforts. EPA is working closely with 
both internal and external stakeholders to ensure that as we continue 
to move forward with making more information available to a broader 
audience we do so understanding we are meeting their library service 
needs.

    Question 3b(1). In 2005, did an internal EPA report on the 
potential effects of a large reduction in funding in fiscal year 2007: 
State, ``Although the demand for library services remains high, EPA 
libraries have been receiving less funding every year for the past 4 or 
5 years.''
    Response. Over the past several years, the Agency's budget, which 
includes libraries, has experienced reductions. However, these 
challenges have encouraged the Agency to streamline and modernize 
service delivery in many areas including libraries. The Agency 
continues to provide (and expand) these core library services. EPA 
strongly believes that cost savings associated with closure of physical 
library space does not equate to reduced library services.

    Question 3b(2). Find that if EPA's libraries suffered a $1.5 
million funding reduction that ``Regional libraries' capacity to handle 
the tens of thousands of core service requests from EPA users could be 
greatly diminished'' and that ``[Oven the large number of library 
service requests that the Regional libraries receive . . . , it is 
unlikely that all of these requests will be able to be handled by the 
Library Network's remaining library staff in fiscal year 2007.''
    Response. The Agency has never contemplated the elimination of 
library services for. Agency staff or the public. All Agency staff and 
the public continue to have access to core library services. EPA 
strongly believes that cost savings associated with closure of physical 
library space does not equate to reduced library services.

    Question 3b(3). Conclude that closing regional libraries was ``not 
a good option for any EPA Regional office . . . [and that] could 
adversely affect Regional staff persons' ability to function. 
Therefore, the workgroup did not consider this option any further.''
    Response. The workgroup did examine and reject the option to have 
Regional libraries close their physical space and ``discontinue support 
of all core library services, thereby eliminating all library resources 
for their Regional staff.'' [See attached: ``Optional Approaches to 
U.S. EPA Regional Library Support.''] The Agency agrees with the 
rejection of this option and never has contemplated the elimination of 
library services for Agency staff or the public. All Agency staff and 
the public continue to have access to core library services.

    Question 3b(4). Provide the Agency with a variety of options other 
than closing libraries? Describe whether EPA implemented or assessed 
any of these activities, including the date that EPA completed any such 
activity. Provide all EPA records, including any memoranda, email, 
meeting notes, telephone logs or other EPA records demonstrating the 
Agency's completion of such activities.
    Response. Yes, the internal workgroup report discussed a number of 
options and made four recommendations to EPA management. The Agency 
examined these recommendations and has embraced all of them. The 2007 
Library Plan (attached) incorporates these recommendations and cites 
this report as a key input.

    Question 3c(1). In 2006, did EPA's Office of Enforcement and 
Compliance Assurance (OECA) draft a ``position paper'' on EPA's 
libraries that: Stated, ``OECA is concerned that the loss of 
institutional memory as well as the loss of expertise from professional 
libraries in the regions will hamper OECA's enforcement program.''
    Response. During early discussions on the Agency's plan to 
streamline and modernize its library services, the enforcement office 
did identify issues with respect to ensuring the timely accessibility 
of library material, the need to maintain critical staff expertise, and 
the costs and funding arrangements for providing library services. The 
enforcement office is continuing to work cooperatively with the Office 
of Environmental Information (OEI) to make certain that resources and 
procedures are in place to ensure that material continues to be 
accessible and that the unique requirements of the enforcement program 
are addressed.

    Question 3c(2). Found that EPA Region 5's library has begun to 
disperse collection its collection and that, ``flinformation from the 
collections regarding the Great Lakes Initiative or data surrounding 
human health studies may have been dispersed and OECA and the Agency 
may not be able to locate this essential information.''
    Response. OECA's draft position paper dated September 15, 2006 did 
state this. Region 5's library closed to foot traffic in August 2006. 
The unique EPA documents from Region 5 were digitized as of January 
2007 and all other holdings were sent to the library repositories.

    Question 4. Describe whether EPA has maintained all reports that it 
is legally required to have publicly accessible, including but not 
limited to risk management plans for chemical facilities and Superfund 
National Priorities List Dockets in fiscal years 2005, 2006, and 2007. 
Describe the title and type of documents that EPA is required to 
maintain and the methods that EPA has used to ensure such 
accessibility. If the Agency has failed to maintain such accessibility, 
describe the length of time that access was limited and the reasons for 
the limitation.
    Response. In light of the September 11 events, EPA has removed Risk 
Management Plan (RMP) information from its Web site. RMP information is 
available to the public on request. Access to one part of the RMPs, the 
Off-Site Consequence Analysis Information (Chemical Accident Scenarios) 
is restricted by law. However, at Federal Reading Rooms, the public may 
access Offsite Consequences Analysis (OCA) Information, in the form of 
paper copies. Federal Reading Rooms are operated by the US EPA and the 
Department of Justice in all 50 States. Information on location of 
reading rooms and procedures for visiting the reading rooms can be 
found on EPA's Web site at http://yosemite.epa.gov/oswer/ceppoweb.nsf/
content/readingroom.htm.
    As to materials associated with listing sites on the Superfund 
National Priorities List (NPL), EPA operates a physical docket in EPA 
Headquarters and a docket in each of the 10 EPA Regions. EPA also 
operates a public electronic docket that provides access to listing 
documents. The dockets were in operation during fiscal years 2005 and 
2006, and are currently in operation. The public has the opportunity to 
comment on EPA's proposed addition of sites to the NPL at http://
www.epa.gov/superfund/sitesinpl/newprop.htm. EPA publishes notices in 
the Federal Register listing which sites are being proposed to the NPL.
    EPA considers all comments received during a 60-day comment period 
following the publication date in the Federal Register. During the 
comment period, comments are placed in the Headquarters docket and are 
available to the public on an ``as received'' basis. A complete set of 
comments will be available for viewing in the Regional docket 
approximately 1 week after the formal comment period closes.
    The Headquarters Superfund docket contains:
    <bullet> HRS scoresheets for each proposed site;
    <bullet> a documentation record for each site describing the 
information used to compute the HRS score;
    <bullet> information for any site affected by particular statutory 
requirements or EPA listing policies; and
    <bullet> a list of documents referenced in the documentation 
record.
    Each Regional docket contains all of the information in the 
Headquarters docket for sites in that Region, plus reference documents 
containing the data principally relied upon and cited by EPA in 
evaluating the listing of sites in that Region. The public may access 
EPA Dockets electronically by going to http://www.regulations.gov

    Question 5. Has the EPA's National Enforcement Investigations 
Center Environmental Forensics Library experienced an increase in the 
number of requests for assistance in answering reference questions or 
searching databases for documents? If so, please describe the level of 
increase compared to the past number of requests.
    Please also provide any records describing complaints concerning 
the length of time or difficulty in finding documents at this library 
after EPA began to disperse material and close its regional and 
specialized libraries.
    Response. Since the libraries have closed only recently, there is 
limited data. According to the limited data available, there has been 
an increase in the database searches, extended reference searches and 
quick reference searches. Data base searches have increased from 
January with 3 searches to April which had 6 searches. The highest 
month was in March with 13 searches. Extended reference searches rose 
from 4 in January to 10 in April, with the highest being 18 searches in 
March. Quick reference searches rose from 24 in January to 33 in April, 
with March being the highest at 35 quick reference searches.
    NEIC has received no complaints concerning the length of time or 
difficulty in finding documents.

    Question 6. Describe the purpose of EPA's On-Line Library Service, 
including the name of the software that runs this service, the date 
that the software was created, and whether any Agency staff, including 
librarians who are contractors, have formally or informally requested 
that EPA modernize this service over the last 6 years.
    Provide all EPA records, including any memoranda, email, meeting 
notes, telephone logs or other EPA records that describe the request 
and EPA's response to the request.
    Response. EPA's Online Library System (OLS) is the Agency's online 
``card catalog.'' The OLS is a self-contained data management system 
that enables EPA staff and the general public to search for documents, 
books, journals, or reference materials held by any of EPA's libraries 
and repositories. Users can search for items by author names, keywords, 
titles, publication year, publisher, and EPA document number, using 
both exact searches and full text searches. The system will indicate 
how many times the search criteria are found within each record.
    The Online Library System was created in the mid 1980's using 
BASIS, a database management system that employed a hierarchical 
architecture. Over the years there have been continuous improvements to 
the system, many at the request of network librarians. In 1993 OLS was 
migrated to BASIS Plus which uses a relational database architecture. 
In 1994 a circulation system module was developed using the BASIS PROC 
language. In 1998 OLS was migrated to an IBM AIX/UNIX server to 
facilitate Internet access which was accomplished using BASIS Webserver 
as the front end. In 2001 a serials management module was added to the 
system to enable network librarians to more easily manage journal 
holdings. The current version of BASIS software is 8.2.4.
    Since late 2006, the database administrator has been working on a 
development version of OLS using ORACLE software as the database 
management system and ColdFusion as the user interface for Internet 
access. The OLS national catalog and supporting programs have been 
successfully migrated, and the circulation and serials modules are in 
process. Once complete, the system will be moved to production in the 
ORACLE environment.
    EPA librarians catalog or input records for materials acquired by 
their individual libraries into the Online Computer Library Center 
(OCLC) system. More than 57,000 libraries worldwide use OCLC services 
to catalog, locate, acquire, lend, and preserve library materials. 
EPA's OLS database administrator receives EPA's new or revised catalog 
records from OCLC on a regular basis and promptly updates OLS so that 
the latest information on EPA holdings is available to both EPA staff 
and the public. Using OLS or OCLC, other libraries or the general 
public through their'local library, can easily identify materials in 
the EPA National Library Network and make requests for interlibrary 
loan of needed items.
    We are continuing to search for the specific records that you have 
requested and will update our response as our search progresses.

    Question 7. In the 2006 or 2007 fiscal year, has any EPA official 
stated, either verbally or in writing, including any email, memo, note 
or other record, that EPA personnel or contractors should not tell 
members of the public or other individuals that EPA's libraries were 
closing or that the Agency was modifying library operations in a way 
that could reduce or slow down services?
    Please also provide all EPA records, including any memoranda, 
email, meeting notes, telephone logs or other EPA records that describe 
such statements and any concerns or reactions from EPA staff or 
contractors to any such statement.
    Response. The Agency is not aware of any such instruction being 
given. EPA has striven to be transparent with our plans. On August 15, 
2006, EPA issued the FY2007 Library Plan: National Framework for the 
Headquarters and Regional Libraries. Additionally, on September 20, 
2007, EPA issued the Federal Register Notice ``Notification of Closure 
of the EPA Headquarters Library.''
    EPA has consistently communicated to its staff and the public that 
the closure of these physical library spaces did not mean that library 
services would be curtailed; they would simply be received in a 
different manner through servicing libraries in RTP, NC, Cincinnati, OH 
or Washington, DC.

    Question 8a. Describe whether EPA personnel ordered material, 
including journals, from the Office of Prevention, Pesticides and Toxic 
Substances' library to be discarded or recycled in November 2006.
    Provide all EPA records, including any memoranda, email, meeting 
notes, telephone logs or other EPA records that pertain to involvement 
by Agency personnel in any of the instances described.
    Response. OPPT followed the EPA FY2007 Library Plan in determining 
the disposition of library materials. The process in the Framework 
document to offer library holdings to other libraries and to make 
determinations about the final disposition of materials was followed. 
An EPA staff person expressed concern that some non-unique documents 
that were scheduled for recycling could be of use to another library if 
additional time were allowed to make arrangements. These documents were 
previously evaluated and determined to be non-unique. In addition, 
these same non-unique documents had already been offered to other 
libraries. In order to address the staff person's concerns, senior 
managers moved quickly--on the next business day--to delay the final 
recycling of these materials. The staff person was given additional 
time to find a home for these materials at another EPA library.

    Question 8b. Was this order given despite a request by another 
library to review and retain some of the material?
    Response. No, the other libraries had already been offered these 
materials and had declined them. The EPA staff person took it upon 
himself to find a home for them.

    Question 8c. Was any of the material taken out of bins or other 
canisters, where it had been placed for disposal or recycling, and 
distributed for review and possible retention?
    Response. Yes, these materials had previously been offered to other 
libraries and those libraries declined to take the materials. As they 
were not needed by other libraries and were not unique EPA documents, 
they were designated to be recycled.

    Question 8d. Did other libraries retain any of the material taken 
from the bins or canisters?
    Response. Yes, the materials identified by the EPA staff person 
were ultimately accepted by another EPA library.

    Question 8e. Was any internal investigation into the potential 
disposal or discarding of materials ever threatened or undertaken?
    Response. The EPA staff person made a telephone call to the Office 
of the Inspector General concerning this issue. After looking into the 
issue further, the Office of the Inspector General (OIG) declined to 
pursue it (see attached email from EPA's OIG).
    We are continuing to search for the specific records that you have 
requested and will update our response as our search progresses.

    Question 9. Describe all EPA library material that the Agency has 
discarded or recycled at Agency libraries that are now closed, 
including the date that the material was discarded or recycled, the 
location at which the material was discarded or recycled, the titles 
and types of documents discarded Or recycled, and the estimated value 
of the material discarded or recycled. If EPA has discarded or recycled 
material at other Agency libraries due to budget constraints, including 
a reduction in the amount of space available to a library, please also 
include the same information for this material.
    Response. Generally, EPA did not keep a record of all the documents 
that were recycled as part of this process (it is not standard industry 
practice to do so). However, we have instructed all EPA libraries to 
stop recycling of library materials until we complete responding to all 
congressional inquiries, and to keep a complete list of materials when 
recycling is resumed.
    A good faith effort was made to evaluate the collections contained 
in the closed libraries based on the dispersion criteria included in 
the EPA FY2007 Library Plan. Unique EPA titles were identified, 
digitized, and then sent to one of the three EPA repositories. Non-
unique materials held by the closed EPA libraries, such as journals, 
were evaluated based on usage patterns and their availability 
elsewhere. Only excess non-unique materials were dispersed or recycled 
according to the criteria included in the EPA FY2007 Library Plan. 
However, all libraries have been instructed to cease any dispersion and 
recycling until further notice and begin keeping such records when 
recycling and dispersion is authorized to continue.
    All journals in the EPA HQ collection were moved to the Documents 
collection. Some journal issues were requested by and sent to RTP and 
Cincinnati. All remaining journal materials, both print and microfilm 
were recycled (in the case of the paper) or discarded (in the case of 
the film cassettes).
    Although not required, the EPA HQ library did keep dispersion/
recycling records, and this information is contained in the following 
four attachments:
    (1) EPA HQ Library Journals Collection showing cataloging changes 
and disposition.
    (2) EPA HQ Library monograph/document collection showing unique 
items kept and items dispersed/weeded.
    (3) HQ Journals Dispersed to the OARM Cincinnati Library to Replace 
Missing Issues or Extend the Depth of Holdings within that Library.
    (4) Disposition of HQ Library Reference Materials--showing 
disposition of materials. (EJBR refers to JQ reference collection. 
Other 4-letter codes identify other libraries within the EPA Library 
Network that have a copy of the same material in their collections.

    Question 10a. Toxic Release Inventory (TRI).--On January 26, 2007, 
President Bush signed Executive Order 13423, that, among other things, 
revoked Executive Order 13148, which the prior Administration created 
in 2000. Executive Order 13148 required the head of each Federal Agency 
to take ``all necessary actions . . . to integrate environmental 
accountability into Agency day-to-day decisionmaking and long-term 
planning processes'' in order to make ``environmental management 
considerations, a fundamental and integral component of Federal 
Government policies, operations, planning, and management.'' The order 
made each Federal Agency responsible for reducing ``its reported Toxic 
Release Inventory (TM) releases and offsite transfers of toxic 
chemicals for treatment and disposal by 10 percent annually, or by 40 
percent overall by December 31, 2006.'' Please provide the following 
information concerning Executive Order 13148:
    All annual reports that agencies submitted to EPA under section 
307, which described an Agency's implementation of the order.
    Response. Executive Order (E.O.) 13148, ``Greening the Government 
Through Leadership in Environmental Management,'' established goals for 
the integration of environmental considerations into Federal Agency 
planning, programs and policies. Section 307 of E.O. 13148 states, 
``(E)ach Agency shall submit an annual progress report to the 
Administrator [of the EPA] on implementation of this order.'' Each 
year, those Federal agencies that met the requirements of the order 
provided an annual report based on guidance that was prepared in 
coordination with the Interagency Environmental Leadership Workgroup 
(Workgroup) convened under section 306 of E.O. 13148 to develop 
policies and guidance required by the order. The reports frequently 
focused on progress toward environmental management systems that were 
required under E.O. 13148. It should be noted that the reports did not 
include TRI data since this information is already reported to EPA 
under the TRI reporting program as called for in section 501 of the 
order.
    For the past several years, EPA has received reports ranging from 
10 to 50 pages from 15-20 agencies each year. Therefore the number and 
volume of annual reports is considerable. We are sending a 
representative sample of the reports submitted electronically to EPA 
during the past year for your review and would be happy to provide 
additional reports if the committee would find that useful.
    While E.O. 13423 revoked E.O. 13148, the requirement. for Federal 
Agencies to continue reporting under the TRI program, is explicit in 
the E.O. 13423 Implementing Instruction issued by CEQ in late March. 
Further, the Instruction requires that by January 24, 2008, agencies 
develop written goals and support actions to reduce the release and use 
of toxic chemicals, hazardous substances, ozone depleting substances 
and other pollutants.

    Question 10b. Descriptions of pilot studies that EPA coordinated at 
Federal facilities under section 501(e) of the order, which concerned 
agencies' collection and dissemination of information on the release 
and other waste management of chemicals associated with the 
environmental response and restoration at Federal facilities.
    Response. No Federal Agencies showed an interest in participating 
in pilot studies conducted under section 501(e) of E.O. 13148.

    Question 10c. The list of priority toxic chemicals that EPA created 
under section 503(b), which agencies used to guide their toxic chemical 
use reduction programs. If EPA modified this list over time, provide 
the list for each year that EPA maintained such a list. Also provide 
information on the known or suspected health effects of all chemicals 
that EPA included on a list, highlighting chemicals that are known to 
cause cancer, harm the reproductive system, or damage the nervous 
system.
    Response. The list of priority toxic chemicals under section 503(b) 
of E.O. 13148 consisted of Mercury, Cadmium, Lead, Napthalene and, PCBs 
at concentrations greater than 500 ppm. Information on health effects 
of the Federal priority chemicals may be found at http://www.epa.gov/
epaoswer/hazwaste/minimize/chemlist.htm.

    Question 10d. All requests for waivers of reporting requirements 
under this order that Federal Agencies submitted to EPA under section 
502(b). Include the agencies' descriptions of the need for a waiver and 
EPA's response to the waiver request.
    Response. There were no requests made to EPA for a waiver under 
section 502(b) of E.O. 13148.

    Question 11. Describe the methodology, database, and analysis that 
EPA used to determine the impact on small businesses from the Agency's 
December 18, 2006 TRI rulemaking. Provide all EPA records, including 
memoranda, email, and meeting notes, telephone logs or other EPA 
records that describe concerns that EPA staff or contractors had over 
the adequacy of EPA's methodology, database, or analysis.
    Response. The overwhelming impact of the rule on all reporters, 
including small businesses, is beneficial. The rule is expected to save 
reporters approximately $6 million, a significant portion of which will 
be saved by small businesses.
    However, a small number of facilities that currently file the 
shorter Form As will be required to file Form Rs as a result of the 
final rule's requirement that facilities now include amounts associated 
with catastrophic or other non-production related events in their Form 
A eligibility determinations. In these limited situations, the rule is 
expected to adversely affect 19 parent companies that own 32 
facilities. Nine of these 19 parent companies are small businesses as 
defined by the Small Business Administration. All nine are expected to 
experience incremental cost impacts of less than 1 percent of annual 
revenues.
    The methodology, data, and analysis EPA used to quantify this 
impact on small businesses is explained in Chapter 7 of the Economic 
Analysis (EA) done in support of the rule. The entire EA has been 
placed in the docket for this final rule and can be accessed at 
www.regulations.gov under docket TRI-2005-0073; entries 4,988 to 4,997. 
For your convenience, a copy of the entire analysis has been attached 
to this response. In addition, we are attaching two additional relevant 
documents completed by a contractor.
    Based on a limited data set of commercially available information, 
EPA estimates that approximately one quarter of the reports that would 
be newly eligible to use Form A would be filed by small businesses, 
thereby saving these businesses the difference in time associated with 
completing the short form instead of the longer reporting form. This is 
about the same as the percentage of reports from small businesses in 
the entire TRI reporting universe. The analyses conducted to arrive at 
this estimate and to assess the benefits to small businesses are 
included with this response.
    A search of records concerning potential small business impacts did 
not reveal any memos, emails, meeting logs, or other evidence of EPA 
staff or contractor expressions of concern over the methodology, 
database, or analysis of these issues.
                                 ______
                                 
     Responses by Stephen L. Johnson to Additional Questions from 
                           Senator Whitehouse
    Question 1. TRI.--Under the EPA's new Toxics Release Inventory 
rule, many facilities that fall below a certain threshold of releases 
of certain chemicals are exempt from detailed reporting; and instead 
are able to use a different reporting form that requires only the name 
of the chemical, but no other data on waste management or releases. 
This new rule raises the original threshold for the exemption by four-
fold--from 500 pounds to 2,000 pounds (with a total cap of 5,000 
pounds). EPA claims that this new rules provides savings between $438 
and $748 per form and 9.1 to 15.5 work hours per form. Has EPA analyzed 
the impact of the new TRI rule on any of the following issues?
    <bullet> Which chemicals will now be unreported as a result of the 
new rule.
    <bullet> The quantity of chemicals that will no longer be reported 
as a result of this new rule.
    <bullet> The identity and number of communities that will lose 
reporters.
    <bullet> The socio-economic status of the people who live in those 
communities.
    <bullet> The environmental justice impacts of this rule on these 
communities.
    <bullet> The public's right to know what is happening in their 
neighborhoods.
    Please provide all documents that were produced as a result of any 
of these analyses.
    Response. No facilities have been exempted from TRI reporting in 
this final rule, and no chemicals have been eliminated from the list 
for which facilities must report. Instead, if companies want to save 
time by using the shorter Form A for reporting, they will have to make 
sure that they eliminate or minimize releases and other disposal, and 
shift to environmentally preferable ways of managing chemicals. For 
both PBTs and non-PBTs expanded Form A eligibility under the final rule 
is structured in a way that favors recycling and treatment over 
releases, thereby discouraging chemical releases and encouraging 
preferred waste management practices such as recycling.
    While Form A does not provide the same details as Form R about the 
releases and other waste management of a chemical, Form A provides 
information beyond the name of the chemical. In addition to providing 
facility identification information Form A can be used by communities 
as a ``range report,'' i.e., an indication that the facility manages 
between 0 and 500 pounds of a persistent, bioaccumulative and toxic 
(PBT) chemical as waste and has no releases or other disposal of the 
PBT chemical. For a non-PBT chemical, a Form A will indicate that the 
facility manages between 0 and 5,000 pounds of the chemical as waste, 
of which no more than 2,000 pounds is released. The remainder is 
treated, recycled, or used for energy recovery.
    The total amount of releases that may no longer be reported on Form 
R is 5.7 million pounds, which is 0.14 percent of the total releases 
reported to TRI annually. Table A-3 of the Appendix to the Economic 
Analysis conducted in support of the rule lists the 26 chemicals for 
which TRI may no longer receive Form R detailed release information due 
to expanded Form A eligibility. For your convenience, a copy of the 
entire EA has been attached to this response.\1\
---------------------------------------------------------------------------
    \1\ The entire EA, by chapter, has been placed in the docket for 
this final rule and can be accessed at www.regulations.gov under docket 
TRI-2005-0073; entries 4,988 to 4,997.
---------------------------------------------------------------------------
    EPA also considered the specific communities impacted by this rule 
including the socioeconomic status of the residents and the 
environmental justice implications. EPA used a postal zip code analysis 
to assess how the rule would affect the distribution of TRI reporting 
at the community level. We estimated that 47 percent (4,246) of all zip 
codes with Form R reports would have at least one Form R become 
eligible for Form A reporting and 6 percent (557) would have all 
current Form Rs become eligible for Form A reporting.
    EPA also considered potential effects on the level of detail of the 
information available to minority and low-income communities. While 
there is a higher proportion of minority and low-income communities in 
close proximity to some TRI facilities than in the population 
generally, the rule does not appear to have a disproportionate impact 
on these communities, since facilities in these communities are no more 
likely than elsewhere to become eligible to use Form A as a result of 
the rule. For your convenience, a copy of this assessment has been 
attached to this response.\2\ [The copy is retained in the committee's 
file.]
---------------------------------------------------------------------------
    \2\ Results of the environmental justice assessment on the final 
rule are available in the docket as entry 5,007.

    Question 2. PERCHLORATE.--Does perchlorate present a public health 
concern?
    Response. In order to assess the public health concern of 
perchlorate, EPA believes additional information is needed to fully 
characterize perchlorate exposure to assess the opportunity for health 
risk reduction through a national primary drinking water standard. 
Perchlorate can interfere with normal functioning of the thyroid gland 
by competitively inhibiting the transport of iodide into the thyroid. 
EPA has adopted a reference dose (RfD) for perchlorate based upon the 
January 2005 recommendations of the National Academies of Science (NAS) 
entitled ``Health Implications of Perchlorate Ingestion.'' The Agency 
is committed to examining the perchlorate science to ensure that our 
policies are protective of public health.

    Question 3. There are scientific data demonstrating measurable 
levels of perchlorate in breast and store milk (Kirk, et al., 2005), in 
numerous common food items (El Aribi et al., 2006; FDA, 2004), and in 
human urine (Blount, et al., 2006). Please explain how EPA has 
incorporated these studies into its assessment of perchlorate, and into 
its assessment of aggregate exposure levels to the population from 
multiple sources, including food, contaminated water, and breast milk. 
How has EPA considered the aggregate exposure to perchlorate 
specifically for vulnerable populations including infants and young 
children?
    Response. EPA considers aggregate exposure to a chemical such as 
perchlorate through the development of a Relative Source Contribution 
(RSC). The RSC is a means by which the amount of exposure to a chemical 
resulting from sources other than drinking water is incorporated into 
the assessment of the potential health impacts of drinking water 
exposure. Developing an RSC requires an evaluation of the exposure to 
the chemical from sources other than water, such as from foods. EPA's 
May 1, 2007 Federal Register (FR) notice (72 FR 24016) presents for 
public comment approaches for using the types of data listed in this 
question.
    As required by the Safe Drinking Water Act, EPA will consider the 
effect of perchlorate on subgroups that comprise a meaningful portion 
of the general population (such as infants, children, pregnant women, 
the elderly and individuals with a history of serious illness) to 
assess if any are at greater risk of adverse health effects as a result 
of perchlorate in drinking water. EPA will use the available scientific 
data including the recommendations of the National Academies of Science 
(NAS). NAS identified the fetuses of pregnant women who have 
hypothyroidism or iodide deficiency as the subpopulation most sensitive 
to the effects of perchlorate exposure. To protect this subpopulation, 
the NAS recommended that EPA derive a Reference Dose (RfD) by taking 
the dose at which no observable effect (adverse or non adverse) is 
anticipated in adults and reducing it by a factor of 10.

    Question 4. The current perchlorate assessment posted on the IRIS 
database (www.epa.gov/iris) does not represent the result of a full 
hazard assessment and was not provided for public comment in its draft 
form. Further, it did not consider aggregate (multiple sources) 
exposures. Will EPA work with the staff of IRIS to develop a rigorous 
scientific hazard assessment for perchlorate?
    Response. The draft assessment for perchlorate was provided for 
public review as well as expert scientific review by the National 
Research Council of the National Academies of Science (NAS). In 
reviewing EPA's draft assessment, the NAS recommended an RfD and 
included the rationale for their recommendations in the report ``Health 
Implications of Perchlorate Ingestion (2005)'' [www.epa.gov/iris]. The 
NAS report was itself subject to the detailed independent peer review 
process routinely conducted by the National Academies, and overseen by 
members of the National Academies of Science. EPA adopted the report 
and recommendations and developed an IRIS Summary based on this NAS 
report which can be found on the IRIS Web site [www.epa.gov/iris]. The 
IRIS Summary provides a link for users to obtain the full NAS report.
    As is the case for other assessments, the perchlorate assessment 
available on IRIS reflects the hazard component of the risk assessment 
only. IRIS assessments do not incorporate any component of exposure. 
The IRIS assessment was developed pursuant to an in-depth analysis by 
the NAS and reflects the deliberations of that body.
    EPA believes that the NAS analysis reflects the best available 
science regarding the hazard of perchlorate to all age groups, 
including sensitive subgroups.

    Question 5. Does EPA plan on conducting a probabilistic risk 
assessment for perchlorate, with consideration of aggregate exposures 
and vulnerable populations?
    Response. EPA will collaborate with other agencies such as FDA and 
CDC to analyze the available data on total exposure to perchlorate 
including perchlorate in foods to enable the Agency to determine if a 
national primary drinking water regulation for perchlorate presents a 
meaningful opportunity for health risk reduction. EPA will consider the 
effect of perchlorate on subgroups that comprise a meaningful portion 
of the general population (such as infants, children, pregnant women, 
the elderly and individuals with a history of serious illness) to 
assess if any are at greater risk of adverse health effects as a result 
of perchlorate in drinking water.
    If EPA makes a determination to regulate perchlorate in drinking 
water, then the Agency will, in accordance with SDWA 1412.b.3, present 
a risk assessment for perchlorate that will include to the extent 
practicable: identification of populations at risk of perchlorate 
exposure through public water systems, the expected or central estimate 
of risk for the populations, and the appropriate upper bound and lower 
bound estimate of risk. EPA would also prepare a Health Risk Reduction 
Cost Analysis (HHRCA) that would include an assessment of the effects 
of perchlorate on the general population and on groups identified as 
likely to be at greater risk of adverse health effects due to exposure 
to perchlorate in drinking water than the general population.

    Question 6. Will EPA list perchlorate on the CCL 3 (Contaminant 
Candidate List)? Will EPA establish a science-based drinking water 
standard for perchlorate that reflects aggregate exposures and 
considers sensitive populations? If so, what is the timeline for 
progress on finalizing a drinking water standard?
    Response. EPA expects to publish the draft CCL 3 in 2008 for public 
comment. As a currently unregulated contaminant perchlorate is among 
the contaminants that the Agency is considering for CCL 3. However, EPA 
does not intend to wait for the CCL 3 regulatory cycle to complete its 
regulatory determination for perchlorate. EPA may be able to provide a 
final regulatory determination for perchlorate as part of the final CCL 
2 regulatory determination which is due by July 2008. Otherwise, EPA 
will publish its final determination for perchlorate as soon thereafter 
as possible.
    If EPA decides to regulate perchlorate, EPA would develop a 
proposed drinking water standard within 24 months of that 
determination. The proposed standard would be based in part upon 
consideration of a Health Risk Reduction and Cost Analysis (HRRCA). In 
accordance with SDWA 1412.b.3, EPA would prepare a HRRCA that would 
include an assessment of the effects perchlorate on the general 
population and on groups identified as likely to be at greater risk of 
adverse health effects due to exposure to perchlorate in drinking water 
than the general population. The Agency would promulgate the drinking 
water standard within 18 months of proposal (SDWA provides for an 
additional 9-month extension if needed).

    Question 7. EPA LIBRARIES.--Please provide the committee with a 
detailed catalog of documents that were destroyed before an electronic 
record was made. Are those documents now available to the public? (If 
not, when will they be?)
    Response. No unique EPA documents were destroyed. All unique EPA 
documents were digitized and continue to be available to EPA staff and 
the public via Interlibrary Loan (ILL) and online via the National 
Environmental Publications Internet Site (NEPIS). Documents were not 
recycled before ensuring that other copies are available either in the 
EPA library network or beyond through interlibrary loan.
    Some materials that were non-unique EPA documents and available 
through other libraries or bookstores were recycled as they were not 
intended to be digitized.

    Question 8. How many full time employees are dedicated to 
digitizing the information from EPA libraries?
    Response. Full-time EPA employees are not dedicated to digitizing 
the information from EPA libraries. Contractor support is used to 
digitize EPA library information via a contract with Lockheed Martin 
Services, Inc. and entered into the National Environmental Publications 
Internet Site (NEPIS) by Integrated Information Systems, Inc.

    Question 9. What is the budget that EPA has earmarked specifically 
for the task of digitizing information from EPA libraries?
    Response. For you information, EPA spent approximately $78,950 for 
digitizing materials for closed libraries in fiscal year 2007. EPA has 
an additional $170,000 remaining for digitization in fiscal year 2007.

    Question 10. What is the timeline that EPA has developed for 
digitizing information from EPA libraries?
    Response. As per our public commitment, EPA completed digitization 
of all unique EPA documents in the closed physical libraries of 
Headquarters and Regions 5, 6, and 7. Access to these documents was 
made available through NEPIS as of January 31, 2007.
    EPA had previously planned to digitize all remaining unique 
documents from the remaining libraries by the end of 2008. While this 
remains our goal, EPA has temporarily suspended further digitization. 
In response to our stakeholders, EPA is currently conducted an 
independent, third-party review of our procedures. Once the review is 
both completed and peer-reviewed, we will develop a revised 
digitization plan, including budget requirements and a schedule. This 
plan will also address the approximately 1950 unique EPA documents from 
the OPPT Chemical Library.

    Question 11. How has EPA prioritized its selection of information 
to be digitized? Please, identify the list of priorities, by indicating 
what information will be digitized first, second, third, and so on, and 
by indicating the deadline for digitizing that information? With whom 
did EPA work to develop its priorities and deadlines? Please provide 
documentation of these deliberations and final decisions.
    Response. EPA completed digitization of all unique EPA documents in 
the closed physical libraries of Headquarters and Regions 5, 6, and 7. 
Access to these documents was made available through NEPIS as of 
January 31, 2007. EPA plans to digitize all remaining documents in our 
collection which we have the right to digitize (i.e. published by EPA 
and in the public domain). The digitization of these remaining EPA 
documents awaits the completion of the independent expert review of our 
digitization specifications and procedures. Once the review is both 
completed and peer-reviewed, we will develop a revised digitization 
plan, including budget requirements.

    Question 12. Will all digitized information be searchable by key 
words or by words in the document? Will all digitized information be 
freely available through the World Wide Web?
    Response. Digitized information can be accessed at http://epa.gov/
ncepihom/ or by contacting an EPA reference librarian for assistance at 
a repository library in Washington, DC, Cincinnati, OH or Research 
Triangle Park, NC. Digitized documents can be searched by key word or 
words in the document.

    Question 13. How will digitized information be accessed?
    Response. Digitized information can be accessed at http://epa.gov/
ncepihom/ or by contacting an EPA reference librarian for assistance at 
a repository library in Washington, DC, Cincinnati, OH or Research 
Triangle Park, NC.

    Question 14. Has EPA analyzed exactly what information has already 
been lost by the closing of these libraries? Please provide the results 
of any analyses.
    Response. The Agency does not believe any information has been lost 
through our process to transform EPA's libraries. EPA is striving to be 
more transparent and forthcoming with information by enhancing our 
online holdings for free and easy public and staff access.

    Question 15. How long will all other EPA Libraries remain open?
    Response. EPA has no plans to close or adjust hours of operation 
for the remaining libraries in the Network.
                                 ______
                                 
     Responses by Stephen L. Johnson to Additional Questions from 
                             Senator Inhofe
    Question 1. What is the process for developing a regulatory 
standard under SDWA as amended? Is there a reason why this process is 
inadequate with respect to perchlorate?
    Response. In accordance with SDWA Section 1412(b), EPA must 
determine whether or not to regulate a contaminant after providing 
notice of a preliminary determination and opportunity for public 
comment. EPA's determination to regulate a contaminant must be based on 
the following findings:
    <bullet> the contaminant may have an adverse effect on the health 
of persons
    <bullet> the contaminant is known to occur or there is a 
substantial likelihood that it will occur with a frequency and at 
levels of public health concern, and
    <bullet> regulation of the contaminant presents a meaningful 
opportunity for health, risk reduction for persons served by water 
systems.
    EPA has not made a preliminary regulatory determination for 
perchlorate because the Agency believes additional information is 
needed to more fully characterize perchlorate exposure and determine 
whether regulating perchlorate presents a meaningful opportunity for 
public health protection.
    If EPA were to decide to regulate perchlorate, the process for 
developing a drinking water standard is defined in Sections 1412 (b) 3-
7 of the SDWA. This process includes a significant amount of analysis 
including;.
    <bullet> establishing a Maximum Contaminant Level Goal (MCLG),
    <bullet> determining the feasible level,
    <bullet> preparing a Health Risk Reduction Cost Analysis (HRRCA),
    <bullet> determining if benefits justify costs, and
    <bullet>  identifying affordable small system compliance 
technologies.
    We do not believe there is any reason why the SDWA regulatory 
determination process or the standard setting processes are inadequate 
with respect to perchlorate.

    Question 2. It is my understanding that the National Academy of 
Sciences based its recommendation upon a level that does not actually 
produce an adverse health effect on human beings. Is that approach more 
conservative than EPA's traditional approach?
    Response. Yes, the approach used by the NAS is more conservative 
than EPA's traditional approach. Using a non-adverse effect (NOEL) that 
is upstream of the adverse effect is a conservative and health-
protective approach to perchlorate hazard assessment. The IRIS 
Program's definition of a reference dose (RfD) is an estimate (with 
uncertainty spanning perhaps an order of magnitude) of a daily oral 
exposure to the human population (including sensitive subgroups) that 
is likely to be without an appreciable risk of deleterious effects 
during a lifetime. It can be derived from a point of departure defined 
as a no-observed-adverse-effect-level (NOAEL), a low-observed-adverse-
effect-level (LOAEL), or benchmark dose with uncertainty factors 
generally applied to reflect limitations of the data used (www.epa.gov/
iris). Depending on the available data for a specific chemical, the 
point of departure may be an overtly adverse effect or an effect that 
occurs earlier on a continuum leading to an adverse effect. EPA's most 
common approach identifies an adverse effect as the starting point for 
the RfD derivation. However, as is stated in the EPA IRIS file for 
perchlorate (available at http://www.epa.gov/iris/subst/1007.htm): 
``The use of a NOEL differs from the traditional approach to deriving 
an RfD, which bases the critical effect on an adverse outcome. Using a 
nonadverse effect that is upstream of the adverse effect is a more 
conservative and health-protective approach to perchlorate hazard 
assessment.''

    Question 3. The NAS's recommended level, upon which EPA's reference 
dose is based, is protective of all sensitive populations and that 
conclusion has since been reiterated by the National Academy members, 
including the Chair. Is there anything to suggest that the National 
Academy was wrong?
    Response. EPA continues to support the NAS report and continues to 
endorse the EPA RfD. The NAS's evaluation was based on the scientific 
evidence available at the time of their report in 2005. A number of 
studies have since been published that have extended our knowledge of 
the relationship between levels of human exposure to perchlorate and 
hormone levels. In addition, the Agency is currently monitoring ongoing 
analyses of National Health and Nutrition Examination Survey (NHANES) 
data by CDC and other research activities from the private sector. 
These data will be evaluated as they are made available to inform 
future directions, including research on human health effects, if 
needed. A thorough discussion of new data and analyses that are 
underway is available in EPA's recently released Preliminary Regulatory 
Determinations for Priority Contaminants on the second Contaminant 
Candidate List. This discussion is available at: http://www.epa.gov/
safewater/ccl/reg--determine2.html.

    Question 4. As I understand it, allowing certain TRI reporters, 
most of which are small businesses, to use the shorter, simpler Form A 
is akin to allowing certain individuals to file their Federal income 
taxes using the 1040EZ form. Is it not true that this change to Form A 
does not relieve them of their duty to report data anymore than using 
the EZ form allows taxpayers to get out of paying taxes?
    Response. The December 2006 final rule expanding eligibility for 
the shorter Form A has not exempted any facilities from reporting to 
TRI and no chemicals have been eliminated from the list for which 
facilities must report. Instead, if companies want to save time by 
using the shorter Form A for reporting, they will have to make sure 
that they eliminate or minimize releases and other disposal, and shift 
to environmentally preferable ways of managing chemicals such as 
through recycling.
    While Form A does not provide the same details as Form R about the 
releases and other waste management of a chemical, Form A nevertheless 
provides important information. In addition to providing the name of 
the chemical and facility identification information Form A can be used 
by communities as a ``rage report,'' i.e., an indication that the 
facility manages between 0 and 500 pounds of a persistent, 
bioaccumulative and toxic (PBT) chemical as waste and has no releases 
or other disposal of the PBT chemical. For a non-PBT chemical, use of a 
Form A indicates the facility manages between 0 and 5,000 pounds of the 
chemical as waste, of which no more than 2,000 pounds is released.

    Question 5. Critics of the TRI rule have maintained that emergency 
responders would be disadvantaged by the EPA reform. Do you agree?
    Response. Emergency responders primarily rely on information from 
the chemical inventory data reporting requirement established in 
Section 312 of the Emergency Planning and Community Right-to-Know Act 
(EPCRA), which provides information to State and local emergency 
planning committees on inventories and locations of hazardous chemicals 
that may be present at a facility at the time of an incident. The use 
of TRI data (collected under Section 313 of EPCRA for different 
statutory purposes) by emergency responders is supplemental to 
information provided to State and Local Emergency Planning Committees 
under Section 312. TRI provides information on releases and other waste 
management activities during a prior reporting year.
    The December 2006 final rule does not relieve any facility of their 
obligation to report to TRI, but rather, allows those facilities that 
eliminate or minimize their releases to use the shorter Form A in lieu 
of the more-detailed Form R. In addition to providing the name of the 
chemical and facility identification information Form A can be used by 
first responders as a ``range report,'' i.e., an indication that the 
facility managed between 0 and 500 pounds of a persistent, 
bioaccumulative and toxic (PBT) chemical as waste and had no releases 
or other disposal of the PBT chemical during the prior reporting year. 
For a non-PBT chemical, use of a Form A indicates the facility managed 
between 0 and 5,000 pounds of the chemical as waste, of which no more 
than 2,000 pounds was released.

    Question 6. Testimony provided by the Natural Resources Defense 
Council stated that methyl isocyanate (MIC) reporting would 
``disappear'' from TRI Form R's. Is this statement correct, and is it 
not true that in 2004, MIC was not even eligible for the new Form A 
because all three potentially eligible facilities treated more than 500 
pounds of MIC?
    Response. For reporting year 2004, the only (three) facilities that 
filed Form Rs for methyl isocyanate treated well in excess of 5,000 
pounds. Therefore, none of these would have qualified for Form A under 
the expanded eligibility provided by the December 2006 final rule.

    Question 7. Given that EPA determined in 1997 to pursue burden 
reduction for TRI, is it not true that EPA is simply finally delivering 
on a promise made by the Clinton administration?
    Response. Since the beginning of the TRI program 20 years ago, the 
Agency has implemented measures to reduce the TRI reporting burden on 
the regulated community while still ensuring the provision of valuable 
information to the public that fulfills the purposes of the TRI 
program. Through a range of compliance assistance activities, such as a 
reporting forms and instructions document, industry training workshops, 
guidance documents, and a TRI call hotline, the Agency has shown a 
commitment to enhancing the quality and consistency of reporting and 
assisting those facilities that must comply with the TRI reporting 
requirements. The final rule expanding Form A eligibility provides new 
incentives to facilities by allowing companies to reduce the amount of 
detail in which they report in return for emitting less of the chemical 
into the environment.

    Senator Boxer. Thank you, Mr. Johnson.
    I am a little confused, you say you are happy to be here to 
celebrate your environmental successes. The hearing is entitled 
Hearing on Oversight of Recent EPA Decisions. Six, you never 
mentioned any of them. You said you would answer questions. So 
I don't--and by the way, some of the things you said I would 
have issue with. But today isn't the place, we will do that 
when we have you back when we talk about the budget.
    But I am going to get to the issues at hand. The Medical 
Library Association and the Association of Academic Health 
Professionals, which represents thousands of health science 
information professionals and more than 140 American and 
Canadian medical schools wrote me a letter describing their 
opposition to EPA's closure of its libraries. They believe the 
closure of the libraries threatens thousands of scientific 
studies and hinders emergency preparedness and anti-pollution 
enforcement activities. They also describe the importance of 
EPA's librarians in helping Agency staff and the public find 
important information.
    Are you aware that the Medical Library Association and the 
Association of Academic Health Science Libraries have expressed 
concern on your program?
    Mr. Johnson. Yes.
    Senator Boxer. How do you respond to that?
    Mr. Johnson. Our goal is to modernize, to have better 
access to a broader audience. We have a record of results, we 
are a science-based Agency, and it is really important for me 
and for us to make sure that that cutting-edge research is not 
only available just across the street, but that it is really 
available around the world.
    Senator Boxer. So you are doing it to get more information 
out? That is your purpose? It is to get more information out?
    Mr. Johnson. The purpose is to get better access for a 
broader audience.
    Senator Boxer. Did you write to them and tell them that 
this is what you want to do? We will send them your testimony.
    Did an EPA official order staff to throw away journals from 
the Office of Prevention, Pesticides and Toxic Substances 
Library?
    Mr. Johnson. Not that I am aware of, no.
    Senator Boxer. I have a copy of an internal EPA email that 
directs staff to discard journals from this library. I will 
give that to you. Can you provide me with all the information 
regarding EPA's decision to dispose of journals and other 
materials? I have this for you.
    Mr. Johnson. Thank you.
    Senator Boxer. So you don't know anything about this 
internal memo?
    Mr. Johnson. Madam Chairman, what I am certainly aware of 
is that, in the case of the OPPTS Chemical Library, there was a 
flood. When the flood happened, it destroyed a number of 
documents, also caused books to be contaminated with mold. So 
to protect our employees, we restricted access to those 
materials. Those materials, if they were unique, have been 
going through a very deliberate process to digitize and make 
them available to everyone.
    Senator Boxer. So let me ask you this. Did an EPA official 
order staff to throw away journals from the Office of 
Prevention, Pesticides and Toxic Substances library?
    Mr. Johnson. I am not aware of that, Madam Chairman.
    Senator Boxer. OK. Here it is, discard remaining journals. 
We will get that to you. Would you answer me in writing after 
you have seen this?
    Mr. Johnson. I would be happy to, for the record.
    Senator Boxer. Thank you. Did an EPA official order the 
removal of information from the EPA's--let me see this one. The 
Special Library Association, whose 11,000 members include 
librarians in business, academia, and government are concerned. 
Because many of their members have told them that the closure 
of EPA's libraries will impact their work directly. Did EPA 
conduct a survey of business, academics, government agencies 
and other library uses prior to closing and reducing services 
at its libraries?
    Mr. Johnson. Madam Chairman, it was a plan that actually 
began in 2003, to evaluate our libraries' effectiveness. As a 
result, we had 26 libraries, and we did close 5. The rest of 
the libraries remain open and they will remain open. We also 
are maintaining our National Environmental Publications 
Internet site, maintaining our inter-library loan program, 
maintaining our online computer library center, maintaining 
EPA's library network; and, all of our research libraries 
remain open.
    Senator Boxer. Administrator Johnson, is EPA Region 4's 
library in Atlanta, GA open to the public and capable of 
handling such things as research and inter-library loan 
requests?
    Mr. Johnson. Our Atlanta office remains open.
    Senator Boxer. Then why does an internal email from EPA 
state that the Agency's library in Cincinnati, OH will handle 
EPA Region 4's core services activities, such as research and 
inter-library loan requests?
    Mr. Johnson. I am not aware. I don't know. I would be happy 
to look into it and respond to the record for you.
    Senator Boxer. Either you are not getting information or 
these emails we have are made up. They are not made up.
    Has the Agency closed EPA's Region 3 environmental science 
library at Fort Meade?
    Mr. Johnson. No.
    Senator Boxer. Then why does the Agency's Web site for the 
library say it is currently unstaffed? Consequently, public 
access to the library facility has been suspended. That is on 
your Web site.
    Mr. Johnson. I will have to look into it.
    Senator Boxer. Are you aware that your own librarians are 
deeply concerned about your dismantling of EPA's library? One 
librarian who worked at EPA for 21 years, including at EPA's 
National Enforcement Investigation Center for the Agency, wrote 
to me and Senator Lautenberg, stating ``As I left the Agency, 
there was an embargo on information about what was happening to 
EPA libraries, including the closure of several of the regional 
libraries. Contract librarians were forbidden to speak out. 
There was an atmosphere of intimidation and a lack of 
transparency.''
    Are you aware that your own librarians were deeply 
concerned?
    Mr. Johnson. What I am aware of is that we began a very 
open and transparent process back in 2003 to modernize, to 
provide better access to a broader audience, and to be good 
stewards not only of the environment but also taxpayers' 
dollars. Again, focus is on a record of results. As was 
mentioned earlier, for example, Dallas, TX, that library over 
the last 4 years, averaged four visitors per month. Four 
visitors per month. Again, our focus is to make the research 
available to a broader audience.
    Senator Boxer. I know, Mr. Johnson, you are reading those 
notes very well. But you are unaware of what is going on in the 
Agency. You obviously don't know, when you tell me some place 
is open and then I talk to you about an email and Web sites 
that say it is not open, when I talk to you about Atlanta, you 
don't know what is going on. I want to ask you this. Would you 
agree to a moratorium on closing these libraries and disposing 
of documents until we have a little time to sort all this out? 
Would you agree to that today?
    Mr. Johnson. Madam Chairman, we are not closing any more 
libraries. So it is easy to agree to a moratorium, because we 
are not closing any more.
    Senator Boxer. So you would agree not to close any more, 
and not to dispose of any more documents?
    Mr. Johnson. We have not been disposing of any documents. 
We have been boxing them up, going through----
    Senator Boxer. Even though I have emails that show that 
documents should be destroyed, you are saying that is not true?
    Mr. Johnson. Well, it is not true as of today. I don't 
know.
    Senator Boxer. Great. I have gone over my time, so 
thankfully for you, I will move to Senator Isakson.
    [Laughter.]
    Senator Isakson. I don't have any emails.
    [Laughter.]
    Senator Boxer. I will send you a few.
    Senator Isakson. In fact, I would appreciate that, if you 
would. I would like to see the copies. I will be the first 
person to tell you that Atlanta must be one of those that has 
only had four visitors. I was unaware we had a library in 
Atlanta until preparing for this hearing today.
    Now, as I understand it, on the libraries, and I was trying 
to read your extensive testimony that was printed, you began a 
process 4 years ago to modernize the libraries. The result of 
that was the closing of public access to 5 out of 26, the other 
21 remain open.
    Mr. Johnson. That is correct.
    Senator Isakson. Second, all of the information in the EPA 
library system, whether it was in a library that is now closed 
or not, is available online?
    Mr. Johnson. We are in the process of making all that 
information available.
    Senator Isakson. In the process, that is some of the 
digitizing?
    Mr. Johnson. That is correct.
    Senator Isakson. Third, going back to destroyed documents, 
that is a serious allegation and should be dealt with, so I am 
glad that the Chairman is going to give me a copy of that and 
give you a copy as well. I would like to know what the result 
is.
    But the only thing you are aware of is the destruction of 
documents that became polluted or otherwise affected by mold 
and water from the flooding of one library, is that correct?
    Mr. Johnson. Those that were not unique documents. Our 
libraries have a lot of documents that are not unique to EPA, 
magazines, books that are widely available across a number of 
the library systems.
    Senator Isakson. On the remarks that I gave on the ambient 
air quality, and by the way, I would call everybody's attention 
on the committee to the last page of your prepared document, 
which is this slide here, which is a graphic of the 
modernization of the process by which you are going to 
establish those. There have been some allegations that the new 
process reduces the input of science. What you have displayed 
here, it shows that the very first step in the process is a 
workshop involving CASAC and a scientific assessment before you 
do anything else, is that correct?
    Mr. Johnson. That is correct.
    Senator Isakson. OK, then on the old system, which it is 
replacing, it refers to the first step was a criteria document 
which, in asking questions, the best I can determine is kind of 
everybody just piles in every document they can possibly pile 
and collects them, but there is not a workshop or an analysis 
of those documents in that information, is that correct?
    Mr. Johnson. That is correct.
    Senator Isakson. So it would be fair to say, then, in 
setting the ambient air quality standards now under the new 
process--the new process is in place?
    Mr. Johnson. We are transitioning to that new process now.
    Senator Isakson. That CASAC will be the first step of input 
in a scientific assessment through a workshop interface 
session?
    Mr. Johnson. Yes, that is correct.
    Senator Isakson. Do you believe, there is another chart in 
here that I read while I was listing some of the other 
questions, I think EPA has only met 2 of I think 20 deadlines 
since 1985, is that correct? There it is.
    Mr. Johnson. Yes, sir, this is the chart. Since 1979, EPA 
has only met the statutory deadline twice. Therein lies one of 
the problems with the existing process. The Agency is not 
meeting its statutory requirements.
    Senator Isakson. So what happens is similar to what has 
happened in northwest Georgia with regard to non-attainment, is 
that correct?
    Mr. Johnson. Well, in that case, it is looking at the best 
available data to make a decision whether Catoosa County was in 
attainment or not in attainment.
    Senator Isakson. Best available data under the current 
process is delinquent at best, is that fair to say?
    Mr. Johnson. That is the other problem. That is correct.
    Senator Isakson. Is it also not true that on the one hand, 
some people are alleging that there is less science in the 
process. I think what you have said in this chart dictates that 
not true.
    But it is even worse to have a judge who may or may not 
have any scientific background making an arbitrary decision 
because the Agency has such a cumbersome process that it can't 
meet the deadlines that it imposes upon itself, or the law 
imposes. Is that a fair statement?
    Mr. Johnson. That is true.
    Senator Isakson. I would just say, Madam Chairperson, in my 
private life, for 33 years, I dealt with a lot of things, 
regulatory situations, from EPA, primarily more with the Clean 
Water Act than the Clean Air Act. But it is, everybody wants to 
try and do the right thing. But the worst environment possible 
to be in is to have arbitrary standards that are outdated based 
on the body of knowledge that is continuing, and an inability 
for those reviews to take place in a timely fashion. You end up 
having the wrong thing happen more often than not.
    So I want to commend you for modernizing that process in 
terms of ambient air quality. I am sure there may be other 
questioners that might disagree. But it appears to me that you 
have taken a pile of documents and replaced them with actual 
scientists in the room at a workshop taking the results of that 
information and trying to apply it to a decisionmaking process, 
which is a scientific enhancement of the process at its 
inception stage. That is the only other question I have. Thank 
you.
    Senator Boxer. I just want to make sure I understood you so 
we can correct the record. When I asked you about disposing of 
documents, you said you never did it. Then you said you did it 
if they were not unique. Is that correct?
    Mr. Johnson. To my knowledge, as of today, we are not 
disposing of any documents. What I understood in the early days 
of the library closure, those documents that were not unique, 
that were widely available, they were disposed of and recycled, 
if you will.
    Senator Boxer. Well, thank you for--recycled meaning in the 
wastepaper basket?
    Mr. Johnson. Documents were made available to other 
libraries, these were the not unique ones.
    Senator Boxer. So they weren't disposed of, they were just 
given away to other people, you never destroyed any documents?
    Mr. Johnson. In some cases they may have been disposed of. 
For example----
    Senator Boxer. Destroyed.
    Mr. Johnson. Well, again, for example, if there were 
multiple copies of a magazine, and that magazine was available 
through library loan process, was not a unique EPA document, 
that there were copyright restrictions so that we were unable 
to digitize them, then in the early days of the process, yes, 
they were disposed of.
    Senator Boxer. OK. I think it is, the reason I picked up on 
that, and I do appreciate that it came out, is because there is 
something about Americans, they don't like things destroyed, 
libraries, books burned and things like that. The image of it 
is discomforting. So what I want to make sure I understand, and 
then I am going to stop and turn it over to Frank Lautenberg, 
is this. What you are saying is, in the early days of the 
library closure, which was October?
    Mr. Johnson. I don't recall the date.
    Senator Boxer. I believe it was October when you started 
this whole thing. There were documents disposed of, but they 
were not unique documents. Some of them were given to other 
libraries? You have a list of where they went, I assume, 
somewhere? Yes?
    Mr. Johnson. I don't know. I would have to ask.
    Senator Boxer. Do you have a list of where you gave these 
documents, ma'am?
    Female Speaker. When they went to other EPA----
    Senator Boxer. No, the Administrator was saying sometimes 
they were given to other libraries.
    Female Speaker. Sometimes they were given to other EPA 
libraries. They were offered to libraries, local libraries, 
regional libraries. But I do not know if we had a list, per se, 
if they went to other local libraries. But we can definitely 
check on that for you.
    Senator Boxer. If you would, I would appreciate it. Because 
you know, we have things here from people who said they had a 
report, disposal of documents to the Inspector General. This 
story has a lot of legs to it, and I won't belabor it.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Madam Chairman. Welcome, Mr. 
Johnson. I note that you start off in your statement taking 
pride in the fact that air, land and water are cleaner today 
than it was a generation ago. But I sense that your mission is 
to make sure that if they are improved, you don't want that to 
last, that you are taking steps that are going to endanger that 
air quality and the TRI and things that help make the 
environment better.
    I ask you this, Mr. Johnson. Is a science advisory board a 
responsible organization?
    Mr. Johnson. Yes.
    Senator Lautenberg. Do you place any value on public 
opinion when they respond to changes that EPA contemplates?
    Mr. Johnson. Yes.
    Senator Lautenberg. Well, if that is the case, your own 
science advisory board and the Republican-controlled House of 
Representatives oppose your changes to the TRI rule. If that is 
the case and these are responsible, important views, why do 
that?
    Mr. Johnson. We took into, and my responsibility as 
Administrator is to take into account all public comments, and 
certainly value all of our science advisory committees, as part 
of that process. Our goal for the TRI program was, and 
continues to be, it is an important program, to make this 
program not only a successful program, but to make it better.
    Senator Lautenberg. But the public opinion is opposed to 
it, and so many comments that, so many commentaries, why do you 
dismiss it? Ninety-nine point nine seven percent of public 
comments on this rule, more than 122,000 oppose it. You are 
saying that that is of value. But you really don't pay any 
attention to it.
    Mr. Johnson. That is not the case, sir. We had 5,000 unique 
comments that were submitted to the Agency on TRI. Among the 
comments we received there were overwhelming comments, and in 
fact, documentation, saying that our proposal to report 
alternately, alternate year reporting was not a good idea and 
too much information would be lost.
    Based upon those comments, I made the decision to abandon 
the alternate year reporting. So we certainly listened to the 
comments.
    Senator Lautenberg. Well, but at the same time, you are 
reducing the requirements in volumes of material by raising 
those amounts that are exempt from having to report. Does that 
help protect the public? I take some pride in the fact that I 
am the principal author of TRI.
    [Laughter.]
    Senator Lautenberg. But as contrasted with our colleague 
who talked about his granddaughter, I have 10 grandchildren. 
The one thing I don't want to have to do is permit them to be 
the proverbial canaries in the coal mine. I don't want to wait 
until they get good and sick before I do things to protect 
them. We are aware of the fact that things like asthma, 
diabetes, et cetera, are on the increase substantially. It 
relates somehow or other to these changes that we want to make 
in environmental law.
    Now, again, conceding that, I know that you have some 
comments that agree with you, you said 5,000 responsible 
comments. I just said 122,000 opposed it. Only 34 comments that 
we are aware of supported the changes that you contemplate, 29 
of which were from industry groups. Now, which has more weight, 
Mr. Johnson?
    Mr. Johnson. Senator, my interests, (by the way, and I have 
four grandchildren and one more on the way, to total five), is 
to do anything that I can do to encourage businesses to reduce 
their chemical emissions and increase recycling and treatment. 
By this rule, we are in fact doing that.
    I would much rather have a business move from reporting 
persistent and bio-accumulative and toxic chemicals, whatever 
their numbers are, to zero. By this rule, we are encouraging 
companies to move from whatever they are doing to zero. That is 
one aspect of that.
    Senator Lautenberg. How do we encourage them? Do we ask 
them to adhere to a safer available materials? Is there 
anything that you are proposing in law that would make that an 
enforceable condition?
    Mr. Johnson. Well, again, the TRI program is just one of a 
number of opportunities----
    Senator Lautenberg. Please tell me how you are going to 
reduce it to zero when there is no punitive action taken if 
people don't report. The public scorn, perhaps, or media 
interest. But otherwise, and the program is successful. You 
want to reduce the pressure that exists just from the public 
perspective on these things and make a grand statement that 
says, well, we would rather reduce them to zero. Yes, of course 
we would rather. But there isn't anything that you are 
proposing, in my view, that is going to help that take place.
    What do you subscribe to that says that they will be 
working toward that?
    Mr. Johnson. My conversation with businesses, specific to 
TRI, leads me to believe that. Of course, we have other 
programs, like our Green Chemistry program, to get them to 
reduce or eliminate emissions. It makes sense both for their 
bottom line as well as for the environment. Of course, that is 
my interest, to do what we can do to provide those incentives. 
This final rule provides an incentive for moving from a long 
form to a short form.
    Senator Lautenberg. So it is a subjective, your subjective 
analysis that is going to help get these emissions to zero.
    Mr. Johnson, it is frustrating, and I speak for myself, to 
see what has happened at EPA and their lack of interest in 
keeping the public in touch, whether it is the library 
discussion, and part of the library discussion includes the 
fact that there is a heck of a lot of material that has not 
been yet digitized, it is not available to be Googled or 
otherwise. The disposal material, there is no concern 
apparently whether it is unique and that maybe we would be 
throwing something away.
    But I will close with this. Seven of ten EPA regional 
offices oppose your new toxic emissions proposal. Now, given 
this opportunity, why does the EPA insist on the rule that 
would allow companies to emit larger amounts? Does the opinion 
of the regional offices matter in these kinds of things?
    Mr. Johnson. Yes, the opinions of our regional offices 
matter a great deal. This is a proposal. Again, we are looking 
for results. We want to achieve a record of results. Here is an 
opportunity for, we believe, significant voluntary emission 
reductions through incentives.
    Senator Lautenberg. Well, Madam Chairman, forgive me for 
running over. I have more questions.
    Senator Boxer. You can have an extra minute. Do you want 
another minute? You can have it.
    Senator Lautenberg. I would. I would say that these are 
burning questions.
    [Laughter.]
    Senator Lautenberg. We are disappointed that headquarters 
formulated revisions to the Once-In, Always-In policy without 
seeking regional input. Reluctant to share the draft policy 
with regional offices. This trend of excluding the regionals 
from involvement in rule and policy development is disturbing. 
This is a memo from seven EPA regional offices to the 
headquarters in December 2005, they reinforced that with an 
even stronger objection to the fact that we continue to have 
significant concerns about the increases and the emissions of 
hazardous air pollutants that will likely occur from revisions 
to the Once-In, Always-In policy as currently drafted. That is 
in March 2006.
    So once again, Mr. Johnson, in fairness, it doesn't look 
like you have much trust in the view of the people in your 
regional offices. Because otherwise we could march ahead 
without giving them notice or effect.
    Mr. Johnson. Senator, I would like to quote from that same 
memo from our regional offices to headquarters, ``We appreciate 
that changes were made to the proposed revisions to address the 
regions' concerns regarding enforcement and compliance issues 
in the revised draft.'' That is the third paragraph of that 
particular memo.
    So we did listen. This is one of the great benefits of 
notice and comment rulemaking, is that we have the 
opportunity----
    Senator Lautenberg. To disagree.
    Mr. Johnson [continuing]. To share a wide range of 
opinions, to gather information and then make an informed 
decision. By the way, I have not made any final decision on 
this.
    Senator Lautenberg. Well, boy, we are getting awful close, 
I'll tell you, at putting it out, floating this balloon. These 
are lead balloons.
    Mr. Johnson, do you meet with your regional offices?
    Mr. Johnson. I do, in fact I did so last week----
    Senator Lautenberg. How frequently?
    Mr. Johnson. Frequently. I just had our regional 
administrators and deputy regional administrators in last week. 
I routinely visit all of our regions. I have been in all of our 
regional offices. I am heading out to one of our regions this 
week, at the end of this week, on Thursday or Friday.
    Senator Lautenberg. We will submit questions in writing. 
Thank you very much, Madam Chairman. Thanks, Mr. Johnson.
    Senator Boxer. Senator Inhofe, please take 10 minutes.
    Senator Inhofe. OK.
    [Laughter.]
    Senator Inhofe. Senator Lautenberg, I know how proud you 
are of your 10 grandchildren. I have 12. Gotcha.
    [Laughter.]
    Senator Lautenberg. We are working on it.
    [Laughter.]
    Senator Inhofe. Yes, but we are still working, too.
    [Laughter.]
    Senator Inhofe. Administrator Johnson, I want to make sure 
I understand, the purpose of the library modernization effort 
is to make all the EPA materials more readily available and all 
of this. I want to ask you if the following books are still 
available at the EPA libraries. The first one I would like to 
ask you about is Lorax. Is this available?
    Mr. Johnson. Yes.
    Senator Inhofe. About how many copies are available?
    Mr. Johnson. I understand that there are nine.
    Senator Inhofe. Are any checked out right now?
    Mr. Johnson. Not that I am aware of.
    Senator Inhofe. The author?
    Mr. Johnson. Dr. Suess.
    Senator Inhofe. Dr. Suess, very good. Next we have WordStar 
made easy. Is this available?
    Mr. Johnson. Yes, sir.
    Senator Inhofe. I understand that this is a computer 
software book for pre-1983 computers, is that correct?
    Mr. Johnson. That is correct, published in 1982.
    Senator Inhofe. Published in 1982. A lot of demand for this 
book? Never mind.
    The next one is Memoirs of a Geisha. Do you have this 
available?
    Mr. Johnson. Yes, sir.
    Senator Inhofe. OK. How about Bonesetters Daughter?
    Mr. Johnson. Yes.
    Senator Inhofe. What collection is this in?
    Mr. Johnson. It is in our technical library in Region 8.
    Senator Inhofe. OK, great demand? Here's one, how about 
this one. This is called Fat Chicks Rule: How to Survive in a 
Thincentric World. Do you have this?
    Mr. Johnson. Yes, sir.
    Senator Inhofe. How about Imperial Hubris: Why the West is 
Losing the War on Terror? Do you have this?
    Mr. Johnson. Yes, sir.
    Senator Inhofe. That is interesting. How about more of the 
items, the video, Fern Gulley, is that in? The Last Rainforest, 
do you have that?
    Mr. Johnson. I believe we have it on video tape.
    Senator Inhofe. I believe that is a children's movie, is 
that correct?
    Mr. Johnson. Yes.
    Senator Inhofe. How about a health issue, do you have a 
video, Windsor Pilates Ab Sculpting?
    Mr. Johnson. Yes, we do have Windsor Pilates Ab Sculpting.
    Senator Inhofe. One of the things, in a very serious vein, 
as I said in my opening statement, it is a fact that we have, 
this is the information age, and people are changing their 
behavior. I don't know about Senator Lautenberg's 
grandchildren, but I would put my 12 up against his and it 
would probably be a pretty close contest as to----
    [Laughter.]
    Senator Inhofe. It would be close in any way, I say to my 
good friend.
    On the next process, Administrator Johnson, I noticed on 
your chart that EPA has been able to meet their NOx decision 
deadline only twice in the years. Now, you received a lot of 
criticism. I have two charts, I would like to put the first one 
up here. A lot of criticism from my colleagues saying that you 
based, the extremist groups, some of them, claiming that you 
based all of the process changes on recommendations from the 
API. That's the American Petroleum Institute. In fact, some 
have claimed that you let the API write the proposal.
    My staff has prepared two charts, outlining the 
recommendations you received from API and the recommendations 
made by CASAC. By the way, I would have to say about CASAC, and 
you were not in your position at that time, but during the 
Carol Browner days, and you will remember this, Senator Boxer, 
the 2.5 issue that we were, the PM<INF>2.5</INF>. Of the 21 
scientists on the Clean Air Scientific Advisory Committee, 
CASAC, 19 of them had one position and she took the position 
that 2 of them had. So it is not as if these are always 
followed.
    However, in this case, I believe they were. So you did 
receive some recommendations from API, and other 
recommendations by CASAC. Let's take a look at these. From the 
API recommendations, that is the first chart there, it appears 
that only one, that out of seven, you only accepted one in its 
entirety and one partially, is that correct?
    Mr. Johnson. That is correct.
    Senator Inhofe. OK, the second one is the chart that would 
be the scientific advisory committee. They made five 
recommendations. Tell me if this chart is correct in terms of 
their accepting these recommendations.
    Mr. Johnson. That is correct. Senator, if I may point out 
that in fact there was a recommendation that was in common, and 
that was the electronic database.
    Senator Inhofe. I should have mentioned that. I knew that 
that was recommended by both sides.
    Mr. Johnson. By both sides. So that was the one that we 
recommended, we adopted fully.
    Senator Inhofe. So you really didn't accept the 
recommendations of the API?
    Mr. Johnson. No.
    Senator Inhofe. The report does not reflect that you did.
    Many have said that the EPA's MCL process is flawed and 
that the Agency is intentionally delaying its decision on MCL 
for perchlorate. Is that a fair assessment of what the Agency 
has done with regard to perchlorate?
    Mr. Johnson. No, it is not a fair assessment. We are 
science-based Agency, and where the science directs us, that is 
where we go.
    Senator Inhofe. Listing perchlorate on the UCMR2 would have 
indicated that more data is needed. First, is that true of 
drinking water data? Further, would it have been seen as 
premature for the EPA to issue a regulatory determination for 
perchlorate prior to the completion of the UCMR2 monitoring 
cycle? In fact, wouldn't listing of perchlorate under that 
UCMR2 have only further delayed the MCL determination?
    Mr. Johnson. That is correct, sir. If we had listed it, 
then we would have begun monitoring. That monitoring data would 
not have concluded until the year 2010. I did not want to send 
any signal that we were going to wait until after 2010 to 
evaluate the science and make a decision as to whether a health 
advisory in MCL was appropriate.
    Senator Inhofe. In my opening statement, I talked about the 
fact that reform is needed. There have not been reforms. I just 
want to applaud you, you are getting into these things and I 
appreciate very much the courage that you are exhibiting by 
changing. Change is a hard thing to do in Government. Everyone 
says they want change until you start changing, then they don't 
want change. So I thank you for the work that you have been 
doing.
    Madam Chairman, I am coming back. I want to Armed Services 
and be back in just a few minutes. Will you be all right 
without me here?
    Senator Boxer. Can't wait for you to get back.
    [Laughter.]
    Senator Boxer. Senator Klobuchar.
    Senator Klobuchar. Thank you, Chairman Boxer. I am just 
going to take 5 minutes, because I have to go to the floor. I 
would have loved to ask some questions about ab sculpting, but 
I will save those until later.
    [Laughter.]
    Senator Klobuchar. You stated in your testimony, 
Administrator Johnson, that changes in TRI reporting 
requirements will not affect first responders seeking 
information on chemical inventories. I believe you said that 
the final rule has no impact on the primary source of 
information for emergency responders. First responders receive 
chemical inventory data under section 312 of the Emergency 
Planning and Community Right to Know Act, not from TRI.
    To the extent that the chemicals reported under this 
section overlap with TRI chemicals, won't companies still have 
to maintain extensive chemical records anyway, if they are 
reporting them for the Community Right to Know Act?
    Mr. Johnson. They still have to, as you correctly point 
out, as part of the Emergency Planning and Community Right to 
Know Act, to maintain detailed information from an emergency 
perspective. That is correct.
    Senator Klobuchar. Then I can't figure out, why would this 
additional task of filling out the Form Rs, when they already 
are collecting this information anyway, be such a burden?
    Mr. Johnson. Well, it is our understanding that it is a 
burden. Certainly, our analysis of the economic impacts 
indicate that it is a burden. Again, what was our focus? Our 
focus was to make a successful program even better, to provide 
incentive to get people to reduce chemical emissions. That is 
what we are trying to do.
    What our experience is, in a cleaner business, it is not 
only good for business but it is good for the environment and 
certainly good for the American people.
    Senator Klobuchar. But isn't it, 90 percent of it is 
electronic reporting?
    Mr. Johnson. Yes, we have moved to electronic reporting. 
But it is still a lot of detailed information. Probably one of 
the reporters would be the best one to ask how burdensome they 
find it.
    Senator Klobuchar. Again, though, if they are collecting 
this information anyway, for this other law, it just seems to 
me that if it is 90 percent electronic reporting and they are 
putting this same information in that there is no reason we 
shouldn't be using the old standards in Form R. So we are able 
to get that out to the community. I may be submitting some more 
questions in writing about that.
    The other question I had is, if you conduced an analysis of 
the number of small businesses as opposed to businesses owned 
by large parent companies who somehow benefited from this 
change.
    Mr. Johnson. Yes. As part of our analysis, we did look, and 
it is my understanding there are some 5,000 to 6,000 small 
businesses that are part of the TRI reporting, have TRI 
reporting requirements.
    Senator Klobuchar. OK. But do you know what percentage of 
the benefits went to large businesses as opposed to small?
    Mr. Johnson. I don't recall off the top of my head. But we 
have that information and I would be happy to provide it for 
the record.
    Senator Klobuchar. Thank you. Thank you, Madam Chair.
    Senator Boxer. Thank you very much, Senator.
    We are going to, to your great relief, move on. I am going 
to make a closing statement here, which is that we have a 
number of questions we want to send to you. So how long do you 
think you would need, Mr. Johnson, to complete the answers?
    Mr. Johnson. Well, if I know the number of questions----
    Senator Boxer. I would say we would have around 30 
questions we would like answered in writing.
    Mr. Johnson. If you can give us a month, that would be 
wonderful.
    Senator Boxer. You have a month. That would be good.
    Mr. Johnson. Thank you.
    Senator Boxer. Because in essence, when you spoke to us, 
you didn't really address, you gave this happy picture and you 
didn't really address the rollbacks. But I need some more 
answers.
    Let me say in that little repartee with my Ranking Member, 
I found it very entertaining. I am amazed that the 
Administrator of the Environmental Protection Agency would know 
what books are in the library. You are a multi-tasker, that is 
for sure.
    [Laughter.]
    Senator Boxer. But let me just say this. While we now know 
that you can get a Dr. Suess book, unfortunately, according to 
your own staff, in one of the libraries, 600 to 700 linear feet 
worth of the chemical library collection was discarded, despite 
this particular staffer's attempt to save it. She was told it 
was too late, they were out of time. The journals were to be 
disposed of. She was ordered not to remove any journals from 
the recycling bins, and to dispose of all the journals. She 
said, 25 or so of those titles would be irreplaceable. But her 
superior said she didn't care and so this particular employee 
had to go to the Inspector General.
    As I said, this is an area that there are many, many 
question about. The emails have given us a story that you 
apparently didn't know about or were unaware of. But it is 
disturbing.
    Then the question of following the science, I couldn't 
agree more that we should follow the science. But you took the 
science out of the Clean Air Rule and stuck it at the end of 
the process. Nobody's fooled by this. Here's the point. These 
rollbacks were done in the dead of night, in December. I 
watched it. I predicted it. I said, what are we going to get 
tomorrow, what are we going to get tomorrow, what are we going 
to get tomorrow. It is over in terms of your not having to come 
before the committees of Congress to respond to them.
    This is just the start. Because we are going to stay on 
these rollbacks and whatever else that you do. Some of us 
believe that these rollbacks are so against the public interest 
that you are probably going to wind up in court, which is 
something I know my good colleague here feels you are trying to 
avoid. But some of these are going to, you are going to wind up 
in court about them.
    What I hope is you will take a look, you will take a deep 
breath and look at them and reverse yourself. You reversed a 
few of them, by the way, I noticed after the elections, that 
you were thinking of doing. So I would urge you, especially on 
the ones that you haven't finalized now, these involve lead and 
perchlorate, community right to know, the libraries, the role 
of science and the setting of air standards.
    I would just urge you, for the good of the people, to 
revisit these issues. If you don't revisit these issues, we 
will be revisiting them with you as we go on. Because we are 
not talking about theory here, we are talking about people who 
get sick from dirty, filthy, toxic pollution. We are going to 
protect them in this committee. The majority is going to 
protect them.
    So I thank you, and I hope that we can work together. I 
thought we could, so far we haven't been able to. But I hope in 
the future we will.
    I want to place in the record letters from the Association 
of Academic Health Science Libraries, the Society of 
Environmental Toxicology and Chemistry, the U.S. National 
Commission on Libraries and the Special Libraries Association, 
to show that this issue is way more broad-based than one would 
suspect.
    [The referenced material follows.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Boxer. I thank you and we will look forward to 
seeing you when you come back to talk about the budget.
    Mr. Johnson. Next week. Thanks.
    Senator Boxer. Thank you.
    We will ask our next panel to come up, the GAO and the U.S. 
Small Business Administration.
    I want to welcome our second panel. We will hear from John 
Stephenson, Director, Natural Resources and Environment, U.S. 
Government Accountability Office; and U.S. Small Business 
Administration, Thomas Sullivan, Chief Counsel for Advocacy, 
will follow.
    Mr. Stephenson, do you think you can summarize in about 6 
or 7 minutes?
    Mr. Stephenson. I can do that.
    Senator Boxer. Thank you.

 STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Madam Chairman, members of the committee, I 
am pleased to be here today to discuss our ongoing work for 
this committee on EPA's Toxic Release Inventory, or TRI. We 
have heard a lot about it already.
    You also asked us to provide an update to the committee on 
the recommendations from our 2005 report on perchlorate, an 
ingredient in rocket fuel used primarily by the defense 
industry that is being found in drinking water and food, such 
as lettuce and milk.
    Each year, billions of pounds of chemicals are used in the 
production of important goods and services that we all enjoy. 
However, some are toxic and may adversely affect human health 
and/or the environment. TRI is the primary data system EPA 
developed to meet the intent of the Emergency Planning and 
Community Right to Know Act, EPCRA, for making information 
available to the public on about 600 hazardous chemicals used 
by facilities around the Country.
    TRI is also intended to encourage companies to take account 
of and reduce the amounts of toxic substances they use. More 
importantly, the cornerstone of EPCRA is to empower local 
communities and not EPA to determine what risks are acceptable 
to them.
    While our full study of TRI will not be completed until 
June, our preliminary observations suggest that EPA did not 
adhere to its own rulemaking guidance in implementing its 
burden reduction rule in December. First, late in the 
rulemaking process, senior EPA management directed 
consideration of an option to increase the reporting threshold 
from 500 to 2,000 pounds to allow more companies to use the 
shorter, less informative Form A to report their use of toxic 
chemicals, an option EPA's own TRI work group had previously 
rejected.
    Second, EPA developed this option on an expedited schedule 
that afforded limited time for an impact analysis. Third, EPA 
may not have conducted a proper final Agency review. This is 
one that seeks input from EPA's internal program and regional 
offices.
    According to EPA documents, this expedited approach was 
taken in part to meet a commitment to OMB to implement TRI 
burden reduction by December 2006. EPA estimates that TRI 
reporting changes will have minimal impact, affecting reporting 
on less than 1 percent of the chemical releases annually. While 
this is true in terms of total pounds of chemicals nationwide, 
it underestimates the significant impact the loss of this 
specific information will have on States and local communities.
    I have a series of charts, Madam Chairman, behind you that 
shows these specific impacts for the States. The first chart 
shows the impact in terms of the 22,200 fewer Form R reports. 
These reports containing detailed information about toxic 
releases from 6,620 facilities would no longer be required. 
That is one-third fewer reports in States such as yours, 
Connecticut and New Jersey.
    The second chart shows the State by State impact in terms 
of the number of chemicals for which no detailed information 
will be required, and these range from 3 chemicals in South 
Dakota to 60 chemicals in Georgia.
    The third chart shows the impact in terms of the 3,565 
facilities dispersed across the States that would no longer 
have to report any detailed information about the chemicals 
they use. One such facility is ATSC Marine Terminal, a bulk 
petroleum storage facility in Los Angeles. It reported releases 
totaling 5,000 pounds of 13 different chemicals into the air in 
2005, including highly toxic benzene, toluene and xylene. 
However, none of the individual chemical releases exceeded the 
new 2,000 pound threshold, making it eligible for reduced 
reporting.
    EPA estimates that the total savings from this burden 
reduction rule is $5.9 million. This is less than $900 per 
facility and is based on paper reporting, not electronic 
reporting. We believe that our final analysis, once completed, 
will show that more savings will come from electronic reporting 
and other burden reduction matters than this threshold.
    Now for perchlorate. As depicted in the final chart, our 
May 2005 report identified more than 400 sites in 35 States 
where perchlorate has been found. As you know, EPA has not 
established a drinking water standard for perchlorate, citing 
the need for more research on health effects. Thus perchlorate 
and such potential contaminants are not now included in the 
Toxic Release Inventory.
    However, with the National Academies concerned about the 
health effects of perchlorate on children and pregnant women, 
we recommended that EPA develop a mechanism to track 
perchlorate releases and cleanups to keep the public better 
informed. In December 2006, EPA reiterated its disagreement 
with that recommendation as not needed and too costly.
    In conclusion, we believe that the spirit of EPCRA dictates 
more and not less disclosure of environmental information to 
the public, and that any changes to reduce the amount of such 
information should be carefully considered, particularly where 
the savings to industry are relatively small and not all that 
burdensome in the first place.
    Thank you, Madam Chairman. That concludes my summary. I 
will be happy to answer questions.
    [The prepared statement of Mr. Stephenson follows:]
   Statement of John B. Stephenson, Director, Natural Resources and 
           Environment, U.S. Government Accountability Office
    Madam Chairman and Members of the Committee, I am pleased to appear 
here today before the Committee to discuss our ongoing work regarding 
the Environmental Protection Agency's (EPA) Toxics Release Inventory 
(TRI) and to provide you with an update on our 2005 report on 
perchlorate, a primary ingredient in solid rocket propellant that 
recent studies have shown to affect human health.\1\
---------------------------------------------------------------------------
    \1\ GAO, Perchlorate: A System to Track Sampling and Cleanup 
Results is Needed, GAO-05-462 (Washington, D.C.: May 20, 2005).
---------------------------------------------------------------------------
    Each year, U.S. industry uses billions of pounds of toxic chemicals 
to produce the Nation's goods and services. However, the release of 
these chemicals during transport, storage, use, or disposal as waste 
can potentially harm human health and the environment. Congress passed 
the Emergency Planning and Community Right-to-Know Act of 1986 (EPCRA) 
to inform citizens about releases of toxic chemicals to the 
environment; to assist governmental agencies, researchers, and other 
persons in the conduct of research and data gathering; and to aid in 
the development of appropriate regulations, guidelines, and standards. 
Section 313 of EPCRA generally requires certain facilities that 
manufacture, process, or otherwise use any of 581 individual chemicals 
and 30 additional chemical categories to annually report the amount of 
those chemicals that they released to the environment, including 
whether those chemicals were released to the air, soil, or water. EPCRA 
also requires EPA to make this information available to the public, 
which the Agency does through the TRI database. The Pollution 
Prevention Act of 1990 (PPA) expanded the TRI by requiring facilities 
to report certain data about their waste management practices, 
including amounts of TRI chemicals recycled or treated.
    Facilities comply with TRI reporting requirements by submitting 
what is referred to as Form R for each TRI-listed chemical that they 
use in excess of certain thresholds. Form R captures information about 
the facility, such as address, parent company, industry type, and 
detailed information about the chemicals it released, such as quantity 
of the chemical disposed or released onsite to the air, water, land, 
and injected underground, or transferred for disposal or release off-
site. Since 1995, EPA has allowed certain facilities to submit 
information on a brief form--referred to as the Form A Certification 
Statement--in lieu of the detailed Form R report if they release or 
manage no more than 500 pounds of chemicals that are not persistent, 
bioaccumulative and toxic (PBT) during the year. Form A provides the 
same facility identification information as Form R along with basic 
information about the chemical's identity, but it does not contain any 
of the detailed information about the quantities of chemicals used, 
released, or managed as waste found on Form R.
    During the past several years, EPA has engaged in a multi-phase 
effort to reduce the burden on industry by revising TRI regulations and 
increase Form A eligibility. EPA's Action Development Process (ADP) 
outlines a series of steps that the Agency is to follow when developing 
actions such as rules, policy statements, and risk assessments. The 
purpose of the ADP is ensure that scientific, economic, and policy 
issues are adequately addressed at the appropriate stages of action 
development and to ensure cross-agency participation until the final 
action is completed. On December 22, 2006, EPA issued the TRI Burden 
Reduction proposed rule, an action that increased the Form A threshold 
for certain facilities to 2,000 pounds of releases for a non-PBT 
chemical. The action also allows, for the first time, certain 
facilities to use Form A for non-dioxin, PBT chemicals, provided they 
have no releases of the PBT chemical.
    My testimony is based on ongoing work that we expect to complete in 
June 2007 and, therefore, the information I am presenting is 
preliminary. My statement today addresses two areas related to EPA's 
changes in TRI reporting requirements: (1) the extent to which EPA 
followed internal rulemaking guidelines when developing its December 
2006 TRI burden reduction rule and (2) our preliminary estimates of the 
impact that these changes will have on TRI data available to the public 
and on costs to industry. In addition, as you requested, my statement 
includes a brief summary of our May 2005 report on perchlorate and 
EPA's December 2006 response to our recommendation that the Agency 
develop a tracking system for perchlorate releases and cleanup efforts 
across the Federal Government and State agencies.
                                summary
    Although we have not yet completed our review, our preliminary 
observations are that EPA did not adhere to all aspects of its 
rulemaking guidelines when developing the new TRI reporting 
requirements. EPA's Action Development Process outlines a series of 
steps to help guide the development of new environmental regulations. 
Throughout this process, however, the senior EPA management has the 
authority to accelerate the rule development process. Nevertheless, 
while we continue to pursue a clearer understanding of EPA's actions, 
we have identified several significant differences between the 
guidelines and the process EPA followed in this case: (1) late in the 
rulemaking process, senior EPA management directed consideration of a 
burden reduction option that the TRI workgroup had previously dropped 
from consideration; (2) EPA developed this option on an expedited 
schedule that appears to have provided a limited amount of time for 
conducting various impact analyses; and (3) EPA may not have conducted 
a Final Agency Review, where EPA's internal and regional offices 
discuss whether they concur with the final proposal. The TRI workgroup 
charged with identifying options to reduce reporting burdens on 
industry identified three possible options for senior management to 
consider. The first two options allowed facilities to use Form A in 
lieu of Form R for PBT chemicals, provided the facility has no releases 
to the environment, and the third created a ``no significant change'' 
reporting option in lieu of Form R for facilities with releases that 
changed little from the previous year. Information from a June 2005 
briefing for the Administrator indicated that, while the Office of 
Management and Budget (OMB) had suggested increasing the Form A 
eligibility for non-PBT chemicals from 500 to 5,000 pounds, the TRI 
workgroup dropped that option from consideration. Moreover, EPA's 
economic analysis--dated July 2005--did not consider the impact of 
raising the Form A reporting threshold. However, the TRI burden 
reduction rule that EPA published in October 2005 included the proposal 
to increase Form A eligibility threshold from 500 to 5,000 pounds. 
Although we could not determine from the documents provided by EPA what 
actions the Agency took between the briefing and the issuance of the 
TRI proposal, the Administrator provided direction after the briefing 
to expedite the process in order to meet a commitment to OMB to provide 
burden reduction by the end of December 2006.\2\ Subsequently, EPA 
revised its economic analysis to consider the impact of raising the 
Form A eligibility threshold. However, that analysis was not completed 
before EPA sent the proposed rule to OMB for review and was only 
completed just prior to the proposal being signed by the Administrator 
and published in the Federal Register for public comment. Furthermore, 
the extent to which senior EPA management sought or received input from 
internal stakeholders, including the TRI workgroup, after resurrecting 
the option to increase the Form A reporting threshold from 500 to 5,000 
pounds remains unclear. Additionally, we have been unable to determine 
whether EPA conducted a Final Agency Review for the Form A reporting 
threshold proposal, where EPA's internal and regional offices would 
have discussed whether they concurred with the final proposal. We will 
continue to pursue the answer to this and other questions as we 
complete our work. Finally, in response to the public comments on the 
proposal, nearly all of which were negative, EPA considered alternative 
options and revised the proposal, thereby allowing facilities to report 
releases of up to 2,000 rather than 5,000 pounds on Form A.
---------------------------------------------------------------------------
    \2\ Executive Office of the President of the United States, Office 
of Management and Budget, Progress in Regulatory Reform: 2004 Report to 
Congress on the Costs and Benefits of Federal Regulations and Unfunded 
Mandates on State, Local, and Tribal Entities, 2004.
---------------------------------------------------------------------------
    We believe that the TRI reporting changes will likely have a 
significant impact on information available to the public about dozens 
of toxic chemicals from thousands of facilities in States and 
communities across the country. EPA estimates that the TRI reporting 
changes will affect reporting on less than 1 percent of the total 
chemical releases reported to the TRI annually. While our analysis 
supports EPA's estimate of this aggregate impact, it also suggests that 
changes to TRI reporting requirements will have a significant impact on 
the amount and nature of toxic release data available to some 
communities. To develop a more specific picture of the impact of the 
TRI reporting changes at a local level, we used 2005 TRI data to 
estimate, by State, the number of detailed Form Rs that could no longer 
be reported and the effect this would have on publicly available data 
about individual chemicals and facilities. We analyzed, by State, the 
number of chemicals for which there would no longer be quantitative 
information and the number of facilities that would no longer have to 
provide quantitative information about their chemical releases and 
waste management practices. First, we estimate that the detailed 
information from more than 22,000 Form R reports may no longer be 
included in the TRI if all eligible facilities use Form A. More 
specifically, Alaska, California, Connecticut, Hawaii, Massachusetts, 
New Jersey, and Rhode Island could have 33 percent fewer chemical 
reports. Second, we estimate that the number of chemicals for which no 
information could be reported under the new rule ranges from 3 
chemicals in South Dakota to 60 chemicals in Georgia. Thirteen States--
including Tennessee, Missouri, Maryland, Oklahoma, Delaware, Vermont, 
and Georgia--could have no detailed reports on more than 20 percent of 
reported chemicals. Third, we estimate that a total of 3,565 facilities 
would no longer have to report quantitative information about their 
chemical use to the TRI. In fact, more than 20 percent of facilities in 
Colorado, Connecticut, Hawaii, Massachusetts, and Rhode Island, could 
have no detailed information about their chemical use. Furthermore, 
citizens living in 75 counties in the United States--including 11 in 
Texas, 10 in Virginia, and 6 in Georgia--could have no numerical TRI 
information about local toxic pollution. In addition, preliminary 
results from our survey of State TRI coordinators indicates that many 
States believe that EPA's changes to TRI reporting requirements will 
have a negative impact on various aspects of TRI. Finally, with regard 
to the impact of the rule change on industry's reporting burden, EPA 
estimates that, if all eligible facilities take advantage of the 
reporting changes, they will save a total of about $5.9 million--about 
4 percent of the estimated annual cost of TRI reporting. This is the 
equivalent of less than $900 per facility. However, because not all 
eligible facilities will use Form A, the actual savings to industry are 
likely to be less.
    With regard to your request for an update on our May 2005 report on 
perchlorate, it should be noted that perchlorate releases are not 
reported to the TRI. Ammonium perchlorate (perchlorate) is a salt that 
is easily dissolved and transported in water and has been found in 
groundwater, surface water, drinking water, soil, and food products 
such as milk and lettuce across the country. Health studies have shown 
that perchlorate can affect the thyroid gland and may cause 
developmental delays. We identified more than 400 sites in 35 States 
where perchlorate had been found in concentrations ranging from 4 parts 
per billion to more that 3.7 million parts per billion, and that more 
than one-half of the sites were in California and Texas. However, 
Federal and State agencies are not required to routinely report 
perchlorate findings to EPA, and EPA does not centrally track or 
monitor perchlorate detections or the status of cleanup efforts. As a 
result, a greater number of contaminated sites than we reported may 
exist. Although concern over potential health risks from perchlorate 
has increased, and at least 9 States have established non-regulatory 
action levels or advisories, EPA has not established a national 
drinking water standard citing the need for more research on health 
effects. We concluded in our report that EPA needed more reliable 
information on the extent of sites contaminated with perchlorate and 
the status of cleanup efforts, and recommended that EPA work with the 
Department of Defense and the States to establish a formal structure 
for tracking perchlorate information. Both agencies continue to 
disagree with the recommendation stating that perchlorate information 
already exists from a variety of other sources. However, we continue to 
believe that the inconsistency and omissions in available data that we 
found during the course of our study underscore the need for a more 
structured and formal tracking system.
                               background
    In 1984, a catastrophic accident caused the release methyl 
isocyante--a toxic chemical used to make pesticides--at a Union Carbide 
plant in Bhopal, India, killing thousands of people, injuring many 
others, and displacing many more from their homes and businesses. One 
month later, it was disclosed that the same chemical had leaked at 
least 28 times from a similar Union Carbide facility in Institute, West 
Virginia. Eight months later, 3,800 pounds of chemicals again leaked 
from the West Virginia facility, sending dozens of injured people to 
local hospitals. In the wake of these events, Congress passed the 
Emergency Planning and Community Right-to-Know Act of 1986 (EPCRA). 
Among other things, EPCRA provides access by individuals and 
communities to information regarding hazardous materials in their 
communities. Section 313 of EPCRA generally requires certain facilities 
that manufacture, process, or otherwise use any of 581 individual 
chemicals and 30 additional chemical categories to annually report the 
amount of those chemicals that they released to the environment, 
including information about where they released those chemicals. EPCRA 
also requires EPA to make this information available to the public, 
which the Agency does in a national database known as the Toxics 
Release Inventory. The public may access TRI data on EPA's Web site and 
aggregate it by zip code, county, State, industry, and chemical. EPA 
also publishes an annual report that summarizes national, State, and 
industry data.\3\
---------------------------------------------------------------------------
    \3\ http://www.epa.gov/triexplorer and http://www.epa.gov/enviro
---------------------------------------------------------------------------
    Figure 1 illustrates TRI reporting using a typical, large coal-
fired electric powerplant as an example.\4\ The figure notes the 
chemicals that the facility may have to report to the TRI. The primary 
input to this facility is coal that contains small amounts of a number 
of toxic chemicals such as arsenic, chromium, and lead. The facility 
pulverizes coal and burns it to generate electricity. As part of its 
standard operations, the facility releases TRI chemicals such as 
hydrochloric acid and sulfuric acid to the air through its stack. The 
facility may also send ash from the burning process to an ash pond or 
landfill, including TRI chemicals such as arsenic, lead, and zinc. In 
addition, the facility may release chemicals in the water it uses for 
cooling. The facility will have to complete a TRI report for air, land, 
and water releases of each chemical it uses above a certain threshold.
---------------------------------------------------------------------------
    \4\ These facilities were not included in the original 
manufacturing industries, but EPA began requiring TRI reports from 
seven new industries--including electric utilities that burn coal or 
oil--starting in 1998.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Owners of facilities subject to EPCRA comply its reporting 
requirements by submitting an annual Form R report to EPA, and their 
respective State, for each TRI-listed chemical that they release in 
excess of certain thresholds. Form R captures information about 
facility identity, such as address, parent company, industry type, 
latitude, and longitude and detailed information about the toxic 
chemical, such as quantity of the chemical disposed or released onsite 
to air, water, land, and underground injection or transferred for 
disposal or release off-site. This information is labeled as ``Disposal 
or Other Releases'' on the left side of figure 2.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Pollution Prevention Act of 1990 (PPA) expanded TRI by 
requiring facilities to report additional information about their 
efforts to reduce pollution at its source, including the quantities of 
TRI chemicals they manage in waste, both on- and off-site, including 
amounts recycled, burned for energy recovery, or treated. EPA began 
capturing this information on Form R in 1991, as illustrated by ``Other 
Waste Management'' on the right side of figure 2.
    Beginning in 1995, EPA allowed facilities to use a 2-page 
Certification Statement (Form A) to certify that they are not subject 
to Form R reporting for a given chemical provided that they (1) did not 
release more than 500 total pounds and (2) did not manufacture, 
process, or otherwise use more than one-million total pounds of the 
chemical. Form A contains the facility identification information found 
on Form R and basic information about the identity of the chemical 
being reported. However, Form A does not contain any of the Form R 
details about quantities of chemicals released or otherwise managed as 
waste.
    Beginning with Reporting Year 2001, EPA has provided the Toxics 
Release Inventory--Made Easy software (TRI-ME) to assist facilities 
with their TRI reporting. TRI-ME leads prospective reporters 
interactively through a series of questions that eliminate a good 
portion of the analysis required to determine if a facility needs to 
comply with the TRI reporting requirements, including threshold 
calculations needed to determine Form A eligibility. If TRI-ME 
determines that a facility is required to report, the software provides 
guidance for each of the data elements on the reporting forms. The 
software also provides detailed guidance for each step through an 
integrated assistance library. Prior to submission, TRI-ME performs a 
series of validation checks before the facility prints the forms for 
mailing, transfers the data to diskette, or submits the information 
electronically over the Internet. More than 90 percent of forms are 
submitted electronically to EPA.
    Each year, EPA compiles the TRI reports and stores them in a 
database known as the Toxics Release Inventory (TRI). In 2004--the 
latest year for which data are publicly available--23,675 facilities 
filed a total of nearly 90,000 reports, including nearly 11,000 Form 
As. In total, facilities reported releasing 4.24 billion pounds of 
chemicals to the environment and handling 21.8 billion pounds of 
chemicals through other waste management activities.
    EPA recently embarked on a three-phase effort to streamline TRI 
reporting requirements and reduce the reporting burden on industry. 
During the first phase, EPA removed some data elements from Form A and 
Form R that could be obtained from other EPA information collection 
databases to simplify reporting. As part of the second phase, EPA 
issued the TRI Burden Reduction Proposed Rule, which would have allowed 
a reporting facility to use Form A for (a) non-PBT chemicals, so long 
as its releases or other disposal were not greater than 5,000 pounds, 
and (b) for PBT chemicals when there are no releases or other disposal 
and no more than 500 pounds of other waste management (e.g., recycling 
or treatment). The phase III changes that EPA was considering proposing 
would have allowed alternate-year reporting, rather than yearly 
reporting. The phase II and III changes generated considerable public 
concern that they will negatively impact Federal and State Governments' 
and the public's access to important public health information.
    epa does not appear to have followed internal guidelines in all 
                   respects when developing tri rule
    Although we have not yet completed our review, our preliminary 
observations are that EPA did not adhere to its own rulemaking 
guidelines in all respects when it developed the new TRI reporting 
requirements. EPA's Action Development Process outlines a series of 
steps to help guide the development of new environmental regulations. 
Throughout the rule development process, senior EPA management 
generally has the discretion depart from the guidelines, including by 
accelerating the development of regulations. Nevertheless, we 
discovered several significant differences between the guidelines and 
the process EPA followed in this case: (1) late in the rulemaking 
process, senior EPA management directed consideration of a burden 
reduction option that the TRI workgroup had considered but which had 
subsequently been dropped from consideration; (2) EPA developed this 
option on an expedited schedule that appears to have provided a limited 
amount of time for conducting various impact analyses; and (3) the 
expedited schedule afforded little, if any, time for internal 
stakeholders to provide input to senior EPA management about the 
impacts of the proposal during Final Agency Review.
    The TRI workgroup charged with identifying options to reduce 
reporting burdens on industry identified three possible options for 
senior management to consider. The first two options allowed facilities 
to use Form A in lieu of Form R for PBT chemicals, provided the 
facility has no releases to the environment. Specifically, the 
workgroup considered and analyzed options to facilities to:
    <bullet> report PBT chemicals using Form A if they have zero 
releases and zero total other waste management activities; or
    <bullet> report PBT chemicals using Form A if they have zero 
releases and no more than 500 pounds of other waste management 
activities.
    The third option was to create a form, in lieu of Form R, for 
facilities to report ``no significant change'' if their releases 
changed little from the previous year.
    Information from a June 2005 briefing for the Administrator 
indicated that, while the Office of Management and Budget (OMB) had 
suggested increasing the Form A eligibility for non-PBT chemicals from 
500 to 5,000 pounds, the TRI workgroup dropped that option from 
consideration. Moreover, EPA's economic analysis--dated July 2005--did 
not consider the impact of raising the Form A reporting threshold. 
However, the TRI burden reduction rule that EPA published in October 
2005 included the proposal to increase Form A reporting eligibility 
from 500 to 5,000 pounds.
    Although we could not determine from the documents provided by EPA 
what actions the Agency took between the briefing and the issuance of 
the TRI proposal, the Administrator provided direction after the 
briefing to expedite the process in order to meet a commitment to OMB 
to provide burden reduction by the end of December 2006. Subsequently, 
EPA staff worked to revise the economic analysis to consider the impact 
of raising the Form A reporting threshold. However, that analysis was 
not completed before EPA sent the proposed rule to OMB for review and 
was only completed just prior to the proposal being signed by the 
Administrator on September 21, 2005 and ultimately published in the 
Federal Register for public comment on October 4, 2005.
    Furthermore, it appears that EPA management received limited input 
from internal stakeholders, including the TRI workgroup, after 
directing that the proposal include the option to increase the Form A 
reporting threshold from 500 to 5,000 pounds. EPA conducted a Final 
Agency Review of the Form A reporting threshold proposal, as provided 
for in the internal rulemaking guidelines. Final Agency Review is the 
step where EPA's internal and regional offices would have discussed 
with senior management whether they concurred, concurred with comment, 
or did not concur with the final proposal. However, it appears that the 
discussion pertained to the ``no significant change'' option rather 
than increased threshold option. As a result, the EPA Administrator or 
EPA Assistant Administrator for Environmental Information likely 
received limited input about views of internal stakeholders about the 
increased Form A threshold prior to sending the TRI Burden Reduction 
Proposed Rule to OMB for review. Finally, in response to the public 
comments to the proposal, nearly all of which were negative, EPA 
considered alternatives options and revised the proposal to allow 
facilities to report releases of up to 2,000 pounds on Form A. We are 
continuing to review EPA documentation and meet with EPA personnel to 
understand the process followed in developing the TRI burden reduction 
proposal. We expect to have a more complete picture for our report in 
June.
 impact of reporting changes on information available to the public is 
                        likely to be significant
    While our analysis confirms EPA's estimate that the TRI reporting 
changes could result less than 1 percent of total pounds of chemical 
releases no longer being included in the TRI database, the impact on 
information available to some communities is likely to be more 
significant than these national aggregate totals indicate. EPA 
estimated that these reports amount to 5.7 million pounds of releases 
not being reported to the TRI (only 0.14 percent of all TRI release 
pounds) and an additional 10.5 million pounds of waste management 
activities (0.06 percent of total waste management pounds). Examined 
locally, the impact on data available to some communities is likely to 
be more significant than these national totals indicate. To understand 
the potential impact of EPA's changes to TRI reporting requirements at 
the local level, we used 2005 TRI data to estimate the number of 
detailed Form R reports that would no longer have to be submitted in 
each State and the impact this would have on data about specific 
chemicals and facilities. We provide estimates of these impacts, by 
State, in Appendix I. In addition, preliminary results from our January 
2007 survey of State TRI coordinators indicate that they believe EPA's 
changes to TRI reporting requirements will have, on balance, a negative 
impact on various aspects and users of TRI information.
    We estimate that a total of nearly 22,200 Form R reports could 
convert to Form A if all eligible facilities choose to take advantage 
of the opportunity to report under the new Form A thresholds. The 
number ranges by State from 25 Form Rs in Vermont (27.2 percent of Form 
Rs in State) to 2,196 Form Rs in Texas (30.6 percent of Form Rs in 
State). As figure 3 shows, Arkansas, Idaho, and Nevada, North Dakota 
and South Dakota could lose less than 20 percent of the detailed forms, 
while Alaska, California, Connecticut, Georgia, Hawaii, Illinois, 
Maryland, Massachusetts, New Jersey, New York, North Carolina, Rhode 
Island, and Texas could lose more than 30 percent of Form R reports.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    For each facility that chooses to file a Form A instead of Form R, 
the public would no longer have available quantitative information 
about a facility's releases and waste management practices for a 
specific chemical manufactured, processed, or otherwise used at the 
facility. Form R and Form A both capture information about a facility's 
identity, such as mailing address, parent company, and basic 
information about a chemical's identity, such its generic name. 
However, only Form R provides detailed information about the chemical, 
such as quantity disposed or released onsite to air, water, and land or 
injected underground, or transferred for disposal or release off-site. 
Form R also provides information about the facility's efforts to reduce 
pollution at its source, including the quantities managed in waste, 
both on- and off-site, such as amounts recycled, burned for energy 
recovery, or treated. We provide a detailed comparison of the TRI data 
on Form R and Form A in Appendix II.
    One way to capture the impact of the loss of these Form R reports 
is to examine their impact on publicly available data about specific 
chemicals at the State level. The number of chemicals for which no 
information is likely to be reported under the new rule ranges from 3 
chemicals in South Dakota to 60 chemicals in Georgia. That means that 
all quantitative information currently reported about those chemicals 
could no longer appear in the TRI database. Figure 4 shows that 13 
States--including Tennessee, Missouri, Maryland, Oklahoma, Delaware, 
Vermont, and Georgia--would no longer have quantitative information for 
more than 20 percent of all reported chemicals in the State.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The impact of the loss of information from these Form R reports can 
also be understood in terms of how many facilities would no longer have 
to report any quantitative information about their chemical releases 
and waste management practices to the TRI. EPA estimated that 6,670 
facilities will be affected nationwide. Of the total number of affected 
facilities, we estimate that over 50 percent would be eligible to 
convert all their Form Rs to Form A. That is, 3,565 facilities could 
chose not to report any quantitative information about their chemical 
releases and other waste management practices. The number of facilities 
ranges from 5 in Alaska to 302 in California.\5\ As an example, one of 
these facilities is ATSC Marine Terminal--a bulk petroleum storage 
facility in Los Angeles County, California. In 2005, it reported 
releases of 13 different chemicals-- including highly toxic benzene, 
toluene, and xylene--to the air. Although the facility's releases 
totaled about 5,000 pounds, it released less than 2,000 pounds of each 
chemical. As a result of EPA's new reporting rules 3,500 facilities 
across the United States would no longer have to disclose details about 
their chemical releases and other waste management practices. As figure 
5 shows, more than 10 percent of facilities in each State except Idaho 
would no longer have to report any quantitative information to the TRI. 
The most affected States are Colorado, Connecticut, Hawaii, 
Massachusetts, and Rhode Island, where more than 20 percent of 
facilities could choose to not disclose the details of their chemical 
releases and other waste management practices.
---------------------------------------------------------------------------
    \5\ Appendix I provides the number of affected facilities for each 
State.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Environmental Protection and Community Right-to-Know Act 
requires that facilities submit their annual TRI data directly to their 
respective State, as well as to EPA. Last month, we surveyed the TRI 
program contacts in the 50 States and the District of Columbia to gain 
their perspective on the TRI, including an understanding of how TRI is 
used by the States. We also asked for their beliefs about how EPA's 
increase in the Form A eligibility threshold would affect TRI-related 
aspects in their State, such as information available to the public, 
efforts to protect the environment, emergency planning and 
preparedness, and costs to facilities for TRI reporting. Although our 
analysis of the survey is not final, preliminary results from 49 States 
and the District of Columbia show that the States generally believe 
that the change will have a negative on various aspects of TRI in their 
States.\6\ Very few States reported that the change will have a 
positive impact. The States most commonly reported that the TRI changes 
will have a negative impact on such TRI aspects as information 
available to the public and efforts to protect the environment. 
Specifically, 23 States (including California, Maryland, New York, and 
Oklahoma) responded that the changes will negatively impact information 
available to the public, 14 (including Louisiana, Ohio, and Wyoming) 
reported no impact, and only Virginia reported a generally positive 
impact. Similarly, 22 States responded that the change negatively 
impact efforts to protect the environment, 11 reported no impact, and 
only 5 said it will have a positive impact. States most commonly 
responded that raising the eligibility threshold will have no impact 
TRI aspects such as emergency planning and preparedness efforts and the 
cost to facilities for TRI reporting. For example, 22 States responded 
that the change will have no impact on the cost to facilities for TRI 
reporting, 12 said it will have a positive impact, and no States said 
it will have a negative impact. The totals do not always sum to 50 
because some States responded that they were uncertain of the impact on 
some aspects of TRI.
---------------------------------------------------------------------------
    \6\ Survey results from those States responding as of February 1, 
2006.
---------------------------------------------------------------------------
    Finally, we evaluated EPA's estimates of the burden reduction 
impacts that the new TRI reporting rules would likely have on 
industry's reporting costs, the primary rationale for the rule changes. 
EPA estimates that the TRI reporting changes will result in an annual 
cost savings of about 4 percent--totaling approximately $5.9 million 
out of an annual total cost of $147.8 million. (See table 1.)

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    This amounts to an average savings of less than $900 annually for 
each facility. EPA also projected that not all eligible facilities will 
chose to use Form A, based on experience from previous years. 
Furthermore, according to industry groups, much of the reporting burden 
comes from the calculations required to determine and substantiate Form 
A eligibility, rather than from the amount time required to complete 
the forms. As a result, EPA's estimate of nearly $6 million likely 
overestimates the total cost savings (i.e., burden reduction) likely to 
be realized by reporting facilities.
    We are continuing to review EPA documentation and meet with EPA 
officials to understand the process they followed in developing the TRI 
burden reduction proposal. We expect to have a more complete picture 
for our report later this year.
  a system to track perchlorate sampling and cleanup results is still 
                                 needed
    Perchlorate is a salt that is easily dissolved and transported in 
water and has been found in groundwater, surface water, drinking water, 
soil, and food products such as milk and lettuce across the country. 
Health studies have shown that perchlorate can affect the thyroid gland 
and may cause developmental delays. However, EPA has not established a 
national drinking water standard, citing the need for more research on 
health effects. As a result, perchlorate, like other unregulated 
contaminates is not subject to TRI reporting. In May 2005 we issued a 
report that identified (1) the estimated extent of perchlorate found in 
the United States; (2) what actions the Federal Government, State 
governments, and responsible parties have taken to clean up or 
eliminate the source of perchlorate; and (3) what studies of the 
potential health risks from perchlorate have been conducted and, where 
presented, the author's conclusions or findings on the health effects 
of perchlorate.
    Perchlorate has been found by Federal and State agencies in 
groundwater, surface water, soil, or public drinking water at almost 
400 sites in the United States. However, because there is not a 
standardized approach for reporting perchlorate data nationwide, a 
greater number of sites than we identified may already exist in the 
United States. Perchlorate has been found in 35 States, the District of 
Columbia, and 2 commonwealths of the United States, where the highest 
concentrations ranged from 4 parts per billion to more than 3.7 million 
parts per billion. (At some sites, Federal and State agencies detected 
perchlorate concentrations as low as 1 part per billion or less, yet 4 
parts per billion is the minimum reporting level of the analysis method 
most often used.) More than one-half of all sites were found in 
California and Texas, and sites in Arkansas, California, Texas, Nevada, 
and Utah had some of the highest concentration levels. However, most 
sites did not have high levels of perchlorate. Roughly two-thirds of 
sites had concentration levels at or below 18 parts per billion, the 
upper limit of EPA's provisional cleanup guidance, and almost 70 
percent of sites had perchlorate concentrations less than 24.5 parts 
per billion, the drinking water concentration calculated on the basis 
of EPA's recently established reference dose (see fig. 6).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    At more than one-quarter of the sites, propellant manufacturing, 
rocket motor testing, and explosives disposal were the most likely 
sources of perchlorate. Public drinking water systems accounted for 
more than one-third of the sites where perchlorate was found. EPA 
sampled more than 3,700 public drinking water systems and found 
perchlorate in 153 systems across 26 States and 2 commonwealths of the 
United States. Perchlorate concentration levels found at public 
drinking water systems ranged from 4 to 420 parts per billion. However, 
only 14 of the 153 public drinking water systems had concentration 
levels above 24.5 parts per billion. EPA and State officials told us 
they had not cleaned up these public drinking water systems, 
principally because there was no Federal drinking water standard or 
specific Federal requirement to clean up perchlorate. Further, EPA 
currently does not centrally track or monitor perchlorate detections or 
the status of cleanup activities. In fact, several EPA regional 
officials told us they did not always know when States had found 
perchlorate, at what levels, or what actions were taken. As a result, 
it is difficult to determine the extent of perchlorate in the United 
States or the status of cleanup actions, if any.
    Although there is no specific Federal requirement to clean up 
perchlorate or a specific perchlorate cleanup standard, EPA and State 
environmental agencies have investigated, sampled, and cleaned up 
unregulated contaminants, such as perchlorate, under various Federal 
environmental laws and regulations. EPA and State Agency officials have 
used their authorities under these laws and regulations, as well as 
under State laws and action levels, to sample and clean up and/or 
require the sampling and cleanup of perchlorate by responsible parties. 
For example, according to EPA and State officials, at least 9 States 
have established non-regulatory action levels or advisories, ranging 
from under 1 part per billion to 18 parts per billion, under which 
responsible parties have been required to sample and clean up 
perchlorate. Further, certain environmental laws and programs require 
private companies to sample for contaminants, which can include 
unregulated substances such as perchlorate, and report to environmental 
agencies. According to EPA and State officials, private industry and 
public water suppliers have generally complied with regulations 
requiring sampling for contaminants and Agency requests to sample or 
clean up perchlorate. DOD has sampled and cleaned up when required by 
specific environmental laws and regulations but has been reluctant to 
sample on or near active installations, EPA and State officials said. 
Where there is no specific legal requirement to sample at a particular 
installation, DOD's policy on perchlorate requires sampling only where 
a perchlorate release due to DOD activities is suspected and a complete 
human exposure pathway is likely to exist. Finally, EPA, State 
agencies, and/or responsible parties are cleaning up or planning 
cleanup at 51 of the almost 400 sites where perchlorate was found. The 
remaining sites are not being cleaned up for a variety of reasons. The 
reason most often cited by EPA and State officials was that they were 
waiting for a Federal requirement to do so.
    We identified and summarized 90 studies of perchlorate health risks 
published since 1998. EPA and DOD sponsored the majority of these 
studies, which used experimental, field study, and data analysis 
methodologies. For 26 of the 90 studies, the findings indicated that 
perchlorate had an adverse effect. Eighteen of these studies found 
adverse effects on development resulting from maternal exposure to 
perchlorate. Although the studies we reviewed examined whether and how 
perchlorate affected the thyroid, most of the studies of adult 
populations were unable to determine whether the thyroid was adversely 
affected. Adverse effects of perchlorate on the adult thyroid are 
difficult to evaluate because they may happen over longer time periods 
than can be observed in a research study. However, adverse effects of 
perchlorate on development can be studied and measured within study 
time frames. We found some studies considered the same perchlorate dose 
amount but found different effects. The precise cause of the 
differences remains unresolved but may be attributed to an individual 
study's design type or physical condition of the subjects, such as 
their age. Such unresolved questions are one of the bases for the 
differing conclusions among EPA, DOD, and academic studies on 
perchlorate dose amounts and effects.
    In January 2005, NAS issued its report on the potential health 
effects of perchlorate. The NAS report evaluated many of the same 
health risk studies included in our review. NAS reported that certain 
levels of exposure may not adversely affect healthy adults but 
recommended that more studies be conducted on the effects of 
perchlorate exposure in children and pregnant women. NAS also 
recommended a perchlorate reference dose, which is an estimated daily 
exposure level from all sources that is expected not to cause adverse 
effects in humans, including the most sensitive populations. The 
reference dose of 0.0007 milligrams per kilogram of body weight is 
equivalent to a drinking water concentration of 24.5 parts per billion, 
if all exposure comes from drinking water.
    We concluded that EPA needed more reliable information on the 
extent of sites contaminated with perchlorate and the status of cleanup 
efforts, and recommended that EPA work with the Department of Defense, 
other Federal Agencies and the States to establish a formal structure 
for better tracking perchlorate information. Both agencies continue to 
disagree with the recommendation stating that perchlorate information 
already exists from a variety of other sources. However, we found that 
the States and Federal Agencies do not always report perchlorate 
detections to EPA and as a result EPA and the States do not have the 
most current and complete accounting of perchlorate as an emerging 
contaminant of concern. We continue to believe that the inconsistency 
and omissions in the available data that we found during the course of 
our study underscore the need for a more structured and formal system, 
and that such a system would serve to better inform the public and 
others about the locations of perchlorate releases and the status of 
clean ups.
                        preliminary observations
    We believe that EPA's recent changes to the Toxics Release 
Inventory would reduce the amount of information available to the 
public about toxic chemicals in their communities. Indeed, EPA's 
portrayal of the potential impacts of the TRI reporting rule changes in 
terms of the aggregate amount of pollution runs contrary to the 
legislative intent of EPCRA and the principles of the public's right-
to-know. TRI is designed to provide States and public citizens with 
information about the releases of toxic chemicals by facilities in 
their local communities. Citizens drink water from local sources, spend 
much of their time on land near their homes and places of business, and 
breathe the air over their local communities. We believe that the 
likely reduction in publicly availability data about specific chemicals 
and facilities in local communities should be considered in light of 
the relatively small cost savings to industry afforded by the TRI 
reporting changes.
    Madam Chairwoman, this concludes my prepared statement. I would be 
happy to respond to any questions that you and Members of the Committee 
may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Responses by John B. Stephenson to Additional Questions from 
                             Senator Inhofe
    Question 1. In January 2006, the Department of Defense updated its 
sampling policy to be consistent with the National Contingency Plan. 
Your testimony speaks to DOD's previous policy. You failed to mention 
that DOD, in January 2006, adopted 24 ppb as a ``level of concern'' 
that the Department uses to determine what kind of action is needed. 
Have you had any follow-up with or spoken to DOD between the 
publication of your 2005 report and your testimony?
    Response. We have had follow-up with DOD between the publication of 
our report and the testimony. In October 2005, GAO received a letter 
from the Deputy Under Secretary for Defense (Installations & 
Environment) that provided comments on GAO's analytical process, an 
assessment of DOD policy and actions, and a summary of health studies 
related to perchlorate.
    In our February 6, 2007 statement before the Senate Committee on 
Environment and Public Works, we were asked to provide a brief summary 
of our May 2005 report on perchlorate and an update to the report's 
recommendation--that EPA develop a tracking system for perchlorate 
releases and cleanup efforts across the Federal Government and State 
agencies.\1\ To encourage prompt, responsive actions to GAO's 
recommendations, we systematically follow up on them and annually 
report to Congress on their status. Because our recommendation was 
directed solely to EPA, we provided an update on EPA's original 
disagreement with our recommendation, and we did not discuss DOD's 
updated perchlorate sampling policy.
---------------------------------------------------------------------------
    \1\ GAO, Perchlorate: A System to Track Sampling and Cleanup 
Results is Needed, GAO-05-462 (Washington, D.C.: May 20, 2005).
---------------------------------------------------------------------------
    Although we did not discuss DOD's policy, we agree that the 
department established 24 ppb as the level of concern for managing 
perchlorate in January 2006. However, we have not evaluated the 
implications of that policy, nor have we been asked to do so. Our 
testimony summarized the 2005 report's finding that DOD has sampled and 
cleaned up when required by specific environmental laws and regulations 
but has been reluctant to sample on or near active installations unless 
a perchlorate release due to DOD activities is suspected and a complete 
human exposure pathway is likely to exist. This was, in short, DOD's 
September 2003 interim policy on perchlorate sampling that was in 
effect at the time of our report.\2\
---------------------------------------------------------------------------
    \2\ DOD's interim policy stated that the military services shall 
sample for perchlorate where service officials suspect the presence of 
perchlorate on the basis of prior or current DOD activities, and where 
a complete human exposure pathway is likely to exist.

    Question 2. In your criticism of the internal process at EPA, you 
complained that EPA senior management had accelerated the TRI 
rulemaking process. Given that EPA determined in 1997 to pursue burden 
reduction for TRI, is a final decision in 2006 really so accelerated?
    Response. EPA has pursued a number of burden reduction options for 
TRI since at least 1997, and its December 2006 TRI Burden Reduction 
Rule is just the latest outcome from that overall effort. GAO evaluated 
the extent to which EPA followed internal rulemaking guidelines from 
the time that EPA initiated the rulemaking process in early 2004 until 
the Agency issued the proposed rule in October 2005. Our findings are 
specific to that rulemaking process. We found that senior EPA 
management accelerated the rulemaking process in June 2005 while also 
directing the TRI workgroup to reconsider a burden reduction option 
that had previously been dropped. We concluded that management's 
inclusion of this option relatively late in this process, coupled with 
pressure to meet a December 2006 commitment to the Office of Management 
and Budget (OMB) to finalize the rule, led to problems that EPA's 
rulemaking process was designed to avoid.
    As you point out, EPA has pursued burden reduction for TRI since at 
least 1997. Our testimony provided background information about some of 
EPA's other TRI burden reduction efforts. Specifically, we mentioned 
that EPA created the 2-page Certification Statement (Form A) in 1995 
and implemented electronic TRI-Made Easy reporting software in 2001. We 
also stated that the present rulemaking was part of an initiative to 
reduce TRI reporting requirements and burden on industry that began 
with a stakeholder dialog between Fall 2002 and early 2004. Through the 
dialog, a wide range of stakeholders identified improvements to the TRI 
reporting process and discussed a number of burden reduction options. 
After reviewing the options, EPA initiated two phases of burden 
reduction rulemakings. Phase 1 provided several relatively simple, 
quick-fix solutions for reducing the time, cost, and complexity of 
reporting requirements. EPA finalized phase 1 in a July 2005 
rulemaking, the TRI Reporting Forms Modification Rule. Phase 2 provided 
a broader, more complex set of regulatory burden reduction 
alternatives. For the purposes of our testimony, GAO evaluated EPA's 
internal processes for the phase 2 rulemaking.
    As part of our work, GAO found that senior EPA management 
accelerated the rulemaking process between June and October 2005 in 
order to meet a commitment to OMB to provide a final burden reduction 
rule by the end of December 2006. The decision to expedite was made 
relatively late in the process, after an early June 2005 options 
selection briefing for the Administrator. For the briefing, EPA's TRI 
workgroup laid out 3 burden reduction options from the stakeholder 
dialog for which the workgroup had developed detailed analyses. We also 
found that senior EPA management subsequently directed inclusion of an 
option that the TRI workgroup had considered but dropped before 
performing detailed analysis of the option's costs and benefits. That 
option was to increase the limit for the use of Form A for reporting 
non-PBT chemicals from 500 pounds to 5,000 pounds. The problems that we 
found are a consequence of the acceleration that occurred in June 2005 
and the inclusion of this burden reduction option.
    Specifically, we found that EPA did not complete its economic 
analysis of the non-PBT option before the holding the Final Agency 
Review meeting later in June 2005--a step in the process when EPA's 
internal and regional offices discuss with senior management whether 
they concur with the rulemaking. That is, internal stakeholders 
reviewed a rule and analysis of the three original burden reduction 
options rather than an analysis and rule that included the non-PBT 
option. Consequently, the EPA Administrator and Assistant Administrator 
for Environmental Information received limited input about the impacts 
of the new burden reduction option before approving the proposed rule 
for publication in the Federal Register for public comment. As we 
discussed in testimony, nearly all the over 100,000 public comments 
were negative and many cited specific impacts that EPA had not 
thoroughly considered prior to issuing the rule. Specifically, the 
changes were said to adversely affect the ability of data users to 
perform local trend analyses, monitor the performance of individual 
facilities, and more generally, meet the intended purpose of the data 
collection to inform the public, government, and other data users about 
releases of toxic chemicals to the environment.

    Question 3. Did you consider in your analysis that the Form A/PBT 
reports provide quantitative information to the public that no releases 
are being made to the environment?
    Response. We considered in our analysis that Form A provides the 
public with quantitative information that the facility is not releasing 
the PBT chemical to the environment. For our testimony, we evaluated 
EPA's TRI Burden Reduction Rule that allows facilities currently 
reporting zero releases on Form R to use Form A for PBT chemicals, 
provided they do not exceed the 1 million pound alternative reporting 
threshold and have 500 pounds or less of total other waste management 
quantities (e.g., recycling or treatment).\3\ Because eligible 
facilities must have zero release quantities for a PBT chemical, the 
public will still learn that the facility has reported no releases. 
However, we also considered in our analysis the other quantitative and 
qualitative information the facilities will no longer have to provide 
if they begin using the Form A.
---------------------------------------------------------------------------
    \3\ EPA excluded dioxin and dioxin-like compounds from eligibility 
for Form A reporting of PBT chemicals.
---------------------------------------------------------------------------
    As we detailed in appendix II of our statement, Form A does not 
provide information to the public that is reported on Form R regarding 
the use(s) of the chemical (i.e., was the chemical manufactured, 
processed, or otherwise used), the maximum amount of the chemical on 
site at any time during the calendar year, and the production ratio. 
EPA reported in its economic analysis that, with regard to the maximum 
amount of the chemical on site, information would not be reported that, 
in the past, has been useful in (1) emergency planning and response, 
(2) environmental data analyses as a proxy for throughput, and (3) 
compliance targeting analysis to identify facilities that are not 
compliance with other EPA regulations. For this information, Form A 
serves as a range report of 0 to 500 pounds.
    As mentioned in our previous answer, EPA's rule also increased 
eligibility for facilities to report non-PBT chemicals on Form A. In 
our analysis, we used 2005 TRI data to estimate the number of detailed 
Form R reports that would no longer have to be submitted in each State 
under EPA's new rule. We also determined the possible impact that EPA's 
rule could have on quantitative information about specific chemicals 
and facilities. In table 2 of the statement's appendix I, we provided 
the number of unique chemicals for which no quantitative information 
would have to be reported in each State and the number of facilities 
that would no longer have to provide quantitative information about 
their chemical releases and waste management practices.

    Question 4. Would you agree that the TRI reform provides incentives 
to small businesses to reduce emissions to zero for PBTs?
    Response. EPA stated in its economic analysis that the rule will 
provide incentives to reduce or eliminate releases (especially for PBT 
chemicals) and encourage source reduction. This will happen if 
facilities choose to reduce their releases of PBT chemicals to zero in 
order to use the Form A instead of Form R. However, the Agency added 
that it was not able to estimate quantitatively how much releases would 
be eliminated, or other waste management activities replaced by source 
reduction, due to lack of data. For our part, we did not attempt to 
evaluate the extent to which the TRI rulemaking provides incentives to 
small businesses to reduce emissions of PBT chemicals to zero.

    Question 5a. We know that GAO did interview staff at the SBA Office 
of Advocacy about its observations on the TRI rule. Did you analyze the 
information value of the Form A range reports for non-PBT chemicals?
    Response. In our testimony, GAO did not specifically quantify the 
information value of Form A as a range report. However, for comparison 
purposes we detailed the chemical information that is provided on Form 
R and Form A in appendix II. This analysis shows that Form R and Form A 
provide substantially different information. None of the quantitative 
chemical release and waste management information that we list under 
Form R is provided on Form A. That is, Form R captures detailed 
information about the chemical, such as quantity disposed or released 
onsite to air, water, and land or injected underground, or transferred 
for disposal or release off-site. Form A does not. In addition, Form R 
provides details about the facility's efforts to reduce pollution at 
its source, including the quantities managed in waste, both on- and 
off-site, such as amounts recycled, burned for energy recovery, or 
treated. Form A does not.
    EPA's final rule increased the eligibility thresholds such that a 
facility may use Form A if its (1) total releases of a non-PBT chemical 
to all media (i.e., air, water) are not greater than 2,000 pounds and 
(2) total waste management quantities, including releases, do not 
exceed 5,000 pounds. Therefore, a non-PBT Form A serves as a range 
report--certifying that the facility released between 0 and 2,000 total 
pounds of the chemical and managed between 0 to 5,000 total pounds of 
waste (including releases). However, the Form A does not provide 
information about where the facility released the chemical (i.e., air, 
water) and how it managed the chemical in waste (i.e., recycling, 
energy recovery).

    Question 5b. Did you evaluate the Office of Advocacy's October 2004 
report that 99 percent of all 3,142 counties would not be significantly 
affected by a change in the non-PBT threshold from 500 to either 2,000 
or 5,000 pounds?
    Response. We have been aware of the October 2004 report that Pechan 
and Associates prepared for the Small Business Administration Office of 
Advocacy since early in our review.\4\ However, we did not evaluate the 
study because of the serious methodological concerns that EPA raised 
during our discussions. The study uses substantially different 
methodology than EPA used in its economic analysis or GAO used in our 
analyses for the testimony. In short, the study used EPA's Risk 
Screening Environmental Indicators (RSEI) model to perform a risk-based 
analysis of the impact of EPA's changes on information that would be 
reported to the TRI. The study compared the relative impacts of several 
different non-PBT threshold options, but it excluded from consideration 
many TRI Form R reports that are eligible to convert to Form A. Based 
on EPA's methodological reservations, we excluded from consideration 
the results of Pechan's analyses. Instead, GAO conducted our own 
independent analysis of the costs and benefits of EPA's changes to the 
TRI reporting requirements.
---------------------------------------------------------------------------
    \4\ E.H. Pechan and Associates, Inc., Risk-Based Analysis for Form 
A and Form NS Toxics Release Inventory Reform Proposed Alternatives 
(Durham, N.C.: October 14, 2004).
---------------------------------------------------------------------------
    Regardless of these methodological concerns, the Pechan and 
Associates report does not specifically conclude that 99 percent of all 
3,142 counties would not be significantly affected by a change in the 
non-PBT threshold from 500 to either 2,000 or 5,000 pounds. Rather, it 
states on page 29:
          Pechan also evaluated the potential county-level impacts for 
        each Form A reform proposal alternative. In order to examine 
        the worst case situation, Tables IV-3 through IV-9 present 
        results for the top 20 counties impacted by each reform 
        proposal (the counties in each table are sorted in descending 
        order by reduction in risk score). Since the United States has 
        3,142 counties, more than 99 percent of the counties will show 
        data losses that are less than these tables show. It is 
        important to note that all county-level results are presented 
        relative to the current 500-pound reporting threshold (i.e., 
        all Form Rs with an ARA of 500 pounds or less are removed 
        before calculating relative impacts). Not surprisingly, the top 
        20 counties account for anywhere between 36 percent and 51 
        percent of the national change in risk score under each of the 
        Form A reform proposals.

    Question 6. Is it not the role for EPA management to make decisions 
in the rulemaking process, including decisions that were not originated 
by their staff?
    Response. EPA management's role is to make decisions throughout the 
rulemaking process, and the Agency developed its Action Development 
Process (ADP) to ensure that EPA management uses quality information to 
support its actions and to ensure that scientific, economic, and policy 
issues are adequately addressed at the right stages in action 
development.\5\ EPA's process (1) includes steps for planning sound 
scientific and economic analyses to support rulemaking, including peer 
review when necessary, (2) includes steps for developing and selecting 
regulatory options based on relevant scientific, economic, and policy 
analyses, (3) calls upon affected headquarters and regional managers to 
get involved early in developing an action and to stay involved until 
the final action is completed, (4) ensures active and appropriate 
cross-Agency participation, and (5) encourages appropriate and 
meaningful consultation with stakeholders in the process through 
substantive consultative procedures.
---------------------------------------------------------------------------
    \5\ EPA, EPA's Action Development Process: Guidance for EPA Staff 
on Developing Quality Actions, June 30, 2004. EPA defines actions to 
include rules, policy statements, risk assessments, guidance documents, 
models that may be used in future rulemakings, Reports to Congress that 
are statutorily mandated, and strategies that are related to 
regulations. EPA uses the term ``action'' in its broadest sense. For 
the purpose of our answer, we use the terms ``rulemaking'' and 
``action'' synonymously.
---------------------------------------------------------------------------
    As GAO highlighted in its testimony, EPA management generally has 
the discretion to depart from these guidelines, including by 
accelerating the development of the proposed TRI Burden Reduction Rule. 
Nonetheless, those decisions created differences between EPA's 
guidelines and the process that the Agency followed--differences that 
had an impact on the quality of support for the proposed rule that the 
ADP is designed to ensure. Given the questions we were asked to respond 
to as part of our review, we believe it was appropriate to assess and 
report on the consequences of the decisions we cited.

    Senator Boxer. Thank you, Mr. Stephenson.
    Mr. Sullivan.

 STATEMENT OF THOMAS M. SULLIVAN, CHIEF COUNSEL FOR ADVOCACY, 
               U.S. SMALL BUSINESS ADMINISTRATION

    Mr. Sullivan. Chairman Boxer, thank you for giving me the 
opportunity to appear before the committee. My name is Tom 
Sullivan. I am the Chief Counsel for Advocacy at the U.S. Small 
Business Administration.
    My office is an independent office within SBA, so the 
comments expressed in this oral statement, questions and 
answers and in my written statement do not necessarily reflect 
the position of the Administration or the SBA. My written 
statement was not submitted to OMB in draft form for approval 
prior to this hearing.
    I ask the Chairman if my full written statement can be 
entered into the record.
    Senator Boxer. Surely.
    Mr. Sullivan. Five years after TRI was created, my office 
petitioned EPA to develop streamlined reporting for small 
volume chemical users. In 1994, EPA responded to the petition 
by adopting Form A, the short form for TRI reporting. Adopted 
as a less burdensome alternative to the long Form R, the 
original Form A allowed companies to report their releases as a 
range, instead of a specific number.
    Unfortunately, the Form A developed in 1994 was never 
utilized to its potential, owing to restrictive eligibility 
requirements subsequently imposed on the short form. Small 
businesses have consistently voiced their concerns to Advocacy 
that the TRI program imposes substantial paperwork burdens with 
little corresponding environmental benefit, especially for 
thousands of business that have zero discharges or emissions to 
the environment. These businesses must devote scarce time and 
resources to completing lengthy, complex Form R reports every 
year, despite the fact that they have zero discharges.
    The reason for my office's involvement is simple: small 
businesses are disproportionately impacted by regulation. The 
overall regulatory burden in the United States exceeds $1.1 
trillion. For firms employing fewer than 20 employees, the most 
recent estimate of their regulatory burden is $7,647 per year 
per employee.
    Looking specifically at compliance with the Federal 
environmental rules, the difference between small and large 
firms is dramatic. Small firms spend 4\1/2\ times more per 
employee for environmental compliance than their larger 
business counterparts. Environmental requirements, including 
TRI paperwork requirements, can comprise up to 72 percent of 
small manufacturers' total regulatory cost.
    EPA's reform to the TRI reporting rules allows more small 
business to use Form A instead of the longer Form R. This will 
save money. As the Administrator commented, it provides an 
incentive for companies to recycle chemicals instead of 
disposing.
    I spoke last week with a TRI expert who runs Advanced 
Environmental Management Group, a consulting firm that works 
with small businesses on environmental management issues. He is 
proud of his work, helping a paper mill recycle small amounts 
of mercury generated when switches and other process control 
circuits undergo maintenance in the mill's power house. Amerjit 
``Sid'' Sidhu explained to me that EPA's TRI reform will allow 
a number of industrial operations such as tool and die shops 
and metal stamping plants to file a Form A for the first time. 
It will also provide an incentive for other companies that Sid 
works with to recycle their TRI chemicals, rather than 
disposing of them.
    Although this rule does not go as far as some small 
businesses would prefer, the Office of Advocacy supports EPA's 
TRI burden reduction rule. The rule demonstrates that EPA is 
listening to the concerns of small business. The TRI reform 
should be a model for other agencies to reform their existing 
regulations to reduce costs while preserving or strengthening 
regulatory objectives.
    Thank you for allowing me to present these views. I would 
be happy to answer questions.
    [The prepared statement of Mr. Sullivan follows:]
Statement of Thomas M. Sullivan, Chief Counsel for Advocacy, U.S. Small 
                        Business Administration
    Chairman Boxer and Members of the committee, thank you for giving 
me the opportunity to appear before you today. My name is Thomas M. 
Sullivan and I am the Chief Counsel for Advocacy at the U.S. Small 
Business Administration (SBA). Congress established the Office of 
Advocacy to represent the views of small entities before Congress and 
the Federal Agencies. The Office of Advocacy (Advocacy) is an 
independent office within the SBA, and therefore the comments expressed 
in this statement do not necessarily reflect the position of the 
Administration or the SBA.
    This committee is reviewing several recent regulatory actions of 
the U.S. Environmental Protection Agency (EPA), including a December 
2006 rule designed to reduce paperwork burdens under the Toxics Release 
Inventory (TRI) program.\1\ The Office of Advocacy strongly supports 
EPA's TRI Burden Reduction rule. Advocacy has worked with the EPA since 
1988 on TRI issues, and we have developed substantial expertise with 
TRI and other right-to-know programs. In our view, the TRI Burden 
Reduction rule will yield needed reductions in small business paperwork 
burdens while preserving the integrity of the TRI program and 
strengthening protection of the environment.
---------------------------------------------------------------------------
    \1\ U.S. Environmental Protection Agency, Final Rule, ``Toxics 
Release Inventory Burden Reduction,'' 71 Fed. Reg. 76,932 (December 22, 
2006).
---------------------------------------------------------------------------
                               background
    The public right-to-know provisions set forth by the Emergency 
Planning and Community Right to Know Act of 1986 (EPCRA)\2\ created the 
Toxics Release Inventory (TRI), which requires companies to make a 
yearly report to EPA of their handling, management, recycling, 
disposal, and allowable emissions and discharges of chemicals.
---------------------------------------------------------------------------
    \2\ Pub. L. 99-499, Title III, codified at 42 U.S.C. 
Sec. Sec. 11001-11050.
---------------------------------------------------------------------------
    Following EPCRA's passage, American businesses have taken 
unprecedented action to reduce the amount of toxic chemicals used in 
their plants. Some companies followed the initial publication of TRI 
data in 1989 by pledging to reduce 80 to 90 percent of their chemical 
releases. The American Chemistry Council member companies implemented a 
``Responsible Care'' initiative which has reduced environmental 
releases by 78 percent over the past 19 years.
   small businesses have been asking for tri paperwork burden relief 
                               since 1990
    Soon after the initial reporting years, small business discovered 
that TRI's requirement to track, estimate, and report chemical use was 
complex and time-consuming. Beginning in 1990, these small businesses 
began asking for simpler alternatives. The Office of Advocacy 
petitioned EPA in 1991 to develop streamlined reporting for small-
volume chemical users. In 1994, EPA responded to the petition by 
adopting ``Form A,'' the short form for TRI reporting. Adopted as a 
less burdensome alternative to the long form ``Form R,'' the original 
Form A allowed companies to report their releases as a range, instead 
of a specific number. Form A enabled the public to know that a facility 
handles less than a small threshold quantity of the reported chemical. 
Significant chemical management activities were still required to be 
reported on the longer, more detailed Form R.
    Unfortunately, the Form A developed in 1994 was never utilized to 
its potential, owing to restrictive eligibility requirements 
subsequently imposed on the short form. Small businesses have 
consistently voiced their concerns to Advocacy that the TRI program 
imposes substantial paperwork burdens with little corresponding 
environmental benefit, especially for thousands of businesses that have 
zero discharges or emissions to the environment. These businesses must 
devote scarce time and resources to completing lengthy, complex Form R 
reports each year, despite the fact that they have zero discharges. In 
1997, Advocacy's Chief Counsel Jere Glover testified that:
    The Office of Advocacy has had the same position about small 
sources and the Toxic Release Inventory since 1988. In 1988, we 
supported exempting certain facilities with less than 50 employees for 
TRI reporting. In 1991, we supported exempting reports from facilities 
that emitted less than 5,000 pounds per year of listed toxic chemicals, 
and in 1994, EPA enacted this exemption. Recently, with the proposal of 
TRI Phase II, this office also supported eliminating from reporting 
industry sectors with small releases. Thus, the Office of Advocacy 
adheres to a standard that maximizes the impact of regulations on a 
problem while minimiz[ing] the impact on small firms that contribute 
little to the problem.\3\

    \3\ Testimony of Jere W. Glover, Chief Counsel for Advocacy, before 
the House Committee on Small Business, Subcommittee on Government 
Programs and Subcommittee on Regulatory Reforms and Paperwork 
Reduction, ``Small Business Involvement in the Regulatory Process and 
Federal Agencies' Compliance with the Regulatory Flexibility Act'' 
(April 17, 1997).
---------------------------------------------------------------------------
    In this decade, small businesses have continued to identify TRI 
paperwork relief as a priority. In 2001, 2002, and 2004, for example, 
TRI burden reduction was named as a high-priority candidate for 
regulatory reform in response to the Office of Management and Budget's 
public call for reform nominations.\4\
---------------------------------------------------------------------------
    \4\ See, e.g., Office of Management and Budget, Draft Report to 
Congress, 67 Fed. Reg. 15014, 15015 (March 28, 2002).
---------------------------------------------------------------------------
   why is tri paperwork burden reduction important to small business?
    The annual burden of completing TRI paperwork is substantial. EPA 
has estimated that first-time Form R filers need to spend an average of 
50 hours, and as many as 110, to properly complete the forms.\5\ For 
small businesses, the burden is even heavier.
---------------------------------------------------------------------------
    \5\ See, e.g., 66 Fed. Reg. 4,500, 4538 (January 17, 2001) (EPA 
estimated that first-time filers of TRI annual reports of lead and lead 
compounds would need an average of 50 hours, and as many as 110 hours, 
to prepare their Form R's.).
---------------------------------------------------------------------------
    The 2005 Advocacy-funded study by W. Mark Crain, The Impact of 
Regulatory Costs on Small Firms, found that, in general, small 
businesses are disproportionately impacted by the total Federal 
regulatory burden.\6\ This overall regulatory burden was estimated by 
Crain to exceed $1.1 trillion in 2004. For firms employing fewer than 
20 employees, the annual regulatory burden in 2004 was estimated to be 
$7,647 per employee--nearly 1.5 times greater than the $5,282 burden 
estimated for firms with 500 or more employees.\7\ Looking specifically 
at compliance with Federal environmental rules, the difference between 
small and large firms is even more dramatic. Small firms generally have 
to spend 4\1/2\ times more per employee for environmental compliance 
than large businesses do. Environmental requirements, including TRI 
paperwork requirements, can comprise up to 72 percent of small 
manufacturers' total regulatory costs.\8\
---------------------------------------------------------------------------
    \6\ W. Mark Crain, The Impact of Regulatory Costs on Small Firms 
(September 2005) available at http://www.sba.gov/advo/research/
rs264tot.pdf.
    \7\ Id at page 55, Table 18.
    \8\ Id.
---------------------------------------------------------------------------
    As an illustration of the impact of TRI on small business, I 
recently spoke with manufacturers and environmental engineers who work 
with small companies in Southeast Michigan's ``Innovation Alley.'' 
These companies use aluminum alloys to build automatic transmissions 
and other car parts that must be heavily machined. Some of the alloys 
contain lead, which helps its machinability. Without lead, the alloys 
would be gummy, preventing a smooth machining process. The process 
generates scrap metal, which is recycled. Because the scrap metal 
contains lead, Form R reports have been required each year, despite 
that fact that no lead is ever released to the environment. EPA's TRI 
Burden Reduction rule will allow these companies to use Form A.
      epa has long recognized that tri burden relief is necessary
    EPA's efforts at TRI burden reduction, started in 1991, have 
spanned both Republican and Democratic Administrations. In 1994, EPA 
Administrator Browner approved the adoption of the original Form A. In 
1997, when EPA expanded the scope of TRI reporting requirements, EPA 
promised that it would seek additional reductions in the TRI paperwork 
burden.\9\ EPA Administrators have spent over 15 years working with the 
public to develop a new TRI paperwork reduction approach. This effort 
has included forming a Federal Advisory Committee, conducting an online 
dialogue with interested parties, holding stakeholder meetings, and 
going through the formal rulemaking process. The TRI Burden Reduction 
rule signed in December 2006 is the result of this process.
---------------------------------------------------------------------------
    \9\ U.S. Environmental Protection Agency, Final Rule, ``Addition of 
Facilities of Certain Industry Sectors; Revised Interpretation of 
Otherwise Use; Toxic Release Inventory Reporting, Community Right-to-
Know'' 62 Fed. Reg. 23,834, 23,887 (May 1, 1997) (``EPA believes that 
[Form R and Form A] can be revised to make it simpler and less costly 
for businesses to meet their recordkeeping and reporting obligations . 
. . EPA is initiating an intensive stakeholder process--involving 
citizens groups, industry, small businesses and States--to conduct 
comprehensive evaluation of the current TRI reporting forms and 
reporting practices with the explicit goal of identifying 
opportunities, consistent with community right-to-know and the relevant 
law, to simplify and/or reduce the cost of TRI reporting.'').
---------------------------------------------------------------------------
  the paperwork burden reduction rule does not weaken the tri program
    Some observers have expressed concerns that the TRI Burden 
Reduction rule would result in less detailed information about 
chemicals being communicated to EPA, the States, and the public. 
Specifically, concerns have been voiced about the future ability to 
perform trend analyses, monitor the performance of individual 
facilities, and satisfy the public right-to-know. To respond to these 
concerns, EPA placed a 2,000-pound limit on releases of chemicals that 
can be considered for Form A reporting. Under the TRI Burden Reduction 
rule, each Form A will be a range report, telling the public that total 
releases from a facility is in the range of zero to 2,000 pounds. 
Facilities that have any emissions or discharges of highly toxic 
materials (defined as Persistent, Bioaccumulative and Toxic (PBT) 
chemicals) still cannot use Form A.
    The expanded Form A continues to obtain reporting on a substantial 
majority of total releases of every TRI-listed chemical at all 
facilities required to submit TRI reports. Form A provides much of the 
important information that Form R does. TRI data users are currently 
able to gain access to Form A facility information via Envirofacts\10\ 
and TRI Explorer\11\ in the same way that they can access Form R 
facility information. Form A tells the user whether a facility is a 
potential source of releases and other waste management activities.
---------------------------------------------------------------------------
    \10\ (http://www.epa.gov/envirofacts). Using EZ Query in 
Envirofacts, data users are able to access individual chemical Form As 
along with the TRI Facility Identification Numbers (TRIFIDs) and the 
names of facilities submitting Form A's.
    \11\ (http://www.epa.gov/triexplorer).
---------------------------------------------------------------------------
    EPA's TRI Burden Reduction rule continues to require firms to 
report all of the chemicals they have been reporting each year on the 
Form R. Following the same principles that governed the 1994 TRI 
paperwork reform, more firms will now be able to use the short form 
(Form A) to report a range of use, rather than detailed amounts on the 
longer, more complex Form R.
    Advocacy agrees with EPA that the rule's approach to expanded Form 
A eligibility for chemical use reporting strikes an appropriate balance 
by allowing meaningful burden relief while at the same time continuing 
to provide valuable information to the public.
  the tri burden reduction rule will strengthen overall environmental 
                               compliance
    Under the TRI Burden Reduction Rule, top environmental performers 
within industry will benefit by being able to use the short form (Form 
A). In order to qualify to use Form A, firms must minimize their use of 
all chemicals and sharply curtail their use of PBT chemicals. Most 
importantly, in order to use Form A, firms may not emit or discharge 
any PBT chemicals into the environment. In the same way that the 
initial Form R reports in 1989 provided an incentive for large 
companies to dramatically reduce their subsequent chemical releases, 
the expanded Form A will provide an incentive for business to reduce 
their overall chemical usage to be able to use the short reporting 
form.
    As an example of this, I spoke last week with a TRI expert who runs 
Advanced Environmental Management Group, a consulting firm that works 
with small businesses on environmental management issues. He was proud 
of his work helping a paper mill recycle small amounts of mercury 
generated when switches and other process control circuits undergo 
maintenance in the mill's powerhouse. Amerjit ``Sid'' Sidhu explained 
to me that EPA's TRI reform will allow a number of industrial 
operations such as tool and die shops and metal stamping plants to file 
a Form A for the first time. It will also provide an incentive for 
other companies to recycle their TRI chemicals rather than disposing of 
them.
           advocacy supports epa's tri burden reduction rule
    While small businesses and the Office of Advocacy asked EPA to 
deliver a greater measure of burden reduction and make Form A available 
to a larger number of filers, EPA ultimately chose a more modest 
alternative. Some manufacturers who deal with metal alloys that contain 
extremely small percentages of lead to assist in their machinability 
would have preferred a de minimis exemption. Their argument, which I 
agree with, is that the burdens of data collection and calculations to 
track miniscule percentages of lead contained within metal alloys is 
essentially a waste of resources when we know the scrap metal is 
recycled and there are no releases to the environment. When I visited a 
wheel manufacturer in Tennessee, I was amazed to see that the small 
facility produced 35,000 aluminum road wheels per week. The facility 
was spotless. Nevertheless, because of the aluminum dust in floor 
sweepings--with an estimated total of \1/10\ of a pound of lead per 
year--that ends up in their garbage, the company is still required to 
submit Form R reports to EPA each year.
    Although it does not go as far as some small businesses would 
prefer, Advocacy supports the TRI Burden Reduction rule. The rule 
demonstrates that EPA is listening to the concerns of small business. 
EPA's TRI reform should be a model for other agencies to reform their 
existing regulations to reduce costs while preserving or strengthening 
the original regulatory objectives.
    Thank you for allowing me to present these views. I would be happy 
to answer any questions.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Responses by Thomas M. Sullivan to Additional Questions from 
                             Senator Inhofe
    Question 1.  The Small Business Administration Office of Advocacy 
is charged with advocating on behalf of small business. However, EPA's 
reforms to the TRI program have been described as helping large 
industrial companies, not small businesses. Please explain the 
disproportionate impact of Federal regulations on small businesses and 
the relevance to TRI reform and how EPA's reforms to the Toxics Release 
Inventory program benefit small business.
    Response. Many thousands of small businesses will benefit from the 
December 2006 TRI reform. We estimate that about half of the new relief 
goes to small businesses.
    The 2005 Advocacy-funded study by W. Mark Crain, The Impact of 
Regulatory Costs on Small Firms, found that small businesses are 
disproportionately affected by the total Federal regulatory burden.\1\ 
This overall regulatory burden was estimated by Crain to exceed $1.1 
trillion in 2004.\2\ For firms employing fewer than 20 employees, the 
annual regulatory burden was estimated to be $7,647 per employee--
nearly 1.5 times greater than the $5,282 burden estimated for firms 
with 500 or more employees.\3\ Looking specifically at compliance with 
Federal environmental rules, the difference between small and large 
firms is even more dramatic. Small firms generally have to spend 4\1/2\ 
times more per employee for environmental compliance than large 
businesses do.\4\ Environmental requirements, including TRI paperwork 
requirements, can constitute up to 72 percent of small manufacturers' 
total regulatory costs.\5\ Therefore, the Federal Government is 
properly concerned with environmental regulatory costs on small firms, 
and particularly those that fall on the manufacturing sector.
---------------------------------------------------------------------------
    \1\ W. Mark Crain, The Impact of Regulatory Costs on Small Firms 
(September 2005) available at http://www.sba.gov/advo/research/
rs264tot.pdf.
    \2\ Id. at p. v.
    \3\ Id at page 55, Table 18.
    \4\ Id.
    \5\ Id.
---------------------------------------------------------------------------
    Small businesses need regulatory relief and this TRI rule is a 
small but significant step in that direction.

    Question 2. In your testimony, you described how EPA's December 
2006 TRI rule will help small business and strengthen environmental 
protections. Please describe why you believe that this new rule 
improves EPA's ability to protect the environment.
    Response. In addition to assisting small businesses via reduced 
recordkeeping/reporting requirements, EPA's TRI reporting burden 
reduction rule also provides TRI reporters with incentives to protect 
the environment. In order to qualify for the benefits associated with 
the short Form A, many facilities will need to reduce their emissions 
into the environment and perform more pollution prevention.
    By limiting persistent, bioaccumulative and toxic chemicals (PBT) 
Form A eligibility to facilities with zero releases and 500 pounds or 
less (Annual Reportable Amount, or ARA)\6\ of other waste management 
(i.e., recycling, energy recovery, and treatment for destruction), EPA 
is encouraging facilities to eliminate releases of PBT chemicals and 
reduce other waste management quantities to 500 pounds or less. 
Facilities that currently dispose of wastes, such as mercury, would be 
encouraged to recycle the mercury instead to achieve zero emissions 
into the environment. This new provision is especially important to the 
environment because it drives those releases of chemicals of ``special 
concern'' (PBTs) to zero.
---------------------------------------------------------------------------
    \6\ The annual reportable amount (ARA) is defined in the final rule 
as the sum of the quantities reported in sections 8.1 to 8.8 of the 
Form R, which reflect chemical disposal or other releases (8.1), energy 
recovery (8.2 and 8.3), recycling activity (8.4 and 8.5), treatment 
(8.6 and 8.7), and quantities associated with one-time events (8.8). In 
the pre-2006 version of the ARA, the ARA was defined as the sum of 
sections 8.1-8.7. The addition of 8.8 represented wastes generated from 
one-time events.
---------------------------------------------------------------------------
    For non-PBTs, EPA has designed the Form A eligibility criteria in 
such a way as to create an incentive for facilities to move away from 
disposal and other releases toward treatment and recycling. This 
incentive is created by raising the recycling, treatment, and energy 
recovery portions of the ARA to a 5,000-pound maximum, while capping 
releases at 2,000 pounds. This approach promotes pollution prevention, 
recycling, energy recovery, and treatment over releases. In addition, 
by including all waste management activities in the Form A eligibility 
criteria, EPA will be newly encouraging facilities above the 5,000-
pound ARA to reduce their total waste management in order to qualify 
for Form A eligibility.
    Through expanded Form A eligibility, EPA's burden reduction rule 
provides a major incentive for firms to bolster their reputations as 
environmentally responsible companies.

    Question 3. Please explain why small businesses with fewer than 10 
employees are exempt from TRI reporting and why small businesses still 
need the additional burden reductions from EPA's December 2006 TRI 
rule.
    Response. Congress originally set the employee and chemical 
throughput thresholds, based on data from New Jersey's right-to-know 
program, in order to capture the substantial majority of releases from 
industrial facilities. The original 10-employee statutory exemption was 
not established as a small business standard, but as a practical method 
of excluding facilities that were unlikely to pose a significant risk 
to the community. Now that EPA has nearly 20 years of TRI data, we know 
that additional burden reductions can be achieved without posing a 
significant risk to the community.

    Question 4. In your written statement you referred to EPA's action 
in 1994 to create Form A, as a simpler form for reporting chemical use 
under TRI than the more complicated Form R. You also referred to 
``principles that governed the 1994 TRI paperwork reform . . . .'' 
Please explain what you meant by ``principles'' that governed the 
creation of Form A, and please describe how those same principles apply 
to EPA's December 2006 TRI rule.
    Response. As we discussed in our January 2006 comments on the 
proposal,\7\ EPA proposed to expand the Form A non-persistent, 
bioaccumulative, and toxic (non-PBT) annual reportable amount (ARA) 
threshold from 500 pounds to 5,000 pounds. EPA's choice of the proposed 
5,000-pound non-PBT ARA threshold was based on several considerations 
that were first identified in the determinations made in the 1994 final 
rule establishing the Form A and the 500 pound ARA threshold (59 Fed. 
Reg. 61488, November 30, 1994). As such, EPA was only recalibrating the 
1994 ARA to a higher threshold, based on a review of more current data 
(2002, instead of 1992). Below are the three principles that I referred 
to in my statement that underlie the proposal and the final rule:
---------------------------------------------------------------------------
    \7\ www.sba.gov/advo/laws/comments/epa06--0113.pdf
---------------------------------------------------------------------------
    In 1994, the Form A, and the 500 pound threshold, were justified on 
the following three findings:
    (1) Chemical reporting on a substantial majority of the releases is 
maintained with the Form A;
    (2) Little production-related waste information (approximately 0.1 
percent) will be excluded from Form Rs; and
    (3) Each Form A would provide the public with a range report that 
informs the public that total releases as well as total production-
related waste is below a certain threshold.\8\
---------------------------------------------------------------------------
    \8\ 1994 EPA Response to Comments Document, Establishment of 
Alternate Threshold, November 1994, EPA Docket No. OPPTS-400087A, at 
page 52.
---------------------------------------------------------------------------
    EPA used the same three criteria in determining and justifying the 
new 5,000-pound threshold in the December 2006 final rule. EPA asserts 
a strong factual and legal foundation for the new revisions by using 
the 1994 approach. An examination of how the above three findings apply 
to the new 5,000-pound threshold indicates the following. With regard 
to the first finding, chemical reporting on a substantial majority of 
releases is maintained by requiring the Form A as part of the 
reporting, just as in 1994. With regard to the second finding on the 
new threshold, Table 3 of the preamble to EPA's proposal shows that 
99.9 percent of total production-related wastes will still be reported 
via Form R, even if all the eligible Form R non-PBT reporters switch to 
use of Form A.\9\ The 5,000-pound threshold is simply a recalibration 
of the 500 pound threshold from 1994, based on the large number of new 
chemical reports introduced since 1994 and the continuing reduction in 
wastes handled by facilities. With regard to the third finding, Form A 
provides the identical range report information that the total 
production-related waste is below a certain threshold. The findings for 
the 2005 proposal are equally applicable to the 2006 final rule because 
the final rule only increased the number of forms subject to the Form R 
requirements relative to the proposed rule. See the Table below for a 
comparison of the 1994 final rule and the 2006 final rule.
---------------------------------------------------------------------------
    \9\ 70 Fed. Reg. 57822, 57843 (October 4, 2005).

     Comparison of 1994 Form A Final Rule and 2006 Form A Final Rule
------------------------------------------------------------------------
                                 2006 Final                  1994 Final
       EPA Criteria-ARA           5,000 lbs    2006 Final   Rule 500 lbs
                                   Non-PBT    500 lbs  PBT     Non-PBT
------------------------------------------------------------------------
Substantial Majority of                 Yes           Yes           Yes
 Releases Captured............
99.9 percent of Waste Data on           Yes           Yes           Yes
 Form R.......................
Form A--Range Report between            Yes           Yes           Yes
 Zero and Threshold Amount....
------------------------------------------------------------------------


    Question 5. The SBA Office of Advocacy has contracted with research 
firms to document the impact EPA's December 2006 TRI rule will have on 
small businesses and local communities. Please explain how EPA's rule 
will impact communities based on research procured by your Agency.
    Response. To evaluate claims of EPA rule impacts, Advocacy 
requested that E.H. Pechan & Associates, Inc. (Pechan) review 
information describing how TRI data are currently used, and to evaluate 
the impact of EPA's proposed reporting burden relief on these current 
uses.\10\ Pechan's review focused on comments submitted to EPA in 
opposition to the proposed reporting revisions.
---------------------------------------------------------------------------
    \10\ E.H. Pechan & Associates, Inc., ``Review and Analysis of the 
Effect of EPA's Toxics Release Inventory (TRI) Phase II Burden 
Reduction Proposal on TRI Data Uses,'' prepared for U.S. Small Business 
Administration, Office of Advocacy, June 2007. See http://www.sba.gov/
advo/research/chron.html for research summary and report. The research 
summary is also appended to this document.
---------------------------------------------------------------------------
    Pechan analyzed 17 national, State, and local TRI data use 
examples, and determined that, with the possible exception of one 
example, EPA's proposal will have insignificant effects on these data 
uses.\11\ Pechan found several instances where the commenters either 
misunderstood or misreported the nature of the proposed TRI revisions, 
and several cases where they misreported the underlying facts. For 
example, commenters failed to understand that no changes were proposed 
for PBTs, such as mercury, when the facility has any releases into the 
environment. Therefore, data users who were concerned about PBT 
releases going unreported were addressing a nonexistent issue. 
Additional examples of types of data uses where no impact is 
anticipated include uses to support chemical emergency planning and to 
support characterization of dioxin quantities (dioxins are exempt from 
EPA's proposal). In addition, many of the examples involve the use of 
TRI data to target facilities with the highest releases and/or total 
waste quantities for reductions. These uses are minimally (if at all) 
affected by EPA's proposal because the proposal limited Form A 
eligibility to small quantity waste reporters. As noted below, Form A 
eligibility changes implemented in the final rule and actual Form A 
utilization rates will only serve to strengthen the conclusions in the 
study.
---------------------------------------------------------------------------
    \11\ In the case of the Louisville, Kentucky, area analysis, the 
effect of the proposal was to remove 2 of 19 chemicals from the 
chemical screening process, but the screening analysis relied on a 
conservative approach, and these low-risk chemicals accounted for a 
small portion of the overall risk in the area. It is unclear whether 
these two chemicals warranted attention, and therefore the true effect 
of the proposal on this use could not be determined without more 
analysis. However, under the final rule, the impact would be less, 
given the changes between the proposal and the final rule.
---------------------------------------------------------------------------
    Pechan's study identified various reasons for the large disconnect 
between public dissatisfaction with the TRI reform proposals, and the 
lack of significant impact found in the study. Two common explanations 
were: (1) ignorance about the specifics of the reporting revisions; and 
(2) ignorance about how TRI data are actually used. With respect to the 
first conclusion, many commenters appeared to be unaware that Form A 
does not represent a complete loss of Form R quantitative chemical 
information (a more apt characterization is that Form A creates an 
incentive for facilities to reduce their chemical use/releases by 
allowing small quantity handling facilities to use range reporting.) 
Concerning the second reason, commenters often appeared to be unaware 
that data users understandably focus on large quantity emitters and PBT 
emitters that are not Form A eligible under EPA's December 2006 rule.
    To illustrate assertions made by States and local communities 
opposing EPA's proposed reporting burden relief rule, Attachment A 
describes Pechan's evaluation of one claimed TRI data use impact 
example described by a State of Washington official. This example 
reflects use of the TRI to enroll companies in Washington's pollution 
prevention (P2) program. A Washington official claimed that EPA's 
proposed TRI reporting changes would require 15 percent of the 
facilities to drop out of their P2 program. The Pechan study concluded 
that there was nothing in EPCRA or EPA's proposed regulation that 
prevented the State from requiring Form A reporters to develop P2 
plans. In fact, a different Washington official stated that they had 
chosen to exclude Form A reporters from P2 planning requirements based 
on degree of risk.
    Pechan determined that the State of Washington only requires that 
facilities' P2 plans cover 95 percent of their total hazardous products 
used and/or hazardous wastes generated. Pechan estimated that EPA's 
proposed rule would have reduced total Form R reported waste quantity 
for Washington by 0.31 percent and total release quantity by 0.64 
percent. The analyses indicated that current and potential future Form 
A reporting involves quantities that are significantly less than the 
State's 5 percent hazardous waste quantity P2 plan exemption.
      implications of tri reporting changes adopted in final rule
    It should be noted that the above study was performed for EPA's 
proposed rule. EPA's final rule differs significantly from the proposed 
rule in two ways: (1) the non-PBT annual reportable amount (ARA) has 
been revised to include section 8.8 (one-time event) quantities, and 
(2) non-PBT Form A eligibility has been narrowed by adding a 2,000-
pound limit on releases of non-PBT chemicals that are considered for 
Form A. Assuming full use of Form A, EPA notes that the second change 
preserves almost 60 percent of the total release pounds that would no 
longer have been reported on Form R under the proposed rule.\12\ This 
fact, coupled with the addition of Section 8.8 quantities in the ARA, 
will serve to further reduce the nominal impacts described in the 
Pechan study.
---------------------------------------------------------------------------
    \12\ U.S. Environmental Protection Agency, ``Response to Comments, 
Toxics Release Inventory Phase 2 Burden Reduction Rule,'' Office of 
Information Analysis and Access, Office of Environmental Information, 
December 18, 2006.
---------------------------------------------------------------------------
                           zip code analysis
    One of the most oft-cited EPA estimates of impact from the proposed 
rule is that over 650 zip codes would lose all Form R information 
(i.e., approximately 7 percent of all zip codes with Form R data). 
Advocacy requested that Pechan evaluate the significance of EPA's zip 
code finding with respect to the local community right-to-know. As 
described below, Pechan determined that these zip codes account for 
only 0.01 percent of nationwide releases, and the median release for 
the ``all Form A eligible'' zip codes is 2 pounds, while the median 
release for all other zip codes is 6,800 times higher (13,600 pounds).
    Using 2002 TRI data, Pechan identified 663 additional zip codes for 
which all current Form Rs will become Form A eligible at the 5,000 
pound ARA threshold.\13\ The results are displayed in Figure 1 below. 
Pechan estimates that 554 of these zip codes have one or two Form Rs. 
Therefore, the large number of zip codes that can convert entirely to 
Form A is a function of the fact that a large number of zip codes have 
one or two reports.
---------------------------------------------------------------------------
    \13\ E.H. Pechan & Associates, Inc., ``Additional Analysis of TRI 
Phase II Proposal, Technical Memorandum,'' prepared for U.S. Small 
Business Administration, Office of Advocacy, January 12, 2006. http://
www.sba.gov/advo/laws/comments/epa06--0113.pdf.
---------------------------------------------------------------------------
    It should be noted that the Figure 1 values reflect EPA's proposed 
rule. As noted above, EPA's final rule differs significantly from the 
proposed rule in such a way that will further reduce the impacts 
identified in Figure 1.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Pechan conducted an additional analysis of EPA's proposed rule that 
utilized reporting year (RY) 2004 TRI data.\14\ This analysis compared 
release information for zip codes for which all Form Rs become Form A 
eligible with release information for other zip codes. Table 1 
illustrates the very different release characteristics of the zip codes 
that would have all Form Rs become Form A eligible under EPA's proposed 
rule. Although more than 5 percent of RY 2004 zip codes would have all 
Form Rs become Form A eligible under EPA's proposed rule, these zip 
codes cumulatively account for 0.01 percent of total releases. The 
median release for the ``all Form A eligible'' zip codes is 2 pounds, 
while the median release for all other zip codes is 6,800 times higher 
(13,600 pounds). In other words, for 50 percent of the hundreds of zip 
codes with only Form A eligible facilities, Form R required reporting 
would account for 2 pounds or less in annual emissions to the 
environment. This simply reconfirms the point that a Form A is a mark 
of superior environmental stewardship, and not a cause for concern 
about missing data.
---------------------------------------------------------------------------
    \14\ Pechan data analysis (March 2007) using RY 2004 TRI data.


 Table 1. Comparison Between Zip Codes Where All Form Rs Become Eligible For Form A with Zip Codes Where One or
                            More Form Rs Are Not Form A Eligible: Reporting Year 2004
----------------------------------------------------------------------------------------------------------------
                                                                                                  All Form Rs
                Item                    All Form Rs      All/Some Form Rs   Total (All Form       Eligible as
                                          Eligible         Not Eligible           Rs)          Percent of Total
----------------------------------------------------------------------------------------------------------------
Number of Zip Codes................                569             10,122             10,691       5.32 percent
Total Releases.....................            278,067      4,333,771,149      4,334,049,216       0.01 percent
Mean Releases/Zip Code.............                489            428,196            405,430       0.12 percent
Median Releases/Zip Code...........                  2             13,600             10,922       0.02 percent
Maximum Releases/Zip Code..........              5,627        458,177,056        458,177,056       0.00 percent
----------------------------------------------------------------------------------------------------------------


    Question 6. Is it not true that the original journey towards 
changes to TRI forms was more substantial in scope and that what EPA is 
doing is finally delivering on a promise made by the Clinton 
administration?
    Response. EPA's efforts at TRI burden reduction started in 1991 and 
have spanned both Republican and Democratic Administrations. In 1994, 
EPA Administrator Carol Browner approved the adoption of the original 
Form A.\15\ In 1997, when EPA expanded the scope of TRI reporting 
requirements, EPA promised that it would seek additional reductions in 
the TRI paperwork burden.\16\ EPA administrators have spent over 15 
years working with the public to develop a new TRI paperwork reduction 
approach. This effort has included forming a Federal Advisory 
Committee, conducting an online dialogue with interested parties, 
holding stakeholder meetings, and going through the notice and comment 
rulemaking process. The TRI Burden Reduction rule signed in December 
2006 is the result of this process.
---------------------------------------------------------------------------
    \15\ 59 Fed. Reg. 61488, November 30, 1994.
    \16\ U.S. Environmental Protection Agency, Final Rule, ``Addition 
of Facilities of Certain Industry Sectors; Revised Interpretation of 
Otherwise Use; Toxic Release Inventory Reporting, Community Right-to-
Know'' 62 Fed. Reg. 23,834, 23,887 (May 1, 1997) (``EPA believes that 
[Form R and Form A] can be revised to make it simpler and less costly 
for businesses to meet their recordkeeping and reporting obligations . 
. . EPA is initiating an intensive stakeholder process--involving 
citizens groups, industry, small businesses and State--to conduct 
comprehensive evaluation of the current TRI reporting forms and 
reporting practices with the explicit goal of identifying 
opportunities, consistent with community right-to-know and the relevant 
law, to simplify and/or reduce the cost of TRI reporting.'').
---------------------------------------------------------------------------
    The Office of Advocacy's involvement started with our initial 
comments on the TRI rule in August 1987, suggesting an exemption for 
all facilities with fewer than 100 employees. This was followed by a 
formal Advocacy petition in August 1991 to exempt all releases of less 
than 5,000 pounds per year. EPA responded in 1994 with the original 
Form A, based on an annual reporting amount (ARA) of 500 pounds. In 
October 2005, EPA proposed an ARA of 5,000 pounds for non-PBT 
chemicals, with no additional restriction on releases. In balancing the 
right-to-know and burdens on reporters, EPA crafted its final relief in 
December 2006, by introducing a 2,000-pound release restriction on the 
newly eligible short forms. Thus, in the end, EPA responded to critics 
on both sides of the issue in fashioning the final rule, and reduced 
the scale of the proposed relief.

    Question 7. There has been a lot of criticism that the switch to 
Form A will impact right to know at a local level. Can you comment on 
what you found and if information availability will be curtailed?
    Response. The answer to this question is the same as the answer to 
question No. 5 and is repeated here for ease of reference.
    To evaluate claims of EPA rule impacts, Advocacy requested that 
E.H. Pechan & Associates, Inc. (Pechan) review information describing 
how TRI data are currently used, and to evaluate the impact of EPA's 
proposed reporting burden relief on these current uses.\17\ Pechan's 
review focused on comments submitted to EPA in opposition to the 
proposed reporting revisions.
---------------------------------------------------------------------------
    \17\ E.H. Pechan & Associates, Inc., ``Review and Analysis of the 
Effect of EPA's Toxics Release Inventory (TRI) Phase II Burden 
Reduction Proposal on TRI Data Uses,'' prepared for U.S. Small Business 
Administration, Office of Advocacy, June 2007. See http://www.sba.gov/
advo/research/chron.html for research summary and report.
---------------------------------------------------------------------------
    Pechan analyzed 17 national, State, and local TRI data use 
examples, and determined that, with the exception of one example, EPA's 
proposal will have insignificant effects on these data uses.\18\ Pechan 
found several instances where the commenters either misunderstood or 
misreported the nature of the proposed TRI revisions, and several cases 
where they misreported the underlying facts. For example, commenters 
failed to understand that no changes were proposed for PBTs, such as 
mercury, when the facility has any releases into the environment. 
Therefore, data users who were concerned about PBT releases going 
unreported were addressing a nonexistent issue. Additional examples of 
types of data uses where no impact is anticipated include uses to 
support chemical emergency planning and to support characterization of 
dioxin quantities (dioxins are exempt from EPA's proposal). In 
addition, many of the examples involve the use of TRI data to target 
facilities with the highest releases and/or total waste quantities for 
reductions. These uses are minimally (if at all) affected by EPA's 
proposal because the proposal limited Form A eligibility to small 
quantity waste reporters. As noted below, Form A eligibility changes 
implemented in the final rule and actual Form A utilization rates will 
only serve to strengthen the conclusions in the study.
---------------------------------------------------------------------------
    \18\ In the case of the Louisville, Kentucky, area analysis, the 
effect of the proposal was to remove 2 of 19 chemicals from the 
chemical screening process, but the screening analysis relied on a 
conservative approach, and these low-risk chemicals accounted for a 
small portion of the overall risk in the area. It is unclear whether 
these two chemicals warranted attention, and therefore the true effect 
of the proposal on this use could not be determined without more 
analysis. However, under the final rule, the impact would be less, 
given the changes between the proposal and the final rule.
---------------------------------------------------------------------------
    Pechan's study identified various reasons for the large disconnect 
between public dissatisfaction with the TRI reform proposals, and the 
lack of significant impact found in the study. Two common explanations 
were: (1) ignorance about the specifics of the reporting revisions; and 
(2) ignorance about how TRI data are actually used. With respect to the 
first conclusion, many commenters appeared to be unaware that Form A 
does not represent a complete loss of Form R quantitative chemical 
information (a more apt characterization is that Form A creates an 
incentive for facilities to reduce their chemical use/releases by 
allowing small quantity handling facilities to use range reporting.) 
Concerning the second reason, commenters often appeared to be unaware 
that data users understandably focus on large quantity emitters and PBT 
emitters that are not Form A eligible under EPA's December 2006 rule.
    To illustrate assertions made by States/local communities in 
opposition to EPA's proposed reporting burden relief rule, Attachment A 
describes Pechan's evaluation of one claimed TRI data use impact 
example described by a State of Washington official. This example 
reflects use of the TRI to enroll companies in Washington's pollution 
prevention (P2) program. A Washington official claimed that EPA's 
proposed TRI reporting changes would require 15 percent of the 
facilities to drop out of their P2 program. The Pechan study concluded 
that there was nothing in EPCRA or EPA's proposed regulation that 
prevented the State from requiring Form A reporters to develop P2 
plans. In fact, a different Washington official stated that they had 
chosen to exclude Form A reporters from P2 planning requirements based 
on degree of risk.
    Pechan determined that the State of Washington only requires that 
facilities' P2 plans cover 95 percent of their total hazardous products 
used and/or hazardous wastes generated. Pechan estimated that EPA's 
proposed rule would have reduced total Form R reported waste quantity 
for Washington by 0.31 percent and total release quantity by 0.64 
percent. The analyses indicated that current and potential future Form 
A reporting involves quantities that are significantly less than the 
State's 5 percent hazardous waste quantity P2 plan exemption.
      implications of tri reporting changes adopted in final rule
    It should be noted that the above study was performed for EPA's 
proposed rule. EPA's final rule differs significantly from the proposed 
rule in two ways: (1) the non-PBT annual reportable amount (ARA) has 
been revised to include section 8.8 (one-time event) quantities, and 
(2) non-PBT Form A eligibility has been narrowed by adding a 2,000-
pound limit on releases of non-PBT chemicals that are considered for 
Form A. Assuming full use of Form A, EPA notes that the second change 
preserves almost 60 percent of the total release pounds that would no 
longer have been reported on Form R under the proposed rule.\19\ This 
fact, coupled with the addition of Section 8.8 quantities in the ARA, 
will serve to further reduce the nominal impacts described in the 
Pechan study.
---------------------------------------------------------------------------
    \19\ U.S. Environmental Protection Agency, ``Response to Comments, 
Toxics Release Inventory Phase 2 Burden Reduction Rule,'' Office of 
Information Analysis and Access, Office of Environmental Information, 
December 18, 2006; EPA-HQ-TRI-2005-0073-5008 at www.regulations.gov.
---------------------------------------------------------------------------
                           zip code analysis
    One of the most oft-cited EPA estimates of impact from the proposed 
rule is that over 650 zip codes would lose all Form R information 
(i.e., approximately 7 percent of all zip codes with Form R data). 
Advocacy requested that Pechan evaluate the significance of EPA's zip 
code finding with respect to the local community right-to-know. As 
described below, Pechan determined that these zip codes account for 
only 0.01 percent of nationwide releases, and the median release for 
the ``all Form A eligible'' zip codes is 2 pounds, while the median 
release for all other zip codes is 6,800 times higher (13,600 pounds).
    Using 2002 TRI data, Pechan identified 663 additional zip codes for 
which all current Form Rs will become Form A eligible at the 5,000 
pound ARA threshold.\20\ The results are displayed in Figure 1 below. 
Pechan estimates that 554 of these zip codes have one or two Form Rs. 
Therefore, the large number of zip codes that can convert entirely to 
Form A is a function of the fact that a large number of zip codes have 
one or two reports.
---------------------------------------------------------------------------
    \20\ E.H. Pechan & Associates, Inc., ``Additional Analysis of TRI 
Phase II Proposal, Technical Memorandum,'' prepared for U.S. Small 
Business Administration, Office of Advocacy, January 12, 2006; http://
www.sba.gov/advo/laws/comments/epa06--0113.pdf
---------------------------------------------------------------------------
    It should be noted that the Figure 1 values reflect EPA's proposed 
rule. As noted above, EPA's final rule differs significantly from the 
proposed rule in such a way that will further reduce the impacts 
identified in Figure 1.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Pechan conducted an additional analysis of EPA's proposed rule that 
utilized reporting year (RY) 2004 TRI data.\21\ This analysis compared 
release information for zip codes for which all Form Rs become Form A 
eligible with release information for other zip codes. Table 1 
illustrates the very different release characteristics of the zip codes 
that would have all Form Rs become Form A eligible under EPA's proposed 
rule. Although more than 5 percent of RY 2004 zip codes would have all 
Form Rs become Form A eligible under EPA's proposed rule, these zip 
codes cumulatively account for 0.01 percent of total releases. The 
median release for the ``all Form A eligible'' zip codes is 2 pounds, 
while the median release for all other zip codes is 6,800 times higher 
(13,600 pounds). In other words, for 50 percent of the hundreds of zip 
codes with only Form A eligible facilities, Form R required reporting 
would account for 2 pounds or less in annual emissions to the 
environment. This simply reconfirms the point that a Form A is a mark 
of superior environmental stewardship, and not a cause for concern 
about missing data.
---------------------------------------------------------------------------
    \21\ Pechan data analysis (March 2007) using RY 2004 TRI data.


 Table 1. Comparison Between Zip Codes where All Form Rs Become Eligible For Form A with Zip Codes where One or
                            More Form Rs Are Not Form A Eligible: Reporting Year 2004
----------------------------------------------------------------------------------------------------------------
                                                                                                  All Form Rs
                Item                    All Form Rs      All/Some Form Rs   Total (All Form       Eligible as
                                          Eligible         Not Eligible           Rs)          Percent of Total
----------------------------------------------------------------------------------------------------------------
Number of Zip Codes................                569             10,122             10,691       5.32 percent
Total Releases.....................            278,067      4,333,771,149      4,334,049,216       0.01 percent
Mean Releases/Zip Code.............                489            428,196            405,430       0.12 percent
Median Releases/Zip Code...........                  2             13,600             10,922       0.02 percent
Maximum Releases/Zip Code..........              5,627        458,177,056        458,177,056       0.00 percent
----------------------------------------------------------------------------------------------------------------


    Question 8. Is there any clarification that you would like to make 
to comments made during the Question and Answer period?
    Response. We were disappointed that the testimony offered by John 
Stephenson of GAO did not reflect our extensive discussions with them 
on this subject. In particular, I was surprised that the GAO would 
state that the new Form A would contain ``no quantitative information'' 
when it is very clear that all PBT Form As, by definition, mean that 
there are no releases to air, water and land. Zero releases is a key 
piece of quantitative information. GAO also declined to mention the 
fact that each non-PBT Form A is in itself a range report between zero 
and the relevant threshold quantity, and that the total information 
preserved on the Form R represented 99.9 percent of the quantitative 
information currently reported on the Form R. Nor did GAO mention that 
our October 2004 report conclusion indicated that 99 percent of all 
3,142 counties in the United States would not be significantly affected 
by a change in the non-PBT threshold from 500 to either 2,000 or 5,000 
pounds.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. Thank you, Mr. Sullivan.
    Mr. Sullivan, do you know that there already are exemptions 
for small business, several exemptions, from the Toxic Release 
Inventory program?
    Mr. Sullivan. Yes. The Chairman refers to under 10 
employees are exempt from reporting under TRI. That exemption 
was based on an analysis that any types of releases and 
emissions do not amount as significant enough to warrant their 
inclusion in TRI.
    Senator Boxer. There are other exemptions. Are you aware of 
those?
    Mr. Sullivan. I am aware only of this more broad small 
business exemption.
    Senator Boxer. Well, let me list you the exemptions.
    Mr. Sullivan. If the Chairman would allow, there are 
threshold amounts for use that do exempt all facilities that 
don't meet these thresholds. Many small businesses are 
certainly entitled to those thresholds, the same way as larger 
businesses are.
    Senator Boxer. Well, let me read you the exemptions already 
allowed. Ten or fewer employees. TRI already has a reporting 
exemption for de minimis amounts of toxic chemicals. TRI 
already allowed facilities that release 500 pounds, 500 pounds 
of toxic chemicals, including substances known to cause cancer, 
they can use the Form A. TRI already has several reporting 
exemptions for different uses of chemicals, and it includes a 
whole bunch.
    The point is here that I know the Administration is a 
strong supporter of small business, so are those of us in 
Congress. We are also supporters of the States, and you have 23 
States who oppose your position, including some that might 
surprise you.
    The bottom line is here, we are talking about the health of 
the people. It seems to me if there are specific issues and we 
could work more closely on that, that won't harm the people, I 
am willing to look at it. But I don't think any small business 
person wants their grandkid to get cancer, either. So I think 
we really need to put the health of the people, No. 1, and 
reduce the burden on small business. I am always for that.
    But I think Mr. Stephenson has pointed out that, and I 
really appreciate your work on this, and I compliment you for 
your work on this. Because you are speaking out for the health 
of all our families, whether we are small business people, like 
my husband is, or big business people. So I wonder if you could 
elaborate on your testimony where you say perchlorate tracking 
or monitoring is important and should be increased. Could you 
tell us why you feel that way?
    Mr. Stephenson. While GAO is of course not a science 
organization, we do have smart people that can look at 
research. As part of our 2005 study on perchlorate, we analyzed 
over 80 studies on perchlorate, 25 of which supported a health-
based concern. The National Academy of Sciences came out with 
its study, and while it kind of gave perchlorate a clean bill 
of health for adults, it recommended more research for pregnant 
women and children.
    We felt, as a way to better inform the public, the least 
that could be done was for EPA to create a tracking system of 
some type to better track and help inform the public of 
perchlorate releases. Citizens can petition to put chemicals 
into the TRI, and TRI is an existing reporting mechanism that 
could be used for perchlorate, in our view, as well.
    So we thought that including in TRI that kind of 
information on a contaminant as controversial as perchlorate 
wouldn't be labor-intensive for EPA and could easily be done. 
We had great difficulty identifying those 400 sites in the 
chart, and we found a lot of missing information between 
Department of Defense and EPA. That is why we suggested EPA 
work with DOD in establishing a tracking mechanism for 
perchlorate. Most of these perchlorate sites are defense 
industry sites.
    So we just felt like there was a lot more that could be 
done while we are trying to decide if there should be a 
drinking water standard or not.
    Senator Boxer. I have one more question, because I think 
the health of the American people here just takes a back seat 
to every other concern, every other concern. You estimate that 
3,565 facilities, including 50 in Oklahoma, 101 in New Jersey 
and 302 in California, would no longer have to report any 
quantitative information to the Toxic Release Inventory.
    Now, could you explain to us how that would happen? I know 
it is complicated.
    Mr. Stephenson. We looked at the difference between the 
existing 500 pound threshold for reporting releases and the new 
2,000 pound threshold, and we simply looked at companies that 
fell between those two thresholds. Companies reporting on the 
short form--those under 2,000 pounds of release--would have to 
list the name of the chemicals that they release, but there is 
no more quantitative information on the extent of that release. 
So we would simply suggest that requiring more information 
provides an incentive for companies to reduce their use of 
these chemicals, rather than providing less information.
    Not only that, but we think that, this isn't a burden 
reduction, per se, and that there are cost savings that EPA is 
working on through electronic reporting, which the Senator so 
nicely articulated here, where they already have information 
available. It is sort of like TurboTax, once you file the first 
year, you answer a bunch of questions and your tax form comes 
out. The second year, it is much, much easier.
    So a complete analysis, we don't think, was done by EPA. 
More importantly, when EPA did an expedited rulemaking, they 
didn't do an adequate, in our view, assessment of the impact on 
their own Agency on the regional offices, and on the States 
that use this information. You heard this from several Senators 
who were former Governors say their States relied on TRI 
information when they were Governors. So it doesn't appear that 
EPA did this kind of analysis in supporting this burden 
reduction rule.
    Senator Boxer. So what has basically happened here is, 
there is this accumulation of these toxics, so that if you say 
you go from 500 to 2,000, you are just going to miss a whole 
lot of toxic releases.
    Mr. Stephenson. Right.
    Senator Boxer. You say it is going to result in 3,000 
facilities no longer reporting. The problem is, if this was 
something about how does this make the sky blue, it is one 
thing. But it is, how does it impact people's health and lives, 
especially pregnant women, children and so on. We have so many 
issues out there.
    I want to thank both of you for your points of view. I 
clearly feel, with the small business community, that we could 
work together and do something a little bit more acceptable 
than this. I hope the EPA will, as I understand it, is this 
final, at this point? Yes. We may have to go and seek some 
legislation to reverse it.
    Mr. Stephenson, your work I find to be really credible. You 
didn't really have any special interest involvement here, you 
just went in there and looked at it from an investigative 
standpoint, and I think your work is very helpful to me and to 
members of this committee.
    Mr. Stephenson. We basically used EPA's own rulemaking 
guidance and just looked to see if they applied it.
    Senator Boxer. Yes, well, the thing is when you put 
politics ahead of science, that is what happens, you get things 
like this. It is unfortunate, and I thank both of you.
    We will ask our third panel to come forward.
    I want to welcome our final panel. I want to thank you for 
your endurance. I know this has been long. But we had to set 
the stage for your testimony, all of yours.
    So we are going to hear from, in this order, the American 
Lung Association and American Thoracic Society, that is Dr. 
Balmes first. We are going to move to Gina Solomon, Natural 
Resources Defense Council. We welcome you. Then Ms. Burger, of 
the American Library Association, welcome. Mr. Connery, Holland 
and Hart. Ms. Klinefelter, of the Baltimore Glassware 
Decorators. We welcome you.
    So we will begin you, Dr. Balmes and we will move right 
down. We are going to give you each 5 minutes, and if we need a 
little bit of extra time later, we will try to grab it.

 STATEMENT OF JOHN R. BALMES, M.D., ON BEHALF OF THE AMERICAN 
       LUNG ASSOCIATION AND THE AMERICAN THORACIC SOCIETY

    Dr. Balmes. Madam Chairman and other members of the 
committee that aren't here, my name is John Balmes. I am a 
professor of Medicine at the University of California San 
Francisco and a professor of Environmental Health Sciences at 
U.C. Berkeley.
    I am here to discuss with you my deep concerns about how 
the scientific basis for air quality standards is being eroded 
by policymakers in this Administration. I am testifying on 
behalf of the American Lung Association and the American 
Thoracic Society. For those of you who do not know, the 
American Thoracic Society is the professional organization for 
pulmonary physicians and scientists in this Country.
    I am testifying as one of many scientists in this Country 
who fear that misinformation is replacing scientific knowledge 
as a basis for policy. I am a pulmonary critical care medicine 
physician who takes care of patients at San Francisco General 
Hospital, a public safety net hospital. I know first-hand how 
debilitating lung diseases like asthma and emphysema can be. 
Breathing is a fundamental biological process, and a patient 
with asthma who can't breathe is a person filled with fear.
    Air pollution not only causes people with asthma to have 
difficulty breathing, it can actually kill older people with 
heart and lung disease. Because air pollution can cause real 
people to become sick, seek medical care in emergency rooms and 
hospitals like mine, and even die, it is vital that we adopt 
air quality standards that are adequately protective of public 
health, including the health of vulnerable populations, like 
young children, the over 40 million Americans with asthma, and 
many older people with heart and lung disease.
    In my own work, I have seen ozone cause decreased breathing 
capacity and inflamed airways in healthy young adults. People 
with asthma have even greater reactions to ozone.
    The air pollution health effects research of the last three 
decades has transformed our scientific understanding of how 
real world levels of pollutants cause asthma attacks, acute 
heart problems and even death. Science comes from the Latin 
``to know.'' Based on sound scientific research, conducted in 
many laboratories and facilities around the world, we know that 
air pollution is a hazard to public health.
    The Clean Air Act is acknowledged to be one of the most 
successful environmental health statutes enacted by Congress. 
The Act requires that air quality standards be established to 
protect public health with an adequate margin of safety. It 
also mandates that a scientific advisory committee, the Clean 
Air Scientific Advisory Committee, be established to review 
research findings to ensure that air quality standards are 
based on scientific knowledge. The approach enacted in the 
Clean Air Act has withstood the test of time. The air that many 
Americans breathe today contains lower levels of the regulated 
pollutants that were common before the Act was enacted. Much 
disease, disability and death has been prevented.
    I am here to express my alarm that the careful review of 
research findings that EPA has used to set National Ambient Air 
Quality Standards is being altered in ways that will weaken the 
effectiveness of the Clean Air Act. Scientific data can easily 
be misinterpreted when taken out of context or made to seem so 
complex a to be virtually meaningless.
    That is why the careful translation of scientific data into 
information that policymakers can use is so important. The EPA 
compiles the research data on a pollutant like ozone or 
particles, for which a new air quality standard is being 
considered in a huge report known as the criteria document.
    The role of the Clean Air Scientific Advisory Committee is 
to review the research findings compiled in this criteria 
document and to express the certainty of scientific knowledge 
about what levels of the pollutant cause health effects. EPA 
staff scientists then prepare a staff paper, or did, that 
summarizes and integrates the knowledge contained in the 
criteria document and reviewed by the Clean Air Scientific 
Advisory Committee.
    The primary purpose of the staff paper is to translate 
scientific knowledge into information that can be used by the 
Administrator to set an air quality standard. Staff typically 
recommend a range of values that are based on what is known to 
be protective of public health with an adequate margin of 
safety. In my view, the changes adopted by the current 
Administration, under the guise of streamlining the National 
Ambient Air Quality Standard review process, will weaken both 
the health protection the standards were intended to provide 
and diminish the scientific basis on which the standards were 
intended to be based.
    We believe that the staff paper is being eliminated because 
the science underlying protection of public health from air 
pollution is in conflict with how policymakers in this 
Administration want to implement the Clean Air Act. There is 
great peril in ignoring scientific knowledge or censuring 
scientists. The American people need and deserve accurate 
presentations and truthful discussions of what we have learned 
from the research they have supported with their tax dollars, 
whether it be for health effects of ozone or the causes and 
impacts of climate change. These are important issues that 
require difficult policy choices, and we need to start from a 
clear and unbiased understanding of the science.
    We believe that changes made in the National Ambient Air 
Quality Standard review process diminish the use of scientific 
knowledge in this process. We believe restoring the staff paper 
and following science will help ensure that the public health 
will be protected from air pollution. Following the science is 
a central wisdom adopted into the Clean Air Act decades ago 
that has enormously benefited America's health.
    Thank you.
    [The prepared statement of Dr. Balmes follows:]
   Statement of John R. Balmes, M.D., on Behalf of the American Lung 
               Association and American Thoracic Society
    Madame Chairman, members of the Committee, I am Dr. John Balmes. I 
am very pleased to be able to discuss with you today the most recent 
actions by the Environmental Protection Agency regarding the 
establishment of National Ambient Air Quality Standards (NAAQS) under 
the Clean Air Act. I am testifying today on behalf of the American Lung 
Association and the American Thoracic Society.
    I speak to you today from the perspective of both a physician who 
treats patients with lung ailments and a researcher who studies the 
effects of air pollution on lung health. I understand the profound 
impact that air pollution can have on the health and lives of people. I 
also understand the importance of the review of scientific knowledge 
required by the Clean Air Act as to what limits to air pollution are 
necessary in order to protect public health with an adequate margin of 
safety.
    I am here to express my alarm that the careful process for 
establishing and reviewing National Ambient Air Quality Standards 
(NAAQS) that EPA has developed to implement the Clean Air is being 
altered by this Administration in ways that will weaken its 
effectiveness in the future. This process has proven to be enormously 
successful over the last three decades at achieving the goal of 
protecting the public health by improving our Nation's air quality. In 
my view, the changes adopted under the guise of ``streamlining'' the 
NAAQS review process will weaken both the health protection the 
standards were intended to provide and diminish the scientific basis on 
which the standards were intended to rely.
                   the naaqs must be based on health
    It is beyond dispute that the ``primary'' NAAQS standards are to be 
established exclusively to protect public health with an adequate 
margin of safety. The primary standard is to be set and revised without 
taking cost or achievability into account.\1\ Further, the standards 
are to be reviewed and revised, as appropriate, every 5 years based on 
the latest scientific research and information available that are 
assembled in a Criteria Document for each criteria pollutant.
---------------------------------------------------------------------------
    \1\ Whitman v. American Trucking Association, 31 U.S. 457 (2001)
---------------------------------------------------------------------------
    Why is this approach so important? Because the authors of the Clean 
Air Act knew that as our scientific understanding of air pollution 
evolved, the levels of protection initially established would be shown 
to be inadequate.\2\ The only reliable and legitimate basis for 
tightening them would be where science, not cost or politics, found 
people were being harmed. Because the authors knew that scientific 
research would be uncertain as to what levels of pollutants would 
threaten public health, especially for sensitive subgroups like 
children or people with heart and lung disease, they required the 
standard protect the Nation's populations with an adequate margin of 
safety. The concept was to err on the side of safety\3\.
---------------------------------------------------------------------------
    \2\ In 1969 Dr. John Middleton, Director of the National Air 
Pollution Control Administration testified,'' We know from the criteria 
published for sulfur oxides, that at certain levels definite adverse 
effects occur in the lung. We also know that at a little lower level 
there are more subtle effects on the action of the lung. . . . But as 
science progresses, it is very likely we are going to find still other 
body chemical systems that are being affected, so the no-effect level 
always corresponds, you might say, to the limitations of scientific 
knowledge in this area. . . .'' Senate Committee on Public Works, 
Legislative History of the Clean Air Act Amendments of 1970, 93rd 
Cong., 2d Sess., 1974, p. 1185.
    \3\ The Senate Committee on Public Works Report states, ``Margins 
of safety are essential to any health-related environmental standards 
if a reasonable degree of protection is to be provided against hazards 
which research has not identified.'', ibid, p. 410.
---------------------------------------------------------------------------
    The approach enacted in the Clean Air Act has withstood the test of 
time. The Clean Air Act is considered by most people to be one of the 
most successful public health and environmental statutes enacted by 
Congress. Ambient levels of all criteria pollutants have been 
significantly reduced in spite of significant population and economic 
growth. Despite predictions, this progress has been achieved without 
unduly burdening the auto industry or any other sector of the economy. 
Further, it is estimated that billions of dollars in health and other 
costs have been avoided as a result of lower levels of ambient air 
pollution.
    However, as predicted long ago, recent studies show that the health 
effects of particle pollution may be more far reaching than was 
previously understood. Particulate air pollution can affect the 
cardiovascular system as well as the lungs, triggering heart attacks 
and strokes. Lives are shortened not just by days or weeks, but by 
months or years. Air pollution targets not just the elderly, but also 
fetuses, infants, children and adolescents. People most at risk are not 
only those with asthma and other lung conditions, but also those with 
heart conditions and diabetes. Taken together, the people at risk 
represent a large fraction of the Nation's population. Effects of ozone 
and particulate pollution are occurring at even lower concentrations 
than were previously believed to be harmful--at levels below the 
current standards.
      the revised naaqs review process diminishes scientific input
    Prior to the recent changes, the NAAQS process involved: 
development of a work plan for the review, establishment of review 
protocols, preparation of a draft criteria document which is subjected 
to multiple reviews by CASAC and the public, finalization of the 
Criteria Document, preparation of a risk assessment, also reviewed by 
CASAC, and finally the preparation and finalization of a staff paper 
which is also subject to CASAC and public review. All of this is done 
before a proposed standard is published and ultimately finalized.
    Many regard the preparation and finalization of the Staff Paper, 
which is done by EPA's scientific staff, as the most crucial step. In 
this step, EPA's scientific staff synthesizes the scientific 
information that has been reviewed in the Criteria Document in order to 
assess whether the existing standard meets the requirement of 
protecting public health with an adequate margin of safety, and, if 
not, to identify alternative standards that can. By tradition, if not 
by law, this step has been done by EPA scientific staff who are all 
civil servants, most with years of experience in interpreting the 
policy relevance of scientific studies of the health effects of air 
pollution. Traditionally, the Staff Paper is produced without the 
interference of politically appointed policy staff most of whom do not 
have extensive scientific backgrounds.
    It is the elimination of the Staff Paper that we fear will lead to 
the diminishment of science in the standard setting process. The staff 
paper is to be replaced with a ``Policy Assessment'' which according to 
a memorandum by EPA's Deputy Administrator Peacock, ``reflect the 
Agency's views, consistent with EPA's practice in other 
rulemakings.''\4\ However, the EPA does not set standards exclusively 
based on the protection of health using the latest scientific research 
in any other rulemaking. In sum, a unique standard demands a unique 
process, not EPA's ``usual'' practice. We believe the elimination of 
the Staff Paper is being done precisely because the science underlying 
protection of public health from air pollution is in conflict with what 
policy makers in EPA want to do in the implementation of the Clean Air 
Act. The elimination of the Staff Paper will make it easier for policy 
staff to fuzz the lines in public health protection and present the 
basis for alternative standards and the alternatives themselves in a 
way that favors the outcomes they are seeking rather than what the 
science says is needed. Substituting an Advanced Notice of Proposed 
Rulemaking for the Staff Paper will put policy makes at EPA and the 
White House in the driver' seat by enabling them to review and edit 
before it is reviewed by CASAC and the public.
---------------------------------------------------------------------------
    \4\ See www.epa.gov/ttn/naaqs/memo-process-for-reviewing-naaqs.pdf 
at p. 2.
---------------------------------------------------------------------------
    It is no surprise that the American Petroleum Institute was the 
only organization to substantially attack the current Staff Paper and 
recommend its elimination and replacement with an Advanced Notice of 
Proposed Rulemaking in a letter the to the EPA NAAQS process Work 
Group.\5\ Just one week later, this recommendation was included in the 
Work Group recommendation and subsequently adopted by Deputy 
Administrator Peacock.
---------------------------------------------------------------------------
    \5\ Letter from Kyle B. Isakower to Lydia Wegman and Kevin 
Teichman, March 27, 2006.
---------------------------------------------------------------------------
     the science shows that the naaqs for fine particles and ozone 
                            must be tighter
    The collision between the where the science is taking the NAAQS 
standards and where EPA's policy makers want to go could not be clearer 
when one considers the recently reviewed fine particle standard and the 
pending review of the ozone standard.
    The EPA Administrator's decision regarding the fine particle NAAQS 
has been highly controversial because the ranges recommended by CASAC 
proposed tightening the annual NAAQS for PM<INF>2.5</INF> from 15 
micrograms/cubic meter to a level no higher than 14. One alternative 
included in the Staff Paper included a 12 microgram annual standard.\6\ 
CASAC was so concerned that a failure to tighten the annual standard 
was outside the ``scientifically'' justifiable range that it took the 
unprecedented step of writing the Administrator to ask him to 
reconsider his decision.\7\ While the Administrator has justified his 
decision based on the ``uncertainty'' of the scientific studies he 
considered, the American Lung Association and several States are 
challenging the decision in court.\8\ In our view, given the need for 
protection of public health with an adequate margin of safety, the 
failure to tighten the annual standard for PM<INF>2.5</INF> is not 
based on the science and is not legal. We believe that the 
PM<INF>2.5</INF> Staff Paper's presentation of a suite of alternatives 
all of which would tighten the fine particles standards was a major 
embarrassment to EPA policy staff and precipitated the review of the 
standard setting process culminating in the elimination of the Staff 
Paper.
---------------------------------------------------------------------------
    \6\ See www.epa.gov/ttn/naaqs/standards/pm/data/staffpaper--
20051221.pdf.
    \7\ See www.epa.gov/sab.pdf/casac-ltr-06-03.pdf.
    \8\ American Lung Association et al. v. Environmental Protection 
Agency, U.S. Court of Appeals, D.C. Circuit, Docket No. 06-1411, 
December 22, 2006.
---------------------------------------------------------------------------
    The review of the NAAQS for ozone may, again, highlight a conflict 
between policy makers and the latest science. Recent research clearly 
shows that adverse effects are occurring at exposure levels below the 
current standard. This conclusion is clearly reflected in the closure 
letter issued by CASAC panel on which I serve. There was unanimous 
consensus that the original conclusion of the second draft Staff Paper 
that continuing the current standard could be considered a 
scientifically justifiable alternative was wrong. CASAC judged that 
there is scientific certainty that health effects of ozone at levels 
below the current standard occur and substantially impact public 
health. For example, thousands of people with asthma will have asthma 
attacks when ozone levels are at the current standard. These attacks 
can be prevented with a tighter standard. Therefore, I am pleased to 
see that the final Staff Paper on ozone, which was released last week, 
adopted most of the suggestions of CASAC and recommended that the ozone 
standard be tightened.\9\ The dialogue between CASAC scientists and EPA 
scientists during the ozone review led to an improved Staff Paper that 
is based on scientific knowledge. We know, with certainty, that ozone 
harms public health at the current standard. We do not need to 
manufacture uncertainty. We await a final decision establishing an 
ozone NAAQS standard to see if, this time, sound science will prevail.
---------------------------------------------------------------------------
    \9\ See www.epa.gov/ttn/naaqs/standards/ozone/data/2007--01--
ozone--staff--paper.pdf at p. 6-86.
---------------------------------------------------------------------------
   the lead naaqs review raises additional public health protection 
                                concerns
    As you may know, the review of the lead NAAQS is the first to be 
conducted under the new process established by Deputy Administrator 
Peacock. Because the new process was established after the Staff Paper 
for lead was already underway, the draft Staff Paper has been publicly 
released, but will not be revised. A Policy Assessment will be issued 
to replace it. However, a controversial proposal from the lead industry 
has already been inserted into the lead standard review. EPA has 
announced it is considering the alternative of eliminating lead as a 
criteria pollutant.\10\ This action was first proposed by the lead 
battery industry to EPA during the review of the NAAQS setting process 
last summer.\11\
---------------------------------------------------------------------------
    \10\ See www.epa.gov/ttn/naaqs/standards/pb/data/pb--sp--1stdraft--
120406.pdf at pp. 1-1 through 1-2.
    \11\ Letter from the Battery Council International to Lydia Wegman, 
Office of Planning and Standards, July 12, 2006.
---------------------------------------------------------------------------
    The lead Criteria Document found that lead is dangerous in much 
lower concentrations than was understood when EPA established the lead 
NAAQS in 1978. Indeed, the CD found that there is no lead level 
exposure that is considered safe.\12\ Furthermore, the draft Staff 
Paper found that in 2002 over 13,000 stationary sources were emitting 
1,114 tons of lead per year into the air.\13\ This included 50 battery 
production facilities located in 23 States emitting collectively 25 
tons per year of lead. Finally, and most alarmingly, the draft Staff 
Paper found there appears to be `` . . . significant `under-monitoring' 
near known Pb emissions point sources.''\14\
---------------------------------------------------------------------------
    \12\ See www.epa.gov/ttn/naaqs/standards/pb/s--pb-cr-cd.html at p. 
E-16.
    \13\ See draft Staff Paper, p. 2-6.
    \14\ See draft Staff Paper, p. 2-47.
---------------------------------------------------------------------------
    While no one disputes that the reduction of lead air pollution is 
one of the most significant accomplishments of the Clean Air Act, we do 
not see the scientific basis for eliminating lead as a criteria 
pollutant. It would be impossible to assess the impact of lead air 
pollution on health if lead were eliminated as a criteria pollutant 
with the attendant reduction in the already inadequate ambient air lead 
monitoring and the elimination of the periodic review of the scientific 
research on the health effects of lead air pollution required by the 
Clean Air Act.
    The battery industry argues that alternative provisions of the Act 
provide for the continued regulation of lead emissions. Such an 
argument would substitute an outcome preferred by the battery industry 
for the sound scientific review mandated by the Clean Air Act. We hope 
this is not the first of a succession of such efforts as EPA reviews 
other air quality standards in the future.
            restore the role of science to the naaqs process
    As I have explained above, we believe that changes made in the 
NAAQS process diminish the role of science in the NAAQS review process. 
We believe restoring the Staff Paper and following science will help 
ensure that the public health will be protected from air pollution. 
Following the science is a central wisdom adopted into the Clean Air 
Act decades ago that has enormously benefited America's health.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
   Response by John R. Balmes, M.D., to an Additional Question from 
                       Senators Inhofe and Boxer
    Question. ``Clearly the NAAQS process is broken--year after year 
the EPA has consistently failed to meet deadlines. For example, the 
SO<INF>2</INF> review that was completed in 1996 was actually due Dec. 
31, 1980, almost 15\1/2\ years earlier. What problems might have been 
averted--and how much harm to Americans' health avoided--had a more 
efficient review process been in place?''
    Response. I completely agree that the NAAQS review process takes 
entirely too long and must be made more efficient. I also agree that if 
a more timely review of the SO<INF>2</INF> standard had lead to a 
revised SO<INF>2</INF> standard with a short-term exposure component 
then a number of exacerbations of asthma might have been avoided. I 
actually testified before the Clean Air Scientific Advisory Committee 
(CASAC) in 1995 during the review of the SO<INF>2</INF> standard and 
argued for inclusion of a short-term exposure. Unfortunately, the 
Agency's final decision was that ``revisions of the NAAQS for sulfur 
oxides were not appropriate at that time.'' Thus, no health problems 
were avoided in the ensuing years.
    The American Lung Association (ALA) is extremely interested in a 
more efficient NAAQS review process. As you are undoubtedly aware, the 
ALA has sued the EPA repeatedly for failing to meet the 5-year interval 
requirement for review of NAAQS for criteria pollutants. The ALA 
welcomes the current Agency effort to streamline the review process.
    What the ALA does not support is the elimination of the so-called 
Staff Paper from the NAAQS review process. This document provided an 
opportunity for EPA staff scientists and scientists on CASAC to engage 
in a dialogue about what air quality standard for the pollutant under 
review would best protect public health based on available scientific 
knowledge. The Staff Paper has been replaced by ``a policy assessment 
reflecting Agency views'' that ``will be published in the Federal 
Register as an advance notice of proposed rulemaking (ANPR).'' Such a 
document will not be an integrated summary of the scientific knowledge 
base that has been written by EPA staff scientists and vetted by CASAC 
scientists. In my view, the ANPR will provide an opportunity for 
politics to trump science in the NAAQS review process, thereby allowing 
potential harm to the health of Americans.
    It is not readily apparent how replacement of the Staff Paper with 
an ANPR streamlines the NAAQS review process. The greatest delays were 
due to preparation of voluminous Criteria Documents. These have been 
replaced by Integrated Science Assessments (ISAs). If high-quality ISAs 
can be produced in a more expeditious manner by the Agency, then NAAQS 
reviews should be completed in a more timely manner. Elimination of the 
Staff Paper was not required to speed up the process.
    I hope this answer helps inform your thinking about revisions to 
the NAAQS review process.

    Senator Boxer. Thank you, Doctor.
    Dr. Solomon, again, senior scientist at the National 
Resources Defense Council. Welcome.

 STATEMENT OF GINA M. SOLOMON, M.D., M.P.H., SENIOR SCIENTIST, 
               NATURAL RESOURCES DEFENSE COUNCIL

    Dr. Solomon. Yes, Madam Chairman, Senator, thank you for 
the opportunity to testify today. I am a physician and a senior 
scientist at NRDC. I am also an associate clinical professor of 
medicine at UCSF, University of California at San Francisco.
    In my clinic and in my office, I often talk with people 
directly affected by pollution in their communities. Last week 
I spoke with a woman named Leslie Warden. She and her husband 
live in Jefferson County, MO, which is still in non-attainment 
of EPA's 1978 National Ambient Air Quality Standard. Their son 
has attention deficit disorder and has struggled in school. Her 
niece and her nephew were diagnosed with lead poisoning.
    According to the CDC, about 310,000 children age 1 to 5 in 
the United States today are at risk from harmful levels of lead 
in their blood. CDC also found that neurological effects can 
occur at even lower levels. Unfortunately, EPA's standard for 
lead was set some 30 years ago and doesn't account for the 
newest science. But instead of revising the air quality 
standard downward, EPA instead suggests eliminating the 
standard completely.
    When Mrs. Warden heard what EPA is doing, she said, ``Then 
why don't they just put it back in gasoline or in paint? They 
think it's OK to use our children as lead monitors. That would 
be the only air monitor we would have left in our community, is 
our children.'' She is right, because if EPA eliminates the air 
standard, they will dismantle the National Ambient Lead Air 
Quality Compliance monitoring system, and then we won't know 
which counties have lead problems and how high the lead levels 
are. The first hint of a problem will be when children in our 
communities get lead poisoning, and that is too late.
    Recently EPA announced a new streamlined process, so-called 
streamlined process for reviewing air standards, and that lead 
would be the first up under this process. The timing may not be 
a coincidence. Battery Council International, whose members 
include virtually all U.S. battery manufacturers and most 
smelters, asked EPA to eliminate the air standard for lead and 
also asked for these process changes in July 2006. The lead 
industry apparently felt that shortcuts through the science 
would be to its advantage, and they appear to have gotten their 
wish.
    Recently, EPA also changed the reporting thresholds under 
the Toxic Release Inventory. The changes will mean that more 
than 5.7 million pounds of chemical pollution, plus 10.5 
million pounds of production waste will now go unreported each 
year. I spoke about this the other day with Linda Bardo. She 
lives with her family in the community of Curtis Bay in 
Baltimore, MD. In her zip code, there are seven facilities 
recently reporting a total of 12,400 pounds of benzene 
emissions. According to EPA, benzene is the ``most significant 
air toxic contributing 25 percent of the cancer risk'' in EPA's 
newly released National Air Toxics Assessment. Under the new 
TRI rule, six of those seven facilities in her community would 
no longer be required to report any benzene emissions. In fact, 
benzene emissions would drop by more than a third.
    So these aren't small businesses. These are petroleum 
giants. These include companies like Hess, BP, Citgo, Sunoco 
and Motiva. So when Mrs. Bardo learned about the TRI reporting 
change, she asked me to tell you, ``These companies may 
complain because they have to fill out some paperwork. But our 
community has high asthma rates, high cancer rates. For them to 
say they don't want to do the paperwork, that's disgusting to 
me, it makes me sick.''
    Under another EPA proposal, the petroleum bulk storage 
facilities in Mrs. Bardo's community could also evade more 
protective MACT standards and abandon Federal monitoring, 
record keeping, reporting and even permitting requirements. 
This proposal could increase releases of toxic chemicals into 
these communities by tens of thousands of pounds each year. The 
elimination of information doesn't stop with air pollutants. In 
December, EPA issued a rule saying there will be no more 
requirements to test drinking water for perchlorate.
    That is in the face of a recent CDC study which showed that 
among women with low iodine intake, very low levels of 
perchlorate exposure, within the range that is measured in the 
general U.S. population, are associated with a 30 percent drop 
in thyroid hormone levels. That is significant because slight 
decreases in thyroid hormones during pregnancy, even within the 
so-called normal range, are associated with decreased 
intellectual capacity in childhood.
    Testing so far shows perchlorate is a huge drinking water 
threat. It was found in 402 water systems. These collective 
serve 41.2 million people. Yet only 3.4 percent of public water 
systems have even been tested. So we have seen only the tip of 
the iceberg for this contaminant.
    Finally, over the past few months, EPA has closed five of 
its libraries, including the headquarters library which served 
Mrs. Bardo in Baltimore, and the Region 7 library that served 
Mrs. Warden in Missouri. The cost of these closures to local 
communities, it is hard to calculate, since information when 
you really need it is priceless.
    So in closing, it is clear that concerns for the integrity 
of the science, for protection of public health and for public 
availability of information are shared by the Chairman and the 
other members of this committee. We rightly fear a future of 
communities breathing dirtier air, children exposed to more 
toxic lead, pregnant women unknowingly drinking thyroid 
disrupting rocket fuel, scientists sidelined and information 
vanishing.
    Yet I am optimistic that this future can be averted, and I 
sincerely hope that EPA will heed our combined urging to 
refocus their efforts where they should be, which is on 
protecting public health.
    Thank you.
    [The prepared statement of Dr. Solomon follows:]
 Statement of Gina M. Solomon, M.D., M.P.H., Senior Scientist, Natural 
                       Resources Defense Council
                              introduction
    Thank you for the opportunity to submit written testimony to this 
Committee. I am Gina Solomon, a physician and Senior Scientist at the 
Natural Resources Defense Council (NRDC) and an Associate Clinical 
Professor of Medicine at the University of California at San Francisco 
(UCSF). NRDC is a national, nonprofit, public interest organization 
dedicated to protecting human health and the environment. We have over 
1.2 million members and online activists in all 50 States. I have 
subspecialty training and expertise in environmental medicine, and have 
done research, education, and advocacy for over a decade to protect 
children from lead poisoning, from contaminants in their food, air and 
drinking water, and from hazardous pesticides.
    Almost every day I speak with people--both patients and members of 
the public--about their health and about risks to their health from 
environmental pollution. One of the most frequent questions I hear is: 
``What can I do to protect myself and my family from contaminants in 
the air, water, food, and in my community?'' It's often difficult to 
answer that question. Many hazards that can affect the health of 
children and families are not things that individuals can protect 
themselves from, even with advice from their physician. Contaminants in 
the air we breathe, or in the water used to make the coffee we drink 
are things that we have little control over as individuals. It is the 
responsibility of government agencies such as the Environmental 
Protection Agency (EPA) to assure that our air and water are safe for 
the most vulnerable among us, including pregnant women and children.
    However, with a little information, people can sometimes take very 
effective action to protect their community. Physicians can also 
sometimes take action to warn vulnerable patients or monitor the 
community for health effects such as lead poisoning. The foundation for 
scientifically-based action is information. If there is information 
available about air pollution, local sources of toxic chemicals and 
contaminants in drinking water, people can learn about the problem and 
take action. If there are resources available in communities on the 
histories of individual facilities or on the health effects of various 
chemicals, people can learn and take action. If such data are available 
to agencies such as EPA, they also have what they need to take 
regulatory or enforcement action if needed.
    Unfortunately, EPA is taking several major steps to eliminate 
information and decrease health protection from environmental hazards. 
Six recent draft or final EPA rules will each significantly limit 
critical information available to scientists, health care providers, 
communities, and ironically to EPA itself. As a result, children and 
communities will be left less protected and less able to protect 
themselves.
  eliminating the air quality standard for lead would put children at 
                                  risk
    The draft EPA Staff Paper reexamining the outdated National Ambient 
Air Quality Standard (NAAQS) for lead proposes no revisions of the 
standard--which was set nearly 30 years ago--and instead states that 
EPA ``will evaluate the status of lead as a criteria air pollutant in 
light of currently available information and assess whether revocation 
of the standard is an appropriate option for the Administrator to 
consider.''\1\
---------------------------------------------------------------------------
    \1\ EPA. Review of the National Ambient Air Quality Standards for 
Lead: Policy Assessment of Scientific and Technical Information. OAQPS 
Staff Paper--First Draft. December 2006. p. 1-2.
---------------------------------------------------------------------------
    The news that EPA is considering revocation of the air quality 
standard for lead was a shock to scientists, children's health 
advocates, and communities across the country. Lead is one of the best-
studied poisons in the world today, and it has been clearly shown to 
impair children's health in thousands of major scientific studies. Lead 
affects the brain by impairing neurological development, blunting IQ, 
and shortening children's attention span.\2\ It also affects the 
kidneys and the cardiovascular system. More recent studies have linked 
lead exposure to diseases as diverse as osteoporosis, cataracts, and 
cognitive decline in the elderly.\3\ As a clinician who has treated 
lead poisoned children and adults, I can tell you that this toxic 
substance has devastating effects on people's lives.
---------------------------------------------------------------------------
    \2\ Ibid p. 3-8 et seq.
    \3\ Schaumberg DA, et al. Accumulated lead exposure and risk of 
age-related cataract in men.
    JAMA. 2004 Dec 8;292(22):2750-4; Stewart WF, et al. Past adult lead 
exposure is linked to neurodegeneration measured by brain MRI. 
Neurology. 2006 May 23;66(10):1476-84; Nash D, Magder LS, Sherwin R, et 
al. Bone density-related predictors of blood lead level among peri- and 
postmenopausal women in the United States: The Third National Health 
and Nutrition Examination Survey, 1988-1994. Am J Epidemiol. 2004 Nov 
1;160(9):901-11.
---------------------------------------------------------------------------
    EPA points out that lead levels in the air have dropped 
significantly since the 1970's when the current lead standard was 
issued. That is true, and shows the enormous health benefits that can 
occur with air quality regulations. Yet it is bizarre reasoning to 
suggest that because regulations have greatly reduced the lead threat, 
these regulations should therefore be eliminated.
    In fact, lead remains very much a problem today. An estimated 
310,000 children aged 1-5 in the United States remain at risk from 
harmful blood lead levels according to the Centers for Disease Control 
and Prevention (CDC).\4\ Furthermore, in a recent review, CDC concluded 
that ``no level of lead in a child's blood can be specified as safe'', 
and that health effects have been demonstrated below the current blood 
lead threshold.\5\ Therefore EPA should be revising the 1978 standard 
to bring it into line with the current science, which would mean a 
substantial reduction of the standard.\6\
---------------------------------------------------------------------------
    \4\ Centers for Disease Control and Prevention. Blood Lead Levels--
United States, 1999-2002. 54(20);513-516. May 27, 2005. http://
www.cdc.gov/MMWR/preview/mmwrhtml/mm5420a5.htm [Visited February 1, 
2007].
    \5\ The CDC blood lead threshold of concern is 10 micrograms per 
deciliter (mg/dL). Centers for Disease Control and Prevention. 
Preventing lead poisoning in young children: a statement by the Centers 
for Disease Control and Prevention. Atlanta, GA: U.S. Department of 
Health and Human Services, Public Health Service, August 2005.
    \6\ The CDC blood lead level of concern was 30mg/dL in 1978 and the 
lead NAAQS was set at that time to maintain children's blood lead 
levels below 30. Today the CDC's level of concern is 10 mg/dL.
---------------------------------------------------------------------------
    EPA points out that there are currently only two nonattainment 
areas for the current NAAQS. The paucity of nonattainment areas is 
hardly a reason to remove the standard, especially since the 1978 
standard is in serious need for revision. If the standard were reduced 
to one-third of its current level, to 0.5 micrograms per cubic meter 
(mg/m<SUP>3</SUP>)--as proposed by EPA staff in 1990--and the averaging 
time were reduced to the first maximum monthly average--which would 
help control the intermittent high concentrations that contribute to 
soil deposition and local contamination--there would be 32 
nonattainment areas as calculated in EPA's staff paper.\7\ This is 
hardly reassuring, and indicates that the air quality problem with lead 
is still very much with us today.
---------------------------------------------------------------------------
    \7\ EPA Lead NAAQS Staff Paper. p. 2-37.
---------------------------------------------------------------------------
    According to EPA there are about 13,000 facilities in the U.S. that 
emit lead to the atmosphere.\8\ Facilities that emit more than one ton 
of lead per year are mapped in Figure 1. EPA also lists 36 different 
source categories ranging from battery manufacturing facilities to 
cement kilns each of which pollutes the air with more than five tons 
per year of lead.\9\ The EPA Staff Paper mapped lead emissions by 
county nationwide and demonstrated that there are still substantial 
airborne lead concentrations in many parts of the country (Figure 2). 
Furthermore, EPA's review of the lead NAAQS Compliance Monitoring 
network revealed that ``only 2 of 26 facilities (both lead smelters) 
identified as emitting greater than 5 [tons per year] have a [lead] 
NAAQS compliance monitor within 1 mile.''\10\
---------------------------------------------------------------------------
    \8\ EPA Lead NAAQS Staff Paper. p. 2-6.
    \9\ Ibid. Table 2-3.
    \10\ EPA Lead NAAQS Staff Paper. p. 2-24.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Jefferson County, Missouri is currently designated as a 
nonattainment area for lead. The State Implementation Plan (SIP) for 
this county has been determined inadequate to attain the current NAAQS 
in 2006; therefore a revised SIP is under development for that 
area.\11\ If the NAAQS standard for lead were eliminated, there would 
no longer be an incentive for reductions in airborne lead emissions in 
that county, and the estimated 37,562 people (including 2,164 children) 
who live within 5 miles of that facility would remain at significant 
health risk.\12\
---------------------------------------------------------------------------
    \11\ EPA Lead NAAQS Staff Paper. p. 4-9.
    \12\ Ibid.
---------------------------------------------------------------------------
    Last week I spoke with a woman named Leslie Warden. She and her 
husband Jack raised their son in Jefferson County, Missouri. They lived 
for 25 years in the town of Herculaneum less than a mile from the Doe 
Run lead smelter. Their son Erik, now struggling to complete junior 
college, has Attention Deficit Disorder (ADD). Her niece and nephew, 
who lived just one block away, were both diagnosed with lead poisoning. 
For years Mrs. Warden said that she and all her neighbors assumed that 
everything was OK in their small town, since ``that's what everyone 
from the government told us''. In 1999, when they finally learned about 
the widespread air and soil pollution, and all the children with lead 
poisoning, they felt duped and betrayed. When she heard that EPA is now 
considering eliminating the air quality standard for lead, Mrs. Warden 
said: ``Then why don't they just put it back in gasoline or in paint? 
They think it's OK to use our children as lead monitors; that would be 
the only air monitor we'd have left in this community is our 
children.'' She is right. If EPA eliminates the NAAQS for lead, they 
will also dismantle the national lead air quality Compliance Monitoring 
network. Then we will have no way of knowing which counties have lead 
problems, and how high the levels are in our air. The first hint of a 
problem will be when children in our communities get lead poisoning, 
and that's too late.
      changing the naaqs review process erodes the role of science
    In addition to the proposal to eliminate the air quality standard 
for lead, EPA is using the review of the lead NAAQS to debut a new 
process for reviewing criteria air pollutant standards. This so-called 
``efficient process'' is actually a rough-shod short cut through the 
science. The new process will significantly reduce public comment, 
scientific review, and EPA scientific staff input. Instead, the new 
process is tailor-made to allow political appointees at EPA to have 
maximum flexibility and discretion in the standard-setting process.
    The NAAQS standard setting process has been a model of an EPA 
rulemaking process that includes careful incorporation of the latest 
science, and is largely driven by scientific review rather than 
politics. Due largely to insufficient funding and Agency focus, the 
process may not be as quick as many of us would like, but it is 
deliberate, thorough, and focuses on getting the best possible advice 
from independent scientists on the Clean Air Scientific Advisory 
Committee (CASAC) and from scientists within the Agency.
    The launch of the new ``expedited'' EPA process in conjunction with 
the lead NAAQS review is no coincidence. The Battery Council 
International (BCI), a trade association whose members include 
virtually all of the United States' lead battery manufacturers and most 
of its secondary smelters, advocated for exactly these changes in a 
letter to EPA in July of 2006 (attached). In particular, the BCI letter 
states that ``[t]here is no good reason to prepare a criteria document, 
a staff report, and a regulatory proposal with preamble.'' The lead 
battery industry obviously felt that short-cuts through the NAAQS 
standard-setting process would be to its advantage when their pollutant 
came up for review, and they got their wish. The lead industry wasn't 
the only polluter celebrating the recent changes in the NAAQS standard-
setting process; the American Petroleum Institute was also apparently 
quite involved in recommending this process change.\13\ As a scientist, 
I am deeply saddened when I see the polluters pulling the strings and 
science sidelined, since I know that the impacts will ultimately be on 
health at the community level.
---------------------------------------------------------------------------
    \13\ Letter from Senators Boxer, Carper, Clinton, Obama, Lieberman, 
Lautenberg, and Baucus to Stephen L. Johnson. December 21, 2006.
---------------------------------------------------------------------------
    The other subtext in the current proposal is that recently at EPA 
the politics haven't been squaring with the science. The CASAC has 
twice recently crossed swords with EPA--first over particulate matter, 
and then over ozone. In both cases, the scientists have urged EPA to 
recognize the overwhelming scientific evidence in favor of 
substantially lower standards for these pollutants. In the case of 
particulate matter, EPA management made the decision to select a 
standard that is less health protective than the EPA staff and the 
CASAC recommended. When CASAC protested the EPA decision,\14\ EPA 
appears to have retaliated by decreasing CASAC's role in the standard 
setting process.
---------------------------------------------------------------------------
    \14\ Letter from Rogene Henderson et al. to Stephen L. Johnson. 
September 29, 2006. http://www.epa.gov/sab/pdf/casac-ltr-06-003.pdf 
[visited January 31, 2007].
---------------------------------------------------------------------------
  reducing toxics release inventory reporting will leave communities 
                              in the dark
    As I mentioned previously, one of the consequences of eliminating 
the NAAQS for lead would be the dismantling of the Compliance 
Monitoring network, thereby leaving communities in the dark about how 
much lead is in the air they're breathing. In the same vein, EPA 
recently promulgated a final rule changing reporting requirements for 
the Nation's Toxics Release Inventory (TRI). This new rule will allow 
polluters to release greater amounts of hazardous chemicals while 
substantially reducing information to communities.
    In December EPA published a final rule modifying the monitoring 
requirements for the TRI with the alleged intent of reducing reporting 
burdens on regulated facilities. The new rule increases the reporting 
threshold for non-persistent, bioaccumulative and toxic (non-PBT) 
chemicals by four-fold, from 500 pounds to 2,000 pounds, with a total 
cap of 5,000 pounds. Facilities that fall under the threshold for a 
particular chemical will now be exempt from detailed reporting and 
allowed to file only a Form A Certification Statement giving the name 
of the chemical in question but no other data on waste management or 
releases. The rule also allows facilities that treat or manage up to 
500 pounds of a persistent, bioaccumulative and toxic (PBT) chemical, 
but have zero releases of the PBT chemical to use the shorter Form 
A.\15\
---------------------------------------------------------------------------
    \15\ Dioxin is exempt from this provision. 71 FR 76932.
---------------------------------------------------------------------------
    According to EPA, approximately 9,500 non-PBT chemical reports 
would be eligible for Form A reporting under the final rule, at a 
modest savings to reporting facilities of $438 and 9.1 work hours per 
Form. Meanwhile 2,360 PBT chemical reports would be eligible at a 
savings of $748 and 15.5 work hours per Form. The 6,670 facilities that 
could benefit from this rule would save an average of only $885.
    According to NRDC calculations, the changes to the TRI will mean 
that more than 5.7 million pounds of chemical pollution, plus 10.5 
million pounds of production-related waste will now go unreported each 
year. Our analysis shows that a total of 16 chemicals will effectively 
``disappear'' from the TRI as a result of this rule. I was interested 
to discover that one of the chemicals that will vanish from full TRI 
reporting is methyl isothiocyanate. When methyl isothiocyanate is 
exposed to sunlight it breaks down to methyl isocyanate (MIC).\16\ 
Those who know their history will recall that the 1984 Union Carbide 
chemical disaster in Bhopal, India--a disaster that killed thousands of 
people and injured tens of thousands\17\--was the impetus for the 
passage of the Emergency Planning and Community Right to Know Act that 
originally created the TRI.\18\ The chemical responsible for the 
disaster in Bhopal was MIC. It is hard to escape the irony that EPA's 
decision to limit the TRI causes the chemical that essentially created 
the TRI to disappear from the national reporting system.
---------------------------------------------------------------------------
    \16\ California Department of Pesticide Regulation. Evaluation of 
Methyl Isothiocyanate as a Toxic Air Contaminant. California 
Environmental Protection Agency, Sacramento, CA, August 2002. p. XV.
    \17\ http://www.bhopal.net/death-toll.html (visited February 1, 
2007].)
    \18\ Emergency Planning and Community Right-To-Know Act of 1986, 
Pub. L. No. 99499, 100 Stat. 1728, codified at 42 U.S.C. sec.11001-
11050 (1994)
---------------------------------------------------------------------------
    One of the main arguments for the change in TRI reporting was to 
alleviate burdensome paperwork for small businesses. However, a recent 
independent analysis of the data discovered that the industries that 
will benefit most from this rule will be large corporations that can 
easily afford to do the paperwork.\19\
---------------------------------------------------------------------------
    \19\ National Environmental Trust. EPA's Proposed TRI Rule Changes 
Benefit Large Companies and Provide No Burden Reduction for Small 
Businesses. Washington, DC. December 2006. http://www.net.org/
proactive/newsroom/release.vtml?id=29162 [visited February 2, 2007].
---------------------------------------------------------------------------
    I spoke about this issue the other day with a woman named Linda 
Bardo, who raised her son in the small community of Curtis Bay, in 
Baltimore, MD. In her zip code there are currently seven large 
facilities reporting a total of 12,400 pounds of benzene emissions. 
Benzene is known to cause leukemia in humans and is an extremely 
dangerous chemical to breathe. Under EPA's new rule six of the seven 
facilities would no longer be required to report any of their benzene 
emissions. Almost one-third (3,500 pounds) of the benzene air emissions 
to this small community would ``disappear''. These companies aren't 
small businesses. They are petroleum giants such as Amerada Hess Corp., 
BP Products North America, Citgo Petroleum Corp., Sunoco, and Motiva. 
When Ms. Bardo learned about the TRI reporting change, her response 
was:

          I realize that these companies offer many employment 
        opportunities to many people. That part is great. But I just do 
        not feel it is too much to ask that they be required to 
        complete paperwork relating to these emissions, especially 
        since most people in Curtis Bay and Brooklyn live within 1-5 
        miles of these facilities. These companies may complain because 
        they have to fill out some paperwork, but our community has 
        extremely high asthma rates; high cancer rates. We have to do 
        everything we can to improve the air that we breathe here in 
        Curtis Bay. For them to say they don't want to do the 
        paperwork--that's disgusting to me, it makes me sick!

    TRI is one of the most important tools available to concerned 
citizens and community groups that advocate for a healthier 
environment. Since most of the TRI data are not easily accessible 
through other sources (and may in many cases be available nowhere else) 
EPA's changes to the TRI program infringe the public's right to know 
about chemical releases in their communities. While 5,000 pounds of 
waste management or 2,000 pounds of releases may not sound significant 
on a nationwide basis, the cumulative amounts can have health 
significance for communities located near industrial areas where 
multiple facilities may no longer be required to report releases of 
numerous TRI chemicals. Linda Bardo in Baltimore, MD pointed out: 
``It's not like we have one plant in our town to deal with. This one 
has a blip here and that one has a blip there, but when you put them 
together it's terrible. We still will have to deal with every type of 
emission that comes out of every one of those plants.''\20\
---------------------------------------------------------------------------
    \20\ Personal communication, Linda Bardo, Baltimore, MD. February 
1, 2007.
---------------------------------------------------------------------------
    The neighborhoods most affected will be poor and largely minority 
communities. In its analysis of the impacts of the proposed rule EPA 
estimated that minorities make up 31.8 percent of the general U.S. 
population, 41.8 percent of the population within one mile of 
facilities that filed at least one Form R in 2003, and 43.5 percent of 
the population within one mile of facilities that would have qualified 
for Form A reporting in 2003. EPA also estimated that individuals under 
the poverty level make up 12.9 percent of the U.S. population, 16.5 
percent of the population within one mile of facilities that filed at 
least one Form R in 2003, and 17.0 percent of the population within one 
mile of facilities that would have qualified for Form A reporting in 
2003 as a result of the proposed rule. It did not present a revised 
analysis for the final rule.\21\ It appears that the executives that 
operate these facilities do not live downwind from them.
---------------------------------------------------------------------------
    \21\ 71 FR 76940.
---------------------------------------------------------------------------
    Last Thursday I spent some time talking with Mr. Duncan McKee, a 
gentleman who lives in a community in Los Angeles just down the street 
from a number of polluting industries. He has lived in this community 
for 49 years, and has a daughter who spent a significant part of her 
childhood there. There are three facilities near Mr. McKee's home, 
Distinctive Appliances Inc., Hill Brothers Chemical Co., and Lansco Die 
Casting Inc. that would no longer report any emissions under the new 
TRI rules. Currently, these facilities release or dispose of 
diisocyanates, ammonia, and copper. In addition, there is a large 
battery manufacturing facility near his house. He told me: ``The 
neighbors know that the facility burns plastic and rubber casings; when 
that's going on, just one whiff of the air and you get a splitting 
headache.'' When he heard about the proposal to change the TRI 
reporting threshold he said: ``To eliminate this limit would open the 
door for companies to pump out even more than they do currently.'' He 
pointed out that there are families with children living within 500 
feet of the battery manufacturing facility in his neighborhood, and 
there are 26 schools within 4 miles. Apparently the fine dust released 
from this facility is ``stuff that you really can't get away from--it 
penetrates your house, kids are breathing it in, and kids get it on 
their hands and in their mouths.'' Twelve people within two square 
blocks are currently suffering from cancer. Children in the 
neighborhood have leukemia and Hodgkin's lymphoma. They don't know if 
the cancer is from the local polluters, but people in the community are 
worried and they say that the government does not have strong enough 
standards or strong enough enforcement of the standards that are 
already on the books.
    Mr. McKee is not the only person who is angry about what EPA is 
doing. EPA received more than 122,000 comments on its proposal to cut 
back on TRI reporting. Of these, 99.97 percent (122,386 comments) 
opposed the proposal, and only 34 comments (of which 29 were from 
industry organizations) favored it. Opponents to the EPA changes 
included over 300 public interest organizations, 66 public health 
professionals and organizations, 46 labor organizations, 48 
researchers, 8 religious leaders and organizations, and 21 financial 
investors.\22\ Among those submitting public comment to EPA was D. 
Radfor Shanklin, a chemist, research biologist, and physician in 
Memphis, TN. He wrote to the EPA saying that ``the extent and detail of 
reporting should be INCREASED not decreased. To do otherwise is to 
become complicit with the well documented historic tendency of much of 
big industry to falsify their science, mislead the public, and turn 
cold shoulders to the harm to environment and health.'' (emphasis in 
original).\23\
---------------------------------------------------------------------------
    \22\ OMB Watch. Against the Public's Will: Summary of Responses to 
the Environmental Protection Agency's Plans to Cut Toxic Reporting. 
Washington, DC. December 2006.
    \23\ Letter from D. Radford Shanklin, F.R.S.M. EPA-HQ-TRI-2005-
0073-579, Toxic Release Inventory Burden Reduction Proposed Rule, 
Environmental Protection Agency, January 30, 2006.
---------------------------------------------------------------------------
   epa proposes to weaken health protections for toxic air pollution
    On December 21, 2006, the EPA Administrator signed a rulemaking 
proposal to weaken nearly 100 toxic air pollution standards by allowing 
industrial plants across the country to emit significantly greater 
amounts of 188 hazardous air pollutants, including numerous 
carcinogens.\24\
---------------------------------------------------------------------------
    \24\ The rulemaking proposal was published in the Federal Register 
on January 3, 2007, and is open for public comment until March 5, 2007. 
See ``National Emission Standards for Hazardous Air Pollutants: General 
Provisions,'' 72 Fed. Reg. 69.
---------------------------------------------------------------------------
    The rulemaking proposal violates Clean Air Act requirements that 
toxic air polluters achieve the most protective legal standard selected 
by Congress in the 1990 Clean Air Act amendments--Maximum Achievable 
Control Technology (MACT). The proposal even allows polluters in nearly 
100 industrial source categories to throw off more protective toxic air 
pollution limits to which they are already subject, and abandon Federal 
monitoring, recordkeeping, reporting--and in some instances, 
permitting--requirements to which they are already subject.\25\ By 
evading toxic air pollution limits, industrial facilities would be 
permitted to substantially increase releases of toxic chemicals into 
surrounding communities by tens of thousands of pounds each year, 
including highly potent carcinogens, neurotoxicants, endocrine 
disruptors, and reproductive toxicants. EPA also structures the 
proposal in such a way that the Federal Government and citizens lose 
the ability to enforce violations by polluters. The MACT standard 
process under the Clean Air Act, by contrast, allows the Federal 
Government, citizens and State officials to enforce all violations.
---------------------------------------------------------------------------
    \25\ It is worth noting that EPA under this Administration proposed 
a rulemaking also aimed at this aspect of EPA's air toxics regulations, 
that was designed to incentivize additional reductions in toxic 
emissions through pollution prevention. See 68 Fed. Reg. 26,249 (May 
15, 2003); see also 72 Fed. Reg. at 71. That earlier proposal would 
have allowed sources to qualify for alternative, less rigorous, 
monitoring, recordkeeping and reporting requirements by reducing toxic 
emissions below levels required by MACT. 72 Fed. Reg. at 71. Crucially, 
however, the earlier proposal would not have allowed sources to 
increase emissions above levels required by the MACT standards. In 
other words, it would not have allowed toxic backsliding. EPA's 
December 2006 proposal abandons that more modest 2003 proposal without 
explaining why the Agency is abandoning its prohibition on increasing 
toxins above levels allowed by the MACT standards.
---------------------------------------------------------------------------
    When word of this harmful, deregulatory plan first circulated 
within EPA in late 2005, officials at seven out of the Agency's ten 
regional offices joined in a 9-page memo to protest the proposal, 
saying that, if implemented, it ``would be detrimental to the 
environment and undermine the intent'' of the Clean Air Act (see 
attached memo).\26\ The scathing internal memo also said the rule 
changes would create a loophole that allows polluters to ``virtually 
avoid regulation and greatly complicate any enforcement against them'' 
and eliminate the ability of EPA and the public to effectively monitor 
and take action against toxic polluters.\27\ Decrying the higher toxic 
pollution levels allowed by the proposal, the regional officials 
observed that ``[t]he cost of the increased HAP emissions would be 
borne by the communities surrounding the sources.''\28\ The regional 
EPA officials also protested the preparation of the proposed rule 
without their input and the ``reluctan[ce]'' by headquarters to even 
share the draft policy with them, characterizing the slights as part of 
a ``trend'' with the current Administration that was 
``disturbing.''\29\
---------------------------------------------------------------------------
    \26\ ``Regional Comments on Draft OIAI Policy Revisions'' (Dec. 13, 
2005) (``Dec. 2005 Regional Memo''), at 3. http://www.nrdc.org/media/
docs/060403b.pdf.
    \27\ Id., at 4.
    \28\ 28 Id., at 3-4.
    \29\ Id.at 1.
---------------------------------------------------------------------------
    In a second memo from the EPA regional offices to headquarters, 
dated March 10, 2006, the regions were forced to reiterate the vast 
majority of their prior objections, after headquarters re-circulated a 
draft rulemaking proposal that ignored most of the regional concerns 
(see attached memo).\30\ This second memo says: ``Most notably, we 
continue to have significant concerns about the increase in emissions 
of hazardous pollutants that will likely occur from the revisions to 
the [existing] policy, as currently drafted.''\31\ Comparison of the 
December 2006 published rulemaking proposal, and the December 2005 
draft that the regional officials condemned, makes abundantly clear 
that their objections were ignored.
---------------------------------------------------------------------------
    \30\ ``Regional Comments on Revised Draft OIAI Policy Revisions'' 
(March 10, 2006), at 2 (attached to this testimony).
    \31\ March 2006 Regional Memo at 2.
---------------------------------------------------------------------------
    The Clean Air Act amendments of 1990 required EPA to impose 
standards for 188 different toxic substances emitted by industrial 
sources, ranging from benzene and asbestos to chlorine and 
formaldehyde. Adopting a technology-forcing approach, the law imposed 
MACT standards on plants that annually emitted 10 tons or more of a 
single toxic chemical, or 25 tons or more of a combination of toxic 
chemicals. MACT standards are based on the performance of the average 
of the top 12 percent of facilities in an industrial sector. Congress 
intended EPA to identify the emissions levels achieved by the best-
performing plants in an industrial sector, and to require the remaining 
plants to achieve the same performance levels. To date, EPA has issued 
nearly 100 MACT standards covering some 174 industrial sectors. Prior 
to issuance of this proposal, EPA projected that the standards 
collectively would ``reduce annual emissions of air toxics by about 1.7 
million tons from 1990 levels when fully implemented.''\32\ These 
reductions will not be accomplished if EPA's proposal becomes law.
---------------------------------------------------------------------------
    \32\ http://www.epa.gov/ttn/atw/nata1999/natafinalfact.html 
[visited January 31, 2007].
---------------------------------------------------------------------------
    MACT standards typically force plants to slash their toxic air 
emissions by 95 percent or more. For example, an industrial facility 
that emitted 100 tons of a combination of toxins might be required to 
slash its toxic emissions to 5 tons per year. Under EPA's proposed 
rule, however, that facility can turn around and increase its toxic 
emissions from 5 tons per year to just below the 25-ton threshold (say, 
24.9 tons per year) and still escape controls--while increasing its 
toxic emissions nearly five fold. Because the proposal weakens all of 
EPA's nearly 100 MACT standards, a slow-motion public health disaster 
could ensue in communities located in industrial areas all across the 
country.
    It is crucial to understand the protective, technology-forcing 
structure of the MACT program to appreciate just how pernicious EPA's 
proposal is. Congress intended all facilities in an industry to 
replicate emissions reductions actually being achieved by the top-
performers in that industry when EPA set the standards. Thus, take a 
hypothetical industrial category comprised of 100 facilities, each with 
100 tons of toxic emissions prior to any pollution reduction 
strategies. The top 12 facilities in this hypothetical category are 
reducing air toxics levels on average by 95 percent, down to 5 tons per 
year. This leads EPA to establish a MACT standard requiring 95 percent 
cuts in toxic pollution. The remaining 88 facilities dutifully comply 
and reduce their air toxics by 95 percent, down to 5 tons per year at 
each facility. The 12 top performers are required to continue achieving 
95 percent reductions. Thus, the MACT standard reduces total toxic 
emissions from this hypothetical industrial category by 8,360 tons each 
year (88 x 95 tons per facility).
    Under EPA's proposal, however, these 100 facilities would no longer 
be required to maintain their air toxic levels at 5 tons per year. To 
the contrary, EPA is claiming that Congress in fact intended all 100 of 
these facilities to be able to increase their toxic air pollution from 
5 tons per year to 24.9 tons per year. This would represent an increase 
of 1,990 tons of air toxic emissions each year from this entire 
industrial category. Moreover, these 100 facilities would no longer be 
subject to the monitoring, recordkeeping, reporting and other 
compliance obligations associated with the MACT standard. These 
facilities would escape Federal control of their toxic pollution 
altogether, and EPA and citizens would lose the ability to enforce 
violations by these facilities of permit limits adopted at or below 
24.9 tons per year.
    EPA's rulemaking proposal pretends that this toxic-increasing 
agenda is exactly what Congress intended when it adopted the 1990 Clean 
Air Act amendments. Yet EPA identifies no legislative history to 
support that pretense. Moreover the proposal ignores the statutory 
definition of MACT itself, with its mandate that toxic pollution 
standards reflect the performance of the average of the top 12 percent 
of facilities in an industrial sector. EPA's rulemaking proposal does 
not even discuss these statutory provisions in the purported legal 
authority section of its proposal.\33\
---------------------------------------------------------------------------
    \33\ See 72 Fed. Reg. at 72-73.
---------------------------------------------------------------------------
    The December 2005 Regional Memo reminded EPA headquarters officials 
that ``[i]n 1995, EPA believed that the [existing] policy follows 'most 
naturally' from the language and structure of the statute, and that 
allowing facilities to backslide would undermine the maximum achievable 
emissions reductions mandated by Congress.'' Observing that the draft 
proposal had reversed that position without any explanation, the 
Regional Memo urged EPA headquarters to ``more clearly articulate why 
EPA no longer believes that the [existing] policy flows naturally from 
the statute.'' The December 2006 proposal ignores the regions' request 
and fails to explain how this change comports with the statute itself 
and with EPA's longstanding interpretation of the statute.
    The EPA regional officials also urged headquarters officials to 
examine closely the issue of toxic pollution increases from industrial 
facilities currently subject to more protective MACT pollution limits, 
``to determine whether the [proposal's] likely benefits would be 
greater than the potential environmental costs.'' By EPA's own 
admission, the Agency failed to conduct any analysis to determine what 
the environmental, energy and economic impacts of the proposal would 
be.\34\ Indeed, it is startling to read EPA's own laundry list of 
admissions concerning the proposal's impacts that they did not analyze 
and supposedly cannot quantify or even estimate:
---------------------------------------------------------------------------
    \34\ See 72 Fed. Reg. at 77.
---------------------------------------------------------------------------
    <bullet> The Agency disavows any ability to quantify the 
``environmental, economic, and energy impacts'' of the proposal 
``without knowing which sources will avail themselves'' of the 
proposal;
    <bullet> EPA admits that it is ``unknown'' how many sources, if 
any, would voluntarily reduce their emissions in response to the 
``incentive'' provided by the proposal;\35\
---------------------------------------------------------------------------
    \35\ id. at 72/1, 77/2.
---------------------------------------------------------------------------
    <bullet> The Agency admits ``it is not known how many sources may 
increase their emissions from the major source MACT level'';\36\ and
---------------------------------------------------------------------------
    \36\ id. at 77/2.
---------------------------------------------------------------------------
    <bullet> EPA admits that it ``cannot identify or quantify the 
universe of sources that would decrease their HAP emissions to below'' 
those levels (10 tons of a single HAP, 25 tons of multiple HAPs) 
eligible for exemption from MACT under the proposal.
    EPA's entire discussion of the ``Impacts of the Proposed 
Amendments'' takes up less than half of a column in a three-column 
Federal Register page--exactly 151 words--without a single factual 
citation, and without a single document in the administrative record 
analyzing the environmental, public health, energy or economic impacts 
of the proposal.
    In his written response to questions submitted by Committee members 
after the April 5, 2006 confirmation hearings, EPA's Acting Assistant 
Administrator for Air and Radiation, William Wehrum, promised Senator 
Murkowski that the Agency would determine what the balance was between 
sources allowed to increase toxic emissions under the proposal, versus 
sources that EPA believed would have an ``incentive'' to reduce 
emissions. As the Agency admissions above reveal, however, EPA has 
broken that promise and failed to answer those questions. Indeed, the 
silent administrative record for the proposal confirms that EPA has 
failed even to research and analyze those questions, notwithstanding 
readily available factual information indicating (1) which air 
pollution sources nationwide are subject to MACT standards; and (2) 
which of those sources have facility-wide toxic air pollution levels 
below 10 tons for a single toxin or 25 tons for a combination of 
toxins--the universe of facilities allowed to pollute more by EPA's 
proposal.
    In response to questions submitted by Senator Jeffords following 
this same hearing, Mr. Wehrum offered the top two factors that EPA 
believed would ``tend to minimize'' ``in many cases'' the pollution 
increases allowed by the proposal: (1) ``some sources want to be a good 
corporate citizen and would choose not to change current emission 
levels;'' and (2) ``[o]ther companies would want to avoid the negative 
publicity associated with increases in toxic air pollutants.''\37\ It 
is noteworthy that the White House Office of Management and Budget 
deleted these two rationales when reviewing EPA's draft rulemaking, no 
doubt out of recognition that the rationales are unsubstantiated and 
absurd.\38\ But it is highly telling that both Mr. Wehrum and EPA's 
original draft advanced these speculative, insupportable justifications 
so prominently, revealing that EPA's hollow assurances are rooted in 
faith more than facts or analysis or concern for the public's health.
---------------------------------------------------------------------------
    \37\ The Dec. 2005 Regional Memo observed in admirably understated 
disbelief that these twin justifications were ``unfounded and overly 
optimistic,'' and contrary to the experiences of EPA Regional 
officials. Dec. 2005 Regional Memo, at 4.
    \38\ EPA-HQ-OAR-2004-0094-0055 (Dec. 20, 2006).
---------------------------------------------------------------------------
       perchlorate: not testing will not make the problem go away
    EPA's elimination of public information on important health threats 
does not stop with air pollutants. A major drinking water contaminant 
has also recently fallen into what could be called the ``wishful 
thinking approach to environmental protection'', where not looking for 
pollution is confused with actually controlling pollution. Controlling 
pollution is EPA's job, and in order to control it, they need to look 
for it.
    In December 2006, EPA issued a final rule saying that there will be 
no further requirements to test drinking water for the endocrine 
disrupting chemical perchlorate. In 1999, EPA had issued an Unregulated 
Contaminant Monitoring Rule (UCMR) covering the period 2001-2005, and 
requiring that all public water systems serving a population greater 
than 10,000 people sample for perchlorate by December 31, 2002. The 
rule also required testing of 800 representative small public water 
systems serving 10,000 or fewer people. Results of the testing were 
required to be published in the 2003 Consumer Confidence Reports (CCR) 
provided by water systems to their customers. Despite detections of 
this chemical in 402 water systems serving approximately 41.2 million 
people nationwide, and after initially proposing to extend the 
requirement, EPA has now decided not to require any further testing, 
saying: ``based on public comment and further consideration, EPA has 
removed the requirement for monitoring perchlorate.''\39\
---------------------------------------------------------------------------
    \39\ 72 Fed. Reg. at 370.
---------------------------------------------------------------------------
    Perchlorates are used in rocket propellants, explosives, road 
flares, air bags, and other applications.\40\ Perchlorates have also 
been introduced onto soil in fertilizer products imported from 
Chile.\41\ As a consequence of widespread use and water solubility, 
huge amounts of perchlorate have leached into surface and groundwater 
used as drinking water sources.
---------------------------------------------------------------------------
    \40\ U.S. EPA Perchlorate Environmental Contamination: 
Toxicological Review and Risk Characterization Based on Emerging 
Information (External Review Draft). Office of Research and 
Development, Washington, D.C. NCEA-1-0503, 1998.
    \41\ PK Dasgupta, et al. Perchlorate in the United States. Analysis 
of Relative Source Contributions to the Food Chain. Environ Sci Tech. 
40(21):6608-6614.
---------------------------------------------------------------------------
    Perchlorate is highly mobile in water and can persist for decades 
under typical ground and surface water conditions.\42\ Research has 
also shown that perchlorate can concentrate in crops such as wheat, 
lettuce, alfalfa, and cucumbers, thereby resulting in much greater 
exposures than might be predicted by water or fertilizer 
concentrations.\43\ Newer data have shown perchlorate contamination to 
be widespread in store-bought fruit, vegetables, cow's milk, beer and 
wine.\44\ Perchlorate has been found in human breast milk, and was 
found in every one of 2,820 urine samples tested by the CDC.\45\
---------------------------------------------------------------------------
    \42\ U.S. EPA Perchlorate Environmental Contamination: 
Toxicological Review and Risk Characterization Based on Emerging 
Information (External Review Draft). Office of Research and 
Development, Washington, D.C. NCEA-1-0503, 1998.
    \43\ Jackson WA, et al. 2005. Perchlorate accumulation in forage 
and edible vegetation. J Agric Food Chem. 53(2):369-73.
    \44\ El Aribi, H, et al. Analysis of perchlorate in foods and 
beverages by ion chromatography coupled with tandem mass spectrometry 
(IC-ESI-MS/MS). Analytica Chimica Acta. 567(1): 39-47; Food and Drug 
Administration. 2004. Exploratory Data on Perchlorate in Food. 
Available at http://www.cfsan.fda.gov/?dms/clo4data.html
    \45\ Kirk AB, et al. Perchlorate and iodide in dairy and breast 
milk. Environ Sci Technol. 39(7):2011-2017, 2005; Blount BC, et al. 
2006. Perchlorate exposure of the US population, 2001-2002. J Expo Sci 
Environ Epidemiol. Oct 18, 2006 [Epub ahead of print].
---------------------------------------------------------------------------
    Perchlorate is a powerful inhibitor of the normal uptake of iodine 
into the thyroid gland, as well as normal transport of iodine across 
the placenta and into the lactating mammary gland. Inhibition of iodine 
uptake can cause decreased production of thyroid hormones. In the 
developing fetus and infant, adequate levels of thyroid hormones are 
necessary for normal brain development. Subtle alterations of thyroid 
hormones during pregnancy--even within the normal range--have been 
associated with decreased intellectual and learning capacity in 
childhood.\46\
---------------------------------------------------------------------------
    \46\ Haddow JE, et al. Maternal thyroid deficiency during pregnancy 
and subsequent neuropsychological development of the child. New Eng J 
Med 341:549-555, 1999; Pop VJ, et al. Low maternal free thyroxine 
concentrations during early pregnancy are associated with impaired 
psychomotor development in early infancy. Clin Endocrinol. 50:149-155, 
1999.
---------------------------------------------------------------------------
    A recent analysis by CDC scientists of a nationally representative 
sample of over 2,200 U.S. residents has documented that exposure to 
perchlorate poses potential health risks to women of child-bearing age 
and especially to their babies.\47\ This study revealed that among 
women with low iodine intake (as defined by the World Health 
Organization),\48\ very low levels of perchlorate exposure--well within 
the range found in the general U.S. population today--are associated 
with up to a 30 percent decrease in thyroid hormone levels; the CDC 
estimates that 36 percent of U.S. women have iodine intakes in this low 
range.
---------------------------------------------------------------------------
    \47\ Blount BC, et al. 2006. Urinary perchlorate and thyroid 
hormone levels in adolescent and adult men and women living in the 
United States. Environ Health Perspect, Online 5 October, 2006.
    \48\ World Health Organization (WHO). 1994. Indicators for 
assessing iodine deficiency disorders and their control through salt 
iodization. WHO/NUT/94.7. Geneva: WHO/International Council for the 
Control of Iodine Deficiency Disorders.
---------------------------------------------------------------------------
    The unique physiology of pregnancy and interactions between the 
mother and fetus makes both especially susceptible to the harmful 
effects of perchlorate. Recent studies have shown that the cognitive 
development of the fetus is impaired in mothers with even mild 
disruptions in thyroid hormone levels, prompting many in the medical 
community to recommend thyroid hormone replacement therapy for pregnant 
women who are found to have even sub-clinical hypothyroidism.\49\
---------------------------------------------------------------------------
    \49\ Cooper, D. Sub-clinical thyroid disease: consensus or 
conundrum. Clinical Endocrinology 60:410-412, 2004; Haddow JE, et al. 
Maternal thyroid deficiency during pregnancy and subsequent 
neuropsychological development of the child. New Eng J Med 341:549-555, 
1999; Pop VJ, et al. Low maternal free thyroxine concentrations during 
early pregnancy are associated with impaired psychomotor development in 
infancy. Clinical Endocrinology 50 (149) 1999; Surks M, et al. 
Subclinical Thyroid Disease. J Am Med Assoc: 228-238, 2004.
---------------------------------------------------------------------------
    Perchlorate has emerged as an important threat to drinking water 
sources over vast areas of the United States. An NRDC analysis of 
available 2005 EPA data showed that public water systems in 27 States, 
the District of Columbia and two U.S. territories have detected 
perchlorate in treated water or in their water sources, with 
concentrations ranging from 0.2 to 1,300 parts per billion (ppb). Of 
5,369 systems tested, 402 (7.5 percent) detected perchlorate in their 
water. California has the largest number of systems with perchlorate 
detections, 159, serving a total population of approximately 31.4 
million. Texas and Massachusetts follow with 103 and 57 systems, 
respectively (Figure 3). These are also the States with the most 
perchlorate monitoring conducted to date.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Nationwide, 402 water systems have reported finding perchlorate 
contamination (Figure 4). These systems serve 41.2 million people, or 
approximately 15 percent of the population served around the country. 
This is likely to be a low estimate, since less than five percent of 
community water systems have analyzed their water for perchlorate. 
Another reason this may be a low estimate is that most of the systems 
tested their water only a few times. Under EPA rules, public water 
systems serving more than 10,000 people had to sample once per quarter 
during a 1-year period if they used surface water sources. Groundwater 
systems had to test only twice in a 1-year period. Less than one 
percent of smaller systems were required to test at all. Most States 
outside of California do not require any testing for perchlorate. Such 
limited testing is likely to miss pollution that may put vulnerable 
populations at risk.
    EPA's decision to stop testing at a national level for perchlorate 
means that there will be no current data on tap water contamination 
with this hazardous chemical. To date, monitoring for perchlorate has 
been conducted in only 5,369 out of the approximately 158,000 public 
water systems in the United States--only 3.4 percent of all water 
systems.\50\ Small public water systems serve a total of about 69 
million people in the United States, and only 600 such systems (0.4 
percent) were required to be tested under the UCMR so far.\51\ We have 
seen only the tip of the iceberg for this contaminant. Testing needs to 
continue in order to ensure water quality and to inform consumers--
especially pregnant women and families with babies. In addition, the 
new data will be needed in order to inform a drinking water standard 
that will adequately protect public health.
---------------------------------------------------------------------------
    \50\ U.S. EPA (2006) FACTOIDS: Drinking Water and Ground Water 
Statistics for 2005. http://www.epa.gov/safewater/data/pdfs/
statistics--data--factoids--2005.pdf [visited February 2, 2007].
    \51\ Id. Calculation based on System size table, p. 2.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
         closing epa libraries slashes science and loses money
    For decades, EPA's network of 26 scientific libraries has served as 
a gold mine of resources for scientists, community members, and EPA's 
own staff. Expert librarians made themselves available to locate 
information, and the library collections themselves contained unique 
materials, not available elsewhere. I have used EPA libraries in Region 
1 and Region 9 on many occasions and consider them indispensable. As a 
result I was distressed to learn that over the past 4 months EPA has 
closed five libraries and reduced access at four others, including my 
local EPA library.\52\
---------------------------------------------------------------------------
    \52\ Congressional Research Service. Restructuring EPA's Libraries: 
Background and Issues for Congress. RS22533. January 3, 2007.
---------------------------------------------------------------------------
    According to press reports, the EPA libraries fielded about 134,000 
information requests in fiscal year 2005.\53\ Of these, the now-closed 
EPA regional libraries in Chicago, Kansas City, and Dallas handled more 
than 32,000 requests for information.\54\ Representatives of 10,000 EPA 
scientists, engineers, environmental protection specialists and support 
staff protested the closure of the technical libraries in a letter to 
the chair and Ranking Member of the Senate Appropriations Committee, 
Interior and Related Agencies Subcommittee in June of 2006.\55\
---------------------------------------------------------------------------
    \53\ Joal A. Mintz and Rebecca Bratspies. Closing Agency Libraries 
Deals Serious Blow. South Florida Sun-Sentinel. December 11, 2006.
    \54\ Robert McClure. EPA gets an earful on library closures. 
Seattle Post-Intelligencer. January 22, 2007.
    \55\ Letter from Dwight A. Welch et al. Presidents of 16 Local 
Unions to Conrad Burns and Byron Dorgan, United States Senate. June 29, 
2006.
---------------------------------------------------------------------------
    The library closures have been done under the guise of budgetary 
restraint, but that argument holds absolutely no merit. The library 
closures represent a budget cut of about $2 million. However, an EPA 
cost-benefit assessment in 2004 concluded that the libraries provide 
``substantial value'' to the Agency and the public, and represent a 
benefit-to-cost ratio of somewhere between 2:1 and 5.7:1.\56\
---------------------------------------------------------------------------
    \56\ EPA Office of Environmental Information. Business Case for 
Information Services: EPA's Regional Libraries and Centers. EPA 260-R-
04-001. January 2004.
---------------------------------------------------------------------------
    Unfortunately, much of the information from the closed EPA 
libraries has apparently vanished or become very difficult to find. 
These libraries contained scientific journals, EPA documents, and 
documents from other entities including reports from EPA contractors. 
Documentation exists that scientific journals were thrown into 
dumpsters and recycling bins when the libraries were closed.\57\ Linda 
Travers, acting Assistant Administrator for the EPA Office of 
Environmental Information was quoted in December 2006 assuring that all 
EPA-generated documents from the closed libraries would be online by 
January and the rest of the Agency's 51,000 reports would be digitized 
within two years.''\58\ That's an ambitious task and I am curious to 
learn whether the January deadline has been met.
---------------------------------------------------------------------------
    \57\ Email from Vicki Simons to Brion Cook, Todd Holderman, Randall 
Brinkhuis, John Dady. Update on library move. November 17, 2006. http:/
/www.peer.org/docs/epa/06--20--11--EPA--order--recycle--OPPTS--
library--materials.pdf [Visited on February 1, 2007].
    \58\ Tim Reiterman. Closure of 6 Federal libraries angers 
scientists: Cost-cutting moves at the EPA and elsewhere deny 
researchers and the public access to vital data, critics say. Los 
Angeles Times, December 8, 2006.
---------------------------------------------------------------------------
    As of June 2006, the National Environmental Publications Internet 
Site (NEPIS) contained about 13,000 documents, and EPA librarians 
estimated that there were about 80,000 more documents that needed to be 
retained but had not yet been digitized.\59\ More recent communications 
from EPA librarians are not encouraging. Librarians indicate that the 
NEPIS--now integrated into the National Service Center for 
Environmental Publications (NSCEP) system--is not working effectively 
for information retrieval.\60\ Apparently documents are not appearing 
even if the search is done by EPA publication number. Furthermore, 
digitizing between 50,000 and 80,000 reports is a monumental task and 
there does not appear to be any budget for carrying this out. Rather 
than saving the Agency money, these closures will cost the Agency in 
staff productivity, and in money and time for digitization. The cost to 
local communities is hard to calculate, since information--when you 
really need it--is priceless.
---------------------------------------------------------------------------
    \59\ Letter from Dwight A. Welch et al. Presidents of 16 Local 
Unions to Conrad Burns and Byron Dorgan, United States Senate. June 29, 
2006.
    \60\ Jeff Ruch. Anonymous reports from EPA librarians. Public 
Employees for Environmental Responsibility. http://www.peer.org/news/
news--id.php?row--id=815 [viewed February 2, 2006].
---------------------------------------------------------------------------
                               conclusion
    It is abundantly clear that the concerns I have raised for the 
integrity of the science, for the protection of public health, and for 
the public availability of information are shared by the Chairwoman and 
the other members of the Senate Committee on Environment and Public 
Works. Each of the issues addressed in today's hearing has been raised 
already in letters and press releases issued by Senators on the 
Committee. We all are suffering from the pain of foresight. When we 
look into the future with these EPA rollbacks in place, we see 
communities breathing dirtier air, children exposed to more toxic lead, 
pregnant women unknowingly drinking thyroid-disrupting rocket fuel, 
scientists sidelined, and information vanishing. It's not a pretty 
future. Yet I am optimistic that many of these bad outcomes can be 
averted. EPA has not finalized several of these proposals, and some of 
the actions can be reversed. I am hopeful that after today's hearing 
EPA will heed our combined urging to re-focus their efforts where they 
should be--on protecting public health.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Responses by Gina M. Solomon, M.D., M.P.H., to Additional Questions 
                          from Senator Inhofe
    Question 1. If one assumes that the Centers for Disease Control and 
Prevention report referenced in your testimony is correct, then 
perchlorate has been found at very small levels in virtually all of us. 
However, according to the UCMR1 data, it is only in 4 percent of the 
Nation's drinking water systems. Is it not premature to cast the blame 
and all of the burden on the Nation's drinking water systems when based 
on CDC and EPA data, most of the perchlorate exposure is coming from 
other sources?
    Response. Perchlorate has been reported in 402 out of the 5,369 
public water systems tested (7.5 percent).\1\ These systems serve 41.2 
million people, or approximately 15 percent of the population served 
around the country. This is likely to be a low estimate, since less 
than 5 percent of community water systems have analyzed their water for 
perchlorate. To date, monitoring for perchlorate has been conducted in 
only 5,369 out of the approximately 158,000 public water systems in the 
United States--only 3.4 percent of all water systems.\2\ Small public 
water systems serve a total of about 69 million people in the United 
States, and only 600 such systems (0.4 percent) were required to be 
tested under the UCMR so far.\3\ Therefore the data from UCMR1 likely 
significantly underestimates the full extent of the perchlorate problem 
in drinking water. Under the December 2006 EPA UCMR, water systems will 
no longer be required to test for perchlorate at all, therefore the 
data gaps on perchlorate contamination in drinking water will not be 
filled, and will instead increase with time.
---------------------------------------------------------------------------
    \1\ Arizona Department of Environmental Quality (ADEQ), Perchlorate 
in Arizona: Occurrence Study of 2004, Revised (December 2004); 
California Department of Health Services, California Drinking Water 
Data (April 2005); Massachusetts DEP, Perchlorate monitoring results 
[data provided by Drinking Water Program] (March 2005); U.S. Army Corps 
of Engineers (USACOE), Washington Aqueduct Perchlorate Data (2004); 
U.S. Environmental Protection Agency (U.S. EPA) Unregulated Contaminant 
Monitoring Data (January 2005); U.S. Government Accountability Office 
(GAO), Perchlorate: A System to Track Sampling and Cleanup Results Is 
Needed, (2005); Jackson, W.A. et al., Distribution and Potential 
Sources of Perchlorate in the High Plains Region of Texas: Final 
Report, 2004, Texas Tech University Water Resources Center, prepared 
for Texas Commission on Environmental Quality, http://
www.waterresources.ttu.edu/research.htm; Water Quality Reports (or 
Consumer Confidence Reports) and news articles for the City of Edmond, 
OK; City of Georgetown, TX; Las Vegas Valley Water District; New Mexico 
American Water Company; and Shreveport [Louisiana] Department of 
Operational Services.
    \2\ U.S. EPA (2006) FACTOIDS: Drinking Water and Ground Water 
Statistics for 2005. http://www.epa.gov/safewater/data/pdfs/
statistics--data--factoids--2005.pdf [visited February 2, 2007].
    \3\ Id. Calculation based on System size table, p. 2.
---------------------------------------------------------------------------
    It is true that perchlorate exposure is also coming from sources 
other than drinking water. Perchlorate-tainted water also affects the 
safety of our food supply. Perchlorate can concentrate in irrigated 
crops such as wheat, lettuce, alfalfa, and cucumbers, thereby resulting 
in much greater exposures than might be predicted just by water 
concentrations.\4\ Newer data have shown perchlorate contamination to 
be widespread in store-bought fruit, vegetables, cow's milk, beer and 
wine.\5\ Unfortunately, the EPA's new perchlorate reference dose (RfD) 
has been interpreted by the Agency as translating to a Drinking Water 
Equivalent Level (DWEL) of 24.5 ppb. This DWEL fails to account for 
several important issues, including the fact that infants are the most 
susceptible population (the DWEL used an adult male body weight), and 
the fact that people are exposed to perchlorate through both water and 
food. EPA should begin work on an enforceable drinking water standard 
that will protect vulnerable populations with an adequate margin of 
safety and will also account for aggregate exposures to perchlorate 
from multiple environmental sources.
---------------------------------------------------------------------------
    \4\ Jackson WA, P Joseph, P Laxman, K Tan, PN Smith, L Yu, and TA 
Anderson. 2005. Perchlorate accumulation in forage and edible 
vegetation. J Agric Food Chem. 53(2):369-73.
    \5\ El Aribi, H, YJC Le Blanc, S Antonsen, and T Sakuma. 2006. 
Analysis of perchlorate in foods and beverages by ion chromatography 
coupled with tandem mass spectrometry (IC-ESI-MS/MS). Analytica Chimica 
Acta. 567(1): 39-47; Food and Drug Administration. 2004. Exploratory 
Data on Perchlorate in Food. Available at http://www.cfsan.fda.gov/
dms/clo4data.html.

    Question 2. The American Thyroid Association has provided excellent 
leadership in treatment, education and research on thyroid gland and 
its related disorders. The ATA pointed to the several concerns with the 
CDC study. It is my understanding that the CDC, consistent with good 
scientific practices, will reexamine the study to verify its results. 
Do you agree that CDC should reexamine its study with particular 
attention to the concerns raised by the ATA?
    Response. The CDC has already reexamined the study in partnership 
with outside scientists from State agencies. It is my understanding 
that the results of the reanalysis have confirmed the original findings 
of the CDC study and have undergone the additional scrutiny of peer 
review. I expect that the results of the reexamination will be 
published in the near future.

    Question 3. The NAS held 3 separate public hearings. The NRDC 
availed itself of the opportunity to testify at the very first hearing 
of the NAS committee hearings and your colleague, Ms. Sass, provided a 
formal presentation. Are you asking Congress or EPA to substitute 
NRDC's scientific judgment for that of the National Academy?
    Response. The NRDC has fairly extensive evidence that the integrity 
and independence of the National Academy of Sciences (NAS) perchlorate 
panel may have been compromised. Documents obtained by NRDC from a 
series of Freedom of Information Act requests and lawsuits against the 
White House, Department of Defense and the Environmental Protection 
Agency indicate that the NAS panel was subjected to significant 
pressure to downplay the hazards of perchlorate.\6\ For example, senior 
White House and DOD political officials participated in reviewing the 
scientific charge sent to the NAS on perchlorate. In addition, the 
Pentagon actively worked to manipulate the membership of the NAS 
perchlorate panel. The panel ultimately contained at least four members 
(one of whom eventually resigned when the NAS report was partly 
completed) with evidence of financial conflicts of interest.
---------------------------------------------------------------------------
    \6\ NRDC. White House and Pentagon Bias National Academy 
Perchlorate Report. January 10, 2005. http://www.nrdc.org/media/
pressreleases/050110.asp.
---------------------------------------------------------------------------
    The final NAS report on perchlorate was released more than 2\1/2\ 
years ago. The wealth of scientific data on the health effects of 
perchlorate, and on human exposures to perchlorate, has grown 
significantly since the NAS report was finalized. Several very 
important peer-reviewed scientific studies and analyses, including the 
above-mentioned studies by the CDC, have been completed. These studies 
have raised significant questions about the validity of the NAS 
findings. It is consistent with good scientific practice to update and 
reevaluate scientific findings in light of new evidence. At this time, 
it is appropriate for the EPA to revisit the reference dose for 
perchlorate, and to set an enforceable drinking water standard that 
will adequately protect vulnerable populations such as pregnant women 
and infants.

    Question 4a. In your testimony, you mentioned that methyl 
isocyanate (MIC) reporting would ``disappear'' from TRI Form R's. Does 
NRDC want communities to rely on TRI reporting for accideptal releases 
of highly toxic chemicals like MIC?
    Response. Both accidental releases as well non-accidental releases 
should be counted towards a facility's TRI reporting threshold for all 
TRI chemicals. Furthermore, the former 500-pound Form R reporting 
threshold for non-persistent bioaccumulative and toxic chemicals (non-
PBTs) should have been maintained. PBTs should be reported on Form R; 
Form A reporting for PBT chemicals should not be allowed. This was the 
essence of my testimony at the February 6 hearing. Accidental releases 
should continue to be immediately reported to local authorities as 
required under existing law. Specifically in response to the itemized 
questions above:
    Response. TRI reporting does not (and should not) replace immediate 
notification of accidental releases to the local authorities; both are 
required by law.

    Question 4b. Would it not be more useful to rely on the reporting 
under existing environmental statutes that requrie immediate reporting 
to the local authorities of releases of greater than 10 pounds?
    Response. TRI reporting does not relieve facilities from legal 
requirements to immediately notify local authorities of accidental 
releases. Facilities should no more be exempted from such requirements 
than from requirements to notify communities using Form R.

    Question 4c. Why should communities have to wait an additional 
year, under existing TRI reporting, to learn about a release of MIC?
    Response. Communities would not have to wait a year to learn about 
an accidental release of MIC. As mentioned above, TRI reporting 
requirements do not relieve facilities from emergency or accidental 
release notification requirements.
    Information on chemicals such as MIC is important to first 
responders even when there is no spill of those chemicals. For example, 
emergency personnel responding to a fire at an industrial plant want to 
know what chemicals are at that plant. One way they can (and do) find 
out quickly is to look at TRI data. If MIC was not spilled in a 
particular incident, then under the current changes to the TRI, no 
alternative source of information would be available to the first 
responders. Even if MIC were spilled, the plant might not yet know it. 
Therefore the EPA changes to the TRI could put first responders at 
risk.

    Question 5. Clearly the NAAQS process is broken--year after year 
the EPA has consistently failed to meet deadlines. For example, the 
SO<INF>2</INF> review that was completed in 1996 was actually due 
December 31, 1980, almost 15\1/2\ years earlier. What problems might 
have been averted--and how much harm to Americans' health avoided--had 
a more efficient review process been in place?
    Response. From a scientific perspective, the NAAQS standard setting 
process has been a model EPA rulemaking process that is driven by 
careful review and incorporation of the science. Due largely to 
insufficient funding and Agency focus, the process may not be as quick 
as many of us would like, but it is deliberate, thorough, and focuses 
on getting the best possible advice from independent scientists on the 
Clean Air Scientific Advisory Committee (CASAC) and from scientists 
within the Agency. In considering various alternatives for creating a 
more efficient review process, it is important not to neglect the 
integrity and centrality of independent scientific review. A central 
point of my testimony was that the changes EPA has made to the NAAQS 
review process, although ostensibly done in the name of efficiency, 
will in fact largely work to decrease the role of independent 
scientific review in setting air quality standards. It remains to be 
seen whether the changes that EPA has made will in fact help the Agency 
to meet its statutory deadlines. Those changes threaten to allow 
greater hazards and risks to Americans' health by relegating 
independent scientific review to a lesser role and elevating political 
influence that will weigh industry costs and political pressures more 
heavily.
    Regarding previous missed statutory deadlines, there is no evidence 
of which I am aware that such deadlines were violated as a result of 
steps in the NAAQS review process that EPA acted to ``streamline'' 
through their recent overhauls of that process. Rather, in my opinion, 
EPA's previous violations of statutory deadlines resulted primarily 
from failures to devote sufficient resources and priority to meeting 
these legal obligations. The EPA under this Administration has recently 
been rebuked by a Federal court for devoting its limited resources to 
non-mandatory, deregulatory activities--some of which were subsequently 
struck down in court--rather than focusing resources appropriately on 
meeting statutory deadlines.\7\
---------------------------------------------------------------------------
    \7\ See Sierra Club v. EPA, Civ. Action No. 01-1537 (D.C. Dist. 
Ct.) (Aug. 2, 2006) (noting that ``it is inappropriate for an Agency to 
divert to purely discretionary rulemaking resources that conceivably 
could go towards fulfilling obligations clearly mandated by Congress,'' 
and that EPA's air office ``currently devotes substantial resources to 
discretionary rulemakings, many of which make existing regulations more 
congenial to industry, and several of which since have been found 
unlawful.'')

    Question 6. According to the January 30 San Francisco Chronicle, 
the executive director of the San Joaquin VAlley Air Pollution Control 
District, said that the eight-county area could lose more than $2 
billion in Federal highway funds because the area cannot comply with 
EPA's deadline for the current ozone standard. In your opinion, does it 
make sense to keep lowering the ambient air quality standards when we 
can't even comply with the existing standards?
    Response. As a scientist and a health professional, my focus is on 
applying the best available science to appropriately protect human 
health. I have talked with my colleagues in medicine who are working in 
clinics and emergency rooms in the San Joaquin Valley. They are facing 
a massive epidemic of asthma and respiratory disease, and struggling to 
keep their patients alive. I have also spoken with parents of asthmatic 
children living in the San Joaquin Valley. These parents tell heart-
wrenching stories of watching their children suffer on ``bad air 
days''. At the same time, the science has clearly shown that the 
current EPA ozone standard is not sufficient to protect these children. 
The evidence is clear that the standard must be lowered in order to 
protect human health. Lowering the standard will require counties in 
the San Joaquin Valley to redouble their efforts to improve air 
quality. More importantly, other counties that currently do not realize 
that they have unhealthy air will need to take action to improve their 
air quality as well.
    The San Joaquin Valley has the dubious distinction of having among 
the worst ozone problems in the Nation. Attaining Federal air quality 
standards in that region is a challenge due to topographic issues and 
the large number of sources within the region. Unfortunately, the San 
Joaquin Valley Air Pollution Control District (SJVAPCD) and the 
California Air Resources Board (CARB) have not committed to do 
everything feasible to attain the Federal 8-hour ozone standard by 
2013.\8\ For example, the SJVAPCD has failed to commit to adopting 
numerous controls for emissions from stationary and areas sources, many 
of which have been adopted in other regions in the Nation. In addition, 
given that much of the pollution is generated from sources under CARB's 
jurisdiction, California must commit to stronger regulations, such as 
increasing the stringency of its upcoming regulations of heavy duty 
trucks and off-road equipment. A recent study by researchers at 
California State University Fullerton demonstrated that ``valley-wide 
the economic benefits of attaining the PM<INF>2.5</INF> and ozone 
standards average nearly $1,000 per person per year, or a total of more 
than $3 billion.''\9\
---------------------------------------------------------------------------
    \8\ International Sustainable Systems Research Center. Clearing the 
Air: How Clean Air is Possible and Affordable by 2013. February 2007. 
http://www.kirschfoundation.com/care/documents/Clearing%20the%20Air--
Full%20Report.pdf.
    \9\ Hall J.V., V. Brajer, and F. W. Lurmann, Institute for Economic 
and Environmental Studies at California State University Fullerton, 
``The Health and Related Economic Benefits of Attaining Healthful Air 
in the San Joaquin Valley,'' March 2006. http://business.fullerton.edu/
Centers/iees/reports/SJVFinalReport.pdf. The study concluded that the 
benefits of achieving the standards included ``460 fewer premature 
deaths among those age 30 and older'', ``325 fewer new cases of chronic 
bronchitis'', ``188,400 fewer days of reduced activities in adults'', 
``260 fewer hospital admissions'', ``23,300 fewer asthma attacks'', 
``188,000 fewer days of school absences'', ``3,230 fewer cases of acute 
bronchitis in children'', ``3,000 fewer work loss days'', and ``[m]ore 
than 17,000 fewer days of respiratory symptoms in children.''
---------------------------------------------------------------------------
    Congress clearly stated in the Clean Air Act that the primary NAAQS 
for a Section 108 pollutant must be set at a level at which, ``allowing 
an adequate margin of safety, [is] requisite to protect the public 
health.''\10\ As long as a criteria pollutant still ``adversely affects 
the health of'' of even a single sensitive sub-population, such as 
children or asthmatic adults, ``EPA must strengthen'' the NAAQS to 
eliminate those adverse effects.\11\ Congress did not allow EPA to 
avoid lowering ambient air quality standards simply because individual 
counties are unable to comply with current standards. On this issue, I 
am hardly in a position to substitute my personal opinion for that of 
Congress.
---------------------------------------------------------------------------
    \10\ 42 U.S.C. Sec. 7409(b)(1).
    \11\ American Lung Assoc. v. EPA, 134 F.3d 388, 389 (D.C. Cir. 
1999).
---------------------------------------------------------------------------
    I hope that this additional information is useful to the Committee 
as it continues its deliberations on these important public health 
issues.

    Senator Boxer. Thank you, Doctor, so much.
    Now Leslie Burger, president of the American Library 
Association.

    STATEMENT OF LESLIE BURGER, PRESIDENT, AMERICAN LIBRARY 
        ASSOCIATION; DIRECTOR, PRINCETON PUBLIC LIBRARY

    Ms. Burger. Thank you, Chairman Boxer and Senator 
Whitehouse, thank you for inviting me today to speak on behalf 
of the American Library Association.
    I appreciate the opportunity to comment on the closure of 
libraries in the EPA network during this oversight hearing. My 
name is Leslie Burger, I am director of the Princeton, NJ 
public library and president of the American Library 
Association. I am also testifying today on behalf of the 
Association of Research Libraries and the American Association 
of Law Libraries.
    I want to talk about two things today. First, the 
importance of access to vital information about the environment 
for EPA employees and the American public. Second, how the 
recent closures of five EPA libraries and reduced access in 
others is restricting access to important information about the 
environment. Given the library community's mission to promote 
and foster the public's access to information, it should come 
as no surprise that we find these closures troublesome.
    Is EPA's digital library plan based on the end user's 
needs? Apparently not. Our sources tell us that there has been 
no outreach to the EPA library user community, that thousands 
of scientists, researchers and attorneys that use these 
resources on a daily basis, nor to members of the public who 
have benefited greatly from access to these unique collections. 
Originally presented as a cost saving measure in anticipation 
of a 30 percent cut in the EPA library budget in the 2007 
budget, EPA began closing libraries and restricting access to 
many other of its libraries before the budget was passed.
    Regional libraries in Chicago, Dallas and Kansas City and 
the Pesticide and Headquarters libraries in Washington, DC. 
have been closed. The Region 4 library in Atlanta is open with 
only one staff member left, and we just learned today that a 
center at Fort Meade has also been closed, a fact that EPA had 
previously not disclosed. The New York regional library was 
scheduled for closing to the public and reduction in hours for 
EPA staff on January 2d, but in light of congressional and 
public pressure, EPA only recently decided to temporarily halt 
further closures.
    We have two primary concerns about this. In the course of 
shutting down libraries, valuable, unique environmental 
information may be lost or discarded. Because there are fewer 
libraries and professional library staff associated with them, 
scientists and the public will have restricted access to this 
information. We are deeply concerned that this will restrict 
the public's right to know about information relating to the 
environment. In an age of global warming and heightened public 
awareness and concern about the environment, it seems ironic 
that the Administration would choose this time to limit access 
to years of research about the environment.
    Let me talk about the loss of valuable environmental 
information. In a plan that can best be described as convoluted 
and complicated, selected materials from EPA closed libraries 
is being boxed and sent to other locations, where it is slowly 
being inventoried, re-catalogued and then sent back to several 
EPA locations for storage. Other materials being sent to the 
National Environmental Publications Internet site in 
Cincinnati, where it is slowly being digitized.
    There continues to be a lot we don't know. What materials 
are being shipped around the Country? Are duplicate materials 
available in other EPA libraries? Which items have been or will 
be digitized? Is there a record of what has been discarded or 
destroyed? We are concerned that years of research and studies 
about the environment may be lost forever. Without detailed 
information about the digitization project plan, we can't 
determine if they are digitizing the most appropriate 
materials, if there is appropriate meta data to ensure that 
people can actually find this material, and if the technology 
that will be used to host the digital content and finding 
software meets today's standards.
    In an age of digital media, it has become easier and easier 
for information to simply get lost in the shuffle. There is no 
way of knowing if that is the case here. EPA claims to have 
been following ALA guidelines in its reorganization of the 
libraries. As far as we can tell, that meant visiting our Web 
site. While they did meet with our staff on at least two 
occasions in 2006 to discuss this issue, they failed to act 
upon any of the advice that came as a result of those meetings.
    To their credit, they did send six staff members to our 
midwinter meeting in Seattle just a few weeks ago to answer 
questions, but there still remains a lack of clarity as to what 
their plans are for the network.
    We are also deeply concerned about the impact of these 
library closings on the public's right to know. The EPA 
libraries have been functioning as a virtual single national 
library on the environment, a cost effective library structure 
that provides for wide public access to information. Now with 
several of these libraries closed and others with restricted 
access, key links have been removed from the chain, weakening 
the entire system.
    Where will people look for information about their drinking 
water or determine what pesticides are in their grass or how 
much pollution is in the air of their hometown? These issues 
are the most important for our national health and safety.
    ALA understands that providing access to digital content is 
important in today's world. In our digital world, the role of 
librarians becomes even more important, and we know from other 
colleagues that the move to digital collections requires the 
expertise of librarians. Recent searches of the EPA library Web 
site indicate that it falls short in making this information 
easily accessible to library users.
    In closing, the American Library Association and its 
partners asks that this committee request EPA to immediately 
halt all library closures and cease dispersing and dumping 
library material, meet with EPA library stakeholders to 
determine their current and future needs, determine a plan that 
incorporates best practices for meeting user needs both now and 
into the future, stabilize and inventory the collections that 
have been put in storage, call upon library digitization 
experts to assist in developing a process to ensure that EPA is 
using best practices.
    We appreciate your responsiveness and look forward to 
determining how we can save these collections, stabilize EPA 
library services for users, maximize access for staff, 
scientists and the public at large to important environmental 
information.
    [The prepared statement of Ms. Burger follows:]
Statement of Leslie Burger, President, American Library Association and 
                   Director, Princeton Public Library
    Chairman Boxer, Senator Inhofe, and Members of the Committee, thank 
you for inviting me today to speak on behalf of the American Library 
Association (ALA). I sincerely appreciate the opportunity to comment on 
the closure of libraries in the EPA network during this oversight 
hearing.
    My name is Leslie Burger, and I am director of the Princeton (N.J.) 
Public Library. I am also the President of the American Library 
Association, the oldest and largest library association in the world 
with some 66,000 members, primarily school, public, academic, and some 
special librarians, but also trustees, publishers, and friends of 
libraries. The Association provides leadership for the development, 
promotion, and improvement of library and information services and the 
profession of librarianship to enhance learning and ensure access to 
information for all.
    I am also testifying on behalf of the Association of Research 
Libraries (ARL) and the American Association of Law Libraries (AALL). 
ARL is a North American association representing 123 research libraries 
at comprehensive, research-extensive institutions that share similar 
research missions, aspirations, and achievements. AALL is a nonprofit 
educational organization with over 5,000 members nationwide.
    I would like to talk today about two things:
    <bullet> First, the vital importance of access to scientific, 
environmental, legal, and other government information for EPA 
employees and the American public;
    <bullet> Second, how the recent closures of several regional 
libraries, the Prevention, Pesticides & Toxic Substances (OPPTS) and 
headquarters libraries in Washington, DC, as well as reduced access in 
other EPA library locations, is restricting access to important 
information about the environment in at least 31 States.
    Given the library community's mission to promote and foster the 
public's access to information, it should come as no surprise that 
ALA--along with ARL and AALL--finds these closures troublesome.
    The closing of these libraries initially took place under the guise 
of a proposed $2 million budget cut--suggested by the EPA and included 
in President Bush's budget proposal for Fiscal Year (FY) 2007. Though 
recently, the EPA has backed away from the financial contention, 
instead casting the closures as a plan to digitize library collections 
(or convert library collections to digital formats) to reach a 
``broader audience'' in providing access to these materials, as EPA 
spokespeople mentioned in a teleconference last December, but many 
scientists, EPA staff, and librarians continue to dispute this 
contention.
    Is EPA's library plan based on the end users' needs? Apparently 
not. Our sources tell us that there has been no outreach to the EPA 
Library User community--the thousands of scientists, researchers, and 
attorneys that use these resources on a daily basis as well as members 
of the public who have benefited greatly from access to these unique 
collections. There has been a lot of talk about getting information to 
a ``broader audience,'' but how do the steps being taken by EPA speak 
to that effort? ALA doesn't see what's being done as connected to 
users' needs in any way.
    Despite the fact that Congress hasn't passed a FY 2007 budget, EPA 
has already begun closing libraries and restricting public access to 
the many of the libraries that are still open. Thus far, we have seen 
the closure of three regional libraries--in Chicago, Dallas, and Kansas 
City--OPPTS and headquarters libraries in Washington, DC. Also, we have 
just learned that in the Region 4 library in Atlanta, the inter-library 
loan technician is the only staff member left, a fact EPA previously 
had not disclosed. The regional library in New York City was scheduled 
to be closed to the public with reduced hours for EPA staff on January 
2, but, in light of Congressional and public pressure, EPA only 
recently decided to halt further closures of its libraries for the time 
being.
    Thus, we have two primary concerns about these closures:
    1. In the course of shutting down these libraries, valuable, unique 
environmental information will be lost or discarded, and;
    2. Because there are fewer libraries and professional library 
staff, scientists and the public will have limited access to this 
information. We have a deep concern with limitations these closings 
would place on the public's access to EPA library holdings and the 
public's ``right to know.'' In an age of global warming and heightened 
public awareness about the environment, it seems ironic that the 
Administration would choose this time to limit access to years of 
research about the environment.
    Let me first address the loss of valuable environmental 
information. Libraries and other cultural heritage institutions 
(archives, museums, and historical societies) have been digitizing 
collections for nearly 20 years. The digital resources provide access 
365 days a year, 24 hours a day, regardless of where the person lives 
or works. Geographic and political boundaries disappear. These digital 
resources are subject to international and national standards, created 
by librarians, archivists, museum professionals, and representatives 
from the photographic and audio industry, public broadcasting, and 
computer industry.
    Before we begin the costly digitization process, we always consider 
the needs of the current and future user communities. Digital content 
must be created in a fashion assuring that it will be usable 25 and 50 
years from now. We need to capture cataloging information, or what we 
call metadata, about the digital resource so that we can find the 
digital object now and in the future, and so that if we have to 
recreate it we know how we created it the first time. Therefore, we 
need to know what camera we used to take the picture or which scanner 
we used. We also need to know copyright information and the rights 
associated with the object. All that information goes into the 
metadata, along with the title and keywords.
    In a plan that is best described as ``convoluted and complicated,'' 
materials from closed EPA libraries are being boxed and sent to other 
locations where they are slowly being re-cataloged and then sent back 
to the Headquarters Library in D.C. (now closed), where there is no 
room to house these resources. Other resources have been sent to 
Research Triangle Park or the National Environmental Publications 
Internet Site (NEPIS) in Cincinnati where they are slowly being 
digitized.
    Further, the library community is troubled by the ``dispersing'' of 
materials from the closed regional libraries and the OPPTS library here 
in Washington, D.C. What this ``dispersement'' entails isn't exactly 
clear at this point and what concerns us is how this information will 
be handled, and therefore what type of long-term damage has been done 
to the effectiveness of EPA and the ability of the American public to 
find important environmental and government information.
    Unfortunately, there continues to be a lot that we don't know: 
exactly what materials are being shipped around the country, whether 
there are duplicate materials in other EPA libraries, whether these 
items have been or will be digitized, and whether a record is being 
kept of what is being dispersed and what is being discarded. We remain 
concerned that years of research and studies about the environment may 
be lost forever.
    Will digital documents be listed in the Online Computer Library 
Center (OCLC), a national database of the library holdings of more than 
41,555 libraries in 112 countries, making them available to other 
research institutions? Is there metadata or cataloguing being created 
to ensure that digital documents can be easily located on the web? What 
will happen to the OCLC holdings of the closed libraries? How are 
``help desks'' and other ``library'' functions being organized so that 
trained professionals are available to help the users of the EPA 
library and information services?
    While we thank EPA for sending six staff members to our January 
conference in Seattle to address question on the status of the EPA 
library network, none of the concerns I have mentioned were adequately 
addressed.
    The EPA representatives that attended the ALA conference in Seattle 
talked about creating a premier digital library for the 21st century 
and making content from the EPA libraries available to the general 
public as well as to EPA scientists. To do that, the EPA will need a 
web-enabled Digital Asset Management system, which can not only display 
the full range of digital resources that are being converted but also 
the digital resources of the future: audio, video, simulations, etc. 
Digital Asset Management systems, or DAMs, provide the public with 
tools to locate and display digital resources, but these systems can 
also allow the EPA to provide access to authorized users. For example, 
if there is a publication that contractually can only be viewed by the 
EPA scientists, the EPA could digitize it, put it in the database, make 
the metadata searchable, but only allow it to be viewed by those 
authorized to view it. The DAM controls all of that through its 
authentication system.
    Preservation of the digital assets is also very important. There 
are already many stories of digitized collections that have been saved 
on CDs, and when organizations have tried to access them the content is 
not viewable. CDs and DVDs are fine transport media, but no longer are 
they considered the best practice for preservation. Networked storage, 
both onsite and off site, is the current best practice. Best practice 
also calls for keeping two to three physical copies, along with the 
digital copy.
    This recent experience with EPA underscores the need for the 
Executive Branch to develop and implement effective and consistent 
approaches for how government agencies undertake digitization of and 
access to government records and publications. The process needs to be 
coherent and user-focused. The Government is the largest producer of 
information, and the information it produces is vital to public health 
and safety. As a consequence, it is critically important that instead 
of a growing patchwork of Agency programs emerging--which may fail to 
satisfy user information needs--that we put in place, effective and 
efficient public access programs to reap the benefits of the digital 
environment.
    Without more detailed information about the EPA's digitization 
project, we cannot assess whether they are digitizing the most 
appropriate materials, whether there is appropriate metadata or 
cataloging to make sure that people can access the digitized materials, 
and that the technology that will be used to host the digital content 
and the finding software meets today's standards. In the age of digital 
media it has become easier and easier for information to simply get 
lost in the shuffle, and there is no way of knowing if that's the case 
here.
    The details mean a lot. Certainly, not all parts of each EPA 
library collection can be digitized; they probably have some materials 
that are copyrighted, for example. But there is so much specialized and 
unique material--including reports already paid for by taxpayers--and 
we do not know if these are part of the digitization projects. Further, 
we do not know about how their maps or other specialized formats have 
faired, formats that are very difficult and time-consuming to digitize.
    In their haste to close down libraries and meet a fiscal deadline 
without a clear plan, EPA has created arbitrarily established 
deadlines. We continue to hear allegations from former and current EPA 
staff, that do not wish to be identified, that hundreds of valuable 
journals and books may have been destroyed. These staff members are 
concerned that materials that are unique to EPA (and in some cases 
exist nowhere else in the world) are no longer available.
    EPA also claims to have been following ALA guidelines in its 
reorganization of holdings. In fact, as far as we can tell, that meant 
visiting the ALA Web site and using our very general guidelines about 
``weeding'' library collections. Weeding is the process of periodically 
removing materials from a library's collection. Materials that are 
``deselected'' are out of date, in poor condition or if there are 
multiple copies available. The weeding standards were never intended 
for application in a digital environment.
    While EPA did in fact meet with ALA staff in April and December of 
2006 to discuss this issue, it failed to act upon the advice that came 
as a result of these meetings. As previously mentioned, to its credit, 
EPA also sent six staff members to ALA's Midwinter meeting in Seattle a 
few weeks ago to answer questions from ALA members. Even still, there 
remains a lack of clarity as to what EPA's plans are for its library 
network. But of course, we would be pleased to provide advice on the 
digitization plans for the EPA network of libraries.
    We have a deep concern with limitations these closings would place 
on the public's access to EPA library holdings and the public's ``right 
to know.''
    As one recently retired EPA librarian described it, the EPA 
libraries have been functioning like a virtual National Library on the 
Environment. (Indeed, the EPA was at one time a leader in providing 
public access to critical information in their collections.) The 
``virtual'' national EPA library system functioned as a type of single 
national system. Because of its networking (both technical and human) 
and inter-library loan and mutual reference services, users in any EPA 
library had access to the collections at all other sites. This type of 
structure is generally very cost-effective and provides wide public 
access for staff and for the public.
    Now that some of these regional libraries and the pesticide library 
are closed, key links have been removed from the chain, thus weakening 
the whole system, not just for those users closest to the closed 
facilities. Where will people look for information about their drinking 
water? Or which pesticides are safe for their grass? Or how much 
pollution is in the air of their hometown? These issues are of the 
utmost importance; our national health and safety depend on them!
    ALA understands that we are living in the 21st century, an age when 
users can access much of what they need from their own desk. In the 
digital environment the librarian's role is changing. We also 
understand how complicated and costly the move to digitization can be. 
But the bottom line is that libraries still need skilled professionals 
to (a) assist users, (b) organize Internet access, and (c) determine 
the best way to make the information available to those users. When 
searching the EPA site, one retrieves thousands of hits for a topic 
such as ``water.'' When qualifying the search by a date range the 
results include items outside that date range. The user will wonder 
about the veracity of the data and will need the assistance of the 
librarian.
    Additionally, the librarians are needed to design the interfaces; 
with the web you can design interfaces for the scientists, interfaces 
for teachers and students, and interfaces for the general public. 
Librarians are also needed to manage the digital objects, understand 
how new media must be managed; for example, when audio collections need 
to be converted what are the user needs, what standards are to be used, 
and how should they be preserved. The same goes for video and emerging 
formats.
    Further, there are still traditional library users out there. Not 
everyone does their searching via web-based search engines. Many would 
still rather put their trust in the hands of a knowledgeable library 
professional, someone who knows the materials inside and out. It has 
been argued that the time of librarians is vanishing with the rise of 
the Internet, but this is a case in point where that is just not so. 
The EPA's environmental holdings are vast and dense, and a simple 
search engine just isn't enough. With the loss of the brick-and-mortar 
facilities comes the loss of the most important asset in the library: 
the librarian. After all, what good is information if you can't find 
it?
    The future, it seems, calls for a hybrid, where not every single 
item or service is online, nor is everything confined to a physical 
structure. The backbone of it all is a profession of skilled, 
knowledgeable, and, most importantly, helpful information specialists: 
librarians.
    In closing:
    ALA asks that this Committee request EPA: (a) Halt all library 
closures; (b) Discuss a plan with stakeholders on how best to meet user 
needs and plan for the future; (c) Base any actions upon these users' 
needs; (d) Stop dispersing and dumping of any of their library 
materials immediately; (e) Stabilize and inventory the collections that 
have been put in storage; (f) Develop and implement a government-wide 
process to assist agencies designing effective digitization programs; 
and (g) Reestablish library professionals--inherently governmental 
library professionals.
    Further, we would ask for library specialists to assist in any 
investigations, such as that conducted by the Government Accountability 
Office (GAO) study, or other inquiries, as to what is happening to 
these materials. Those EPA staff who are willing to talk (or retired 
and not at risk) tell us that these materials are being at best 
dispersed and, at worst, discarded. Also, and just as importantly, 
without trained librarians, users are having a very difficult time 
accessing what does remain of the EPA library system.
    We appreciate your responsiveness and look forward to determining 
how we can save these collections, stabilize the library services for 
users and understand how best to maximize access for staff, scientists, 
and the public at large to important environmental information.
    Thank you again for this opportunity to speak on behalf of the 
American Library Association, and I am happy to take any questions from 
the Committee.
                                 ______
                                 
 Responses by Leslie Burger to Additional Questions from Senator Boxer
    Question 1. You testified on behalf of the American Library 
Association, the Association of Research Libraries and the American 
Association of Law Libraries. A number of other statements from library 
associations were also submitted into the hearing record, including 
from the U.S. National Commission on Libraries and Information Science, 
Special Libraries Association, Society of Environmental Toxicology and 
Chemistry, and the Medical Library Association and Association of 
Academic Health Sciences Libraries. Are there other groups or 
associations that you know of who have objected to the Agency's closure 
and reduction of service at its libraries? Please provide evidence that 
such groups object to EPA's actions.
    Response. We are aware of the following additional groups that have 
raised concerns or objections to the dismantling of the EPA Library 
Network and have attached their respective resolutions, letters, or 
statements concerning EPA: the American Society of Environmental 
History (an organization of 1,500 environmental scholars and 
educators); the EPA's Office of Enforcement and Compliance Assurance; 
Public Employees for Environmental Responsibility (representing 16 
local unions including approximately 10,000 EPA scientists, engineers, 
environmental protection specialists and support staff); the Society of 
Environmental Journalists; and the Union of Concerned Scientists (an 
alliance of more than 200,000 citizens and scientists).

    Question 2. Please describe the steps that your organization 
recommends to take prior to closing down a library or digitizing a 
library's holding.
    Response. Before undertaking these actions, an organization should 
develop a thoughtful and comprehensive plan to ensure information is 
not lost and stakeholder access is retained. If the goal is to 
digitize, that should occur within a framework that ensures continuity 
of access and service which generally means that digitization take 
place prior to removing physical access to materials. Most libraries 
use digitization as a means to increase and enhance access, not to 
replace physical access. If physical access to a collection will be 
closed or removed, stakeholder input must be sought to determine if and 
how their needs can be met in the digital environment, as well as the 
most appropriate method of online reference to facilitate access in the 
new environment.
    The ALA promotes library best practices and standards that have 
been developed, employed, and improved by its membership since the 
organization's founding in 1876. While there is not one standard for 
digitizing collections, there are several that have been accepted by 
the library community to promote access to information among all types 
of libraries, information-related organizations, and government 
agencies. The standards used by libraries to create these digital 
resources are international and national standards, created by 
librarians, archivists, museum professionals, and representatives from 
the photographic and audio industry, public broadcasting, and computer 
industry.
    Preliminary stages of a digitization plan involve consideration of 
current and future stakeholder needs. Digital content must be created 
in a fashion such that it will be usable 25 and 50 years from now. This 
involves capturing catalog information, or what libraries call 
metadata, about the digital resource so that the digital object can be 
found now and in the future, and information on how it was originally 
created is available if the object must be recreated. Therefore, the 
type of camera or scanner that was used to create the image must be 
captured. Copyright information and who has the right to use the 
object, as well as title, author, keywords, subject classifications, 
and other identifying factors are included in the metadata.
    Scanning materials is only one aspect of digitizing collections; 
there must also be an appropriate system to manage the digital assets 
such as a web-enabled digital asset management system or DAM, that 
provides the public with a way to locate the digital resources, display 
the resource, and can also allow control over what users access. For 
example, if there is a publication that contractually can only be 
viewed by the EPA scientists, the EPA could digitize it, store it in 
the database, make the metadata searchable, but allow it to be viewed 
only by those authorized. In the digital environment, the importance of 
a quality system for access and management of these digital resources 
is critical.
    Another significant consideration in a digitization project is 
preservation of the digital asset. There are already many cases of 
digitized collections that have been saved on CDs, and when 
organizations have tried to view them the content was not viewable. CDs 
and DVDs are fine transport media, but no longer are they considered 
the best practice for preservation. Networked storage, both on-site 
copies and off-site copies, is the current best practice. Best practice 
also calls for keeping two to three physical copies, along with the 
digital copy.
                                 ______
                                 
 Responses by Leslie Burger to Additional Questions from Senator Inhofe
    Question 1a. EPA has reported and your testimony has confirmed that 
EPA has met with representatives of the American Library Association on 
three separate occasions to discuss its library modernization plans. In 
April 2006, EPA reported that ALA requested a meeting to initially 
discuss EPA's proposed plans. EPA requested a subsequent meeting with 
ALA in December 2006 in order to be responsive to ALA's initial 
concerns. Six EPA staff members from the Office of Environmental 
Information and the EPA Research Triangle Park Center in North Carolina 
made presentations and answered questions from at least six separate 
committee meetings over three days at the ALA conference held in 
Seattle, Washington in January 2007. Please explain how this ongoing 
dialog with EPA officials and accessibility to officials conducting the 
modernization process has been insufficient.
    Response. That a ``dialog'' occurred between the EPA and the ALA is 
a mischaracterization, implying a two-way conversation or exchange. The 
meetings referenced above mostly involved the EPA updating the library 
community on what they plan to do and/or had already begun to do after 
an outcry from our community and EPA stakeholders. While we were given 
an opportunity to voice our concerns, there has been no indication that 
the EPA considered them or planned to address them. The questions and 
concerns we have had from the beginning still remain even after all of 
the meetings referenced above.
    Our concern from the beginning remains that the EPA began closing 
libraries without a thoughtful, comprehensive plan, resulting in the 
loss of access to critical environmental information by the EPA staff 
and the public. They dismantled a valuable and unique Federal network 
of libraries built over decades by taxpayers in an inefficient and 
ineffective way that may result in permanent loss of information and 
taxpayer resources. Originally, the EPA claimed the closings were due 
to budget cuts. However, once it was brought to their attention that in 
most cases digitization is very complex and expensive process (which 
reflects their gross lack of planning and direction), the EPA changed 
their story and instead stated they were ``modernizing'' to reach a 
broader audience. Yet, they were unable to produce any budget or source 
from where the money would come for this ``modernization'' or an 
adequate plan. Decisions were made with what appeared to be little 
consultation with stakeholders or understanding of how the libraries 
contribute to the EPA's overall mission.

    Question 1b. What specific concerns remain after these series of 
meetings?
    Response. Specific concerns, from what little plans we have seen, 
are that even the most basic items such as the number of documents to 
be digitized, timeframes, or the amount and source of funding in order 
to carry this modernization plan out remain missing. How are ``help 
desks'' and other ``library'' functions being organized so that trained 
professionals are available to help the end users of the EPA library 
and information services? Is there a record that reflects all of the 
materials being shipped across the country to be digitized, dispersed, 
and discarded? We remain concerned that years of research and studies 
about the environment may be lost forever. The EPA must have a plan 
that specifically addresses all of the requirements/standards that 
libraries, museums, and other Federal Agencies address prior to 
digitizing (even small-scale projects) and removing physical access. 
These requirements (including metadata, digital asset management, and 
preservation) are addressed in the response to Senator Boxer's second 
question and Senator Inhofe's second question.
    To the best of our knowledge, the EPA has never reached out to the 
enormous amount of Federal resources that could have provided guidance 
on library processes/standards concerning digitization including the 
Government Printing Office, the U.S. National Commission on Libraries 
and Information Science, and the Federal Library Information Network 
(FEDLINK).

    Question 2. Please provide copies of guidelines that ALA has 
produced to assist its member libraries including guidelines for 
weeding collections, modernizing library services, and digitizing 
information for enhanced public accessibility.
    Response. The ALA promotes library best practices and standards 
that have been developed, employed, and improved by its membership 
since the organization's founding in 1876.
    Concerning weeding collections, the ALA has various articles and 
bibliographies on this topic produced by members at libraries 
throughout the country. In the EPA's current situation, the use of 
``weeding'' to describe the massive library transition is misleading at 
the very least. Weeding is the process of periodically removing 
materials from a library's collection that are out of date, in poor 
condition, or in multiple copies. In December 2006, the EPA stated they 
were adhering to the ALA's guidelines for weeding. No such item exists, 
but rather the EPA appears to have accessed (from our Web site) the 
ALA's ``Fact Sheet Number 15: Weeding Library Collections: A Selected 
Annotated Bibliography for Library Collection Evaluation.'' As the 
title states, this fact sheet is a bibliography of documents concerning 
the practice of weeding. [After several requests, the EPA finally 
removed from their Web site the incorrect reference to ``the EPA 
adhering to ALA's guidelines and criteria for reviewing a library 
collection.'']
    Regarding modernization, which generally refers to digitization to 
enhance access to materials, not replace access, there is not one 
standard for digitizing collections, but several that have been 
accepted by the library community to promote access to information 
among all types of libraries, information-related organizations, and 
government agencies. The standards used by libraries to create these 
digital resources are international and national standards, created by 
librarians, archivists, museum professionals, and representatives from 
the photographic and audio industry, public broadcasting, and computer 
industry.
    Preliminary stages of a digitization plan involve consideration of 
current and future stakeholder needs. Digital content must be created 
in a fashion such that it will be usable 25 and 50 years from now. This 
involves capturing catalog information, or what libraries call 
metadata, about the digital resource so that the digital object can be 
found now and in the future, and information on how it was originally 
created is available if the object must be recreated. Therefore, the 
type of camera or scanner that was used to create the image must be 
captured. Copyright information and who has the right to use the 
object, as well as title, author, keywords, subject classifications, 
and other identifying factors are included in the metadata.
    Scanning materials is only one aspect of digitizing collections; 
there must also be an appropriate system to manage the digital assets 
such as a web-enabled digital asset management system or DAM, that 
provides the public with a way to locate the digital resources, display 
the resource, and can also allow control over what users access. For 
example, if there is a publication that contractually can only be 
viewed by the EPA scientists, the EPA could digitize it, store it in 
the database, make the metadata searchable, but allow it to be viewed 
only by those authorized. In the digital environment, the importance of 
a quality system for access and management of these digital resources 
is critical.
    Another significant consideration in a digitization project is 
preservation of the digital asset. There are already many cases of 
digitized collections that have been saved on CDs and when 
organizations have tried to view them, the content was not viewable. 
CDs and DVDs are fine transport media, but no longer are they 
considered the best practice for preservation. Networked storage, both 
on-site copies and off-site copies is the current best practice. Best 
practice also calls for keeping two to three physical copies, along 
with the digital copy.

    Question 3. In 1999, when Secretary of Commerce William Daley 
proposed closing the National Technical Information Service (NTIS) 
library, he stated that sound management dictates we recognized the 
technologically advanced environment we live in. Did the ALA oppose 
this closure and suggest that the Clinton administration did not have a 
commitment to access of information for taking this action?
    Response. In 1999, Congress held hearings on the proposed closing 
during which a witness testified on behalf of the American Library 
Association, along with the American Association of Law Libraries, the 
Association of Research Libraries, the Medical Library Association, and 
the Special Libraries Association, in opposition to the closing. As the 
issue evolved, the ALA did not make any accusations, but instead 
recommended, similar to the EPA libraries closings, that there should 
be a thoughtful and systematic approach to the closing and a 
determination of how NTIS will retain its important functions and 
permanent public access. Eventually, the ALA recommended that if NTIS 
was going to be transferred to another Agency that the GPO would 
provide the best possible home.

    Question 4. In 1998, when EPA Administrator Carol Browner closed 
EPA's Public Information Center in Washington, D.C. and consolidated 
those functions into the EPA Headquarters Library, did the ALA oppose 
that Clinton administration action?
    Response. It has historically been ALA's position that when there 
is a proposal to close, transfer, or down-size a Federal library, 
information service, or component, that a proper assessment be 
conducted to ensure the proposed change is a responsible use of 
taxpayers resources and that a systematic approach and an appropriate 
plan be in place that will ensure stakeholders needs are met and the 
mission of the institution will not be endangered.

    Question 5a. The ``Washington Post'' featured an article on January 
2, 2007 entitled, ``Hello, Grisham--So Long, Hemingway?'' It described 
the modernization process the Fairfax County Public Library has 
recently taken. The article stated, ``In Fairfax, thousands of titles 
have been pulled from the shelves and become eligible for book sales.'' 
The article also featured a quote from you saying, ``I think the days 
of libraries saying, `We must have that, because it's good for people,' 
are beyond us.''
    How do you reconcile your quote defending the weeding of thousands 
of books at the Fairfax Public Library and your criticism of EPA's for 
wedding its collection and dispersing its material among its library 
system, universities, and other environmental libraries throughout the 
country?
    Response. What my quote is referring to in the above-referenced 
article is that with newer technologies, careful evaluation and 
planning, and stakeholder input, libraries are better able to track and 
understand what users want and can be more strategic and efficient in 
meeting these needs through a combination of physical and digital 
access. The EPA's actions have not reflected stakeholder input, careful 
evaluation and planning, or investment in proper technologies.
    Significant differences exist between the Fairfax County Public 
Library System and the EPA Library Network that make them difficult to 
compare. First, the Fairfax County Public Library System is not a 
Federal system. If items are removed from one library within the 
system, copies are most likely available at one of the nearby 21 branch 
locations, and services such as reference and inter-library loan are 
well established. Also, because it is one region, librarians in the 
various branches will not have collections that vary greatly and 
require extensive knowledge of that particular collection. The EPA 
library system operated like a National Library on the Environment and 
each regional library had its particular collection strengths, as well 
as information professionals that were familiar with their respective 
regional collections and their constituents and information needs. Now 
that several of the regionals and the pesticide library are closed, key 
links have been removed from the chain, thus weakening the whole 
system.
    Second, in a public library, stakeholder needs involve popular 
materials--the EPA Library Network includes specialized and complex 
current and historical resources that are not subject to popularity 
necessarily and continuous access to them affects public safety and our 
natural resources. Waiting a week or so for a Eugene O'Neill play that 
has been removed from the shelves will have less consequences than not 
being able to access historical reports on soil toxin levels in a rural 
Kansas county. Also, Fairfax County conducted a significant stakeholder 
study to track and understand what their stakeholders were using prior 
to removal of materials, some of which have been put in storage, not 
discarded. Third, the Fairfax County Public System has one of the most 
sophisticated tracking systems in the country. As ALA has pointed out, 
the EPA access system (NEPIS) is very outdated. With fewer information 
professionals and libraries, the quality technology systems are 
critical. Finally, the Fairfax County Public Library system had a well-
planned process for digitizing, in which library best practices and 
standards were followed ensuring continuity of access, and proper 
digital preservation and access methods. For all of these critical 
areas, EPA did not have a proper plan in place prior to closing 
libraries.

    Question 5b. In a letter to the editor appearing in the Washington 
Post January 10, 2007, in a response to the article appearing January 
2, the director of the Fairfax County Public Library wrote, ``we use 
industry standards, computer date, and the expertise of experienced 
librarians to offer a comprehensive collection.'' What specific 
deficiencies exist in EPA's system that hinder users' access to its 
collection?
    Response. From the limited information we have received from the 
EPA regarding their plans, we have identified some deficiencies that 
will hinder users' access:
    EPA's National Environmental Publications Internet Site (NEPIS) 
system is outdated and inadequate. As previously mentioned, removing 
physical access and creating a digital library requires investment in 
proper technology and systems as well as qualified information 
professionals. When searching the EPA site, one retrieves thousands of 
hits for a topic such as `water.' When qualifying the search by a date 
range, the results include items outside that date range. The user will 
wonder about the veracity of the data and will need the assistance of 
the librarian. NEPIS will not provide a usable front end for a virtual 
library, nor is it a good digital repository. ALA has tried to dissuade 
EPA from building on the antiquated NEPIS system. We have recommended 
EPA move to a true digital asset management system that provides proper 
access to, as well as, preservation of, these objects. Also, the EPA 
database is broken into 5-year chunks that have to be searched 
separately--if EPA intends to develop a usable virtual library, they 
will need to address these outdated search methods.
    The ALA has repeatedly brought to the EPA's attention the need for 
digitization standards, which remain missing. There is no indication of 
what standards are used for the capture of the digital image, except 
that it will be a TIFF and XML. If you are scanning text and 
photographs, different scanning requirements are necessary for each 
format.
    The EPA plans to scan materials for Optical Character Recognition 
(OCR), which presents many challenges for text searching because of low 
accuracy rates.
    The EPA has not appropriately addressed the application of 
metadata, which the ALA has also brought to the EPA's attention on 
numerous occasions. The current plan lists only capturing the title, 
publication date, and content creation date. There is no mention of 
capturing authors or whether the item is part of a series. According to 
the plan, EPA is not capturing technical metadata, information on the 
creation of the digital object, including at what resolution it was 
captured, what machine it was created on, or software that is used. 
Administrative metadata, such as copyright management or use 
information, is not being captured as well. Technical metadata will be 
necessary for the preservation of the digital object. All of this is 
needed for access now and into the future as technology evolves.
    Finally, there is little discussion of preservation in the plan 
that will affect future users' needs as well as current, in case of a 
disaster for example. What happens with the CD/DVD versions of the 
documents--either the original TIFFs or the OCR version? Both require a 
strategy for preservation after they have been loaded into the online 
system NEPIS.

    Question 6. As director of the Princeton Public Library, I 
understand that you recently renovated that library. Were any books, 
copies of books, or other publications removed, recycled, or destroyed? 
If so, will you provide the Committee with a list of those removed or 
destroyed publications?
    Response. Yes, we did remove, recycle and discard material when we 
moved our library, but only after careful analysis pertaining to how 
our collection was being used and what our community was asking us for 
as well as what type of collection we wanted to have in place for our 
new library.
    Using our online library system, we were able to determine for each 
title in our collection how often it had been checked out since it had 
been added to the library and the last time it had been checked out. We 
took that list and qualified librarians then went to the shelves to 
look at each title and make a determination about whether the book 
needed to be retained because it contained useful information, replaced 
if it was in poor condition, or discarded because the information was 
outdated. Once a determination on each book was made, we took 
appropriate action to either add a new title with updated information, 
replace the title, or discard it. In some cases, where we had multiple 
copies of a title, we sent the duplicate to an organization that 
recycled the books to libraries in developing nations. We discarded 
approximately 25,000 titles during our two moves. Each of our actions 
was deliberate and thorough. It is worth noting that the Princeton 
Public Library collection is more akin to that of the Fairfax County 
Library System, in that our collection is general in nature and not a 
research or historical archive like the EPA network of libraries.

    Question 7a. Please provide a description of the weeding process 
used at the Princeton Public Library. How often does the Princeton 
Public Library weed its collection?
    Response. We continuously weed our collection. Each of our 
librarians is assigned a subject area in the Dewey Decimal 
Classification which they are responsible for keeping up to date. We 
``weed'' about 4,000 items per year and add about 9,000 items per year.

    Question 7b. Are publications removed, recycled, or destroyed 
during the weeding process?
    Response. The people who use public libraries are seeking 
continuously refreshed collections that reflect popular culture and 
preserve the ``best'' of literature and non-fiction over a period of 
time. As a small community library, we do not have the space or the 
mission to warehouse collections.

    Question 7c. How does Princeton Public Library's weeding process 
conform with ALA guidelines? Are ALA guidelines strictly followed or 
does the Princeton Public Library have procedures specifically tailed 
for its library?
    Response. We use the ALA weeding bibliographies as well as our own 
local guidelines to make decisions on weeding.

    Question 7d. What steps has the Princeton Public Library taken to 
make more information available on-line concerning its collection or 
services?
    Response. We are not engaged in a mass digitization project because 
we have few unique resources. Our Web site, www.princetonlibrary.org, 
promotes and leads people to our collections, both print and online 
subscriptions, based on their interest areas.

    Question 8a. Libraries all over the country are reducing their 
physical services. For example, the New York Public Library used to be 
open 7 days a week and now it is closed on Sundays and Mondays. The 
Library of Congress has reduced its hours. Over 100 physical libraries 
are set to close in Great Britain this year because people are able to 
do their research on the Internet. As you testified, libraries have 
been digitizing information for the past 20 years. However, in a 
December opinion editorial for the New York Times and in your testimony 
you stated that by closing brick and mortar facilities the most 
important issue is the possible loss of librarians. Would it be 
accurate to characterize your criticism is not a loss of information 
but the possible loss or reassignment of a librarians' jobs?
    Response. In the EPA Library Network, as in many libraries, the 
librarians are a key component to the stakeholders accessing 
information. In the way the EPA network was established, each regional 
library provided specialized information, and the librarians, who are 
familiar with the labyrinth of resources, can navigate the systems to 
identify and access items in an efficient and accurate manner. 
Stakeholders, including scientists, businesses, lawyers, and the 
general public need specific information quickly and have stated that 
the librarians are integral to their work at the EPA. Librarians are 
familiar with regional library constituents and their information needs 
and help provide solutions, provide alternative resources, and identify 
others who have similar situations. In addition, the librarians are 
familiar with the EPA Agency--its organization, operations, major 
initiatives, and how staff produces and seeks information.
    It is an unfortunate misperception that because information is 
available online that everyone can locate and interpret it. Librarians 
as information professionals have actually become more valuable as 
humans are creating more information, seeking more information, and 
storing more information in massive and complex systems that require 
knowledge of specific taxonomies, subject classifications, human 
information-seeking behavior, and evolving technologies.
    While libraries are reducing physical services, they are also 
increasing digital services including online reference services managed 
by libraries. These modernizing and digitization projects are planned, 
developed, and conducted by librarians who manage the digital objects 
and understand how new media must be managed. For example, how and when 
current collections in audio or video need to be converted. In an era 
in which we are producing larger and larger amounts of data each year 
and enhancing library collections by digitization, information 
professionals are needed more than ever.
    Therefore, it would be accurate to characterize my criticism as 
having to do with the great loss of expertise, knowledge, and proper 
management of resources at the regional libraries and how removing 
librarians and closing libraries has weakened the overall EPA library 
network, reduced access to resources by EPA staff, scientists, and the 
general public, and will negatively impact the EPA's ability to fulfill 
of their mission to protect human health and the environment.

    Question 8b. Are you aware of any Federal employees who lost their 
jobs as a result of EPA's library modernization process?
    Response. Since the EPA has contracted out library services since 
the mid 1980s, there have been very few Federal staff hired to work 
specifically on library services; therefore, we are not aware of any 
Federal employees who lost their jobs as a result of the EPA's library 
modernization process. This makes one wonder had the staff been Federal 
employees rather than contractors would the library closures have been 
handled differently? Qualified librarians would have helped to ensure 
the library modernization process accomplish its goals. EPA has 
classified jobs so that staff is not required to have a professional/
graduate degree in library or information science which is a 
requirement for librarians in school, public, academic, and corporate 
libraries.

    Question 9. Please provide examples of any information held in EPA 
libraries that you know does not continue to be available to the public 
online, through interlibrary loan, or otherwise upon the request of EPA 
employees or the public.
    Response. To the best of our knowledge, materials that were held in 
the four closed EPA Libraries (Chicago, Kansas City, Dallas, and the 
Chemical Library in Washington, DC) have not all been transferred and 
made available through an EPA repository collection. These materials 
include commercially published documents that were collected for 
specific purposed by those libraries over the last 37 years. Materials 
may have had specifically local interest (e.g. Environmental Impact 
Statements for particular sites) or may have been used to support 
specific policy decisions in that Region or Program. While these 
materials are not ``Unique EPA documents,'' and while most of the 
materials may generally be available through Interlibrary Loan from 
other institutions, their removal from access by the public and EPA 
staff is still significant. The purchase and maintenance of these 
collections represents a significant investment by the Agency over the 
last four decades, and the wholesale removal of these collections 
reflects a general disregard for the value of libraries and collections 
to the work of the Agency.
    The EPA Headquarters Library collection of both unique and non-
unique documents remains available as a repository collection. However, 
we believe, that there are significant materials that while stored in 
that collection, are not listed in the Online Library System and are 
therefore impossible for the public or EPA staff to access or request. 
Specifically, the entire EPA History Office collection was transferred 
to the Headquarters Library in 2006, but no effort to catalog or list 
those materials was undertaken and finding aids were removed from the 
History Office Web site. Likewise, significant international 
collections from the closed INFOTERRA collection remain available in 
the EPA Headquarters Library, but are not cataloged or listed for 
either the public or EPA staff to identify or request.
    Library materials held in the closed EPA OPPTS Chemical Library 
that were not sent to other EPA libraries nor lost through the 
recycling dumpsters are boxed up and are not readily available to the 
public or to EPA staff.
    Anything that is boxed up anywhere in the Library Network is 
subject to the moratorium and again, to the best of our knowledge, is 
not being shown in OLS as being in a different location. In other 
words, those items are not being re-cataloged to show their new 
locations. How accessible are these materials stored in boxes off-site 
without an accurate record locator map?
    Items held by the libraries that are not cataloged (and thus not 
shown in OLS or OCLC) are not really accessible to the public unless 
library staff physically check the shelves to see if it can be found. 
The public has no way of knowing about the uncataloged materials unless 
they call and specifically ask about a title (and usually they need 
complete citations with EPA publication numbers).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. Thank you, Ms. Burger.
    Mr. Connery, as I understand it, you are a lawyer in 
private practice, Holland and Hart in Denver, is that correct?
    Mr. Connery. I am actually retired.
    Senator Boxer. A retired attorney.
    Mr. Connery. Retired from Holland and Hart, and I am not 
here representing anybody other than myself.
    Senator Boxer. You are here representing yourself as a 
citizen of the United States of America.
    Mr. Connery. Yes.
    Senator Boxer. Your experience in this is that you were a 
lawyer that handled----
    Mr. Connery. I actually started my career by drafting the 
first law in the Country that instituted ambient standards in 
Colorado, put them into effect and required companies and 
everybody else, governments, to reduce their emissions to meet 
those standards.
    Senator Boxer. At that time you were in government?
    Mr. Connery. At that time, I was in private practice. 
Governor Love, a Republican, had appointed my law firm as 
counsel to a legislative study committee that included 
Republicans and Democrats.
    Senator Boxer. Very good. Thank you for giving us a little 
bit of that background. Please proceed.

  STATEMENT OF ROBERT T. CONNERY, HOLLAND AND HART, DENVER, CO

    Mr. Connery. Let me just tell you that I am indeed deeply 
dedicated to the integrity of that process, and those 
standards. I think that they are the fulcrum, the central 
tenet, the reason for the success of the Clean Air Act.
    As you can tell from my written testimony, my viewpoint is 
a little bit different than everyone else's here. I have set 
forth in that testimony an example of why I think the NAAQS 
review process is not working well, at least in the instances 
that I have had direct personal experience with it. I will 
spell one of those out. I don't think it is serving the purpose 
it was intended to serve and has to serve. It has to serve as 
something that the public can trust, it has to reflect real 
health effects.
    In the case of the coarse particulate matter standard, the 
one I have been involved in, I do live in Denver, Colorado, I 
do live in the arid west. Senator Craig mentioned coarse 
particulate matter is a little bit different animal, it is 
dust, it is fugitive dust. That subject has been around for a 
long, long time. Fugitive dust has been excluded, starting with 
the Administrations of Presidents Nixon, Carter, Clinton, Ford, 
the first Bush, all of those have excluded rural fugitive dust. 
If you look at my testimony, I have quoted several of the 
scientists and the reasoning behind that.
    The first has been Ferris. Ben Ferris, and there is a board 
here that you can't see that basically, he was with the Harvard 
School of Public Health and in charge of the largest and best 
study that has ever been done on coarse and fine particulate 
matter, 190,000 data points, there is no other study that 
actually measured coarse particulate matter, and determined 
whether or not there were health effects at ambient levels. I 
should mention that we are not talking about control of this 
dust, we are talking about the inability to control it to the 
same level as fine particulate matter that the standard was 
based on.
    He said that fugitive dust at levels measured in the 
ambient air in western and other parts of the United States 
over the years has never been documented to have adverse 
effects on human health. Most people know that who live around 
it. It is a darned nuisance, but it is not a health problem.
    When it got in front of CASAC, what did CASAC say about it? 
Well, I have quoted the past four chairmen under all these 
different Administrations. One of them said in this case, the 
science does not exist. The chairman under President Clinton, 
Phil Hopke, basically said that the Administration would have 
to decide based on considerations other than science. Mort 
Lippman said the same thing, that they were going to have to 
decide this not based on science, but based on practical 
considerations.
    I respect those views, and what happened in this case was 
that EPA, this Clean Air Science Advisory Committee, first 
recommended that there not be a coarse PM standard. That was 
the result of 7 years of hearings, criteria documents, staff 
papers. They came out and said we shouldn't have a coarse PM 
standard, we should move to a fine standard.
    Well, in less than 2 weeks, that draft letter was reversed. 
They said regardless, and I have quoted their second letter, 
basically said regardless of that first conclusion, if we don't 
have a standard, we won't get data and we won't have more 
studies. CASAC changed around and recommended a standard that 
would not apply in rural areas. EPA proposed that and the staff 
proposed that.
    In any case, the process, if you will, didn't work. CASAC 
went underground. CASAC stopped keeping transcripts, even 
though the staff paper and the science it said it relied on 
said that there was no justification for a standard in rural 
areas or for this kind of dust, crustal material. They 
nevertheless adopted one.
    All I can tell you is the process for some reason is not 
working. I have several suggestions for you in the testimony. 
Essentially what EPA and the people who advocate this standard 
have said is that even though there is weak, limited and 
uncertain evidence, maybe not against the weight of the 
evidence, but that that evidence that may apply in some urban 
areas, there is no evidence that it doesn't apply in rural 
areas.
    Thank you.
    [The prepared statement of Mr. Connery follows:]
      Statement of Robert T. Connery, Holland and Hart, Denver, CO
    My qualifications for being invited to talk with you today about 
reform of the process for adoption of the National Ambient Air Quality 
Standards (``NAAQS'') under the Clean Air Act have to do with my 
involvement in the birth of the concept and use of ambient air quality 
standards for air pollution control purposes in the Colorado Air 
Pollution Control Act of 1966, 1966 Colo. Sess. Laws at pp. 210, 212-
213. My law firm was counsel to the Colorado General Assembly's 
Legislative Study Committee that formulated that law. Senator Edmund S. 
Muskie held hearings on Colorado's ambient standards approach in the 
late 1960s in Denver, and Congress adopted it in the Clean Air Act of 
1970.
    I also served as Chair of the Air Quality Committee of the American 
Bar Association's Section on Environment, Energy and Resources for 
several years. I have authored the Air Quality Chapter of one of the 
few peer-reviewed legal treatises on the subject, have taught at United 
States Forest Service environmental impact courses, and most recently 
taught Advanced Environmental Policy at the University of Colorado Law 
School at Boulder.
    I have also participated in the NAAQS process at the Federal level 
for more than 35 years, representing individual companies and national 
trade associations, such as the National Cattlemen's Beef Association 
and the National Mining Association, and have represented a host of 
private companies, public entities, including the Denver Regional 
Council of Governments, and environmental groups on air quality and 
other environmental compliance, planning and enforcement issues. I am 
now retired, and emphasize that I am not here on behalf of any client 
or interest.
    History and Purpose of the Ambient Standards.--The genesis of the 
ambient standards was the need to delineate areas in which air 
pollution was a problem, and areas where it was not. There was a severe 
air pollution problem in Denver and a few other locales within the 
State, but not in most of the rural areas of the State. The inability 
to distinguish the areas where action was needed from those where it 
was not led to division between urban and rural areas, and repeated 
defeat of air pollution legislation year after year.
    The ambient air quality standards were developed to set threshold 
levels to protect public health and welfare. The generally urban areas 
where they were exceeded were monitored and designated. In areas where 
the standards were exceeded, controls to meet them went into effect. 
They established a boundary between significant adverse effects to 
health and welfare, and insignificant effects.
    Need for Reform of the NAAQS Process.-- The NAAQS are the 
cornerstone of the Clean Air Act, and the reason for the success it has 
had to date. For more than 25 years, the NAAQS Review Process 
functioned well, but in recent years it has, in the case of NAAQS I am 
most familiar with--that for Coarse Particulate Matter--lost its 
direction and wandered in a wilderness of scientific ``uncertainty,'' 
``weakness,'' ``limitation'' and inability to make judgments and to 
delineate the science in the useful terms the Clean Air Act requires, 
namely what is necessary to protect public health, with an adequate 
margin of safety, and welfare, neither more nor less.
    I submit to you that the NAAQS Review Process is, in my experience, 
broken--seriously broken. It is no longer serving the purpose for which 
it was intended. As I think almost any reasonable observer would agree, 
the EPA and its science advisers have clearly run amok in this process. 
The example of EPA's review of the coarse PM NAAQS speaks, I think, for 
itself, and points the way to what needs to be done.
     an example of naaqs review: review of the naaqs for coarse pm
    The review of the NAAQS for coarse PM began shortly after the Court 
of Appeals for the District of Columbia vacated the coarse PM standard 
EPA had adopted in 1997. The 24-hour coarse PM standard vacated by the 
Court was 150 mg/m3 of PM<INF>10</INF>, a measure the Court found 
fundamentally flawed because it did not treat separately fine 
(combustion-derived) PM and coarse (mechanically-divided earthen and 
other materials) PM, but lumped them together in a fashion that 
contained indeterminate amounts of these two separate, independently 
varying components of PM.
    On October 17, 2006, after several years and several drafts of 
thousands of pages of Criteria Documents and Staff Papers, and tens of 
meetings and a rulemaking, EPA has rushed back to the future and 
adopted the 1987 PM<INF>10</INF> standard of 150 mg/m3, virtually the 
same as the 1997 coarse PM<INF>10</INF> standard the Court of Appeals 
vacated and remanded, but this time not as a fine and coarse standard 
but solely as a coarse standard. It did so based on a new rationale not 
considered or discussed in any of the thousands of pages of the draft 
Air Quality Criteria Documents, and years of hearings before CASAC on 
them, nor on the several drafts of the Staff paper, and years of 
hearings before CASAC on them, nor even in the proposed rule. It simply 
said it wasn't changing anything, but had merely gone back to the 1987 
PM<INF>10</INF> standard.
    What was the ``science'' on the 1987 PM<INF>10</INF> standard? Did 
it relate to coarse PM, or as it is often called, ``fugitive dust?'' 
Here's what the most eminent and qualified health scientist to address 
that subject had to say, in a letter he wrote on his own to the then 
Administrator of EPA:

          ``[F]ugitive dust at the levels measured in ambient air in 
        the western and other parts of the United States over the years 
        has never been documented to have had adverse effects on human 
        health.''

    Benjamin G. Ferris, Jr., M.D., former member of CASAC, principal 
investigator in the Harvard Six-Cities Study, Professor at the Harvard 
School of Public Health, and nationally known expert in research on 
health effects of PM and other criteria pollutants (1984). Dr. Ferris 
was responding to health claims made in California with respect to dust 
from deserts, and their potential health effects as carriers of 
``biogens,'' ``pathogens'' and ``endotoxins,'' as well as allegations 
of Valley Fever and assorted other respiratory ailments. Dr. Ferris had 
unique qualifications and experience for several decades, as a 
clinician, toxicologist, epidemiologist, clinician and nationally-
respected researcher, whose Harvard Six Cities Study was one of the 
largest yet performed.
    And what did EPA's CASAC's PM Review Panel scientists have to say 
about the just-completed coarse PM NAAQS review? Here's a sampling:
    1. ``In this case, the apparent attempt is to provide the basis for 
a PM<INF>10-2.5</INF> standard based on alleged associations with 
mortality and morbidity. In this case, the science does not exist.'' 
CASAC letter to EPA Administrator Leavitt, August 16, 2004 at B-28 to 
B-29, Individual Views of Dr. Roger O. McClellan, former Chair of 
CASAC. (Emphasis added.) And with respect to the PM<INF>10-2.5</INF> 
indicator EPA proposed, Dr. McClellan stated: ``I have concluded that 
in the absence of a scientific basis specifically for a 
PM<INF>10-2.5</INF> indication, the choice of such an indicator would 
be arbitrary and capricious.''
    2. Dr. Petros Koutrakis of the Harvard School of Public Health: 
``The chapter [9 of EPA's summary of the science on coarse PM] tried to 
make a case for a coarse . . . standard, and the case was not there. . 
. . FORMER CHAIR OF CASAC, Dr. Philip K. Hopke: ``Okay, but that comes 
across, and that's a fair representation of the current state of the 
science . . . it's going to be very difficult to build the case on the 
science alone for any particular coarse particle standard, . . .'' 
Transcript of July 21, 2004 CASAC and PM Review Panel Meeting at 45-46. 
(Emphasis added.)
    3. Dr. Koutrakis: ``I just am not satisfied that the information 
put forward here is really supportive of [a coarse particle 
standard].'' DR. HOPKE: ``But, I think it's a fair reflection of the 
literature . . . . Now its up to [EPA] OAQPS then to decide, based on 
other considerations besides the science, as to the need for and the 
nature of the standard.'' Id. (Emphasis added.)
    4. ``It is my opinion that proposing a coarse PM standard is 
premature at this time.''
    Dr. Sverre Vedal, CASAC Member, Written critique of EPA Staff Paper 
presented at CASAC Nov. 2003 meeting.
    These candid statements by CASAC's PM Review Panel may surprise 
some of you. When they became public, CASAC determined not to keep 
transcripts of its deliberations, and indeed resorted to non-public 
discussions of its reasoning and decisions.
    EPA Staff itself concluded that the science was too weak to do a 
risk assessment that would support any particular level or 
concentration of particulate matter:
    <bullet> ``[EPA] staff has . . . considered the extent to which the 
PM<INF>10-2.5</INF> risk assessment results . . . can help inform 
consideration of alternative 24-hour PM<INF>10-2.5</INF> standards.  . 
. . Staff has concluded that the nature and magnitude of the 
uncertainties and concerns associated with this portion of the risk 
assessment weigh against use of these risk estimates as a basis for 
recommending specific standard levels.'' (Emphasis added.)
    <bullet> EPA Staff Paper at p. 5-69
    EPA Staff and CASAC likewise acknowledged that there was not 
adequate science to support a coarse PM standard in rural areas, and 
recommended that the coarse PM standard should not be applicable to 
such areas, but should instead be an Urban Particulate Matter 
PM<INF>10-2.5</INF> standard (``UPM<INF>10-2.5</INF>'').
    Where, then, did the 150 mg/m3 24-hour concentration level come 
from? The answer is that it came from London, and from dominantly fine 
PM data, not coarse PM data. As EPA's top science and policy staffer 
said in explaining where it came from:
    ``And this is the plot of the data from London that shows where the 
150 came from . . . . [T]he number originally, at the lower bound of 
the range, came from the lower bound of the data that existed in 
London. It was British Smoke [a measure of combustion, fine PM 
``blackness, estimated at PM<INF>3.5-4.5</INF>]; it was not 
PM<INF>10</INF>.''
    Testimony of John Bachmann to CASAC, December 15, 1995, Tr. at p. 
119.
    The pictures below show London during that episode.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The PM was dominantly fine PM from combustion, not coarse PM. It 
was a multi-day stagnation event. The picture above is at midday. Here 
is a graphic showing the levels at which these effects from high levels 
of fine PM and SO<INF>2</INF> were experienced. The fine PM, British 
Smoke averaged above 1,500 mg/m3 for several days.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    By contrast, here's what coarse PM looks like:

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Coarse PM, by definition, results from mechanical division of 
earthen and other materials. It falls out of the atmosphere over 
relatively short distances and periods of time. The London ``150'' data 
referred to occurred during an atmospheric stagnation event. Coarse PM 
levels typically reach high concentrations during high wind events.
    What did CASAC conclude after all the thousands of pages of 
Criteria Documents and Staff Papers, tens of meetings and years of 
effort, as well as millions of dollars of EPA Staff time and effort? 
Here's what CASAC's May 2005 draft letter to the Administrator stated:
    ``. . . The [CASAC PM Review] Panel recommends that the setting of 
this [coarse PM] standard be set aside until further deliberations on 
the appropriate metric can be made.''
    I was present for that meeting, and I believe this statement fairly 
reflects the consensus of that meeting. However, a few weeks later, in 
its Final Letter, CASAC stated:
    ``Regardless, most of the Panel members felt that the evidence that 
exists supports a causal role for health effects for 
PM<INF>10-2.5</INF>. Moreover, setting this NAAQS would allow 
continuation and expansion of the PM<INF>10-2.5</INF> monitoring 
network that would facilitate collection of data for future exposure 
assessment and epidemiological studies.''
    CASAC June 6, 2005 Letter.
    Did the science change? Did CASAC explain what changed its mind? 
Something extraordinary, and completely off the record, caused a 
complete reversal of the outcome of the public proceedings. I think 
that may be gleaned from the individual views expressed by several of 
CASAC's members:
    ``Having a standard means that we'll get a database, perhaps 
adequate in the next round but there's hardly a basis for it being a 
very restrictive standard. So you know, practical considerations and 
not strictly based on scientific merit.''
    Dr. Mort Lippman, CASAC Transcript at 374 (Nov. 2003). (Emphasis 
added.)
          * * * * * * *
    ``Absent a standard for UPM<INF>10-2.5</INF>, the Agency does not 
have a basis for implementing a national monitoring network and 
obtaining data on concentrations of UPM<INF>10-2.5</INF>, that would . 
. . support the conduct of epidemiological research. Consequently, 
there is a need to either move forward on a relatively weak body of 
evidence or to overstate the strength of the evidence available. The 
Staff Paper appears to do both.''
    Comments of Dr. Jonathan Samet, Attachment D to CASAC Review of 
Final Staff Paper, at D-26.
          * * * * * * *
    ``I have never been convinced that EPA could find means other than 
setting a standard to get monitoring data. Setting a health-based NAAQS 
is a `heavy hammer' to use to get monitoring data.''
    Comments of Dr. Roger McClellan, Attachment D to CASAC Review of 
Final Staff Paper at D-14.
    EPA's top science and policy Staffer has put forward the same 
consideration:
    `` . . . the number one recommendation will be we need significant 
additional research no matter what, no matter whether we set a standard 
or we do not set a standard. . . . ``You be the judge of whether the 
folks who are likely to sponsor research . . . and EPA, remember, we 
are going to balance the budget in 7 years, so remember how much we are 
going to have. You may be the judge of how much new research will be 
done with and without a new standard.
    ``But that is not a reason to do a standard, frankly.
    Testimony of John Bachmann
    December 15, 1995, Tr. pp. 127-128.
            conclusion of the coarse pm naaqs review process
    In the end, EPA proposed an ``urban'' PM<INF>10-2.5</INF> [an 
indicator that excluded fine PM from the coarse PM measured] standard 
at 70 mg/m3, excluding agriculture and mining, based on the ``weak,'' 
``uncertain,'' ``limited'' urban evidence of coarse PM health effects 
at these concentrations. However, in the final rule, EPA said it was 
simply reverting to the 1987 PM<INF>10</INF> standard, but adopted it 
as a coarse PM standard.
    What conclusions can be drawn from this example, and what reforms 
suggested? I submit that they are at least the following:
    <bullet> EPA Staff and its CASAC Science Advisers Have Recommended, 
and EPA Has Promulgated, a Coarse PM<INF>10</INF> Standard for the 
purpose of obtaining data and funding further epidemiological studies.
    <bullet> EPA Staff and its Science Advisers Have Recommended a 
Coarse PM Standard at Concentrations Not Supported by evidence that a 
coarse PM<INF>10</INF> 24-hour standard at 150 mg/m3 is necessary to 
protect public health, and neither more nor less stringent than 
necessary to accomplish that purpose.
    <bullet> It is difficult to characterize the coarse PM standard as 
based on science demonstrating that it is necessary to lower coarse PM 
concentration to the level of the standard. As one member of the CASAC 
PM Review Panel characterized the ``consensus'' view of the majority of 
that panel:

        ``I think ``the vast majority'' of my colleagues have reverted 
        to a pre-scientific ``miasma theory'' of disease causation, 
        with UPM as the replacement for ``foul and foetid odors.'' If I 
        raised my voice . . . And am lapsing into outrage here, it is 
        because I want clearly to dissociate myself from what I 
        consider a mistake of historic proportions. I don't see how the 
        indicators PM<INF>2.5</INF> and UPM<INF>10-2.5</INF> can both 
        survive the inevitable legal challenges . . .''

    Dr. Warren H. White, Individual Views, Sept. 15, 2005.
    And, as Professor Frank Speizer of CASAC and the Harvard Medical 
School concluded at the end of the coarse PM NAAQS review process:

         ``Up front we need to admit that[UPM<INF>10-2.5</INF>] must be 
        a relative term and set out some criteria for all of us to 
        agree upon that make the measurement of interest first to go 
        out and measure it and then to pay attention to the potential 
        health related associations that might be found.''

    Dr. Frank Speizer, Individual Views, Sept. 15, 2005.
    I happen to agree with those views. The NAAQS review and adoption 
process needs to be reformed to provide clearly that health and welfare 
standards need to be adopted after specifying what needs to be 
measured, going out and measuring it and finding out whether there are 
effects, and then paying attention to the concentrations where there 
are effects. The process is very clearly not doing that at this point.
                          what should be done?
    The NAAQS review process needs to be opened up to free and fair 
dialogue. Transcripts need to be kept again. The process should be 
public and transparent. EPA and CASAC should make their decisions based 
on the weight of the evidence, and explain them, rather than simply 
hiding behind general statements that even though the evidence is 
``highly uncertain,'' ``weak'' and ``limited'' they nonetheless require 
the adoption of NAAQS that says they are ``necessary'' to protect 
public health.
    Scientific review of proposed NAAQS should be by an independent 
scientific group, not one selected and connected to any group's agenda, 
including any group within EPA, and surely not one whose members are 
directed and funded by EPA.
 non-enforcement of health standards--a consequence of adopting naaqs 
           not necessary to protect public health and welfare
    In closing I should mention that one of the most insidious and 
untoward consequences of adopting coarse PM<INF>10</INF> standards for 
research and data purposes that are required by law to define levels at 
which the exposed public's health will be adversely affected, but 
evidently, on their face, are not necessary for that purpose, is that 
neither EPA nor the scientists involved have any confidence that those 
effects in fact occur, or that the standard needs to be enforced. The 
result is that EPA has assured those whose emissions will result in 
violation of the standards that they need not be concerned about 
enforcement, stating that:

    ``In response to comments regarding potential impacts of any coarse 
particle standard on agricultural and mining sources, EPA notes that 
the NAAQS do not create emissions control obligations for individual 
sources or groups of sources. In this particular case, even if an 
individual source were shown to cause an exceedance of he 24-hour 
PM<INF>10</INF> standard, this would not necessarily result in 
regulation of that source.''

    Final Coarse PM NAAQS Rule, 71 Fed. Reg. 61215 (October 17, 2006) 
(Emphasis added.)
    EPA's Acting Administrator for Air wrote on October 17, 2006 to the 
State of Iowa's air control Agency that ``[t]he NAAQS themselves do not 
establish emission control obligations for individual sources or groups 
of sources.'' While true in an immediate technical sense, the central 
purpose of the primary, health NAAQS is the Clean Air Act's central 
requirement that States must adopt measures to meet them in order to 
protect public health. Every Administration from those of Presidents 
Carter and Reagan, to those of Bush and Clinton, have excluded rural 
fugitive dust from the PM NAAQS, because (1) that dust would exceed the 
PM NAAQS even after best management practices and controls were 
applied, (2) enforcement of the PM NAAQS against such sources would 
prohibit them due to their inability to comply, and (3) the lack of 
substantial public health or welfare effects from such dusts at ambient 
levels. This is the first Administration that has proposed to exclude 
rural fugitive dusts from the PM NAAQS and then decided not to do so, 
and instead included those dusts in a new coarse PM standard based on 
weak, uncertain, limited evidence in a few urban areas, and none in 
rural areas. Why did it reverse its proposal? Because it had no 
evidence that its weak urban evidence did not apply to rural areas. 
That kind of specious, ``double negative'' reasoning and ``science'' is 
where the NAAQS process has taken us in the case of coarse PM. I would 
hope that you would agree that the NAAQS process is in need of reform.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. Just so we know where we are, and we are 
going to look forward to Ms. Klinefelter's testimony, and for 
the benefit of Senator Whitehouse, if he would move up, 
Senator, could you move up a little bit closer?
    Senator Whitehouse. Will do.
    [Laughter.]
    Senator Boxer. Because I may have to just run out for a 
second and have you take over. But where we are is, we called 
this hearing to look at various rollbacks. Where we are is that 
the lead standard is under review, so we are very hopeful that 
with Dr. Solomon's expression of optimism that EPA will hear us 
and not roll back the lead standard, the testing.
    The libraries, the status is very bizarre. We are going to 
have to continue to monitor, we don't know if they are 
destroying documents, what is going on. We are very concerned 
about that.
    The air toxics rule is a proposed rule. The final policy is 
to take the science out of the NAAQS process, which Mr. 
Connery, I think from your testimony, I think you support that. 
The rest of the panel so far, I don't count Ms. Burger there, 
but the two doctors don't.
    The perchlorate testing has ended. There is a Boxer-
Lautenberg-Feinstein bill to start that up again. The Toxic 
Release Inventory, there has also been a final rule there. 
There is a Lautenberg bill coming shortly, I believe, to 
overturn that.
    So that just gives you a sense of where we are headed. Now 
we are going to hear from Ms. Klinefelter, who I think is going 
to speak from the standpoint of a small business, is that 
correct?
    Ms. Klinefelter. Yes, ma'am.
    Senator Boxer. Please, go ahead.

STATEMENT OF NANCY KLINEFELTER, PRESIDENT, BALTIMORE GLASSWARE 
                           DECORATORS

    Ms. Klinefelter. My name is Nancy Klinefelter, and I am 
president of Baltimore Glassware Decorators. I am a past 
president of SGCD and a member of NFIB.
    The company was started in 1977, and we have 15 employees, 
including my mom and my dad, also two brothers that work there. 
We have no engineers on staff, let alone an environmental 
engineer, so TRI paperwork is my responsibility. We are a 
wholesale decorator. We custom imprint on mugs and glasses, and 
we may use lead-bearing enamels on the outside surfaces to 
achieve color and durability demanded by our customers.
    As a rule, unleaded enamels do not have the durability, 
gloss or color ranges that our customers require. These lead-
free colors do not hold up well for abrasion or deterioration 
in dishwashers. It is very important to understand that the 
leaded colors become part of the glass after they are fired. 
Also, due to the cost of these colors, we use only what is 
needed. The rest goes back on the shelf.
    I am testifying today in support of EPA's recent burden 
reduction rule that allows companies such as mine to utilize 
the simpler TRI reporting Form A, instead of the more 
complicated Form R. That is only if we meet very strict 
eligibility requirements. I equate this to the IRS allowing 
taxpayers with very simple returns to use the 1040EZ instead of 
the complicated 1040.
    I will still be providing my neighbors the same information 
about release that I have always provided. But the Form A will 
make it a lot easier for me. Our neighbors will still have the 
same access to information about our releases as they do now. 
To qualify, we must use less than 500 pounds of lead in a year 
and report zero release of lead onsite and zero release 
offsite. That means that we will essentially be reporting 
nothing of significance to our neighbors. Lead compound is the 
only TRI chemical we need to report.
    We try to complete the Form R properly. Every year, though, 
we receive notices from EPA that paperwork corrections are 
needed. These changes do not reflect any failure to report 
color use or release. They just reflect paperwork errors. Last 
year I received a 13 page notice that informed me that I had 
not identified lead compound by their chemical category code. 
Using Form A should prevent this paperwork runaround for myself 
and my company.
    I would estimate that tracking color use and completing the 
Form R paperwork takes more than 130 hours a year. I can't say 
that I have ever attempted to formally track the time spent. 
Each ceramic color has a different percentage of lead, so we 
must calculate lead use differently for each color. This varies 
from day to day and the calculations take time.
    If we can maintain zero releases, this would be a much 
easier process, since we would be reporting on the Form A 
instead of Form R. Remember that time spent on completing 
paperwork is time that I cannot spend on other things. Like I 
said, we have 15 employees and there are only so many hours in 
the day. That time could be spent supervising employees, 
working with customers and most importantly, looking for new 
business.
    We face brutal competition from Chinese decorators. The 
reality is that paperwork burdens add to our cost of business 
by absorbing my time in particular. EPA estimates that I will 
save about 15\1/2\ hours a year of staff time if I qualify to 
use Form A instead of the complicated Form R. That is almost 2 
days of my time, which would really help.
    As a responsible small business owner, I believe that it is 
important that we keep track of any releases that might impact 
my neighborhood and my environment. That will not change as a 
result of EPA's new rule. If we have a release, no matter how 
minuscule or even if it is managed offsite, we would be 
required to use the Form R. If we do manage to avoid any 
releases, the ability to use the simpler Form A will make it 
easier for me to handle the paperwork.
    I also believe that this new EPA rule encourages companies 
like mine to adapt the best decorating methods possible to 
eliminate releases. I am glad that EPA listened to our concerns 
and made an effort to reduce my paperwork burden. I am glad 
they did this without impacting the information that I will 
provide to the public. I urge this committee to support such 
paperwork burden reduction efforts. They are critical to 
maintaining the competitiveness of small companies in America.
    Thank you again for giving me the opportunity to testify 
today.
    [The prepared statement of Ms. Klinefelter follows:]
          Statement of Nancy Klinefelter, President, Baltimore
                          Glassware Decorators
    Thank you for the opportunity to testify on EPA's efforts to reduce 
the paperwork burden of TRI reporting on small businesses like my 
company. My name is Nancy Klinefelter, and I am President of Baltimore 
Glassware Decorators. I am a Past President of the Society of Glass and 
Ceramic Decorators (SGCD) and a member of the National Federation of 
Independent Business (NFIB). The company was started in Baltimore by my 
brother in 1977 with the help of my father who has worked in glass 
decorating for more than 50 years. We have 15 employees including my 
Mom who works in the office, my Dad who acts as general manager and my 
two brothers who work in sales and production. We have no engineers on 
staff, let alone an environmental engineer, so the TRI paperwork is my 
responsibility.
    We are a wholesale decorator. Our specialty is custom printing 
small quantities of glass and ceramic ware for advertising specialty, 
restaurant and souvenir distributors. When custom printing mugs or 
glasses, we may use lead-bearing enamels on the outside surfaces to 
achieve the color and durability demanded by our customers. As a rule, 
unleaded enamels do not have the durability, gloss or color ranges that 
our customers require. These lead-free colors do not hold up well for 
abrasion or deterioration in either domestic or commercial dishwashers. 
It is very important to understand that the leaded colors become a part 
of the glass after they are fired. Also, due to the cost of these 
colors, we use only what is needed, and the rest goes back on the 
shelf.
    I am testifying today in support of EPA's recent burden reduction 
rule that allows companies such as mine to utilize the simpler TRI 
Reporting Form A instead of the more complicated Form R if we meet very 
strict eligibility requirements. I equate this change to the IRS 
allowing some taxpayers with very simple returns to use the 1040EZ 
instead of the complicated 1040 form. I will still be providing my 
neighbors and anyone else who might want to know with the same 
information about release that I have always provided, but the Form A 
will make it easier for me to file a report. Our neighbors will still 
have the same access to information about our releases as they do now.
    To qualify, we must use less than 500 pounds of lead in a year and 
report 0 release of lead on-site and 0 release off-site. That means 
that we will essentially be reporting nothing of significance to our 
neighbors. Lead is the only TRI chemical used at my shop, and we report 
our lead use since the reporting threshold is 100 pounds of annual 
usage. We do exceed that threshold, although only barely. I want to 
emphasize that these threshold numbers reflect lead used, not released.
    We make every attempt to complete the Form R properly, but every 
year, we receive notices from EPA that paperwork corrections are 
needed. These changes do not reflect any failure to report color use or 
release; they just reflect paperwork errors. For example, last year, I 
received a 13-page notice from EPA that informed me that I had not 
identified lead compounds by their CAS Number or chemical category 
code. Using Form A should streamline the process for us, and prevent 
this paperwork run-around.
    I would estimate that tracking color use and completing the Form R 
paperwork takes my company more than 130 hours a year, although I've 
never attempted to formally track the time spent. Each ceramic color 
has a different percentage of lead, so we must calculate lead use 
differently for each color used. This varies from day to day, and the 
calculations take time. If we can maintain zero releases, this would be 
a much easier process since we'd be reporting on the Form A instead of 
Form R.
    Remember that time spent on completing paperwork is time that I 
cannot spend on other things. Like I said, we have 15 employees, and 
there are only so many hours in the day. The time that I spend on 
paperwork is time that is not spent supervising employees, working with 
customers, and most importantly looking for new business. We face 
brutal competition from Chinese decorators, and the reality is that 
paperwork burdens add to our cost of doing business by absorbing my 
time in particular. EPA estimates in the final rule that I'll save 15.5 
hours a year of staff time if I qualify to use the Form A instead of 
the complicated Form R. That is almost two days of my time which would 
really help.
    As a responsible small business owner, I believe that it is 
important that we keep track of any releases that might impact my 
neighborhood or the environment. That will not change as a result of 
EPA's new burden reduction rule. If we have a release, no matter how 
miniscule or even if it is managed off-site, we would be required to 
use the Form R as in the past. If we do manage our production process 
during a year to avoid any releases, the ability to use the simpler 
Form A will make it easier for me to handle the paperwork to 
demonstrate that fact.
    I also believe that this new EPA rule encourages companies like 
mine to adapt the best decorating methods possible to eliminate 
releases and to qualify for simpler TRI reporting.
    I also want to emphasize that this burden reduction effort was not 
done in haste. EPA has focused on expanding Form A eligibility after 
many other options were considered. The Agency also sought input from a 
wide variety of stakeholders. Both SGCD and NFIB have participated in 
the two on-line Stakeholder Dialogs that EPA conducted between 2002 and 
2004. It has taken quite a long time to complete this process, although 
I understand that things move slowly here in Washington.
    I am glad that EPA listened to our concerns and made an effort to 
reduce my paperwork burden without impacting the information that I 
will provide to the public through the TRI program. I urge this 
committee to support such paperwork burden reduction efforts which are 
critical to maintaining the competitiveness of small companies in this 
country.
    Thank you again for the opportunity to testify before you today.

    Senator Whitehouse [presiding]. Thank you very much.
    The Chair will be returning shortly, but while she is away, 
I would like to explore with the panel some of the thoughts 
that have already been brought up in this hearing today, 
particularly about the, what you might call the declining 
status of science in the environmental debate, which has, it 
appears to me, a number of components to it. For years, there 
has been phoney baloney science thrown around by the American 
Tobacco Institute, telling us that cigarettes were fine, or the 
American Lead Institute, telling us that lead wasn't a danger 
to anybody. Now we seem to have a few residual pockets of that 
sort of science, suggesting that global warming isn't really 
happening.
    It seems to me that in the contest between science and 
spin, particularly where the world gets more complex and the 
science gets more complex and the audience is somebody who is 
working two jobs, who owns their own small business, who is 
driving around in the van from job to job and getting what news 
they can off the radio station as they go, and they don't have 
the luxury to sit down and read the authoritative journals or 
do the calculation as to which argument really stands muster or 
to look behind the phoney baloney names of the science 
organizations that try to look as if they are neutral and find 
out that in fact they are propped up entirely by an industry.
    How do we cope with that as legislators, and is there a way 
to procedurally try to strengthen the science administratively 
so that in hearings and in the regulatory aspect, which is so 
important to environmental protection, there are, I don't know, 
stopgaps of some kind or another that can help people 
distinguish between where the science really is and what is 
nothing but adulterated spin and phoney baloney science?
    Dr. Balmes, you are leaping for the microphone.
    [Laughter.]
    Dr. Balmes. I would submit, Senator, that the Clean Air Act 
National Ambient Air Quality Standard review process, while too 
slow in its current form, and it does need to be made faster so 
that the every 5-year deadline can be met, is in fact a model 
conceptually of how to do environmental health standard 
reviews. It is an environmental standard review process that 
doesn't require cost-benefit analysis. It is an environmental 
statute that requires protection of the public health with an 
adequate margin of safety. It statutorily has a scientific 
advisory committee of external scientists whose job it is to 
determine what is the sound science, what do we know with 
scientific certainty.
    The way that that scientific information gets translated 
for policy purposes, or the way it has been in the past, has 
been through the staff paper. Now, I am a member of CASAC 
currently. You didn't hear some of the testimony or statements 
of your fellow Senators earlier, where they were saying that 
getting rid of the staff paper is not changing the input of 
science at all, it is the same process, but that is actually 
not true. By substituting a policy statement or policy 
assessment for a staff paper, you take the scientists out of 
the dialog at a crucial point. Right now, the external 
scientists, the Clean Air Scientific Advisory Committee, 
reviews the research carefully, it takes too long. It could be 
streamlined. There are many ways you could streamline it.
    But then the EPA staff, staff scientists, not the 
policymakers, try to translate that information into a document 
for the policymakers to use. So it is scientists talking to 
scientists. I think it is an incredibly powerful approach to 
environmental health policy. I think the impact goes beyond the 
Clean Air Act if the staff paper is removed from this kind of 
process.
    So my answer to how we might ensure that the scientific 
knowledge base remains credible, is to make sure that there is 
dialog between external scientists and the internal EPA staff 
scientists without the policymakers hovering over them. It is 
fine for the policymakers to then take that science, the 
credible scientific information and figure out the best way to 
implement policy.
    Senator Whitehouse. There is the old saying, you are 
entitled to have your own opinion, you are not entitled to have 
your own facts.
    Dr. Balmes. Correct.
    Senator Whitehouse. You are entitled to have your own 
opinion, you are entitled to have your own policy 
recommendations, based on the facts----
    Dr. Balmes. But based on the facts.
    Senator Whitehouse. But you are not entitled to have your 
own facts.
    Madam Chair.
    Senator Boxer [presiding]. Well, it is hard for me to top 
that one.
    I just want to thank this panel. I want to say to our small 
business people here, I really think there are ways we can work 
together and still protect the public health. I have a god-son 
who went for a regular checkup and they found high levels of 
lead and the mom and dad thought it was the toys, tested the 
toys, no. They finally found out it was Wedgewood china that 
had this lead. As soon as they stopped the exposure, the lead 
levels went down.
    Well, the problem is, lead in a baby, in a child, is 
exceedingly dangerous in terms of their development of their 
brain. So if we can take that 15 hours and try to reduce it by 
using some way that we can make it easier, I think we need to 
do that. But whether we run small businesses, we are still all 
family members, we need to protect each other, we need to work 
together, we need to help each other with this.
    So I think this hearing has been really important. Some 
people said, why would you put all these rollbacks in one 
hearing? It is because we have so much we want to do, looking 
forward, moving forward. I don't want to have hearing after 
hearing about what has been done in the past. But I thought it 
was important, and we will shine a light on these rollbacks. We 
are going to try to fix them if we can.
    Because I think what I loved about this particular panel, 
to listen to our doctors, is this is why we are here. We are 
here to protect the people. That is our job, that is our role. 
This is not a question. It is the Environmental Protection 
Agency. Environmental Protection Agency. That is who we 
protect, the people, not the special interests. The special 
interests are powerful. The people, a little baby who is 
exposed to lead in a plate, how is he responsible for that?
    We have to be brought back to why we are here. So I view 
this today, for me, as the new Chair of this committee, as 
reestablishing the fact that we are here to protect the public, 
the American people, families, the most vulnerable. If we do 
that, I think everybody does prosper at the end of the day. I 
don't see any conflict between a healthy environment and a 
strong economy. I think we proved it over and over again, since 
we passed the Clean Air Act, this is the greatest Country in 
the world, the strongest economy. We have some of the toughest 
laws.
    But if we start to step back and our people get sick, and 
our workforce is not productive, we haven't done very much at 
all.
    So I just want to thank all of you for coming here. As 
usual, I think my colleagues on both sides of the aisle were 
terrific. Everybody brought their own points of view but were 
very respectful. I think we are going to move forward from here 
on out.
    Thank you very much, and the hearing stands adjourned.
    [Whereupon, at 12:35 p.m., the committee was adjourned.]
    [Additional statement submitted for the record follows.]
       Statement of Hon. Bernard Sanders, U.S. Senator from the 
                            State of Vermont
    Senator Boxer, Senator Inhofe, our oversight responsibilities of 
the Environmental Protection Agency are of great importance to 
Americans all across the country and that's why today's hearing is so 
significant. It has been far too long since this committee exerted its 
oversight role and I applaud the Chairman for holding this hearing.
    As Vermont is on the receiving end of much of the Nation's air 
pollution, Vermonters are very concerned about the way the U.S. 
Environmental Protection Agency (EPA) sets clean air standards. In 
December 2006, EPA announced that it intended to change the way that 
health-based air quality standards are set, reversing its long-standing 
process. Until that announcement, the EPA had counted on scientific 
advice from recognized experts prior to reaching policy recommendations 
or decisions. Now, the process will be reversed in an ``Alice in 
Wonderland first-the-verdict, then-the-trial'' manner that has been 
roundly condemned by the legitimate scientific community. Under the new 
policy, high-level political appointees will become involved early on 
in the process to determine what the ``policy-relevant science'' will 
be so the political point of view is represented. This is as if EPA is 
saying, ``Don't confuse me with the facts--my mind is made up.''
    This change in policy is particularly galling in that is comes 
after EPA Administrator Stephen Johnson overruled the advice of his 
scientists regarding the standards for fine particulates, which is the 
fine soot or particles that can get past human protective mechanisms 
and lodge deep in the lungs. The scientific advisory members have said 
that the EPA ``twisted'' or ``misrepresented'' the recommendations of 
the scientists. It seems as if this recent change in policy is a pay-
back for those scientists who dare to challenge the political 
appointees.
    It is my hope that the Congress will not allow this outrageous 
approach to continue. Unfortunately, the scenario I describe regarding 
air quality standards is only one example of a number of rollbacks that 
the EPA has recently pursued. I will work with all members of this 
committee to ensure that we get the EPA back on track, for if we don't 
reverse its course, the health of our citizens will be at risk.
  

                                  <all>

</pre></body></html>
